<html>
<title> - COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE MEMBERS' DAY HEARING</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      COMMITTEE ON TRANSPORTATION AND 
                     INFRASTRUCTURE MEMBERS' DAY HEARING

=======================================================================

                                (117-11)

                             REMOTE HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-093 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    ix

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, opening statement..............................     4
    Prepared statement...........................................     4
Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, prepared statement.................................   203

                            MEMBER TESTIMONY

Hon. Zoe Lofgren, a Representative in Congress from the State of 
  California, oral statement.....................................     5
    Prepared statement...........................................     6
Hon. Robert J. Wittman, a Representative in Congress from the 
  Commonwealth of Virginia, oral statement.......................     7
    Prepared statement...........................................     9
Hon. Marcy Kaptur, a Representative in Congress from the State of 
  Ohio, oral statement...........................................    11
    Prepared statement...........................................    15
Hon. John B. Larson, a Representative in Congress from the State 
  of Connecticut, oral statement.................................    17
    Prepared statement...........................................    19
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, oral statement......................................    20
    Prepared statement...........................................    21
Hon. Derek Kilmer, a Representative in Congress from the State of 
  Washington, oral statement.....................................    22
    Prepared statement...........................................    26
Hon. Bill Pascrell, Jr., a Representative in Congress from the 
  State of New Jersey, oral statement............................    27
    Prepared statement...........................................    29
Hon. Larry Bucshon, a Representative in Congress from the State 
  of Indiana, oral statement.....................................    30
    Prepared statement...........................................    31
Hon. Scott H. Peters, a Representative in Congress from the State 
  of California, oral statement..................................    34
    Prepared statement...........................................    36
Hon. Robert C. ``Bobby'' Scott, a Representative in Congress from 
  the Commonwealth of Virginia, oral statement...................    38
    Prepared statement...........................................    39
Hon. Jim Costa, a Representative in Congress from the State of 
  California, oral statement.....................................    40
    Prepared statement...........................................    42
Hon. Rosa L. DeLauro, a Representative in Congress from the State 
  of Connecticut, oral statement.................................    43
    Prepared statement...........................................    45
Hon. Jodey C. Arrington, a Representative in Congress from the 
  State of Texas, oral statement.................................    46
    Prepared statement...........................................    47
Hon. Kurt Schrader, a Representative in Congress from the State 
  of Oregon, oral statement......................................    48
    Prepared statement...........................................    49
Hon. Katie Porter, a Representative in Congress from the State of 
  California, oral statement.....................................    50
    Prepared statement...........................................    51
Hon. Dean Phillips, a Representative in Congress from the State 
  of Minnesota, oral statement...................................    53
    Prepared statement...........................................    54
Hon. Cheri Bustos, a Representative in Congress from the State of 
  Illinois, oral statement.......................................    55
    Prepared statement...........................................    56
Hon. Grace Meng, a Representative in Congress from the State of 
  New York, oral statement.......................................    57
    Prepared statement...........................................    59
Hon. Jim Hagedorn, a Representative in Congress from the State of 
  Minnesota, oral statement......................................    59
    Prepared statement...........................................    61
Hon. Michael Cloud, a Representative in Congress from the State 
  of Texas, oral statement.......................................    63
    Prepared statement...........................................    64
Hon. Josh Gottheimer, a Representative in Congress from the State 
  of New Jersey, oral statement..................................    65
    Prepared statement...........................................    67
Hon. Fred Keller, a Representative in Congress from the 
  Commonwealth of Pennsylvania, oral statement...................    68
    Prepared statement...........................................    69
Hon. Lizzie Fletcher, a Representative in Congress from the State 
  of Texas, oral statement.......................................    70
    Prepared statement...........................................    72
Hon. Mike Quigley, a Representative in Congress from the State of 
  Illinois, oral statement.......................................    73
    Prepared statement...........................................    75
Hon. Virginia Foxx, a Representative in Congress from the State 
  of North Carolina, oral statement..............................    76
    Prepared statement...........................................    77
Hon. Young Kim, a Representative in Congress from the State of 
  California, oral statement.....................................    78
    Prepared statement...........................................    79
Hon. Karen Bass, a Representative in Congress from the State of 
  California, oral statement.....................................    80
    Prepared statement...........................................    81
Hon. Alma S. Adams, a Representative in Congress from the State 
  of North Carolina, oral statement..............................    83
    Prepared statement...........................................    84
Hon. Brad Sherman, a Representative in Congress from the State of 
  California, oral statement.....................................    85
    Prepared statement...........................................    86
Hon. Kim Schrier, a Representative in Congress from the State of 
  Washington, oral statement.....................................    87
    Prepared statement...........................................    88
Hon. Chris Jacobs, a Representative in Congress from the State of 
  New York, oral statement.......................................    91
    Prepared statement...........................................    94
Hon. Tracey Mann, a Representative in Congress from the State of 
  Kansas, oral statement.........................................    95
    Prepared statement...........................................    96
Hon. Brian Higgins, a Representative in Congress from the State 
  of New York, oral statement....................................    97
    Prepared statement...........................................    98
Hon. Elaine G. Luria, a Representative in Congress from the 
  Commonwealth of Virginia, oral statement.......................    99
    Prepared statement...........................................   100
Hon. Ed Case, a Representative in Congress from the State of 
  Hawaii, oral statement.........................................   102
    Prepared statement...........................................   103
Hon. Veronica Escobar, a Representative in Congress from the 
  State of Texas, oral statement.................................   105
    Prepared statement...........................................   106
Hon. Adriano Espaillat, a Representative in Congress from the 
  State of New York, oral statement..............................   107
    Prepared statement...........................................   109
Hon. David N. Cicilline, a Representative in Congress from the 
  State of Rhode Island, oral statement..........................   110
    Prepared statement...........................................   112
Hon. Mikie Sherrill, a Representative in Congress from the State 
  of New Jersey, oral statement..................................   113
    Prepared statement...........................................   115
Hon. Nanette Diaz Barragan, a Representative in Congress from the 
  State of California, oral statement............................   116
    Prepared statement...........................................   117
Hon. Mondaire Jones, a Representative in Congress from the State 
  of New York, oral statement....................................   118
    Prepared statement...........................................   120
Hon. Teresa Leger Fernandez, a Representative in Congress from 
  the State of New Mexico, oral statement........................   121
    Prepared statement...........................................   123
Hon. Al Green, a Representative in Congress from the State of 
  Texas, oral statement..........................................   124
    Prepared statement...........................................   126
Hon. Jamaal Bowman, a Representative in Congress from the State 
  of New York, oral statement....................................   131
    Prepared statement...........................................   133
Hon. Lauren Underwood, a Representative in Congress from the 
  State of Illinois, oral statement..............................   134
    Prepared statement...........................................   135
Hon. Mike Levin, a Representative in Congress from the State of 
  California, oral statement.....................................   136
    Prepared statement...........................................   138
Hon. Pramila Jayapal, a Representative in Congress from the State 
  of Washington, oral statement..................................   139
    Prepared statement...........................................   140
Hon. Angie Craig, a Representative in Congress from the State of 
  Minnesota, oral statement......................................   141
    Prepared statement...........................................   143
Hon. Joe Neguse, a Representative in Congress from the State of 
  Colorado, oral statement.......................................   144
    Prepared statement...........................................   146
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, oral statement.......................................   148
    Prepared statement...........................................   149
Hon. Haley M. Stevens, a Representative in Congress from the 
  State of Michigan, oral statement..............................   150
    Prepared statement...........................................   154
Hon. Linda T. Sanchez, a Representative in Congress from the 
  State of California, oral statement............................   155
    Prepared statement...........................................   156
Hon. Matthew M. Rosendale, Sr., a Representative in Congress from 
  the State of Montana, oral statement...........................   157
    Prepared statement...........................................   158
Hon. Mary Gay Scanlon, a Representative in Congress from the 
  Commonwealth of Pennsylvania, oral statement...................   158
    Prepared statement...........................................   160
Hon. Tom O'Halleran, a Representative in Congress from the State 
  of Arizona, oral statement.....................................   161
    Prepared statement...........................................   162
Hon. Andy Levin, a Representative in Congress from the State of 
  Michigan, oral statement.......................................   163
    Prepared statement...........................................   164
Hon. Brenda L. Lawrence, a Representative in Congress from the 
  State of Michigan, oral statement..............................   165
    Prepared statement...........................................   166
Hon. Lori Trahan, a Representative in Congress from the 
  Commonwealth of Massachusetts, oral statement..................   167
    Prepared statement...........................................   169
Hon. Tim Ryan, a Representative in Congress from the State of 
  Ohio, oral statement...........................................   170
    Prepared statement...........................................   172
Hon. Stacey E. Plaskett, a Delegate in Congress from the Virgin 
  Islands, oral statement........................................   173
    Prepared statement...........................................   175
Hon. Bradley Scott Schneider, a Representative in Congress from 
  the State of Illinois, oral statement..........................   177
    Prepared statement...........................................   178
Hon. Frank J. Mrvan, a Representative in Congress from the State 
  of Indiana, oral statement.....................................   179
    Prepared statement...........................................   181
Hon. Gwen Moore, a Representative in Congress from the State of 
  Wisconsin, oral statement......................................   182
    Prepared statement...........................................   184

                       SUBMISSIONS FOR THE RECORD

Chart, U.S. Median Household Income per Congressional District, 
  Submitted for the Record by Hon. Marcy Kaptur..................    13
Build Back Better Act--Fact Sheet, Submitted for the Record by 
  Hon. Derek Kilmer..............................................    24
Letter of January 7, 2021, from the Allied Building Metal 
  Industries et al., Submitted for the Record by Hon. Chris 
  Jacobs.........................................................    92
Aerial View and Map of the Beck Road Project, Submitted for the 
  Record by Hon. Haley M. Stevens................................   152
Letter of April 14, 2021, from the Congressional Steel Caucus, 
  Submitted for the Record by Hon. Frank J. Mrvan................   180
Letter of April 14, 2021, from the Agricultural and Food 
  Transporters Conference et al., Submitted for the Record by 
  Hon. Troy Balderson............................................   187
Prepared statements from the following Members of Congress:

    Hon. Sanford D. Bishop, Jr., a Representative in Congress 
      from the State of Georgia..................................   189
    Hon. Ted Budd, a Representative in Congress from the State of 
      North Carolina.............................................   190
    Hon. Tony Cardenas, a Representative in Congress from the 
      State of California........................................   191
    Hon. Matt Cartwright, a Representative in Congress from the 
      Commonwealth of Pennsylvania...............................   191
    Hon. Gerald E. Connolly, a Representative in Congress from 
      the Commonwealth of Virginia...............................   192
    Hon. Charlie Crist, a Representative in Congress from the 
      State of Florida...........................................   193
    Hon. Danny K. Davis, a Representative in Congress from the 
      State of Illinois..........................................   196
    Hon. Sylvia R. Garcia, a Representative in Congress from the 
      State of Texas.............................................   197
    Hon. H. Morgan Griffith, a Representative in Congress from 
      the Commonwealth of Virginia...............................   197
    Hon. Raul M. Grijalva, a Representative in Congress from the 
      State of Arizona...........................................   198
    Hon. Jahana Hayes, a Representative in Congress from the 
      State of Connecticut.......................................   200
    Hon. Kevin Hern, a Representative in Congress from the State 
      of Oklahoma................................................   201
    Hon. Carolyn B. Maloney, a Representative in Congress from 
      the State of New York......................................   207
    Hon. Carol D. Miller, a Representative in Congress from the 
      State of West Virginia.....................................   208
    Hon. Jimmy Panetta, a Representative in Congress from the 
      State of California........................................   208
    Hon. Harold Rogers, a Representative in Congress from the 
      Commonwealth of Kentucky...................................   209
    Hon. Michael F.Q. San Nicolas, a Delegate in Congress from 
      Guam.......................................................   212
    Hon. Jackie Speier, a Representative in Congress from the 
      State of California........................................   213
    Hon. Filemon Vela, a Representative in Congress from the 
      State of Texas.............................................   214

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                             April 9, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Committee on Transportation and 
Infrastructure
    FROM:  LStaff, Committee on Transportation and 
Infrastructure
    RE:      LFull Committee Hearing on ``Committee on 
Transportation and Infrastructure Members' Day''
_______________________________________________________________________


                                PURPOSE

    The Committee on Transportation and Infrastructure (T&I 
Committee) will meet on Wednesday, April 14, 2021, at 11:00 
a.m. EDT in 2167 Rayburn House Office Building and via Zoom to 
receive testimony related to ``Committee on Transportation and 
Infrastructure Members' Day.'' Pursuant to Section 3(a) of H. 
Res. 8, the purpose of this hearing is to provide Members of 
Congress not on the T&I Committee an opportunity to testify 
before the T&I Committee on the Member's policy priorities 
within the Committee's jurisdiction.

                               BACKGROUND

T&I COMMITTEE JURISDICTION

    The T&I Committee has broad jurisdiction over all modes of 
transportation and numerous types of infrastructure programs 
and funding, which is overseen as delineated below by six 
subcommittees.

SUBCOMMITTEE ON AVIATION:

    The Subcommittee on Aviation has jurisdiction over all 
matters relating to civil aviation, including airport 
infrastructure, the air traffic control system, aviation 
safety, aviation noise, economic regulation of airlines, 
international aviation relations of the United States, war risk 
insurance, labor-management relations involving airlines and 
their employees; and the operation and administration of the 
Federal Aviation Administration (FAA) and the National 
Transportation Safety Board (NTSB).

SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION:

    The Subcommittee on Coast Guard and Maritime Transportation 
has jurisdiction over all matters relating to the Coast Guard, 
including merchant vessel, fishing vessel, and recreational 
vessel safety; vessel navigation and related laws; rules and 
international arrangements to prevent collisions at sea; and 
oil spill laws and associated financial responsibility 
requirements.
    The Subcommittee also has jurisdiction over matters 
relating to the Maritime Administration, including ports, 
passenger vessels, international maritime activities, and 
intermodal transportation, except those matters related to 
national security. Finally, measures relating to the Federal 
Maritime Commission, including matters involving water carriers 
in domestic and international trade, fall within the 
Subcommittee's jurisdiction.

SUBCOMMITTEE ON ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY 
                    MANAGEMENT:

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management is responsible for economic 
development for economically distressed urban and rural areas, 
including programs administered by the Economic Development 
Administration, the Appalachian Regional Commission, the Delta 
Regional Authority, and the Denali Commission; economic 
adjustment, including assistance to communities needing relief 
due to natural disasters and military base closures; and 
general infrastructure issues.
    Additionally, it has jurisdiction over the purchase, 
construction, repair, alteration, operation, and maintenance of 
federally owned or leased buildings and United States 
courthouses controlled by the General Services Administration; 
matters relating to the Capitol buildings and the Senate and 
House office buildings; and construction, maintenance, and care 
of the buildings and grounds of the Botanic Gardens, the 
Library of Congress, the Smithsonian Institution, and the John 
F. Kennedy Center for the Performing Arts.
    Lastly, the Subcommittee covers Federal management of 
emergencies and natural disasters, including disaster 
mitigation, preparedness, response, and recovery.

SUBCOMMITTEE ON HIGHWAYS AND TRANSIT:

    The Subcommittee on Highways and Transit is responsible for 
the development of federal surface transportation policy and 
the authorization of programs for the construction and 
improvement of highway and transit facilities, highway and 
transit safety, commercial motor vehicle and driver safety, and 
research and innovation programs. Related to these 
responsibilities, the Subcommittee has jurisdiction over the 
following modal administrations and offices within the U.S. 
Department of Transportation: Federal Highway Administration 
(FHWA); Federal Transit Administration (FTA); Federal Motor 
Carrier Safety Administration (FMCSA); National Highway Traffic 
Safety Administration (NHTSA) (partial); Office of the 
Assistant Secretary for Research and Technology; National 
Surface Transportation and Innovative Finance Bureau; and 
Office of the Secretary of Transportation (OST).

SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS:

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials exercises jurisdiction over the programs and 
activities of two U.S. Department of Transportation (DOT) modal 
administrations: the Federal Railroad Administration (FRA), and 
the Pipeline and Hazardous Materials Safety Administration 
(PHMSA). The jurisdiction of the Subcommittee includes all 
federal laws and programs regulating railroad transportation, 
including railroad safety, rail infrastructure programs, 
economic regulation, railroad labor laws, and the non-revenue 
aspects of the federal railroad retirement and railroad 
unemployment systems. The jurisdiction of the Subcommittee also 
includes all federal laws and programs regulating the safety of 
gas and liquid pipelines and the safety of transporting 
material and freight that has been classified as hazardous, 
regardless of the mode of transportation.
    Agencies and other establishments outside the DOT whose 
rail-related activities fall within the Subcommittee 
jurisdiction include: Surface Transportation Board (STB); 
Amtrak; Amtrak Inspector General (IG); Northeast Corridor (NEC) 
Commission; Railroad Retirement Board (RRB); Railroad 
Retirement Board Inspector General (RRB IG); National Railroad 
Retirement Investment Trust; and National Mediation Board 
(NMB).

SUBCOMMITTEE ON WATER RESOURCES AND ENVIRONMENT:

    The jurisdiction of the Subcommittee on Water Resources and 
Environment consists generally of matters relating to water 
resources development, conservation and management, water 
pollution control and water infrastructure, and hazardous waste 
cleanup.
    Issues under the Subcommittee include: water resources 
programs (projects and regulations)--U.S. Army Corps of 
Engineers (Corps); Clean Water Act, water infrastructure and 
watershed protection programs--Environmental Protection Agency 
(EPA); Clean Water Act, regulatory authorities--EPA and Corps; 
Superfund and Brownfields revitalization--EPA; ocean dumping--
EPA and Corps; oil pollution--EPA and Coast Guard; Tennessee 
Valley Authority (TVA); Great Lakes-Saint Lawrence Seaway 
Development Corporation--DOT; National Resources Conservation 
Service's Small Watershed Program--U.S. Department of 
Agriculture; deepwater ports--EPA, Coast Guard, Corps; 
invasive/aquatic nuisance species/harmful algal blooms--EPA, 
Coast Guard, Corps, and other agencies; coastal pollution and 
coastal zone management--EPA and National Oceanic and 
Atmospheric Administration (NOAA); natural resource damages--
NOAA, Department of the Interior (DOI), and other agencies; 
groundwater protection--primarily EPA and Corps; water 
resources policy--multiple agencies; toxic substances and 
public health--Agency for Toxic Substances and Disease Registry 
(ATSDR); and boundary water issues between the United States 
and Mexico--the International Boundary and Water Commission 
(IBWC) at the U.S. Department of State.

 
  COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE MEMBERS' DAY HEARING

                              ----------                              


                       WEDNESDAY, APRIL 14, 2021

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 11:06 a.m. in room 
2167 Rayburn House Office Building and via Zoom, Hon. Peter A. 
DeFazio (Chairman of the committee) presiding.
    Mr. DeFazio. The Committee on Transportation and 
Infrastructure will come to order.
    I ask unanimous consent the chair be authorized to declare 
a recess at any time during today's hearing.
    Without objection, so ordered.
    As a reminder, it is the responsibility of each Member 
seeking recognition to unmute their microphone prior to 
speaking, and to keep their microphone muted when not speaking 
to avoid inadvertent background noise. If I hear any 
inadvertent background noise, I will yell at you.
    If a Member is experiencing any technical issues, please 
inform committee staff as soon as possible so you can have 
assistance.
    And to put a document in the record, please have your staff 
email documents to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cb8fa4a8bea6aea5bfb89fed828ba6aaa2a7e5a3a4beb8aee5aca4bde5">[email&#160;protected]</a>
    Welcome to our Members' Day hearing, which is an 
opportunity for our House colleagues who do not serve on this 
committee, the largest committee in Congress--but there are 
still a few of you--to testify on either individual project 
priorities or policy priorities that they would like to see in 
the infrastructure package.
    We must pass a surface transportation bill before October 
1st of this year. We must. It has been far too long that we've 
kicked the can down the road. Even with the last bill, the FAST 
Act and predecessors, we need a much more robust program to 
deal with our deficient, collapsing infrastructure.
    This couldn't be happening at a more critical time. I think 
it is really finally time to go big and bold, and to move 
beyond the Eisenhower era of infrastructure. Essentially, we 
are working off Eisenhower 7.0; it is time to move to a 21st-
century approach, an approach that will create millions of 
good-paying jobs; restore global competitiveness; unleash our 
economic potential; make people's lives better; communities 
safer, more equitable, affordable, livable; and move--
critically, move our country toward a clean energy future, in 
concert with the private sector, which is already moving that 
way, and cut carbon pollution from transportation, which is the 
single largest contributor to carbon pollution created by the 
United States of America.
    Many of these goals have been before us and have been an 
aspiration of many of us on this committee for years. And last 
year it was reflected in the very ambitious Moving Forward Act 
that we passed in the House, with our section being the INVEST 
Act, the largest single section of that bill.
    So after fits and starts in Congress in recent 
administrations--President Obama killed a major surface bill 12 
years ago, President Trump held seven fake infrastructure 
weeks. It became a bad joke in DC, something like ``Groundhog 
Day,'' I guess. And even though we passed an ambitious bill in 
the House, the Senate could do nothing but status quo, and it 
was even hard to get them to status quo. That can't continue.
    It is not just that we need to modernize what we have, and 
build for the future, we also have to consider that, despite 
recent improvements in the economy, we are still down more than 
8 million jobs in the economy. And that is using the defective 
current measures, which doesn't include discouraged workers and 
others who would like to have good-paying jobs working on 
rebuilding the Nation's infrastructure, given the proper 
training. So there is, obviously, going to be a worker training 
component to this, too.
    I support the President's American Jobs Plan. Thus far it 
is a 25-page outline. We have been in constant communication 
with the White House and Department of Transportation, 
receiving suggestions from them on further steps. And now it 
will be up to us to put the details in place. A large portion 
of the plan that will benefit communities of all sizes, all 
sizes, from major metropolitan areas, mid-sized cities, and 
rural areas who have been often left behind in our past 
attempts at infrastructure, and the jobs components that could 
follow from this.
    I represent a district in southwest Oregon where the 
benefits have not flowed to a very large portion of my 
district, and they have tremendous infrastructure needs there. 
Small cities and rural areas have transit needs with 
communities aging in place. All those things are addressed in 
this bill.
    Social equity is addressed in this bill. The President has 
proposed a new program to deal with the fact that there was 
intentional design to divide communities of color because there 
was less resistance to, or less capability of resisting, 
freeways which divided communities through cities in those 
communities. Now that infrastructure is aging out. He pointed 
out one in his address, which is in New Orleans. It is a 
skyway. It is going to fall down soon. We got to replace it. It 
could be replaced in a way that rejoins that community, 
restores social equity and vibrancy to that community, and 
continues to, in better ways, facilitate the same or better 
throughput of traffic.
    So we have some very, very unique opportunities for me. We 
don't always agree on this committee, but we share a lot of 
goals, regardless of which side of the aisle you are on. We 
have a proven track record of achieving results, and now we are 
inviting all of our House colleagues to join as we demonstrate 
to the American people that their Government is still capable 
of working together, taking responsible action to complete 
critical projects, create good-paying jobs, bolster U.S. 
industry, save lives, preserve affordable access to 
transportation and water infrastructure, protect our natural 
resources, make smart investments--21st-century investments--to 
mitigate and adapt to climate change.
    And thanks to all the Members today who are going to come 
before the committee.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Welcome to our Members' Day Hearing, which is an opportunity for 
our House colleagues to appear before the Committee to testify about 
their infrastructure priorities. As of this morning more than 70 
members, both Democrat and Republican, have signed up to speak, a 
pretty good indication of the appetite for action.
    Of course, this hearing could not be happening at a more critical 
time. After decades of underinvestment and inattention to the state of 
our nation's roads, bridges, transit, rail, wastewater and so much 
more, the stars have aligned to go big and bold on infrastructure and 
finally bring our systems out of the Eisenhower era. This is a moment 
more than 70 years in the making, and if done right, it's an incredible 
opportunity to:
    <bullet>  Create millions of good-paying jobs and rebuild the 
middle class;
    <bullet>  Restore our global competitiveness and unleash our 
economic potential;
    <bullet>  Make people's lives better and our communities safer and 
more equitable, affordable, and livable;
    <bullet>  And critically, move our country toward a clean energy 
future in concert with the private sector--which is already moving that 
way--and cut carbon pollution from the transportation sector, which is 
the number one source of emissions in the United States.

    These goals are something my Committee colleagues and I have worked 
on a lot over the years--and it culminated in our very ambitious bill, 
the Moving Forward Act, that we passed in the House last year. 
Unfortunately, that effort hit a brick wall in the Republican-led, Do-
Nothing Senate.
    So, after fits and starts in Congress and in recent 
administrations--including the seven fake Infrastructure Weeks under 
the previous White House--I'm incredibly encouraged by the fact that 
the current administration has made rebuilding our infrastructure a top 
priority.
    It's not just that we need to modernize what we have and build for 
the future: We must also consider that despite recent improvements in 
the economy, the fact is, we're still down more than 8 million jobs 
compared to pre-pandemic levels. And even well before the pandemic, 
this country has suffered from a lack of good-paying, middle class 
jobs. I strongly believe that rebuilding and re-imagining our 
infrastructure is hands down the best tool we have to usher in American 
manufacturing's second act.
    That's why I support the president's American Jobs Plan, which 
gives Congress the broad strokes of where the administration wants to 
go.
    It's now up to this Committee to put the details into place on a 
large portion of that plan in a way that benefits communities of all 
sizes, from major metropolitan areas, to mid-sized cities, to rural 
communities, like much of the district I represent in Southwest Oregon. 
Americans across this country absolutely want Congress to act. That 
much is clear.
    That effort moves forward with today's hearing, which will help 
inform our must-pass surface transportation reauthorization bill, which 
is the heart of any infrastructure plan and something I intend to 
introduce and move through this Committee in a matter of weeks.
    I appreciate the Committee's Ranking Member Sam Graves for our 
ongoing dialogue and for working with me on including Member Designated 
Projects in our surface bill. Making sure members can directly advocate 
for their districts--as we'll hear a lot of today--is key. Just like I 
know my district better than someone at a federal agency and am held 
accountable by my constituents, so do the members we'll hear from 
today.
    I know that Members of our Committee share a lot of goals, 
regardless of which side of the aisle you're on, and we have a proven 
track record of achieving results. Now we invite all of our House 
colleagues to join as we demonstrate to the American people that their 
government is still capable of working together and taking responsible 
action to complete critical projects, create good paying jobs, bolster 
U.S. industries, save lives, preserve affordable access to 
transportation and water infrastructure, protect our natural resources, 
and make smart investments to mitigate and adapt to climate change.
    Thank you to all Members who have made time to come before the 
Committee today. I look forward to your testimony.

    Mr. DeFazio. With that, I recognize the ranking member, Sam 
Graves.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. I 
appreciate the opportunity, I appreciate the hearing, as well, 
and I look forward to hearing from all of our Members about 
their policy priorities ahead of our upcoming surface 
transportation markup that is going to happen in May.
    We ultimately want to work together on a bipartisan bill, 
but that does require commitment from both sides.
    But I do appreciate my colleagues taking the time to be 
with us today. I think we have a lot that are going to testify, 
and so I am not going to take up any more time. But I do 
appreciate them taking the time.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair DeFazio.
    I look forward to hearing from Members about their policy 
priorities ahead of our upcoming surface transportation markup in May.
    We ultimately want to work together on a bipartisan bill, but that 
requires a commitment from all sides.
    I appreciate my colleagues taking time to visit with us today and 
thank you again for being here.
    With that, I yield back.

    Mr. Graves of Missouri. With that, I yield back.
    Mr. DeFazio. Well, I thank the gentleman for his brevity. 
He has outshone me there. But in any case, I look forward to 
working with him, and we look forward to hearing from our 
colleagues.
    So Members appearing before the committee today will have 5 
minutes to give their oral testimony.
    Without objection, their written statements will be 
included in the record.
    Given the number of Members appearing before the committee 
today, and out of consideration for our colleagues' time, I ask 
unanimous consent that members of the committee be given 2 
minutes each to question our Member witnesses following their 
statements.
    Without objection, so ordered.
    As we go through the hearing, I will call out the order of 
the new witnesses, so Members can be prepared to testify when 
recognized.
    The first witnesses will be Representatives Lofgren, 
Wittman, Kaptur, Larson--s-o-n--and Blumenauer.
    With that, Representative Lofgren, you are recognized for 5 
minutes.

  TESTIMONY OF HON. ZOE LOFGREN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Lofgren. Thank you, Mr. Chairman and Ranking Member 
Graves, for this opportunity to participate. My statement today 
focuses on reconciling the needs of growing residential 
communities and cities with increased rail activity.
    Congress has long recognized the benefits of rail as a 
means of mass transit and efficient shipping. However, as 
cities become more densely populated, and rail traffic 
increases, I urge the committee to examine the need for reforms 
in this area to ensure that railroad companies do not pose an 
extreme nuisance or, even worse yet, a danger to the 
communities they pass through.
    The historic San Jose neighborhoods of Japantown and 
Hensley in my district are located along the Union Pacific 
Railroad Warm Springs Corridor. In 2018, Union Pacific told the 
community that they were going to increase services throughout 
the day and add train service at night. And since February 1st 
of 2019, Union Pacific has been running trains in the area at 
nighttime, including but not limited to 5:30 p.m., 7 p.m., 10 
p.m., 11:30 p.m., 12:30 a.m., 2 a.m., and 4 a.m.
    And, as required by the FRA, conductors use their horns in 
a standardized manner. When approaching street crossings, they 
blast four horn blasts that are between 96 and 110 decibels. 
This is the equivalent of the sound of a jet taking off, or a 
rock concert. The train horn severely disrupts evening 
activities. They wake up residents on a nightly basis.
    There are approximately 11,415 residents living in the 
impacted area. And with additional housing that was approved 
prior to the expansion of rail service, there will be thousands 
more.
    In 2020 the pandemic further compounded the problem as 
constituents complied with stay-at-home orders. In addition to 
lowering productivity, the effects of noise pollution, sleep 
deprivation, and stress are known to have long-term health 
consequences.
    Local and State-elected officials, community members, and 
even my office have made attempts to discuss the schedule 
change and train horn noise issue with UP. In fact, the mayor 
of San Jose and I spoke to the chairman of Union Pacific to no 
avail.
    Due to FRA requirements to use the train horn in 
residential areas, and the lack of legal obligations on 
railroad companies to make schedule modifications, even in 
circumstances such as the one described, Union Pacific has 
continued to carry out its increased service schedule.
    Train horns are an important element in preventing injuries 
and fatalities. But, as evidenced by the thousands of calls and 
letters I have received from my constituents in the last 3 
years, they can also be detrimental to the community.
    I urge the committee to examine new and emerging 
technologies and methods that could be used to mitigate the 
negative impact of horns on communities near railroad tracks 
and alternatives to traditional horns.
    And I also urge you to look at the increase in train 
activities in growing communities like the ones in my district, 
which pose a significant safety risk.
    San Jose's Japantown is one of the last three surviving 
Japantowns in the United States, and a popular destination for 
both locals and the region. It is known for its rich culture 
and unique small businesses. There are several high-density, 
mixed-use developments around the rail crossings in this area, 
which cause an influx of pedestrian and vehicular activities.
    The city of San Jose and local residents have shared 
concern about the lack of sufficient rail crossing safety 
measures as train service in the area has increased. One of the 
crossings is lacking complete railroad crossing vehicle gates, 
and all of the crossings are lacking pedestrian treatments, 
which is why I will be seeking Member-designated project 
request assistance from the committee to allow the city to 
build out the superior safety measures that will reduce the 
potential for train incidents with vehicles and pedestrians.
    I thank the committee for allowing me to speak, and also I 
know that it is a long day for committee members to listen to 
your colleagues. But it is appreciated that you would take this 
time to listen to us, who are not on the committee, but have 
issues of concern to you.
    And with that, Mr. Chairman, I yield back.
    [Ms. Lofgren's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Zoe Lofgren, a Representative in Congress 
                      from the State of California
    Thank you Chairman DeFazio and Ranking Member Graves for the 
opportunity to participate in today's hearing.
    My statement today focuses on reconciling the needs of growing 
residential communities and cities with increased rail activity. 
Congress has long recognized the benefits of rail as a means of mass 
transit and efficient shipping. However, as cities becomes more densely 
populated and rail traffic increases, I urge the Committee to examine 
the need for reforms in this area to ensure that railroad companies do 
not pose an extreme nuisance, or worse yet danger, to the communities 
they pass through.
    The historic San Jose neighborhoods of Japantown and Hensley in my 
district are located along the Union Pacific Railroad (UPRR) Warm 
Springs Corridor. In 2018, UPRR informed the community of plans to 
increase service throughout the day and to add train service at night.
    Since February 1, 2019, UPRR has been running trains in the area at 
the nighttime hours including but not limited to 5:30 pm, 7:00 pm, 
10:00 pm, 11:30 pm, 12:30 am, 2:00 am, and 4:00 am. As required by the 
Federal Railroad Administration (FRA) train conductors use their horns 
in a standardized manner when approaching street crossings, emitting 
four horn blasts that are between 96 and 110 decibels. This is 
equivalent to the sound of a jet taking off or a rock concert. The 
train horns severely disrupt evening activities and wake up area 
residents on a nightly basis. There are approximately 11,415 residents 
living in this impacted area. In 2020, the pandemic further compounded 
the problem, as my constituents complied with the stay-at-home order. 
In addition to lowering productivity, the effects of noise pollution, 
sleep deprivation, and stress are known to have long-term health 
consequences.
    Local and state elected officials, community members, and even my 
office have made attempts to discuss the schedule change and train horn 
noise issue with UPRR. But, due to FRA requirements to use the train 
horn in residential areas and the lack of legal obligations on railroad 
companies to make schedule modifications even in circumstances such as 
the ones described, UPRR has continued to carry out its increased 
service schedule.
    Train horns serve an important purpose in preventing tragic rail 
injuries and fatalities. But, as evidenced by the thousands of calls 
and letters I have received from my constituents about them in the last 
three years, they can also be detrimental to communities. I encourage 
the Committee to examine new and emerging technologies and methods that 
can be used to mitigate the negative impact of horns on communities 
near railroad tracks and alternatives to traditional train horns.
    The increase in train activity in growing communities like the ones 
in my district also poses a significant safety risk. San Jose's 
Japantown is one of the last three surviving Japantowns in the United 
States and a popular destination for both locals and the region known 
for its rich culture and unique small businesses. There are several 
high-density mixed-use developments around the rail crossings in this 
area that are anticipated to complete construction this year. There 
will also be over 19,000 square feet of retail and a public park, 
causing an influx of pedestrian and vehicular activity in this area.
    The City of San Jose and local residents have shared concerns about 
the lack of sufficient rail crossing safety measures as train service 
in the area has increased. One of the crossings is lacking complete 
railroad crossing vehicle gates. All the crossings are lacking 
pedestrian treatments. This is why I will be seeking Member Designated 
Project Request funding from the Committee to allow the City to build 
out the superior safety measures that will reduce the potential for 
train incidents with vehicles or pedestrians.
    Thank you.

    Mr. DeFazio. I thank the gentlelady. Do Members, any 
Members, have questions for Representative Lofgren?
    Seeing none, thank you very much for your testimony, I 
appreciate it.
    We now move on to Representative Wittman.

   TESTIMONY OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Wittman. Well, thank you, Chairman DeFazio and Ranking 
Member Graves.
    And I represent the First Congressional District of 
Virginia, which is home to some of the most unique traffic 
challenges in the country. The First Congressional District 
spans the I-95 corridor in northern Virginia, including the 
worst traffic hotspot in the Nation, all the way down to the 
Northern Neck and Middle Peninsula, which includes the most 
neglected rural roads and bridges in Virginia.
    Furthermore, the National Capital region is also home to 
one of the most strained public transportation networks in the 
country, which includes the Virginia Railway Express, Metro, 
Amtrak, and Ronald Reagan International and Dulles 
International Airports.
    Moreover, the Port of Virginia, which services all 48 
contiguous States, also faces an urgent need for expansion.
    Addressing congestion along the I-95 corridor is essential. 
I believe the Federal Government can address those issues by 
providing adequate resources in order to leverage the State's 
investments. Congress must prioritize public-private 
partnerships and innovative, modern-day technologies.
    An important component of reducing traffic congestion in 
northern Virginia is commuter rail. Long Bridge, which spans 
the Potomac River between Virginia and DC, is a critical 
gateway between Southeast and Northeast rail networks. 
Constituents in my district rely on the services of the VRE and 
Amtrak to commute throughout DC and northern Virginia. Owned 
and operated by CSX, the existing Long Bridge is the only 
railroad bridge connecting Virginia to DC and is the most 
significant passenger and freight rail choke point along the 
entire east coast.
    Under normal circumstances, the bridge functions at 98 
percent capacity during peak periods, preventing DC, Virginia, 
and Maryland from increasing passenger and commuter rail 
service for their communities.
    Last month, Virginia and CSX finalized a landmark agreement 
to expand reliability and service on Virginia's rail lines, 
creating a pathway to separate passenger and freight operations 
along the Richmond to DC corridor. This $3.7 billion investment 
included building a new Virginia-owned Long Bridge across the 
Potomac River, with dedicated tracks for passenger and commuter 
rail.
    As a requirement for the Long Bridge project to proceed, 
Virginia needed to acquire land from the National Park Service. 
Fortunately, the Consolidated Appropriations Act of 2021 
included my bill, the Long Bridge Act of 2020, which allows the 
necessary transfer of National Park Service lands for the Long 
Bridge project.
    The Port of Virginia is one of the largest and busiest 
ports on the eastern seaboard, and it urgently needs to be 
deepened, widened, and expanded so its channels can accommodate 
today's larger ships. The Port of Virginia is one of the 
Commonwealth's most powerful economic engines. On an annual 
basis, the port is responsible for more than 400,000 jobs and 
$92 billion in spending across our Commonwealth.
    Furthermore, the Port of Virginia generates more than 7\1/
2\ percent of our gross State product. But the port's true 
reach extends throughout the mid-Atlantic and into the Midwest 
and Ohio Valley.
    The deepening and widening of Norfolk Harbor will ensure 
the continued safe and timely passage of larger commercial and 
military vessels through Norfolk Harbor. Public and private 
non-Federal interests have invested billions of dollars on 
landside infrastructure and are prepared to provide their cost 
share to complete this crucial navigation project in a timely 
manner. In order to remain on schedule, the Norfolk Harbor and 
Channel Project requires a ``new start'' designation, and 
robust Federal investment to fully fund the Inner Harbor 
contract and match the non-Federal cost share.
    Federal investment in this project will allow the port to 
remain a prominent economic hub for the Nation, and a key 
player in domestic and international trade by generating more 
than $78 million in annual national economic development 
benefits.
    The Interstate 64 corridor is the lifeline connecting the 
economic and military hub of Hampton Roads to the rest of the 
Commonwealth and to the world. I-64 is a significant 
transportation corridor, allowing residents to commute daily, 
and providing easy access to tourism attractions throughout the 
region. The I-64 Peninsula Widening Project in the Hampton 
Roads area is vital to increase vehicle capacity, resulting in 
immediate congestion relief along one of the most heavily 
traveled highways in Virginia. Widening I-64 is essential for 
increased economic development in the Hampton Roads region, and 
directly supports the transportation of freight lines from the 
Port of Virginia.
    It is essential also for military readiness by providing 
access to, from, and between military facilities, and is an 
essential emergency evacuation route during hurricane events 
affecting southeast Virginia and northeast North Carolina.
    As for our need for infrastructure increases, so too do the 
demands for a skilled and capable workforce. Placing more 
emphasis on science, technology, engineering, and math, and 
career and technical education is needed to help better prepare 
our students to meet the demands of our workforce.
    Addressing America's transportation infrastructure is a 
shared responsibility between Federal, State, and local 
governments.
    Chairman DeFazio and Ranking Member Graves, thank you for 
allowing me to testify before you today, and I look forward to 
working with you and the rest of the committee to improve 
America's infrastructure.
    [Mr. Wittman's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Robert J. Wittman, a Representative in 
               Congress from the Commonwealth of Virginia
    Chairman DeFazio and Ranking Member Graves,
    I represent the First District of Virginia, which is home to some 
of the most unique transportation challenges in the country. The First 
District spans the I-95 Corridor in Northern Virginia, including the 
worst traffic hotspot in the nation, all the way down to the Northern 
Neck and Middle Peninsula, which includes the most neglected rural 
roads and bridges in Virginia.
    Furthermore, the National Capital Region is also home to one of the 
most strained public transit networks in the country, which includes 
the Virginia Railway Express (VRE), METRO, Amtrak, Ronald Reagan 
International (DCA) and Dulles International (IAD) Airports. Moreover, 
the Port of Virginia, which services all 48 contiguous states, faces an 
urgent need for expansion.
    Addressing congestion along the I-95 corridor is essential. I 
believe the federal government can address those issues by providing 
adequate resources in order to leverage the state's investments. 
Congress must prioritize public-private partnerships and innovative 
modern-day technologies.
    An important component to reducing traffic congestion in Northern 
Virginia is commuter rail. Long Bridge, which spans the Potomac River 
between Virginia and DC, is a critical gateway between southeast and 
northeast rail networks. Constituents in my district rely on services 
of the VRE and Amtrak to commute throughout DC and Northern Virginia. 
Owned and operated by CSX, the existing Long Bridge is the only 
railroad bridge connecting Virginia to DC and is the most significant 
passenger and freight rail choke point along the entire east coast. 
Under normal circumstances, the bridge functions at 98% capacity during 
peak periods, preventing DC, Virginia, and Maryland from increasing 
passenger and commuter rail service for their communities. Just last 
month, Virginia and CSX finalized a landmark agreement to expand 
reliability and service on Virginia's rail lines, creating a pathway to 
separate passenger and freight operations along the Richmond to DC 
corridor. This $3.7 billion investment included building a new 
Virginia-owned Long Bridge across the Potomac River, with dedicated 
tracks for passenger and commuter rail. As a requirement for the Long 
Bridge Project to proceed, Virginia needed to acquire land from the 
National Park Service. Fortunately, the Consolidated Appropriations Act 
of 2021 included my bill The Long Bridge Act of 2020, which allows the 
necessary transfer of National Park Service lands for the Long Bridge 
Project.
    The Port of Virginia, one of the largest and busiest ports on the 
eastern seaboard, urgently needs to deepen, widen, and expand its 
channels. The Port of Virginia is one of the Commonwealth's most 
powerful economic engines. On an annual basis, the Port is responsible 
for more than 400,000 jobs and $92 billion in spending across our 
Commonwealth. Furthermore, the Port of Virginia generates more than 
seven and a half percent of our Gross State Product, but the Port's 
true reach extends throughout the Mid-Atlantic and into the Midwest and 
Ohio Valley. The deepening and widening of Norfolk Harbor will ensure 
the continued safe and timely passage of larger commercial and military 
vessels through Norfolk Harbor. Public and private non-federal 
interests have invested billions of dollars on landside infrastructure 
and are prepared to provide their cost share to complete this crucial 
navigation project in a timely manner. In order to remain on schedule, 
the Norfolk Harbor and Channel Project requires a New Start Designation 
and robust federal investment to fully fund the Inner Harbor contract 
and match the non-federal cost share. Federal investment in this 
project will allow the Port to remain a prominent economic hub for the 
nation and a key player in domestic and international trade by 
generating more than $78 million in annual national economic 
development benefits.
    Interstate 64 (I-64) corridor is the lifeline connecting the 
economic and military hub of Hampton Roads to the rest of the 
Commonwealth and the world. I-64 is a significant transportation 
corridor allowing residents to commute daily and providing easy access 
to tourist attractions throughout the region. The I-64 Peninsula 
Widening Project in the Hampton Roads area is vital to increase vehicle 
capacity, resulting in immediate congestion relief along one of the 
most heavily traveled highways in Virginia. Widening I-64 is essential 
for increased economic development in the Hampton Roads Region and 
directly supports the transportation of freight from the Port of 
Virginia. It is essential for military readiness by providing access 
to, from, and between military facilities, and is an essential 
emergency evacuation route during hurricane events affecting southeast 
Virginia.
    As our need for infrastructure increases, so too do the demands for 
a skilled and capable workforce. Placing more emphasis on Science, 
Technology, Engineering, and Math (STEM) and Career and Technical 
Education (CTE) is needed to help better prepare our students to meet 
the demands of our workforce.
    Lower population density in rural areas often leads to lower 
ridership for fixed transit routes and a smaller tax base to fund 
maintenance and repair of transportation systems. The lack of 
investment in infrastructure in rural communities coupled with 
increasing use of rural roads over time has also affected 
transportation safety. The U.S. Department of Transportation's Federal 
Highway Administration (FHWA) estimates that 40 percent of roads in 
rural areas are ``inadequate for current use travel,'' while nearly 50 
percent of bridges over 20 feet long are currently considered 
``structurally deficient.''
    Long distances are a key barrier for many people living in rural 
areas. Average trips for medical services are about nine miles longer 
in rural regions. Those with a personal vehicle can be adversely 
affected by rising gas prices, making longer trips more expensive. 
Access to safe and reliable transportation impacts the health and well-
being of rural populations. Reliable transportation is necessary for 
accessing healthcare services in rural communities, particularly in 
communities where walking or cycling may not be feasible alternatives 
to reach a healthcare provider. Barriers to transportation can result 
in missed healthcare appointments, delays in receiving healthcare 
interventions, and missed or delayed use of needed medications. The 
challenge of accessing medical care in rural America hinders the 
elderly, low-income, disabled, and special needs individuals, 
particularly not having enough affordable options for disability 
accessible non-emergency vehicles. Any additional funding and a greater 
emphasis for connecting rural Americans to health centers to allow for 
greater flexibility of appointment schedule would be appreciated.
    Moreover, the overall condition of our secondary roads is 
deteriorating. For example, some roads in rural parts of Virginia's 
First Congressional District are not wide enough for two vehicles to 
pass simultaneously. The narrowness causes one vehicle to leave the 
pavement and continue onto gravel or natural surfaces that cause damage 
to the physical condition of the vehicle. In many places, the crown in 
the road is so bad that the only way a school bus can travel through is 
to wait until there are no oncoming traffic and drive down the middle 
of the narrow road straddling the crown in the road. Additionally, the 
potholes, cracks, and road depressions cause major vehicle damage. The 
poor condition of our secondary roads impacts our region's agritourism. 
During peak seasons, agritourism farms can have hundreds of children a 
week visit for field trips from surrounding school districts. Another 
set of challenges that rural Virginia localities face is project 
prioritization and technical assistance for application processes.
    I want to draw attention to the Robert O. Norris Bridge, maintained 
by the Virginia Department of Transportation. The Norris Bridge spans 
the Rappahannock River between Lancaster County and Middlesex County, 
Virginia. The Norris Bridge is now in its seventh decade of operation. 
At its completion, the bridge serviced an average of 1,000 vehicles per 
day, now according to surveys, the bridge services 8,208 vehicles on an 
average weekday. Overtime, faced with the wear and tear of the elements 
along with the increase in traffic, the replacement of the Norris 
Bridge has not only become a necessity for the transportation of 
commerce within the region, but also the safety of the motorists who 
travel it. The existing Norris Bridge crosses the widest and deepest 
part of the Rappahannock River in Virginia. Recreational boaters and 
commercial vessels within the area navigate the channel underneath the 
bridge daily. After hearing from my constituents, any reduction on 
vertical or horizontal clearances would significantly alter the state 
of boat traffic transitioning underneath the bridge.
    Lastly, expanding access to high-speed internet is critical to our 
nation's growth and economic development. As Co-Chair of the House 
Rural Broadband Caucus I have made expanding broadband access in rural 
areas a top priority. Currently, burdensome regulations hinder shovel-
ready projects from providing broadband access to unserved populations 
throughout the country. By streamlining our federal permitting 
processes, Congress can help better connect the more than 20 million 
Americans with little or no access to broadband, to the digital 
economy.
    Addressing America's transportation infrastructure is a shared 
responsibility between federal, state, and local governments.
    Chairman DeFazio and Ranking Member Graves, thank you for allowing 
me to testify before you today. I look forward to working with you and 
the rest of the committee to improve America's infrastructure.

    Mr. DeFazio. I thank the gentleman. Any Members have 
questions?
    I would just reflect we had a very compelling testimony by 
the Secretary of your DOT on the rail commuter project, and the 
cost-benefit analysis between that and widening the freeway--
which would have ultimately been as congested--was 
extraordinary, and a good and new way to look at 
infrastructure. And I would refer your concerns about the 
harbor to the Water Resources Development Act, which we have 
begun work on, and reauthorize every 2 years.
    With that, I thank the gentleman for his testimony. We now 
turn to Representative Kaptur.

 TESTIMONY OF HON. MARCY KAPTUR, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Ms. Kaptur. Thank you, Mr. Chairman and members of the 
committee, for this very fine opportunity. Thank you for your 
work, first of all.
    I have seven proposals I would like to present to the 
committee but will summarize very quickly.
    First of all, upgrading Amtrak's long-distance routes. I 
want to applaud your committee for including my floor 
amendments last year expressing concern for proposed cuts to 
long-distance Amtrak routes. And I support emergency funding, 
which Congress included, for long-distance routes.
    But I am concerned that recent proposals floated by Amtrak 
to expand short- and medium-term distance service may ignore 
current long-distance routes in the system. And regionally, 
from the Great Lakes, I must express the view that Amtrak must 
first enhance the Cleveland to Chicago route, and then explore 
opportunities for short- or medium-distance service along these 
routes.
    Number two, I would like to strengthen regional 
transportation planning and financing. Regional transportation 
planning organizations have been in existence now for about 
half a century. It is time to empower those organizations 
serving large metropolitan counties and regions by authorizing 
and testing a pilot program to allow them to bond public as 
well as public-private sector regional projects at some level 
by retaining a portion of proceeds from the gas tax or other 
transport-related fees to enhance their ability to carry 
forward regional projects in a more timely manner.
    Third, I would like to improve U.S.-Canada multimodal 
investments. Improving multimodal planning cooperation along 
the U.S.-Canadian border presents binational opportunities. 
Canada is the largest U.S. trading partner, with Canada 
accepting annually nearly $278 billion of U.S. exports. The 
Department of Transportation should more effectively utilize 
regional MPOs to undertake an enhanced binational, multimodal 
transportation corridor planning study, along with Canadian 
border counterparts.
    Number four, I would like to ask the committee to consider 
enhanced interstate easements. A long, time-tested U.S. 
interstate such as I-80/90 in conjunction with relevant States 
that operate turnpikes, such as New York, Pennsylvania, Ohio, 
Indiana, to name four, I believe the Department of 
Transportation should study these transport corridors and their 
public easements for the potential to accommodate dual uses or 
quadruple uses vital to our Nation, such as modern grid, clean 
power, broadband, autonomous vehicles, light rail, and 
breakthrough technologies like Hyperloop, suspended overhead 
transport, and onsite solar and wind turbine power production.
    Fifth, I would like to suggest that the committee consider 
assisting localities with electric vehicle transition in new 
maintenance garages with enhanced training for the mechanics 
that will have to do this work.
    Let me address these major infrastructure challenges as we 
convert and use new vehicles, buses, and equipment in the 
massive public fleets of our country.
    First, our Nation must help build clean, well-ventilated, 
public maintenance, transit, and service repair garages, 
especially in metropolitan areas, where thousands of vehicles 
are involved.
    Let me draw your attention to these often neglected, poorly 
ventilated public service and public maintenance garages in 
some cities and transit systems across our country. Our Nation 
is asking mechanics in these locations to convert and service 
major fleets: fire engines, ambulances, refuse trucks, street 
sweepers, graders, snowplows, millions of police cars and 
buses, to name just a few.
    As I testify today, I can guarantee mechanics across our 
country suffer from pulmonary conditions and cancers contracted 
from working in these unhealthy situations from a lingering 
diesel and carbon transport era. The skilled individuals who 
work on these new-age vehicles too often work in conditions not 
worthy of the 21st century.
    And I can guarantee you that working on electric vehicles 
with new battery technologies, more computers, as well as the 
potential for fires is different than working on conventional 
engines. Special training for service personnel who do that 
difficult work must attend to conversion and use to avoid 
electrocution and many other fires that result from battery 
technology. So pressing concerns for the workplace is high on 
my priority list, and must proceed hand-in-hand with the clean 
energy age.
    I am submitting for the record a chart that ranks every 
congressional district by median income of household. I would 
ask the committee to begin by prioritizing those communities 
that rank in the bottom third for better maintenance garages 
and for train mechanics.
    [The information follows:]

                                 <F-dash>
    Chart, U.S. Median Household Income per Congressional District, 
             Submitted for the Record by Hon. Marcy Kaptur
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Kaptur. Finally, I would like to propose creating 
attention to the Great Lakes region, and I look forward in the 
future to presenting the committee with two proposals, one to 
augment the authorities of the Great Lakes St. Lawrence Seaway 
Development Corporation and, more boldly, to create a Great 
Lakes Authority. The region's five Great Lakes are the source 
of 21 percent of the world's fresh surface water, and about 95 
percent of our country's available fresh surface water.
    If the Great Lakes were a nation, it would be the third 
largest economy in the world, with a GDP of more than $6 
trillion. Yet before our eyes, they are succumbing to an 
ecological disaster of epic proportions, and an economy that 
struggles to reinvent itself. So for the 21st century, the 
Great Lakes needs what the South had with the Tennessee Valley 
Authority, or the West got when the Federal Government created 
the Bureau of Reclamation.
    I thank you very much and look forward to working with you 
as we look forward through the windshield. I yield back.
    [Ms. Kaptur's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Marcy Kaptur, a Representative in Congress 
                         from the State of Ohio
    Let me express my deep appreciation for your invitation to testify 
before the Transportation and Infrastructure Committee. Our nation is 
in transition, and your committee is at the helm in ensuring 
transportation investments are prioritized for 21st century needs. 
Today I will highlight the need for the surface transportation to 
support investments in four areas (1) regional funding equity; (2) 
workforce development in electric vehicle transition; (3) emerging 
technologies such as Hyperloop; and (4) Amtrak's long distance routes.
      1) Regional Funding Equity, Support Local Control of Funding
Recommendation: Support Higher Allocations for Metropolitan Planning 
        Organizations in H.R. 2
    The redrafted H.R. 2 should support increased local funding. In 
Ohio, the MPO's receive a sliver of overall federal support. State DOTs 
have the largest allocation of Ohio gas tax dollars. These MPO's are 
plugged in to the local decision-making, and have a critical role to 
the future of regional development.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Graphic produced by the Northeast Ohio Areawide Coordinating Agency 
                                (NOACA)

    Nationally, the urban and rural divide is dramatic. According to a 
2018 analysis by CRS which reviewed the percentage of Good, Fair, and 
Poor Ride Quality, the 2016 average ``good'' ride quality in urban 
areas was 27% and in rural areas, 49%. This difference, a 22% better 
ride quality in rural areas means rural gas tax users are getting a 
better return on their investment.
    In a state like Ohio, where the population and a large share of the 
gas tax dollars are produced in urban centers, the equitable solution 
is to localize a larger share of funding decisions. The updated surface 
transportation bill should allocate an increased share of funds to 
MPO's, which would allow more funding decisions according to local 
needs.
              2) Workforce Development, Electric Vehicles
Recommendation: Explicitly Mention EV Transition in the FTA workforce 
        development mission
    I support a strategic focus for workforce development at the 
Department of Transportation. With the Build Back Better agenda, this 
administration has begun to refocus on the importance of electric 
transition.
    The data on this issue is clear, the transition has already begun--
huge segments of the market are changing, and electric and hybrid 
vehicles are the future in all sectors of the market. From nearly zero 
EV vehicles sold in 2010, to 400,000 produced in 2018. And with new 
infrastructure proposals from the Biden Administration, I am hopeful 
that a new day is here.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: 2018 CRS Report,. 2000-2018 U.S. Annual Hybrid Electric Vehicle 
  and Plug-In Electric Vehicle Sales,: Oak Ridge National Laboratory 
                  (ORNL), Transportation Energy Data B

    Nonetheless, we have tremendous work to accomplish. Last year, your 
committee recognized the short-sited perspective of DOT on workforce 
development, and specifically included workforce development 
provisions. I support Sec. 2601, the National transit frontline 
workforce training center in H.R. 2. This center will be a first step 
in preparing frontline transit workers for the transition to, and 
adoption of 21st century technologies across our transportation system. 
However, frontline worker assistance is just a first step. The issues 
facing transit agencies are enormous and require a systematic approach 
for the Federal Transit Administration (FTA) and National Highway 
Traffic Safety Administration (NHTSA).
    In 2019, the GAO issued a report indicating that no transit 
specific workforce development strategy exists. It pointed out that FTA 
had not developed transit-specific workforce projections, and that the 
workforce development strategy lacks a strategic or holistic approach. 
GAO's conclusions are even more troubling when you drill down into the 
transition for electric vehicle adoption. Transit agencies and the 
working men and women at the front lines, the skilled workforce 
rebuilding the buses, operating the switches, and maintaining the 
infrastructure of the agencies, face real questions that we must begin 
to confront. There is an existential threat posed by the transition to 
electric vehicles for transit agencies. The structure of transit agency 
maintenance system, the workforce development pipeline, and the skills-
based knowledge for the workforce is vulnerable during the upcoming 
fleet transition.
    These transit agencies, the unions and our nation need a strategic 
vision for helping transit agencies prepare for this future. I am 
therefore hopeful that the committee will be more explicitly include 
electric vehicle transition into the workforce challenges faced by 
frontline workers. I encourage the committee to more exilically 
recognize that NHTSA and FTA must provide guidance, and a roadmap for 
agencies to build a more resilient workforce that can confront this 
transition.
                        3) Emerging Technologies
Support the NETT Council and Hyperloop Technologies
    The Department of Transportation has also stood up an exciting New 
and Emerging Technologies (NETT) Council. This office has a cross 
cutting purpose and deserves congressional support. This office 
provides a strategic and long-term opportunity to support technologies 
like Hyperloop. Progress is at hand. For instance, last year, the 
Department of Energy conducted a study on the grid impacts of 
installing a Hyperloop system. I believe DOT has an important 
regulatory and leadership role to help guide Hyperloop ensure that one 
day, a commuter passenger can travel from Downtown Toledo to downtown 
Chicago in a matter of minutes.
                               4) Amtrak
Include a Policy Statement Opposing Cuts to Amtrak Long Distance Routes
    I also applaud the committee for including my floor amendment last 
year expressing the concern for proposed cuts to long distance Amtrak 
routes. Yes, in emergency funding, Congress supported the long-distance 
routes. But since the surface transportation lasts into the outyears, 
Congress must support long-distance routes to ensure they continue to 
operate during the entire period of the surface transportation bill. 
These routes offer a critical connection for countless communities, 
long distance travelers and the represent future for both big and small 
cities alike.

    Mr. DeFazio. I thank the gentlelady. Do Members have 
questions?
    I just thank the gentlelady for her extraordinary advocacy 
for inland waterways, particularly the St. Lawrence Seaway and 
the Great Lakes. And they are an invaluable resource and need 
further Federal investment recognition. So I thank the 
gentlelady.
    With that, we turn to Representative Larson, Connecticut.

TESTIMONY OF HON. JOHN B. LARSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Larson. Thank you, Mr. Chairman, and thank you, Ranking 
Member Graves and distinguished members of the committee. This 
is, as others have indicated, a great opportunity for Members 
to express their concerns and present their ideas.
    Chairman, I think President Biden and Secretary of 
Transportation Buttigieg had the I-84/91 interchange in my 
district in mind when they drew up this plan. You, of course, 
are no stranger, having been at least a half a dozen times up 
to visit the site. And I hope to submit for the record a letter 
from former Chairman Shuster--again, showing the bipartisan 
nature of infrastructure--who also traveled to the district and 
saw the basic needs.
    The President has outlined in his proposal Projects of 
National and Regional Significance, redressing historic 
inequities, modernizing public transportation, infrastructure 
resilience, multimodal connections to airports, intercity rail, 
brownfield and Superfund remediation, housing, and physical, 
social, and civic infrastructure. In all of those categories, 
this project qualifies.
    The 84 and 91 interchange, Chairman, as you alluded to, is 
a product of the Eisenhower administration, long outmoded, so 
much so that the I-84 and 91 interchange is the number-one 
chokehold in the State of Connecticut, number two in New 
England, and, depending on who you talk to at the national 
level, between 11 and 30 in terms of its need and urgency.
    And it is compounded by the fact, as you know, Mr. 
Chairman, having visited there, a problem that has occurred in 
levees that prevent the flooding of the Connecticut River 
historically, and those levees are experiencing what we call 
sand piping, which, as you know, contributed to the collapse of 
the levees in New Orleans in the Ninth Ward. And so it rises to 
a sense of urgency, compelling urgency, because of the eminent 
threat, fortunately, that we have been able to dodge over these 
years. But we can't continue to count on luck. We have to make 
sure that we are taking very specific action.
    I would also like to highlight that contained within this 
is also what we refer to as the 06120. For people of North 
Hartford, they know it very well. That is the poorest zip code 
in the State of Connecticut. And it is also poor because of the 
way that that highway system cut off and segregated that part 
of Hartford from the rest of the city. They neither have access 
to the river, nor do they have access to the city. And what was 
once an incredible, thriving community now finds itself 
impoverished because of the result of the dissection by the 
highway, the Aetna mixmaster, and in East Hartford the 
mixmaster, which replaced and moved entire communities in the 
North Meadows.
    And so the more-than-a-50-year goal can be accomplished of 
recapturing the riverfront, with the only Blueways designated 
river in the Nation, the historic Connecticut River, and also 
provide us with the opportunity to both fix those levees, 
adjust the interchange--so, as you point out, that we bring 
this system into the 21st century. And in doing so, we will 
have created and helped a number of the inequities.
    We mentioned intermodal transportation, and also between 
North Atlantic Rail and the connection between the tristates of 
New York, Massachusetts, and Connecticut. The light rail system 
also connects us to the Bradley International Airport, as well, 
which is shared by Massachusetts in Chairman Neal's district, 
and Chairwoman DeLauro's district, as well.
    And so that is why we think this is vitally important, 
again, that we are able to make those intermodal connections, 
whether it is on foot, by bike, by bus, by automobile, by 
train, or whether it be by air, the unique opportunity to make 
sure that we are coordinating this effort and connecting every 
entity together remains uppermost in our concern.
    And so, Mr. Chairman, I would also like to say that we 
enjoy the support of the Transportation and Infrastructure 
Committee in the State of Connecticut, and also the 
Transportation and Infrastructure Committee chair.
    Commissioner Giulietti has also, Mr. Chairman, asked that, 
when you come back to Connecticut, that he could be your 
partner in the annual bocce ball tournament, which I hope you 
will attend this September. I look forward to that, your coming 
to the State of Connecticut again. And most importantly, thank 
you for this opportunity to come and present our objectives to 
you on this Members' Day.
    And with that I will yield back my time.
    [Mr. Larson's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. John B. Larson, a Representative in Congress 
                     from the State of Connecticut
    It's as if President Biden and Transportation Secretary Buttigieg 
had the Hartford region and the I-84/91 Interchange in mind when they 
laid out their bold plan for infrastructure, the American Jobs Act. In 
Connecticut, we're have a proposal that incorporates so many of their 
priorities including:
    <bullet>  Projects of National and Regional Significance
    <bullet>  Redressing Historic Inequities
    <bullet>  Modernizing Public Transportation
    <bullet>  Infrastructure Resilience
    <bullet>  Multimodal Connections to Airports
    <bullet>  Intercity Rail
    <bullet>  Brownfield and Superfund Remediation
    <bullet>  Housing
    <bullet>  Physical, Social, and Civic Infrastructure

    The I-84/91 infrastructure was created during the Eisenhower 
administration when Interstates 84 and 91 were installed, bisecting the 
City of Hartford, isolating or eliminating thriving neighborhoods and 
cutting off access to the Connecticut River. Now, those highways make 
up the number one chokehold in Connecticut, the number two in New 
England, and depending on who you talk to between number 11 and number 
30 in the Nation. Throw in a levee system that is in need of repair due 
to sandpiping, and the current situation rises to the height of 
urgency. An investment to fix these problems incorporates all the 
various elements of the Biden infrastructure proposal. That's why we're 
so bullish about this.
    Chairman DeFazio has been to the district no less than half a dozen 
times, and predecessor, Chairman Shuster has been many times as well. 
Both have recognized the importance and significance of this, and that 
is why we are before the committee to ask for this important 
infrastructure funding.
    Both the City of Hartford and East Hartford have been blocked from 
the Connecticut River by virtue of being bisected by I-84 & I-91 and 
the mixmaster, a massive interchange that contains the equivalent of 
all the concrete used in downtown Hartford, and takes up the land 
equivalent of that downtown. This design has created racial isolation 
in the city. The North End of Hartford, which was once a thriving 
community, has been cut off from the city and cut off from their 
waterfront. As a result, the 06120 is now Connecticut's poorest zip 
code.
    This has long been a posterchild for bad planning for the region 
and now is the historic opportunity to correct that. Now, this project 
will be the model and prototype of the American Jobs Plan.
    We can end this racial isolation, fulfil a fifty-year goal of 
recapturing the only National Blueway-designated river, and fix a 
traffic chokehold which is currently a tri-state concern.
    Connecticut DOT Commissioner Joseph Giulietti and Connecticut 
Governor Ned Lamont have embarked on a design build study to do just 
this, by realigning I-84 and 91, and eliminating the mixmaster and 
Atena viaduct. I want to thank the committee for its time, and look 
forward to pressing this issue. I'm glad to be working hand and glove 
with Governor Lamont and Commissioner Giulietti on this because of its 
vital importance to the State of Connecticut.

    Mr. DeFazio. I thank the gentleman. While I might accept 
him as a partner on my team if he is a ringer, we will have to 
chat about his skill level. But I thank the gentleman.
    You know, I do think that the 84/91 is the sort of project 
that the President and Secretary Buttigieg had in mind when 
they proposed this new program. It would be a new program. 
Therefore, it will have to be authorized, and will have to go 
through the authorization process in order to receive funding, 
and we will set some criteria as we move forward there. So I 
thank the gentleman for his persistent advocacy.
    We next move to our former committee colleague, and the 
foremost advocate for infrastructure on the Ways and Means 
Committee, and perhaps one of the foremost advocates--well, 
maybe there are a couple of others up there--for infrastructure 
projects in the United States of America, Representative 
Blumenauer, my colleague from Oregon.

TESTIMONY OF HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you very much, Mr. Chairman, for your 
kind words, for your leadership, for what the committee is 
doing, preparing us to rebuild and renew America.
    You know, I had the opportunity to serve on this committee 
for my first decade in Congress. Some of my best memories are 
serving on the T&I Committee and working in a bipartisan 
fashion with you, and Mr. Oberstar, Bud Shuster. It was 
terrific. I hope we can move forward on a grand scale.
    When I last testified before this committee nearly 2 years 
ago, the reality we face today was nearly unimaginable. We have 
had over half a million Americans lose their life from COVID-
19. The economy was thrust into the worst recession in nearly a 
century. The climate crisis ravaged communities across the 
West, and America was forced to finally deal with centuries of 
racial injustice. These developments necessitate a different 
response as we deal with infrastructure.
    The solution to these interrelated crises is not the status 
quo, as you have put forth so eloquently, Mr. Chairman. It is a 
forward-thinking approach on a scale necessary to restore our 
global competitiveness, equitably invest in communities, combat 
climate change, and create millions of family-wage jobs.
    I was so pleased to see President Biden's American Jobs 
Plan call for a historic $2.3 trillion investment in upgrading 
our infrastructure. The proposal rightly goes beyond bikes, 
roads, and bridges. It is the most consequential vision to 
rebuild and renew America in more than two centuries.
    This investment, alongside a long-term surface 
transportation reauthorization bill that you have been 
pioneering, is a necessary step to build back from the 
recession and usher in a more prosperous, clean, and just 
future. I have long supported many of the proposals included in 
both the President's plan and in your Moving Forward Act.
    First among those is my work in expanding transportation 
options for individuals in communities, large and small. The 
troubling increases in pedestrian and cyclist deaths in recent 
years requires that Congress increase funding for 
transportation alternatives, target Highway Safety Improvement 
Program funding on dangerous corridors for vulnerable road 
users, and, I would hope, enact my Vision Zero Act to allow 
communities to spend transportation dollars on reducing traffic 
deaths to zero.
    Transportation is the largest source of carbon emissions of 
any sector, giving this committee a significant influence to 
tackle the climate crisis. I hope you will promote the work you 
did in H.R. 2, which was pathbreaking, to continue to integrate 
climate into every transportation program.
    I also hope you will continue to endorse an increased share 
of the Federal Government for transit projects: an increase in 
the ``small starts'' cap, and my legislation to integrate 
bikeshare and micromobility in the transit system. By making 
our transportation more interconnected and more reliable, 
individuals can finally have realistic choices about their mode 
of transportation.
    Too often Federal transportation policies have failed to 
solve problems and, indeed, created problems for future 
generations. Our transportation policy should focus on the 
future of transportation and give communities the tools they 
need for decades to come. This includes continued support for 
the State road user charge pilot projects and bringing the 
concept to the Federal level through a national pilot project.
    We should increase the cap on passenger facility charges 
for aviation and provide local policymakers with a better 
understanding of the secondary influences of autonomous 
vehicles, which can be rather unsettling.
    The scale of the American Jobs Plan may sound large, and it 
is, but it is the result of restoring funding after decades of 
underinvestment, something this committee has been deeply 
concerned about. Too often, Democratic and Republican 
administrations have failed to lead on infrastructure. But this 
is our moment to go big and be bold, by modernizing our public 
transit, investing in transportation electrification, and 
redressing historic inequities, not just fixing roads and 
bridges. Congress can rebuild and renew America to compete in 
the 21st century.
    I look forward to being your partner on the Ways and Means 
Committee. That is, after all, why I reluctantly left T&I to go 
to Ways and Means, was to get you the $1 trillion or $2 
trillion you need to make this happen, and I look forward to 
being your partner in this Congress. Thank you so very much.
    [Mr. Blumenauer's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Earl Blumenauer, a Representative in 
                   Congress from the State of Oregon
    Chairman DeFazio, Ranking Member Graves, thank you for the 
opportunity to testify before this committee today.
    After serving as the City of Portland's Commissioner of Public 
Works, I had the opportunity to serve on this Committee for my first 
decade in Congress. Some of my best memories in Congress are serving on 
the Transportation & Infrastructure Committee and working in a 
bipartisan fashion to meet the challenges of America's transportation 
system.
    When I last testified before this Committee nearly two years ago, 
the reality we face today was nearly unimaginable. In the past year, 
more than half a million Americans lost their lives from COVID-19, the 
economy was thrust into the worst recession in nearly a century, the 
climate crisis ravaged communities across the West, and America was 
forced to finally deal with centuries of racial injustice.
    These developments necessitate a different response.
    The solution to these interrelated crises is not the status-quo, it 
is a forward-thinking approach at a scale necessary to restore our 
global competitiveness, equitably invest in communities, combat the 
climate crisis, and create millions of family-wage jobs.
    I was pleased to see President Biden's American Jobs Plan call for 
a historic $2.3 trillion investment in upgrading America's 
infrastructure. This proposal rightly goes beyond bikes, roads, and 
bridges, it is the most consequential vision to rebuild and renew 
America in more than two centuries. This investment alongside a long-
term surface transportation reauthorization bill is a necessary step to 
building back from the recession and ushering in a more prosperous, 
clean, and just future.
    I have long supported many of the proposals included in both the 
President's plan and in the T&I Committee's Moving Forward Act.
    First among these is my work on expanding transportation options 
for individuals in communities large and small. The troubling increases 
in pedestrian and cyclist deaths in recent years requires that Congress 
increase funding for the Transportation Alternatives Program, target 
Highway Safety Improvement Program funding to dangerous corridors for 
vulnerable road users, and enact my Vision Zero Act to allow 
communities to spend transportation dollars on reducing traffic deaths 
to zero.
    Transportation is the largest source of carbon emissions of any 
sector, giving this Committee significant influence to tackle the 
climate crisis. I hope you will continue to promote the work you did in 
H.R. 2 to integrate climate into every transportation program. I also 
hope you will continue to endorse an increased federal share for 
transit projects, an increase in the Small Starts cap, and my 
legislation to integrate bikeshare and micromobility into transit 
systems. By making our transportation more interconnected and more 
reliable, individuals can finally have realistic choices about their 
mode of transportation.
    Too often, federal transportation policies have failed to solve 
problems and have instead created problems for future generations. Our 
transportation policies should focus on the future of transportation 
and give communities the tools they need for decades to come. This 
includes continued support for the state road user charge pilots and 
bringing the concept to the federal level through a national pilot, 
increasing the cap on the Passenger Facility Charge, and providing 
local policymakers with a better understanding of the secondary 
influences of autonomous vehicles.
    The scale of the American Jobs Plan may sound large, and it is, but 
it is the result of restoring funding after decades of underinvestment.
    Too often Democratic and Republican administrations have failed to 
lead on infrastructure. This is our moment to go big and be bold. By 
modernizing our public transit, investing in transportation 
electrification, redressing historic inequities, and fixing crumbling 
roads and bridges, Congress can rebuild and renew America to compete in 
the 21st century.
    I look forward to being your partner on the Ways and Means 
Committee to produce a once-in-a-generation infrastructure investment.

    Mr. DeFazio. I thank the gentleman for his compelling 
testimony, his continued advocacy and willingness to get us 
whatever balances we require for a robust 21st-century bill as 
we move forward. So I thank him.
    With that we would move on to the next panelist. I read off 
the whole panel, so be ready to follow the person in front of 
you.
    Representative Kilmer, Representative Pascrell, 
Representative Bucshon, Representative Peters, Representative 
Bobby Scott, and Representative Costa.
    With that, Representative Kilmer, you are recognized for 5 
minutes.

 TESTIMONY OF HON. DEREK KILMER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Kilmer. Thank you, Chairman and Ranking Member Graves. 
Thanks for hosting today's Members' Day hearing, and for your 
leadership.
    I appreciate the opportunity to share with you persistent 
concerns that face the district I have the honor of 
representing, which I know are also shared by so many other 
regions across our country, including yours, Mr. Chair.
    I grew up in Port Angeles, a timber town on the Olympic 
Peninsula of Washington State. I was in high school right 
around the time the timber industry took it on the chin. And 
during that time, I saw a lot of my friends' parents and a lot 
of folks in my community lose their jobs. And it had a big 
impact on me. It is why I have spent most of my adult life 
trying to figure out how to make sure we are doing a better job 
of helping communities, so that folks aren't getting left 
behind in our society and in our economy.
    Over the years that I have spent working in and on behalf 
of our region, I have seen firsthand how access to the funding 
and resources needed for critical infrastructure investments 
have made a real difference for communities in our neck of the 
woods. It is because of these infrastructure investments that 
small businesses and students can get connected online. It is 
because of these infrastructure investments that we can fund 
critical projects that will also help get folks to work in 
good-paying jobs. And it is because of these infrastructure 
investments that we can protect access to clean drinking water 
and safeguard our public health. These investments are urgently 
needed, and I am pleased for the opportunity to get to work on 
advancing these important priorities.
    Now, that being said, I have also seen firsthand how, even 
when those critical resources are available, persistent 
challenges continue to face economically distressed 
communities. Specifically, I have come to notice three 
recurrent problems in our current system.
    First, even with the considerable investment of Federal 
resources, there can be a lack of community capacity to 
actually reach those dollars. Distressed or small communities 
don't necessarily have the financial capacity to employ grant 
writers who can navigate that complex system of Federal grants 
and loans.
    Second, a lot of communities aren't just facing short-term 
problems that can be fully addressed with short-term solutions. 
Indeed, there are a lot of communities, like those in my home 
district, that have experienced decades of challenge. While 
one-off grants can be greatly helpful, it is clear to me that 
these communities need more persistent help to solve their 
concerns in a more sustainable way.
    Third, different communities have different needs. Some 
communities need investments that will help to create jobs 
after decades of economic downturn; others need targeted 
assistance for brownfield cleanup, or investments in other 
types of infrastructure needs. Some communities need to see 
investments in workforce development, while others may need 
resources that support job retention such as childcare or other 
earned benefits.
    That is why I think it is important that we address these 
longstanding challenges in a new and different way. It is why I 
have led the development of a new bill called the Build Back 
Better Act, a bill that would establish a new 10-year Federal 
grant program, administered by the Economic Development Agency, 
to provide long-term, flexible assistance to persistently 
distressed communities and local labor markets.
    Among other things, the grants could be used to address 
regional labor market and local labor market needs, including 
land and site development, or basic infrastructure and housing, 
job training, and workforce outreach and job retention 
programs. These Build Back Better grants would have a 
transformational impact on distressed urban, suburban, and 
rural areas that would benefit from this long-term, flexible 
assistance. It will help to create prevailing-wage jobs, 
provide resources to help residents access and retain 
employment, increase local per capita income, and drive long-
term, sustained economic growth and opportunity.
    As a Nation, I believe that we need an economic opportunity 
agenda that empowers communities, that spurs widely shared 
economic growth, and increases local earnings, so that our 
communities can get a real leg up. None of us want the main 
export of our communities to be young people.
    I am grateful for your leadership, Mr. Chairman, and your 
partnership. And as the committee continues to work to build on 
the comprehensive infrastructure package that the House passed 
last Congress, and to implement the Biden administration's 
American Jobs Plan, I look forward to working with you to 
incorporate this proposal, the Build Back Better Act, so that 
we can finally provide the long-term, dedicated support these 
communities need to create sustained job growth and economic 
opportunity.
    I provided additional details regarding eligibility and 
targeting of those resources in a two-pager that I have 
submitted for the record.
    [The information follows:]

                                 <F-dash>
     Build Back Better Act--Fact Sheet, Submitted for the Record by
                           Hon. Derek Kilmer
                       The Build Back Better Act
                       rep. derek kilmer (wa-06)
                 chair emeritus, new democrat coalition
    The COVID-19 crisis precipitated the worst economic downturn since 
the Great Depression, and is exacerbating existing inequities,\1\ 
including place-based opportunity gaps.\2\ We need a bold, innovative 
agenda to spur widely-shared economic growth and create more 
opportunities for more people in places that have been left behind.
---------------------------------------------------------------------------
    \1\ Bartik, Tim, et al, ``Stimulus steps the US should take to 
reduce regional economic damages from the COVID-19 recession,'' 
Brookings Institute & W.E. Upjohn Institute for Employment Research 
(Mar 2020)
    \2\ Fikri, Kenan et al, ``Uplifting America's Left Behind Places: A 
Roadmap for a More Equitable Economy,'' Economic Innovation Group (Feb 
2021)
---------------------------------------------------------------------------
    The Build Back Better Act (BBBA) would establish a new federal 
block grant program at the Economic Development Agency (EDA) to empower 
persistently distressed communities \3\ with flexible 10-year Build 
Back Better Grants (BBBGs) to meet local economic development needs, 
create good jobs, invest in their workers and businesses, connect local 
residents to opportunities and resources for long-term success, and 
build back better with lasting opportunity and economic growth.
---------------------------------------------------------------------------
    \3\ Bartik, Tim, ``Helping American's distressed communities 
recover from the COVID-19 recession and achieve long-term prosperity,'' 
Brookings (Sep 2020) & Bartik, Tim, ``Broad Place-Based Jobs Policies: 
How to Both Target Job Creation and Broaden its Reach,'' W.E. Upjohn 
Institute for Employment Research (Nov 2020)
---------------------------------------------------------------------------
    <bullet>  Why local control? The needs of communities differ. For 
some, the barrier to growth may be inadequate broadband access or poor 
freight mobility, in which case, they could use these grants for 
infrastructure development. Others may need more workers with skills in 
growing industries, so could use BBBGs to invest in training and 
educational opportunities. Or, they may need support for brownfield re-
development and infrastructure investments to support greenfield 
development, job retention resources like childcare services, or 
support for small business and entrepreneurs. Communities know best 
what their challenges are, and solutions should be locally-led.
    <bullet>  Why flexible use? As much as the needs from one community 
to another can vary, they also are likely facing multiple challenges 
that need a diverse set of solutions. Direct spending on services such 
as workforce outreach and training, infrastructure and housing 
development, job retention programs like childcare, and resources for 
small businesses and entrepreneurs are among the most cost-effective 
ways to boost lasting employment and wage growth for local workers. 
Developing and investing in a truly comprehensive economic development 
approach that addresses each economic challenge through a wide range of 
programs and activities will maximize communities' efforts and 
investments.
    <bullet>  Why direct long-term help via formula funding? Distressed 
communities are far more likely to have needs not addressed by short-
term, ad-hoc grants, and often are not eligible to receive direct 
federal assistance through existing block grant programs. Distressed 
communities are also the least likely to have the capacity to navigate 
the maze of competitive federal grant programs. BBBG funding is based 
on each communities' level of economic distress and provides the 
consistent, longer-term help, along with robust technical assistance 
from the EDA, needed to design, implement, and carry out a 
comprehensive, long-term economic development strategy.
    <bullet>  Why distressed communities? These places were hurting 
prior to the COVID-19 pandemic and have seen their challenges 
exacerbated by the ensuing recession. Many were left behind following 
the Great Recession or by the changing economy as certain sectors 
declined, like the timber industry in Washington state. These 
communities have largely been left out of the investment, wealth, 
innovation, and opportunity concentrated in a handful of major metro 
areas, and have been unable to transform their economies and rebuild. 
They are most in need of jobs, and by investing in these areas, America 
has the greatest opportunity to expand overall employment, diversify 
geographic opportunity, and boost the national economy.
                           Additional Details
    <bullet>  Administration: The Build Back Better Grant program would 
be administered by the Economic Development Agency (EDA), leveraging 
the expertise and resources of the EDA to provide thorough technical 
assistance and funds to help eligible communities develop, implement, 
and carry out 10-year comprehensive economic development strategies and 
activities, administer the grants, and conduct oversight of the 
programs.
    <bullet>  Eligible Areas: \4\ Persistently distressed local labor 
markets and local communities would be eligible to receive assistance 
under this Act.
---------------------------------------------------------------------------
    \4\ Bartik, Timothy J. and Austin, John C., ``The program that 
could revitalize both red and blue America,'' Brookings Institute (Feb 
2021)
---------------------------------------------------------------------------
      +  Local labor markets are discrete Core Based Statistical Areas 
(CBSAs), or metropolitan and micropolitan statistical areas, and 
commuting zones (CZs). Local labor markets with a five-year average 
prime-age employment rate that is two and a half percent or more below 
the national five-year average prime-age employment rate are eligible 
to receive the grant.
      +  Local communities are individual units of local government, 
tribes, and territories within a discrete local labor market that is 
not distressed. Local communities with a five-year average prime-age 
employment rate that is five percent or more below the applicable local 
labor market five-year average prime-age employment rate and national 
five-year average prime-age employment rate, and which meet other 
certain criteria, are eligible to receive the grant.
    <bullet>  Eligible Uses: Eligible communities would develop a 10-
year comprehensive economic development strategy for addressing the 
unique local economic challenges, closing their prime-age employment 
gaps, increasing per capita income, and creating sustained economic 
opportunity. BBBGs could be used for a wide variety of purposes, 
including:
      +  Business advice for small and medium-sized local businesses 
and entrepreneurs, such as manufacturing extension services and small 
business development centers.
      +  Land and site development, such as brownfield redevelopment, 
research and technology parks, business incubators, business corridor 
development, and Main Street redevelopment.
      +  Infrastructure and housing, such as improvements in transit, 
roads, broadband access, and affordable and workforce housing 
development.
      +  Job training oriented to regional or local labor market needs, 
such as customized job training programs run by local community 
colleges in partnership with local businesses.
      +  Workforce outreach programs that reach out to lower-income 
neighborhoods and embed job placement and training services in 
neighborhood institutions.
      +  Job retention programs for support services such as job 
success coaches, childcare services, or transportation support.
      +  Other uses deemed appropriate by the EDA.
    <bullet>  Allocation: Eligible communities could receive a maximum 
block grant equal to the cost of closing half of the prime-age 
employment rate gap for that area, subject to cost-sharing. The formula 
is determined by the eligible community's population, level of 
distress, and other factors. The Federal share of the project cost 
would be a minimum of 50 percent and a maximum of 100 percent, 
depending on the level of distress and the needs of the communities.
    <bullet>  Labor Standards: Requires robust labor standards and 
local prevailing wages for laborers and mechanics employed by 
contractors and subcontractors on projects and activities outlined in 
the plan, consistent with the Davis-Bacon Act.

Please reach out to Britt Van, Policy Director, New Democrat Coalition 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6426160d10104a32050a2409050d084a0c0b1117014a030b12">[email&#160;protected]</a>) and Katie Allen, Legislative Director, Rep. 
Derek Kilmer (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c072d382529620d202029220c212d2520622423393f29622b233a">[email&#160;protected]</a>) for more information.

    Mr. Kilmer. And again, I thank you for your leadership and 
for the opportunity to speak before the committee today.
    Thank you.
    [Mr. Kilmer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Derek Kilmer, a Representative in Congress 
                      from the State of Washington
    Chair DeFazio and Ranking Member Graves,
    Thank you for hosting today's Member Day hearing and for your 
leadership. I appreciate the opportunity to share with you the 
persistent concerns that face the district I have the honor of 
representing, which I know are also shared by so many other communities 
across our country.
    You may know that I grew up in Port Angeles--a timber town on the 
Olympic Peninsula in Washington State. I was in high school right 
around the time the timber industry took it on the chin. During that 
time, I saw a lot of my friends' parents, and a lot of folks in my 
community, lose their jobs. It had a big impact on me, and it is why 
I've spent most of my adult life trying to figure out how to make sure 
we are doing a better job of protecting communities so that no one gets 
left behind in our society and economy.
    Over the years that I've spent working in, and on behalf of, our 
region, I've seen firsthand how access to the funding and resources 
needed for critical infrastructure investments has made a real 
difference for communities in our neck of the woods. It's because of 
these infrastructure investments that small businesses and students can 
get connected online. It's because of these infrastructure investments 
that we can fund critical projects that will also help get folks to 
work in good-paying jobs. It's because of these infrastructure 
investments that we can protect access to clean drinking water and 
safeguard our public health. These investments are urgently needed, and 
I'm pleased for the opportunity to get to work on advancing these 
important priorities.
    That being said, I have also seen firsthand how--even when these 
critical resources are available--persistent challenges continue to 
face distressed communities. Specifically, I've come to notice three 
recurrent problems in our current system.
    First, even with the considerable investment of federal resources, 
there can be a lack of community capacity to actually reach those 
dollars. Distressed or small communities don't necessarily have the 
financial capacity to employ grant writers who can navigate the complex 
system of grants and loans needed to access this funding.
    Second, a lot of communities aren't just facing short-term problems 
that can be fully addressed with short-term solutions. Indeed, there 
are a lot of communities--like those in my home district--that have 
experienced decades of decline. While one-off grants can be greatly 
helpful, it is clear to me that these communities need more persistent 
help that will solve their concerns in a more sustainable way.
    Third, different communities have different needs. Some communities 
need investments that will help to create jobs after decades of 
economic downturn. Others need targeted assistance for brownfield clean 
up, or investments in other types of infrastructure needs. Some 
communities need to see investments in workforce development, while 
others may need resources that support job retention such as child care 
and other earned benefits.
    That's why I think it's critically important we address these 
longstanding challenges in a new and different way. It's why I have led 
the development of the Build Back Better Act--a bill that will 
establish a new, 10-year federal grant program administered by the 
Economic Development Agency to provide long-term, flexible assistance 
to persistently distressed communities and local labor markets. Among 
other things, the grants could be used to address regional labor market 
and local labor market needs including land and site development, basic 
infrastructure and housing, job training and workforce outreach, and 
job retention programs.
    These Build Back Better grants would have a transformational impact 
on distressed urban, suburban, and rural areas that would benefit from 
this long-term, flexible assistance. It will help to create prevailing 
wage jobs, provide resources to help residents access and retain 
employment, increase local per capita income, and drive long-term, 
sustained economic growth and opportunity.
    As a nation, I strongly believe that we need an economic 
opportunity agenda that empowers communities, spurs widely shared 
economic growth, and increases local earnings so that our communities 
can get a real leg up. None of us want the main export of the 
communities we represent to be young people.
    I am grateful for your leadership and partnership.
    As the Committee continues to work to build on the comprehensive 
infrastructure package (H.R. 2) that the House passed last Congress and 
to implement the Biden Administration's American Jobs Plan, I look 
forward to working with you to incorporate this proposal--the Build 
Back Better Act--so that we can finally provide the long-term, 
dedicated support these communities need to create sustained job growth 
and economic opportunity. I have provided additional details regarding 
eligibility and targeting of these resources in the two-pager that I 
submitted for the record.
    Thank you again for your leadership and for the opportunity to 
speak before the Committee today.

    Mr. DeFazio. I thank the gentleman, and I share his concern 
for communities like he grew up in. And that is reflected in a 
good deal of my district.
    And I have raised the issue of a new program in EDA to 
provide predevelopment and other assistance for these 
chronically depressed areas with Secretary Raimondo, and she 
was quite interested in the concept. We are having discussions 
with her.
    And then I was on a call with Gene Sperling this morning, 
and he is very excited about the potential for the $3 billion 
that the Rescue Act put into the Economic Development Agency. 
And that is where I think we can probably work out something 
along the lines of what the gentleman has proposed. So I thank 
him for his ideas and advocacy.
    With that we move on to Representative Pascrell.

   TESTIMONY OF HON. BILL PASCRELL, Jr., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Chairman DeFazio, Ranking Member Graves, I 
want to thank you very much for the opportunity to highlight my 
priorities as you work on a surface transportation 
reauthorization bill.
    I think some of us have been here long enough to remember 
we used to have 5-year plans. Democrats and Republicans would 
come together, as you pointed out, as a few of your testifiers 
pointed out today.
    I am here to join Congressmen Sires, Donald Payne, and Tom 
Malinowski from New Jersey in advocating for New Jersey. And, 
as a former member of this committee, I know the work it 
entails, and you do a fantastic job.
    I might say kudos to you, Chairman DeFazio, not that you 
need them from me, but you stuck with it. And I remember the 
grunting and groaning of all of us as we headed into the last 
10 years.
    Our roads are aging, our bridges are crumbling, and our 
roads are congested. New Jersey rail commuters have suffered 
enough on a bridge nearly as old as the Stone Age. The most 
heavily traveled bridge with a deficient rating in New Jersey 
is the span of I-80 crossing the Passaic River. I hear my 
constituents demanding relief through their blaring horns, 
commuting on century-old infrastructure. Every minute or hour 
delayed is one less minute or hour that parents can spend with 
their families.
    And I must say, Mr. Chairman, if you can remember, the 
point was brought out many, many times under the great 
leaderships of this committee in the past. And what was pointed 
out? The more you do for infrastructure, the less anxiety is 
created because you will know that a bridge is going to be 
completed. You will know that a road is going to be completed. 
An airport is going to be completed, et cetera. And you can't 
tell now. You can't tell.
    The White House reminded me of our need this week by giving 
us a D-plus on its Infrastructure Report Card. I was a teacher, 
and I could tell you a D-plus can't make it. It wasn't a grade 
you were pleased with. So I would like to highlight a few 
projects of importance, and I hope, Mr. Chairman, you can get 
our grades up a little higher.
    While an end is near for the Gateway project's 
environmental review submitted way back in 2018, it is taking 
too long to get here. We have long needed to totally rebuild 
the Hudson River rail tunnels that connect New York and New 
Jersey, pointed out by Congressman Wolf--but he wasn't a 
Democrat--close to 12 years ago--14 years ago. Nothing has 
changed. We must expand commuter rail capacity under the Hudson 
to keep up with the demand, and this need has been exacerbated 
since the damage caused by Superstorm Sandy in 2012.
    Passing this next milestone is a big step. I look forward 
to working hand-in-glove with the President to finally finish 
the job.
    One component of this project is the Portal Bridge spanning 
the Hackensack River. It is a relic built from a past time, 
when the Philadelphia Athletics won the World Series. I am not 
kidding. That is how old it is. We must upgrade this dangerous 
structure and modernize our cross-river transportation.
    It is dead wrong that New Jerseyans and all who travel on 
the Northeast Corridor have been forced to traverse a bridge 
dating back to President Taft, and we won't stand for it. We 
are not going to play second fiddle in New Jersey.
    I must also mention that we need more access to public 
transportation throughout northern New Jersey. New Jersey is 
the most densely populated State in America. There is no more 
room for major roadways. Transit has lessened our road 
congestion, and improved what is some of the worst air quality 
in the Nation. Certainly, buses can and must play an important 
role in the expanding transit access.
    The Hudson-Bergen Light Rail is in desperate need of 
expansion. It can also be a resource. Since it began operating 
in 2000, this system has revitalized older, urban and suburban 
areas in New Jersey. By several estimates, thousands of 
residential units and extensive commercial development can be 
traced to this system. However, progress has been stalled on 
extending these lines throughout North Jersey, and this 
committee can help get them back on track.
    The Northern Branch Corridor Project expansion could 
finally put the Bergen in Hudson-Bergen. It has had engineering 
proposals and environmental studies. It has local support but 
needs access to Federal funding. The cross-county line to 
provide access to folks in my hometown of Paterson is currently 
being re-envisioned, as well.
    I hope the reauthorization you are considering and the 
American Jobs Plan can be our savior, and I wish you the best 
of luck. If anybody deserves it, Mr. Chairman, it is you.
    [Mr. Pascrell's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Bill Pascrell, Jr., a Representative in 
                 Congress from the State of New Jersey
    Chairman DeFazio and Ranking Member Graves, thank you very much for 
the opportunity to highlight my priorities as you work on a surface 
transportation reauthorization bill. I also want to thank my delegation 
colleagues on this committee, Congressmen Albio Sires, Donald Payne, 
Jr. and Tom Malinowski, for their work advocating for New Jersey. As a 
former member of this committee, I know the work it entails, and they 
do a fantastic job.
    Our roads are aging, our bridges are crumbling, and our railways 
are congested. North Jersey rail commuters have suffered enough on a 
bridge nearly as old as the Stone Age. The most heavily traveled bridge 
with a deficient rating in New Jersey is the span of I-80 crossing the 
Passaic River. I hear my constituents demanding relief through their 
blaring horns commuting on century old infrastructure. Every minute, or 
hour, delayed is one less minute or hour that parents can spend with 
their families.
    The White House reminded me of our need this week by giving us a D+ 
on its Infrastructure Report Card. I was a teacher and I can tell you 
D+ wasn't a grade you were pleased with. So, I'd like to highlight a 
few projects of importance.
    While an end is near for the Gateway Project's environmental review 
submitted way back in 2018, it's taken too long to get here. We have 
long needed to totally rebuild the Hudson River rail tunnels that 
connect New York and New Jersey. Former Governor Chris Christie set our 
cause back over a decade. We must expand commuter rail capacity under 
the Hudson to keep up with demand. And this need has been exacerbated 
since the damage caused by Superstorm Sandy in 2012. Passing this next 
milestone is a big step to finally replacing this decaying structure. I 
look forward to working hand in glove with President Biden to finally 
finish the job.
    One component of this project is the Portal Bridge spanning the 
Hackensack River. It is a relic built from a past time when the 
Philadelphia Athletics won the World Series. We must upgrade this 
dangerous structure and modernize our cross-river transportation. It is 
dead wrong that New Jerseyans and all who travel on the Northeast 
Corridor have been forced to traverse a bridge dating back to President 
Taft, and we won't stand for it.
    I must also mention that we need more access to public 
transportation throughout northern New Jersey. New Jersey is the most 
densely populated state in the America. There is no more room for major 
roadways. Transit has lessened our road congestion and improved what is 
some of the worst air quality in the nation. Certainly, buses can and 
must play an important role in expanded transit access.
    The Hudson-Bergen Light Rail is in desperate need of expansion, can 
also be a resource. Since it began operation in 2000, this system has 
revitalized older urban and suburban areas in New Jersey. By several 
estimates, thousands of residential units and extensive commercial 
development can be traced to this system. However, progress has been 
stalled on extending these lines throughout North Jersey and this 
committee can help get them back on track. The Northern Branch Corridor 
Project expansion can finally put the Bergen in Hudson-Bergen. It has 
had engineering proposals and environmental studies. It has local 
support but needs access to federal funding. The cross-county line to 
provide access to folks in Paterson is currently being re-envisioned as 
well.
    I hope the reauthorization you are considering, and the American 
Jobs Plan, can be our savior. Thank you very much for your time and the 
opportunity to testify today.

    Mr. DeFazio. I thank the gentleman, and I thank him in 
particular for pointing out that the very robust economic 
development that generally follows these commuter lines 
ultimately has a very positive rate of return to State, local, 
and even the Federal Government, in addition to mitigating 
congestion and climate change. So I thank the gentleman.
    With that we would move to the next witness, Representative 
Bucshon.

 TESTIMONY OF HON. LARRY BUCSHON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Dr. Bucshon. Chairman DeFazio, Ranking Member Graves, and 
members of the committee, thank you for the opportunity to 
testify today.
    Completing Interstate 69 is one of the most important 
infrastructure projects in the United States, truly a project 
of national significance. It will eventually span 2,400-plus 
miles, connecting the Canadian and Mexican borders. I-69 runs 
through the States of Texas, Mississippi, Tennessee, Kentucky, 
Louisiana, Arkansas, Michigan, and my home State of Indiana.
    Today I-69 consists of multiple disjointed sections, and 
you can see that in image 1 in my written testimony. Breaks in 
the interstate make the corridor less safe and efficient. The 
Ohio River crossing is one of the most significant existing 
breaks. It is a bridge between Indiana and Kentucky. Once 
completed, the Ohio River crossing will make I-69 contiguous 
between the Canadian border and Memphis, Tennessee.
    In 2016, the Governors of Indiana and Kentucky agreed to 
split the development and planning costs of the Ohio River 
crossing, and this can be seen in image 2 in my written 
testimony.
    The project has undergone a NEPA review that was published 
and is now awaiting a Record of Decision from the Federal 
Highway Administration that is expected this summer.
    The bridge itself is projected to cost around $850 million, 
but will rise to $1.497 billion, with current financing and 
other planning costs. Funding is not expected to be available 
until 2027 or later, based on current State-level planning.
    An additional 3-year expected bridge construction time 
means construction cannot be complete for another decade, at 
the earliest. This delay will be costly to health and safety, 
and to the economy.
    Obtaining a contiguous I-69 is an important goal. 
Currently, traffic must be redirected off of I-69 onto roads 
not intended to handle the types of volume or vehicles that an 
interstate does. This traffic is often redirected through urban 
areas. The Ohio River Crossing Environmental Impact Study found 
that interstates have crash rates 73 percent lower than divided 
four-lane highways in urban areas. The same study found 
interstates have crash rates 58 percent lower than four-lane 
divided highways in rural areas. A 2004 Environmental Impact 
Study found that completing I-69 just between Indianapolis and 
Evansville, Indiana, would result in 30,000 less serious 
crashes over a 20-year period. These statistics show the hidden 
costs that Americans along this unfinished interstate are 
paying.
    Completing I-69 and the Ohio River crossing also have 
profound economic impacts. Canada and Mexico are already the 
top export trading partners of six of the eight States that I-
69 goes through. I-69 also connects to 22 other strategic 
interstate highways, and major manufacturing and agricultural 
centers. And this can be seen in image 3 in my written 
testimony.
    The implementation of the USMCA indicates that commercial 
traffic along the route will increase. This compounds with 
national shipping trends that project 70 percent of freight in 
the United States moves on the highway system. This figure is 
expected to increase by 50 percent by 2040. The same 2004 
Environmental Impact Study found completing the Evansville-
Indianapolis stretch of I-69 would save 650,000 vehicle-hours 
traveled, and hence, vehicle emissions will be lower.
    Completing this I-69 segment would also bring an additional 
$3.5 billion in additional personal income to the region over 
20 years.
    These fiscal benefits came from completing just the 170-
mile stretch of the interstate. I am confident these results 
would be replicated along the entire corridor as it is 
completed.
    This expected growth could also be stunted or could even 
become dangerous if reliable and efficient routes are not in 
place to handle increased traffic volumes that are projected. 
Completing the Ohio River crossing is essential to completing 
the I-69 corridor.
    I am proud to work with the Department of Transportation 
and any other stakeholders to ensure that our request to speed 
I-69 completion is using taxpayer dollars responsibly and 
conforming to all relevant laws and authorities.
    As a large infrastructure package is being considered, 
funding the Ohio River crossing for I-69 should be seriously 
considered, as it is clearly a project of national 
significance. As I have mentioned, this will not only save 
lives, but will stimulate economic activity across the central 
part of the United States. In addition to decreased emissions, 
it will have an impact on our goal of addressing climate 
change.
    Thank you, Mr. Chairman, and thank you, Ranking Member, for 
allowing me to have this opportunity to testify before the 
committee. I yield.
    [Dr. Bucshon's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Larry Bucshon, a Representative in Congress 
                       from the State of Indiana
    Chairman DeFazio and Ranking Member Graves, thank you for the 
opportunity to come before this committee today and talk about one of 
the most critical ongoing infrastructure projects in the United States, 
Interstate 69. I-69 connects the Canadian and Mexican borders, running 
through Texas, Mississippi, Tennessee, Kentucky, Louisiana, Arkansas, 
Michigan, and my home state of Indiana.
    While the I-69 system will eventually span more than 2,400 miles, 
today it consists of multiple disjointed sections (see Image 1), which 
makes the corridor less safe and efficient. One of the most significant 
breaks in the interstate exists at the Ohio River Crossing on the 
border between Indiana and Kentucky. Once completed, this bridge would 
make I-69 contiguous for hundreds of miles between Port Huron on the 
Canadian border and Memphis, Tennessee.
    In 2016, the governors of Indiana and Kentucky issued a Memorandum 
of Understanding to split the development and planning costs of the I-
69 Ohio River Crossing project (see Image 2). Since then, the bridge 
has undergone a NEPA review that was subsequently published and is 
awaiting a Record of Decision from the Federal Highway Administration 
this summer. Indiana and Kentucky have agreed to share the bridge 
construction costs, which are expected to be approximately $850 million 
for the bridge itself and is expected to increase to $1.497 billion 
with financing and other planning costs. Subsequently, the project will 
be waiting for funding to become available, which is currently not 
expected until 2027, or even later. With an expected bridge 
construction time of three years, this means that the northern half of 
I-69 will not be contiguous for over another decade at the very 
earliest--a delay that will prove costly to health and safety and to 
the economy.
    A contiguous I-69 is a goal that this committee must help achieve 
as quickly as possible. Currently, when an existing stretch of I-69 
ends, traffic must redirect off the interstate onto roads that are not 
intended to handle the volume of traffic or types of vehicles that an 
interstate highway is capable of, often redirecting them through 
crowded urban areas. An environmental impact study for the Ohio River 
crossing found that in urban areas, interstates have average crash 
rates that are about 73 percent lower than divided four-lane highways. 
In rural areas, average interstate crash rates are about 58 percent 
lower than divided four-lane highways. A 2004 Environmental Impact 
Study of completing I-69 between Indianapolis and Evansville, Indiana, 
found that its construction alone would result in approximately 30,000 
less serious crashes over a 20-year period. These staggering figures 
show the hidden costs that Americans along the unfinished interstate 
are paying for delays in construction today.
    Another reason that I-69 and its Ohio River Crossing must be 
quickly completed is the substantial positive economic impact that will 
occur as a result of completion. I-69 is a critical route for trade 
between the United States, Canada, and Mexico, as those countries are 
already the top export trading partners of six of the eight states that 
I-69 runs through. The interstate will also play a large role in 
fostering domestic travel by connecting to 22 other strategic 
interstate highways, and major manufacturing and agricultural centers 
(see Image 3). Now that USMCA is in effect, commercial traffic along 
the route is only expected to increase. This compounds with national 
trends in shipping that show 70% of the nation's freight moves on the 
highway system today, and that freight is expected to increase by 50% 
by 2040.
    The 2004 Environmental Impact Study estimated that just completing 
the route between Evansville and Indianapolis would translate into over 
650,000 vehicle-hours saved per year, and bring over $3.5 billion in 
additional personal income over 20 years to Southwest Indiana. These 
are benefits from completing a 170 mile stretch of the interstate, and 
are ones that I am confident would be replicated in your own states and 
districts along the length of the interstate across the nation as more 
and more of the corridor is interconnected. This expected growth bodes 
well for the American economy, but could be stunted, or even become 
dangerous, if there is not a reliable and efficient route that can 
handle the tremendous traffic volumes that are expected in upcoming 
years.
    I am proud to continue working with relevant Departments of 
Transportation and other local stakeholders to ensure that any requests 
to speed the completion of I-69 are an efficient and responsible use of 
taxpayer dollars that conform to all relevant laws and authorities and 
requirements of the committee.
    This committee should make completing Interstate 69, and more 
specifically completion of the Ohio River Crossing, a priority to 
facilitate safe and efficient trade and travel for years to come.
    Thank you.
                                image 1:
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. DeFazio. I thank the gentleman. I thank him for 
pointing out that we need a Federal partner for major projects, 
that with the two States' combined assets, that they can't even 
begin to address this project until 2027. For too long the 
Federal Government has been absent. We haven't adjusted the 
Federal gas and diesel tax since 1993. So that is why we are 
looking at a very robust bill, and it would include projects of 
national regional significance, and I thank the gentleman for 
his testimony.
    We would now move to Representative Peters.

TESTIMONY OF HON. SCOTT H. PETERS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Peters. Thank you, Mr. Chairman and Ranking Member 
Graves, and thanks for hosting Members' Day for your colleagues 
like me to share our requests for the committee in the upcoming 
surface transportation reauthorization.
    I would like to highlight two issues that affect my 
district and the country as a whole. One is the link between 
public transportation and housing, and the second is Amtrak, 
particularly in southern California.
    First, I want to stress the importance of investing in 
public transportation that prioritizes decongesting our roads, 
increases sustainability, and supports regional housing 
planning. And I urge the committee to continue to improve 
transit infrastructure to encourage more commuters to take 
public transit and reduce vehicle-miles traveled. The Federal 
Government can only support a limited number of projects. We 
have to prioritize projects that will generate the ridership 
that will demonstrably offer automobile alternatives and 
minimize greenhouse gas emissions, not to mention increased 
farebox recovery.
    To this end, we need to ask local and State governments, in 
exchange for the massive Federal transit investments we make in 
local communities, to commit to increasing density and building 
more housing along transit corridors. Large and small cities 
across the country and across California struggle to build 
enough housing and keep rents affordable for families. Between 
2005 and 2014, California built a little more than 300 homes 
for every 1,000 new residents. At the same time, the Federal 
Government is supporting transit projects that are routed far 
from housing, which undercuts performance and farebox recovery.
    This week I reintroduced the Build More Housing Near 
Transit Act, H.R. 2483, that would help incentivize a more 
thoughtful approach to building housing during the construction 
of large transit projects. My bipartisan bill modifies the 
Capital Investment Grants program to fast-track applications 
that conduct a housing feasibility assessment to determine how 
and where housing units could be built near new transit stops. 
It also provides a scoring boost to projects that can 
demonstrate a local commitment to changing land use policies to 
accommodate market-rate and affordable housing.
    This bill is important because it shifts the discussion of 
land use policy to the beginning of the conversation. The 
Federal Government can spur livable, sustainable communities, 
and it is our responsibility to the taxpayer to make sure we 
maximize their investment. The bill is supported by a wide 
array of organizations, including Transportation for America, 
the American Planning Association, Smart Growth America, Up for 
Growth Action, Congress for New Urbanism, as well as the 
Mortgage Bankers Association, National Association of Home 
Builders, and the National Apartment Association.
    I am grateful to Chairman DeFazio and the committee for 
including the language for the Build More Housing Near Transit 
in last year's H.R. 2, and I hope we can pass it again and 
include it this year, as well.
    Second, I want to say we need to make substantial 
investment in the Amtrak system to make it a viable and 
enticing public transportation option outside of its most 
popular route, the Northeast Corridor. The second busiest 
intercity rail corridor in the Nation, the LOSSAN Corridor, 
begins in San Diego. It carries $1 billion worth of goods and 8 
million passengers a year and ensures critical military access 
as a designated Strategic Rail Corridor Network.
    The corridor is vital to our regional, State, national, and 
international economies, yet portions of the corridor are 
literally falling into the ocean. Tracks run along the Del Mar 
Bluffs, which, as recently as last month, had another portion 
collapse into the sea. This latest collapse occurred within 35 
feet of the tracks, tracks that carry passengers and freight 
multiple times a day. Trains are now directed to traverse this 
area at a reduced speed, and these are not sustainable 
conditions, to put it mildly.
    While we see routine major investments in the Northeast 
Corridor, funding is lacking for the Nation's second busiest 
intercity corridor. And I am hopeful that President Biden's 
recently proposed $80 billion plan for Amtrak will include a 
significant, transformative investment in the San Diego to Los 
Angeles routing.
    In my district, the Amtrak largely runs parallel with 
Interstate 5, the main freeway that runs north-south from 
Mexico to Canada. And riding the Amtrak provides a beautiful 
view of the Pacific Ocean, comfortable seating, and Wi-Fi. And 
taking the train should be an obvious and enticing option for 
avoiding gridlock on the 5. But because there has been so 
little investment in upgrading service, a trip from San Diego 
to Los Angeles on Amtrak takes over 3 hours, versus 2 hours in 
a car. So it is no surprise the 5 freeway remains packed at all 
times of the day, that it really isn't a viable other option.
    With additional funding to improve service and travel times 
between San Diego and L.A., Amtrak could remake the way 
southern Californians commute and travel. And I urge the 
committee to think a little bit about southern California for 
future investments. It is past time.
    Thanks for your time and consideration of these matters. I 
look forward to continuing to work with you on these and other 
issues, and I yield back the balance of my time.
    [Mr. Peters' prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Scott H. Peters, a Representative in 
                 Congress from the State of California
    Chairman DeFazio and Ranking Member Graves:
    Thank you for hosting ``Member Day'' for your colleagues like me to 
share our requests and priorities for the Transportation and 
Infrastructure Committee and the upcoming surface transportation 
reauthorization.
    I'm here to highlight two issues that affect my district and the 
country as a whole, including
    1.  issues of public transportation, density, and housing; and
    2.  improving Amtrak for Southern California.

    First, I would like to stress the importance of investing in public 
transportation that prioritizes decongesting our roads, increases 
sustainability, and supports regional housing planning.
    I urge the Committee to continue to improve transit infrastructure 
to encourage more commuters to take public transportation and reduce 
vehicle miles traveled. The federal government can only support a 
limited number of projects. We must prioritize projects that will 
generate the ridership that will demonstrably offer automobile 
alternatives and minimize greenhouse gas emissions.
    To this end, we need to ask local and state governments, in 
exchange for the massive federal transit investments we make in local 
communities, to commit to increasing density and building more housing 
along transit corridors. Large and small cities across the country, and 
across California, struggle to build enough housing and keep rents 
affordable for families. Between 2005 and 2014, California built a 
little more than 300 new homes for every 1,000 new residents.
    This week, I reintroduced the Build More Housing Near Transit Act, 
which would help incentivize a more thoughtful approach to building new 
housing during the construction of large transit projects.
    My bipartisan bill modifies the Capital Investment Grants program 
to fast track applications that conduct a housing feasibility 
assessment, to determine how and where housing units could be built 
near new transit stops.
    It also provides a scoring boost to projects that can demonstrate a 
local commitment to changing land use policies to accommodate market-
rate and affordable housing.
    This bill is important because it shifts the discussion of land use 
policy to the beginning of the conversation. The federal government can 
spur livable, sustainable communities, and it's our responsibility to 
the taxpayer to make sure we maximize their investment.
    The bill is supported by a wide array of organizations, including 
Transportation For America, the American Planning Association, Smart 
Growth America, Up For Growth Action, and the Congress for New 
Urbanism.
    I am grateful to Chairman DeFazio and the Transportation and 
Infrastructure Committee for including the language from Build More 
Housing Near Transit in last year's HR 2, and I hope it will be 
included again this year.
    Secondly, we need to make substantial investment in the Amtrak 
system to make it a viable and enticing public transportation option 
outside of its most popular route, the Northeast Corridor. The second 
busiest intercity rail corridor in the nation, the LOSSAN corridor, 
begins in San Diego. It carries $1 billion worth of goods and 8 million 
passengers a year, and ensures critical military access as a designated 
Strategic Rail Corridor Network.
    The corridor is vital to our regional, state, national, and 
international economies, yet, portions of the corridor are literally 
falling into the ocean. The tracks run across the Del Mar Bluffs, which 
as recently as last month had another portion collapse into the sea. 
This latest collapse occurred within 35 feet of the tracks that carry 
passengers and freight multiple times a day. Trains are now directed to 
traverse this area at a reduced speed--these are not sustainable 
conditions, to put it mildly.
    While we see routine major investments in the Northeast Corridor, 
commensurate funding is lacking for the nation's second busiest 
intercity corridor. I'm hopeful that President Biden's recently 
proposed $80 billion plan for Amtrak will include a significant, 
transformative investment in the San Diego to Los Angeles routing. In 
my district, the Amtrak largely runs parallel with Interstate 5, the 
main freeway that runs north-south from Mexico to Canada. Riding the 
Amtrak provides a beautiful view of the Pacific Ocean, comfortable 
seating, and WiFi. Taking the train should be an obvious and enticing 
option for avoiding gridlock on the 5, but because there has been so 
little investment in upgrading service, a trip from San Diego to Los 
Angeles on Amtrak takes over three hours, versus two hours in a car. 
It's no surprise the 5 freeway remains packed at all times of the day--
there isn't a viable other option.
    With additional funding to improve service and travel times between 
San Diego and Los Angeles, Amtrak could remake the way Southern 
Californians commute and travel, and I urge the Committee to think 
beyond the Northeast Corridor for future investments. It is past time.
    Thank you for your time and consideration of these matters. I look 
forward to continuing to work with you on these and other issues, and I 
yield back the balance of my time.

    Mr. DeFazio. I thank the gentleman. I particularly thank 
him for his advocacy and pointing out the critical linkage 
between transit and potential for housing and economic 
development. And I was pleased to work with him in the last 
Congress, and fully intend to include similar provisions in 
this legislation.
    I would like to see a lot of improvement in Amtrak, 
existing Amtrak. I just call it higher speed rail before--we 
are going to do high-speed rail, but Amtrak needs higher. The 
issue he has between San Diego and L.A.--I am in Eugene, it is 
112 miles to Portland. It is supposed to be only about 3 hours 
to get there by train, a train that can go 112 miles an hour. 
And regularly it doesn't even meet that schedule. So we have 
got to work on these issues, and I appreciate his pointing that 
out.
    Now, the chair of the Education and Labor Committee, Bobby 
Scott.

 TESTIMONY OF HON. ROBERT C. ``BOBBY'' SCOTT, A REPRESENTATIVE 
         IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Scott. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. I represent Virginia's Third 
Congressional District, where the Chesapeake Bay meets the 
James, Nansemond, and Elizabeth Rivers, which presents both 
challenges and opportunities.
    My district is home to the Port of Virginia, one of the 
largest and busiest ports on the eastern seaboard. With 95 
percent of our Nation's trade moving by water, it is essential 
that the port is able to maintain operations. The Third 
Congressional District is also home to multiple shipyards, and 
neighbors the Norfolk Naval Station, the largest naval base in 
the country.
    Unfortunately, due to sea level rise, both attributable to 
climate change as well as historic subsidence, these same 
waterways also pose a serious risk. Some studies estimate that 
sea level rise will be as much as 7 feet by the end of the 
century, and that places the Hampton Roads region as the second 
largest population center at risk for sea level rise in the 
Nation, behind only New Orleans. The city of Norfolk is 
specifically at risk of flooding due to high tides, 
nor'easters, and hurricanes. As the home of the Norfolk Naval 
Station and numerous other Federal and military facilities, 
this recurrent flooding also poses a severe national security 
risk.
    State and local officials in Virginia already appreciate 
the significant threat sea level rise poses to Hampton Roads. 
Unfortunately, the cost to proactively and aggressively address 
this problem head-on is far too great for any city to bear by 
itself. And while Hampton Roads has already spent considerable 
sums of money to address the rising water and implement a 
resilient infrastructure where feasible, the scope of the 
entire project to actually address the problem is expected to 
total into the billions of dollars.
    Hampton Roads is also home to significant traffic backups 
throughout the region, especially at waterway crossings. A 
widening of Hampton Roads Bridge-Tunnel is primarily being 
financed with local and State revenue from sales and gasoline 
taxes and the Hampton Roads Transportation Fund. But it 
requires Federal support. There is a limit to how much and how 
many of these major projects can move forward without Federal 
assistance.
    For example, the downtown and midtown tunnels connecting 
Norfolk and Portsmouth, Virginia, were in such a state of 
disrepair and need of expansion that the Commonwealth had few 
options, other than to enter into a lopsided, public-private 
partnership leading to egregious tolls for decades to come.
    The Hampton Roads region is also in vital need of public 
transit investments. Airports, roads, and bridges are in need 
of repair, and I would encourage the committee to commit 
crucial Federal support to infrastructure in every State.
    As chair of the Education and Labor Committee, I look 
forward to working with this committee to address the existing 
shortage of skilled workers and lack of diversity within the 
construction sector. In my district, for example, the Hampton 
Roads Bridge-Tunnel expansion will be creating about 1,000 
jobs. But I just heard from union members about the shortage of 
skilled workers in this area. So any infrastructure bill should 
also include investments in workers, so that they will have the 
skills needed to build and expand a cleaner and greener 
infrastructure.
    For far too long the funding for workforce programs has 
been too small and too disjointed, spread across multiple 
agencies, rather than through an intentional approach 
coordinated with existing public workforce systems. So I look 
forward to working with you to support the recruitment of a 
diverse workforce, and ensure the recruitment for these 
projects happens in and around the communities impacted by 
them.
    The Education and Labor Committee also looks forward to 
working with you, as we insist that school infrastructure must 
be part of the infrastructure package. Despite the evidence 
linking well-resourced facilities, well-supported teachers, and 
healthy buildings to better academic life and outcomes, the 
Federal Government presently dedicates no money to public 
school infrastructure improvements. My legislation, the Reopen 
and Rebuild America's Schools Act, H.R. 604, would invest $100 
billion in grants and $30 billion in bonding authority targeted 
at high-poverty schools. Students and educators deserve to go 
to school every day in a safe and welcoming building. And we 
should be investing in community colleges also--both their 
facilities and technology, to grow local economies, and improve 
energy efficiency and resiliency.
    And Mr. Chairman, thank you again for allowing me to share 
my priorities for a resilient infrastructure package drafted by 
your committee. Thank you very much.
    [Mr. Scott's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Robert C. ``Bobby'' Scott, a Representative 
             in Congress from the Commonwealth of Virginia
    Chairman DeFazio, Ranking Member Graves and members of the 
Committee, thank you for providing me this opportunity to discuss the 
priorities of Virginia's third district in the upcoming infrastructure 
legislation.
    I represent the 3rd congressional district of Virginia where the 
Chesapeake Bay meets the James, Nansemond, and Elizabeth Rivers, which 
presents both challenges and opportunities. My district is home to the 
Port of Virginia, one of the largest and busiest ports on the eastern 
seaboard. With 95 percent of our nation's trade moving by water, it is 
essential that the port is able to maintain operations. The 3rd 
district is also home to multiple shipyards and neighbors Norfolk Naval 
Station, the largest naval base in the U.S.
    Unfortunately, due to sea level rise, both attributable to climate 
change as well as historic subsidence, these same waterways also pose a 
serious risk. Some studies estimate this rise to be as much as 7 feet 
by the year 2100, the Hampton Roads region is the second largest 
population center at risk from sea level rise in the nation, behind 
only New Orleans. The City of Norfolk is specifically at risk from 
flooding due to high tides, nor'easters, and hurricanes. As the home of 
Naval Station Norfolk and numerous other federal and military 
facilities, this recurrent flooding also poses a severe national 
security risk.
    State and local elected officials in Virginia already appreciate 
the significant threat sea level rise poses to Hampton Roads. 
Unfortunately, the cost to proactively and aggressively address this 
problem head-on is far too great for any city to bear by itself. While 
Hampton Roads has already spent considerable sums of money to address 
the rising water and implement resilient infrastructure where feasible, 
the scope of the entire project to actually address the problem is 
expected to total in the billions of dollars.
    Hampton Roads is also home to significant traffic backups at the 
waterway crossings and throughout the region. The widening of the 
Hampton Roads Bridge Tunnel is primarily being financed with local 
revenue from sales and gasoline taxes in the Hampton Roads 
Transportation Fund but it requires state and federal support. There is 
a limit to how much and how many of these major transportation projects 
can move forward without federal assistance. For example, the Downtown 
and Midtown Tunnels connecting Norfolk and Portsmouth Virginia were in 
such a state of disrepair and need of expansion that the Commonwealth 
had few options other than to enter into a lopsided private-public 
partnership leading to egregious tolls for decades to come. The Hampton 
Roads region is also in vital need of public transit investments. Our 
airports, roads, and bridges are in need of repair and I would urge the 
committee to commit crucial federal support for infrastructure in every 
state.
    As the Chair of the Committee on Education and Labor, I look 
forward to working with your Committee to address the existing shortage 
of skilled workers and lack of diversity within the sector. In my 
district, for example, the Hampton Roads Bridges and Tunnel expansion 
creates 1,000 jobs, but I just heard this week from union members about 
an existing skilled trade shortage in the area.
    Any infrastructure bill should also include investments in workers 
so that they have the skills needed to build and expand to cleaner and 
greener infrastructure are needed. For too long the funding for 
workforce programs has been too small and too disjointed, spread across 
multiple agencies rather than through an intentional approach driven 
through the existing public workforce system. I look forward to working 
with you to support the recruitment of a diverse workforce and to 
ensure that recruitment for these projects happens in and around the 
communities impacted by them.
    School infrastructure must also be a part of any infrastructure 
package we consider. Despite the evidence linking well-resourced 
facilities, well-supported teachers, and healthy buildings to better 
academic and life outcomes, the federal government dedicates no money 
to public school infrastructure improvements. My legislation, the 
Reopen and Rebuild America's Schools Act (H.R.604) would invest $100 
billion in grants and $30 billion in bond authority targeted at high-
poverty schools. Students and educators deserve to go to school every 
day in safe and welcoming buildings. We should also be investing in 
community college facilities and technology to grow local economies, 
improve energy efficiency and resilience.
    Mr. Chairman, thank you again for allowing me the opportunity to 
share my priorities for a comprehensive and resilient infrastructure 
package drafted by this committee.

    Mr. DeFazio. I thank the gentleman. Five minutes on the 
nose. I thank you, in particular, for raising the issue of 
resilience, sea level rise. We have to anticipate that as we 
rebuild our infrastructure around the country: sea level rise 
on the coasts, severe weather events, inland flooding, 
earthquakes in the West. We want to build it to be resilient, 
and his offer and work to partner--because we are going to need 
a lot more skilled workers, and we can reach into communities 
that have been left behind, and give them the skills they need 
to become more full participants in this society, as we 
rebuild. So I thank him for that.
    Mr. Scott. Thank you.
    Mr. DeFazio. With that we would move on to the gentleman 
from California, Representative Costa.

TESTIMONY OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman, for your time 
and patience, and the members of the committee. Your leadership 
and the members of this committee are going to be critical if 
we are successful this year in investing in America's 
infrastructure. We know it is the backbone of our country.
    Our canals, ports, and harbors, roads, bridges, highways, 
and railways have continued to connect us for over two 
centuries. Alexander Hamilton, at the birth of our country, 
supported and helped initiate our canal system as a way of 
connecting a new country and economically binding us. We have 
continued that effort, and we know how critical a role 
infrastructure has played in the development.
    But if we are going to continue toward the path of 
sustainability in light of climate change and other factors 
that we are dealing with, we must act boldly. And we have an 
opportunity to not only modernize our systems of transportation 
and infrastructure, but also rehabilitate existing 
infrastructure that is in bad need of repair. And this means 
jobs, jobs, and jobs that will further boom our economy, as we 
all know.
    My district, like all of our districts, has diverse needs, 
and contains infrastructure which conveys water resources for 
residential and agricultural use, major highways which support 
the movement of goods and services for our State and our 
Nation, and it is also home to the first true state-of-the-art 
construction--in construction--of high-speed rail.
    Therefore, we need to look at all the facets of 
investments, I believe. The BUILD Grant is an incredible tool 
that can help fix our highways and roads, such as State Route 
99 and Route 41 in my district. But much more must be done. 
Your efforts with H.R. 2, Mr. Chairman, and the INVEST Act that 
reauthorizes the Surface Transportation Act, as others have 
mentioned, is going to be critical, because we are living off 
the investments our parents and grandparents have made a 
generation and two ago, and we must now act boldly.
    As our Nation's population continues to grow, 
infrastructure must be able to keep up with the everyday 
demands in the 21st century, in light of climate change and 
other factors, which continues to intensify droughts in the 
West with more unpredictable weather patterns, tornadoes in the 
Midwest, and hurricanes in the South. We see these impacts on 
our water systems, as you noted, with the rise in coastal 
tides. It impacts every facet of our infrastructure. And that 
is why I think it is so important that we introduce 
legislation.
    I am introducing legislation to access Water Infrastructure 
Finance and Innovation Act, a program that will assist much-
needed upgrades and modernization of our water infrastructure 
around the country. We have canals that are no longer capable 
of moving water that they were designed for 50 years ago.
    In addition to our water resources, we must invest in a 
clean, eco-friendly, state-of-the-art, 21st-century system of 
transportation, like high-speed rail, and increase Amtrak 
service, as you noted with the previous witnesses. Trains in 
the 1950s and the 1960s used to go over 100 miles an hour. 
Amtrak today averages 79 miles an hour and less. There is a 
great deal that we can do, whether it is corridors from 
Portland to Vancouver, in California, Texas, Florida, the 
Northeast Corridor, in the Midwest from Chicago down to 
Atlanta, there are endless benefits to electrified, high-speed 
rail in connecting people and reducing our carbon footprint.
    As I noted earlier, we passed H.R. 2, your legislation to 
fund intercity passenger rail through the PRIME Grant, which I 
think is a step in the right direction. But we have to, in 
addition to that, I think, have dedicated, high-speed rail.
    Finally, we need to continue to focus on an infrastructure 
package with this administration. And I urge the committee to 
consider my legislation, the High-Speed Rail Corridor 
Development Act of 2021, for dedicated, high-speed rail 
corridor funding across our Nation. Representative Seth Moulton 
and I are working together to ensure that dedicated high-speed 
rail funding is a reality for corridors north, south, east, and 
west. In Europe and in Asia they have been successful over the 
last 40 years because the Federal Government in those parts of 
the world created an authorization for continued funding to 
improve rail and high-speed rail. We should do the same.
    Finally, as I said, I think the challenges we face are, 
one, to reach a bipartisan agreement on what we define as 
infrastructure.
    Two, how we pay for it. Our Republican friends don't like 
the current pay-fors? I suggest they come up with other pay-
fors.
    Three, we should incentivize States and local government 
who have already raised local revenue. Almost 30 States across 
the country have raised revenue in recent years to improve 
their transportation needs, as well as local government, many 
counties. If they have got skin in the game, why don't we 
incentivize them as a result of that?
    The challenge that we have--and I challenge our Republican 
colleagues and friends--is to show that we can work together to 
invest in America, and invest in our infrastructure, which is 
long, long overdue.
    I thank the chairman and the committee for your patience 
today. We have got our work cut out for us.
    [Mr. Costa's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Jim Costa, a Representative in Congress from 
                        the State of California
    Good afternoon, thank you Mr. Chairman for holding this Member Day 
Hearing. It is critical now more than ever we continue to discuss our 
infrastructure needs as a nation. For the past few years, we have heard 
the term ``infrastructure week'' time after time, but no action. Today, 
I am hopeful with this Administration and with this committee in moving 
legislation forward towards a sustainable investment for the next 
generation.
    I stand in front of the committee to highlight the infrastructure 
needs of our nation from investing in our water resources 
infrastructure to high speed rail. It is essential we take an all-of-
the above approach and invest in this diverse amount of infrastructure 
which continues to connect our nation.
    As the representative of California's 16th District, a place I call 
home, this district and the region of the San Joaquin Valley serves as 
California's infrastructure backbone. My district has diverse needs as 
it contains infrastructure which conveys our water resources throughout 
the state, major highways which support the movement of goods and 
services throughout the state, and lastly, it is home to California's 
High Speed Rail project, a first of its kind for our nation.
    If we are going to continue towards the path of sustainability as a 
nation, we must act boldly. We must continue to utilize the benefits of 
the BUILD Grant to support fixing our highways and roads that serve as 
major connectors for regions, such as State Route 99 and State Route 41 
in my district which both also connect to Interstate 5, a major 
transportation artery that connects all of California.
    Climate change continues to intensify droughts in the West with 
more unpredictable weather patterns that require us to think of 
``outside-the-box'' solutions. That is why I will soon be introducing 
legislation to ensure access to WIFIA financing for federally-owned, 
locally ran water infrastructure projects to assist in the much needed 
upgrades and modernization of water infrastructure projects around our 
nation.
    And lastly, if we are going to reduce our carbon footprint and 
reduce our global emissions, we must invest in electrified high-speed 
rail. For too long we have heard the United States is behind when it 
comes to investing in high-speed rail. Other nations around the world 
continue to invest in this infrastructure and reap the benefits of 
regional connectivity and economic opportunity all while reducing 
carbon footprints. My legislation, the High-Speed Rail Corridor 
Development Act of 2021 builds upon what our nation has already 
invested towards high-speed rail. This can be a reality for all across 
our nation and help us continue to connect our regions and communities.
    I'd like to thank the Chairman again for allowing me to testify 
today and look forward to working on an infrastructure package for our 
nation. I yield back.

    Mr. DeFazio. I thank the gentleman--in particular, his 
advocacy on high-speed rail. I just would correct him. One of 
the five original designated high-speed rail corridors in the 
United States was from Eugene to Vancouver, BC, not Portland.
    Mr. Costa. Sorry.
    Mr. DeFazio. And----
    Mr. Costa. I stand corrected.
    Mr. DeFazio. No, there has been a lot of talk about 
Portland, because of Microsoft being involved in a project up 
there. But it is Eugene.
    I also thank him for pointing out the need for water 
infrastructure. It is becoming more and more and more critical, 
obviously, in the West and nationwide. The Corps has a massive, 
massive backlog to bring things up to a state of good repair, 
close to $40 billion, and that needs addressing in a 21st-
century way, incorporating, where possible, more natural 
systems.
    I thank the gentleman.
    With that we would move to the esteemed chair of the 
Appropriations Committee, Rosa DeLauro.

TESTIMONY OF HON. ROSA L. DeLAURO, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Ms. DeLauro. Thank you. Thank you so much, Chairman DeFazio 
and Ranking Member Graves. I want to thank both of you for the 
opportunity to speak today, but also for your commitment to our 
Nation's infrastructure, and for holding today's Members' Day 
hearing.
    We are in an exciting moment. After decades of inadequate 
investments in America's physical infrastructure and 4 years of 
failed ``infrastructure weeks,'' we finally have a partner in 
the White House who is committed to making transformative 
investments that will shape our economy in a way that meets the 
moment. We cannot simply return to normal. Now is the time to 
make desperately needed investments to rebuild our Nation and 
create millions of good-paying jobs that cannot be outsourced.
    According to the 2021 Report Card for America's 
Infrastructure assessment by the American Society of Civil 
Engineers, our Nation's infrastructure receives the grade of C-
minus. By 2039, America's overdue infrastructure bill will cost 
the average American household $3,300 a year, or $63 a week, 
and the cost and consequences to our economy are significant. A 
continued underinvestment in our infrastructure at current 
rates will cost $10 trillion in GDP, more than 3 million jobs, 
and $2.4 trillion in exports over the next 20 years.
    We cannot wait. Now is the time to invest, reimagine, and 
rebuild the American economy by building the architecture for 
our Nation's future.
    As we work together, I would ask to bring your attention to 
a national infrastructure development bank, a concept I have 
been advocating since 1994. It is a public-private partnership 
establishing an innovative financing mechanism to help 
supplement gaps in investment. The bank would be a bold step 
forward to address the tremendous shortfall in infrastructure 
investment that would create jobs, spur long-term economic 
growth, and improve our global competitiveness. It would make 
the critical investments needed that goes beyond surface 
transportation, like water, energy, and telecommunications, 
which is critical to our national growth strategy. Projects 
would be evaluated through an analysis of the economic, 
environmental, and social benefits, as well as the cost.
    Importantly, there is no minimum dollar amount required for 
a project to receive financing from the bank. A project can be 
of significance, yet not be major in terms of a dollar amount 
attached to it. And employee protection provisions are included 
to ensure that, while the infrastructure bank creates new jobs, 
it also does not displace current workers.
    I also want to say a thank you for your commitment to 
serving and rebuilding communities through the Member-
designated projects. This designated funding stream is vitally 
important as we continue our efforts to build back better. In 
Connecticut's Third Congressional District, the T&I Member-
designated project funding would deliver far-reaching, forward-
thinking progress for Connecticut families. And as such, we 
will be submitting a number of projects.
    Let me just briefly mention one of them. The funding would 
finance one of our largest and our most essential 
infrastructure projects, the city of New Haven's Downtown 
Crossing Project. This is a project that I have worked 
tirelessly on since my days as chief of staff for New Haven 
mayor Frank Logue in the 1970s. And yet, decades later, I am 
still fighting for its completion. We have completed two of 
three phases to transform one of our critical expressways into 
urban boulevards designed for pedestrian and bicycle use, as 
well as low-speed motor vehicle traffic. With a dedicated 
funding stream, Downtown Crossing Project would finally be 
complete.
    Infrastructure is the lifeblood of our economy. I strongly 
believe it must be a central component of a long-term national 
growth strategy that returns us to a country that builds, 
rather than one that just consumes. Through the comprehensive 
infrastructure package to be crafted by this committee in the 
coming months, we can change the course of infrastructure 
spending in our country.
    Thank you. Thank you so much for your attention to my 
statement, as well to my legislation, but also to the issue of 
infrastructure. Your leadership is essential as the Congress 
considers new investments to address our growing infrastructure 
deficiencies. I look forward to working with you on this 
critical matter, and I yield back.
    [Ms. DeLauro's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress from the State of Connecticut
    Thank you, Chairman DeFazio and Ranking Member Graves for your 
commitment to our nation's infrastructure and for holding today's 
Member Day hearing. We are in an exciting moment. After decades of 
inadequate investments in America's physical infrastructure and four 
years of failed `Infrastructure Weeks,' we finally have a partner in 
the White House who is committed to making transformative investments 
that will shape our economy in a way that meets the moment. We cannot 
simply return to normal. Now is the time to make desperately needed 
investments to rebuild our nation and create millions of good-paying 
jobs that cannot be outsourced.
    According to the 2021 Report Card for America's Infrastructure 
assessment by the American Society of Civil Engineers, our nation's 
infrastructure receives the grade of a C-. By 2039 America's overdue 
infrastructure bill will cost the average American household $3,300 a 
year, or $63 a week, and the costs and consequences to our economy are 
significant. A continued underinvestment in our infrastructure at 
current rates will cost $10 trillion in GDP, more than $3 million jobs, 
and $2.4 trillion in exports over the next 20 years.
    We cannot wait. Now is the time to invest, reimagine, and rebuild 
the American economy by building the architecture for our nation's 
future.
    As we work together, I would ask to bring your attention to a 
national infrastructure development bank, a concept I have been 
advocating for since 1994. It is a public-private partnership that 
would establish an innovative financing mechanism to help supplement 
gaps in investment. The bank would be a bold step forward to address 
the tremendous shortfall in infrastructure investment, while creating 
jobs, spurring long-term economic growth, and improving our global 
competitiveness.
    It would make the critical investments needed that goes beyond 
surface transportation, like water, energy, and telecommunications, 
which is critical to a national growth strategy. Projects would be 
evaluated through an analysis of the economic, environmental, and 
social benefits, as well as the cost. Importantly, there is no minimum 
dollar amount required for a project to receive financing from the 
Bank. A project can be of significance, yet not be major in terms of a 
dollar amount attached to it. And, employee protection provisions are 
included to ensure that while the infrastructure bank creates new jobs, 
it also does not displace current workers.
    And I want to thank you for your commitment to serving and 
rebuilding communities through Member Designated Projects. This 
designated funding stream is vitally important as we continue our 
efforts to build back better.
    In Connecticut's Third District, the T&I Member Designated Project 
funding would deliver far-reaching, forward-thinking progress for 
Connecticut families. As such, we will be submitting a number of 
projects, but I want to briefly mention one of them. The funding would 
finance one of our largest and most essential infrastructure projects: 
The City of New Haven's Downtown Crossing Project. This is a project 
that I have tirelessly worked on since my days as Chief of Staff for 
New Haven Mayor Frank Logue in the 1970s, and yet, decades later, I am 
still fighting for its completion. We have completed two of three 
phases to transform one of our critical expressways into urban 
boulevards designed for pedestrian and bicycle use, as well as low-
speed motor vehicle traffic. With the dedicated funding stream, the 
Downtown Crossing project I have been fighting for, for decades, will 
finally be complete.
    Infrastructure is the lifeblood of our economy, and I strongly 
believe it must be the central component of a long-term national growth 
strategy that returns us to a country that builds, rather than one that 
just consumes. Through the comprehensive infrastructure package to be 
crafted by this committee in the coming months, we can change the 
course of infrastructure spending in our country.
    Thank you for your attention to my statement, as well as my 
legislation. Your leadership will be essential as Congress considers 
new investments to address our growing infrastructure deficiencies. I 
look forward to working with you on this critical matter.

    Mr. DeFazio. I thank the gentlelady. And like on this 
committee, we are going to do Member-designated projects. I 
congratulate the gentlelady for bringing back high-priority, 
local projects that are proposed by Members to the 
appropriations process with appropriate protections.
    And this 1994 for an infrastructure bank, I started in 1996 
with Bud Shuster on the Harbor Maintenance Trust Fund. I 
finally got it done last December. Maybe you are close, Rosa.
    Ms. DeLauro. Listen, you can never give up, you know? My 
mama taught me two things in her 103 years--don't take no for 
an answer, and never give up. So here we go. Thank you so, so 
much, Mr. Chairman. Thank you.
    Mr. DeFazio. I thank the gentlelady.
    At this point, Representative Lamb, a member of the 
committee from Pittsburgh, who I had the pleasure of visiting 
in a virtual event last week with his constituents to talk 
about infrastructure needs, and have also visited his district, 
and he has been a prime mover, in particular, on inland 
waterways and other critical infrastructure.
    And the order of witnesses will be--when Conor takes over--
will be Representatives Arrington, Schrader, Porter, and 
Schrier.
    OK, Representative Arrington, you can begin, and 
Representative Lamb will take the chair.

   TESTIMONY OF HON. JODEY C. ARRINGTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Arrington. Thank you, Chairman DeFazio and Ranking 
Member Sam Graves, and members of the T&I Committee, and 
certainly my friend, Conor Lamb, who I have really enjoyed 
teaching how to play basketball since I have been a Member of 
Congress. I don't know if he is there. I can't see his 
expression. I hope he is laughing.
    I want to talk about the food, fuel, and fiber that feeds 
and clothes not only the American people, but people all over 
the world, and the supply of energy that undergirds this 
greatest economy, the envy of the world, and provides the 
energy needs of billions of people around the world. In fact, 
this Ports-to-Plains Corridor, as we call it, which is the 
backbone of rural America, it is Middle America. And these are 
rural communities that are the lead in production, agriculture, 
and energy, both fossil and renewable.
    And with the trade agreement with Canada and Mexico, they 
are the largest trading partners, and making that a better and 
stronger agreement, where the United States is going to benefit 
to the tune of $70 billion in additional growth in GDP, we need 
to have the critical infrastructure and transportation arteries 
to take this important product throughout the country to our 
ports and beyond.
    And when you look at the States from Texas, all the way up 
Middle America to Canada through North Dakota, this represents 
about 70 percent. This area, this swath of the heartland 
represents over 70 percent of production, ag, and energy. And 
again, that is both renewable and fossil. My district alone, 29 
counties in west Texas, is the largest renewable wind 
production center in the country, producing three times more 
than even the State of California. So it is all of the above. 
It is critical supply chain for the country.
    There is nothing in my mind more important, in terms of 
infrastructure, than maintaining and strengthening our food 
security and our energy independence, not just for the United 
States, but for North America, especially, again, with our 
enhanced relationships and new trade deal with USMCA, which was 
a bipartisan effort and great for the country, great for our 
workers, manufacturers, and ag producers.
    So my project that I have been working on with Henry 
Cuellar and colleagues from both sides of the aisle--and by the 
way, my friend, Representative Cuellar, this particular part of 
the Ports-to-Plains Corridor that we are presenting starts at 
the largest inland port in America, which is Laredo, Texas, and 
includes other ports, including Eagle Pass and Del Rio.
    But my priority for this 117th Congress, Mr. Chairman, is 
for H.R. 1608, the Ports-to-Plains Highway Act of 2021, to be 
included in the upcoming surface transportation reauthorization 
bill. This legislation designates the Ports-to-Plains Corridor 
in Texas, New Mexico, Oklahoma, and Colorado, and a portion of 
the Heartland Expressway between I-70 and I-76 in Colorado as a 
future interstate highway.
    Again, food, fuel, and fiber, food security, energy 
independence, and these God-fearing, freedom-loving patriots 
who live in the heartland, the backbone of this country, making 
sure that we can efficiently and safely push that product to 
our communities throughout the country, and to people all 
around the world. We are going to see the population double 
around the world. And by 2030 we are going to have 1 billion 
people who already live in energy poverty, and we will have 1 
of every 4 people living with food insecurity. And they are all 
counting on our farmers, ranchers, and energy producers in this 
corridor to meet that growing demand.
    Hey, guys, thank you so much for listening, and letting me 
present our priority for the Ports-to-Plains Highway. Thanks 
for your good work, and I am happy to take any questions. And 
God bless your efforts.
    [Mr. Arrington's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Jodey C. Arrington, a Representative in 
                    Congress from the State of Texas
    Chairman DeFazio and Ranking Member Graves:
    Thank you for providing Members the opportunity to share our 
priorities for the 117th Congress. As you continue to develop your 
proposal to rebuild our nation's infrastructure, I'd like to take this 
Member's Day hearing as an opportunity to urge the inclusion of H.R. 
1608, The Ports-to-Plains Highway Act of 2021, in any surface 
transportation reauthorization legislation. This is an issue of great 
importance and value to the constituents of TX-19 and rural America.
    This legislation designates the Ports-to-Plains Corridor in Texas, 
New Mexico, Oklahoma and Colorado and a portion of the Heartland 
Expressway in Colorado as a Future Interstate. Both the Ports to Plains 
Corridor and the portion of the Heartland Expressway are 
Congressionally designated High Priority Corridors on the National 
Highway System.
    The Ports-to-Plains region includes states which lead our nation's 
energy and agriculture economy, producing over $44 billion in 
agriculture goods, or 22 percent of total U.S. agriculture production. 
The Ports-to-Plains corridor generates over $166 billion annually in 
trade with Canada and Mexico, accounting for almost 20 percent of all 
U.S.-North American trade. Simply put, Middle America provides the 
food, fuel, and fiber that strengthens our nation.
    As the United States dominates the global trade market, we must 
also look to strengthen infrastructure in rural communities. Access and 
upgrades to adequate rural infrastructure not only promote the 
wellbeing and quality of life for people living in rural communities, 
but also ensures the safe and efficient transportation of food, fuel, 
and fiber throughout the country.
    My priority for the 117th Congress is for H.R. 1608, The Ports-to-
Plains Highway Act of 2021, to be included in the upcoming surface 
transportation reauthorization bill. This critical step in highway 
expansion would improve economic development, safety, and efficiency 
for America's Heartland. I look forward to working with you this 
Congress on this critical legislation.

    Mr. Lamb [presiding]. Mr. Arrington, thank you for your 
contribution, and I would have a response on the point of 
basketball, except that the State of Texas had two of our final 
four teams this year. So I feel like it is not the best year 
for a kid from Pittsburgh to be talking smack about basketball 
to a guy from Texas.
    I did get to visit Representative Cuellar's district over 
the weekend, actually, to look at the border. So I have a new 
understanding of what you are talking about, and I hope that we 
can work on it in a bipartisan way here in the committee.
    Mr. Arrington. Thank you.
    Mr. Lamb. Next we have another great champion of rural 
America, from the Democratic side, Mr. Kurt Schrader, for 5 
minutes.

 TESTIMONY OF HON. KURT SCHRADER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Schrader. Thank you very much, Chairman pro tem Lamb. I 
would like to thank you and Chairman DeFazio and Ranking Member 
Graves for the opportunity to provide testimony in advance of 
the committee's work to reauthorize the surface transportation 
policy.
    Historically, thanks to the leadership of this committee, 
transportation and infrastructure have been bipartisan issues. 
There are those that would like to break that tradition in this 
Congress. I hope this committee and the 117th Congress continue 
to value bringing Members together from both sides of the aisle 
for our transportation and infrastructure needs. This could be 
the uniting moment that the President has been talking about.
    The President's plan is a great foundation that goes boldly 
forward, rebuilding America's infrastructure for the 21st 
century. But the absence of a long-term, sustainable funding 
source for the Highway Trust Fund is deeply concerning. It is 
time to start the transition off the gas tax onto a vehicle-
miles traveled, or a weight-mile type of funding mechanism that 
will serve us into the future.
    I would also like to commend the committee's past work, in 
particular the robust Projects of National and Regional 
Significance program and the Moving Forward Act. That helps 
States complete large, very large, infrastructure projects like 
the Interstate 205 bridge in my district. The project has 
bipartisan regional support, and the local communities and 
State are committed to help with the funding. It is a critical 
connection point that currently sees hours-long congestion. It 
is a vital freight freeway for our region between Washington 
State and Oregon.
    The State and local officials have put forward an ambitious 
plan to reinforce this bridge for seismic concerns to maintain 
access during major disasters, and I hope that programs like 
this one are kept inside the base package, allowing States to 
compete for greatly needed Federal assistance on large projects 
that they can't possibly do on their own.
    Bringing Members into the discussion on how best to spend 
Federal dollars in their district is long overdue, and I 
commend the committee for their efforts in this respect. We all 
know our districts better than agency bureaucrats in 
Washington, DC.
    The safeguards being put in place by the committee will 
help bring needed transparency to the process, while empowering 
us to advocate the projects our constituents tell us that they 
need most, projects, like the Interstate 5 bottleneck at the 
Aurora-Donald interchange, and a dangerous intersection, 
Highway 22 and Highway 51 in my district. These projects, like 
so many others, have broad support from local and State 
officials. They are willing to put money into the till. The 
only thing that is missing is some Federal help to finalize 
that funding. These are the kind of projects that need just a 
little bit of focus to help save lives, and keep our economy 
humming.
    I also hope that this is expanded beyond surface projects 
to include other forms of infrastructure. The south jetty at 
the entrance to Tillamook Bay on the Oregon coast is in 
critical need of repairs to stop the loss of life from boats 
exiting and entering the Port of Garibaldi. We recently had a 
boat capsize, leading to the deaths of two individuals. These 
jetties are a Federal responsibility. The past decade has seen 
these projects zeroed out in Presidential budgets. It will only 
get worse for my constituents because of Federal inaction. So I 
urge the committee to expand opportunities for Congress to 
direct spending for critical projects like this one.
    Thanks again for the opportunity to outline my concerns as 
the committee continues its important work. I look forward to 
seeing a final product that meets the moment and provides a 
strong investment in our country and its citizens.
    And I yield back, thank you.
    [Mr. Schrader's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Kurt Schrader, a Representative in Congress 
                        from the State of Oregon
    Chairman DeFazio and Ranking Member Graves,
    Thank you for this opportunity to provide testimony in advance of 
the committee's work to reauthorize surface transportation policy. 
Historically, thanks to the leadership in this committee, 
transportation and infrastructure have been bipartisan issues. There 
are those that would choose to break that tradition this Congress. I 
hope this committee and the 117th Congress continue to value bringing 
members together from both sides of the aisle on our transportation and 
infrastructure needs. This could be the uniting moment our President 
has talked about.
    The President's plan is a great foundation that goes boldly towards 
rebuilding American infrastructure for the 21st Century. But the 
absence of a long-term sustainable funding source for the Highway Trust 
Fund is deeply concerning.
    I would also like to commend the Committee's past work. In 
particular, the robust Projects of National and Regional Significance 
program in the Moving Forward Act that would help states complete large 
infrastructure projects, like the I-205 bridge and access improvements 
project in my district. This project has bipartisan, regional support 
and the local communities and state are committed to funding support. 
It is a critical connection point that sees hours-long traffic 
congestion, not only for Oregonians but also for our neighbors across 
the river in Washington. The state and local officials have put forward 
an ambitious plan to reinforce the bridge for seismic concerns to 
maintain access during major disasters. I hope that programs like this 
one are kept inside the base package, allowing states to compete for 
greatly needed federal assistance on big projects that they can't do on 
their own.
    Bringing Members back into the discussion about how best to spend 
federal dollars in their district is long overdue and I applaud the 
committee for their efforts here. We all know our districts better than 
agency bureaucrats here in DC. The safeguards being put in place by the 
committee will help bring needed transparency to the process while 
empowering us to advocate for the projects our constituents tell us are 
most needed. Projects like the Interstate 5 bottleneck at the Aurora-
Donald interchange and the dangerous intersection on Highway 22 and 
Highway 51 in my district. These projects, like so many others, have 
broad support from local and state officials. The only thing it's 
missing is some federal help to finalize funding. These are the kinds 
of projects that just need a little focus that will help save lives and 
keep our economy humming.
    I also hope that this is expanded beyond surface projects to 
include other forms of infrastructure. The south jetty at the entrance 
to Tillamook Bay is in critical need of repairs to stop the loss of 
life from boats exiting and entering the port of Garibaldi. We recently 
had a boat capsize leading to the deaths of two.
    These jetties are federal responsibility. But the past decade has 
seen these project zeroed out in presidential budgets due to the cost. 
It will only get worse for my constituents because of federal inaction 
so I urge the committee to expand opportunities for Congress to direct 
spending for critical projects like this one.
    Thank you again for this opportunity to outline my thoughts as the 
committee continues its important work. I look forward to seeing a 
final product that meets the moment and provides a strong investment in 
our country and our citizens.

    Mr. Lamb. And thank you.
    Next up we have, from California, the gentlelady, Ms. Katie 
Porter, for 5 minutes.

 TESTIMONY OF HON. KATIE PORTER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Porter. Thank you so much, committee members and staff, 
for holding this hearing on advancing our country's surface 
transportation and infrastructure.
    Above the doors of the National Transportation Safety Board 
academy there is an inscription. It reads, ``From tragedy we 
draw knowledge to protect the safety of us all.'' By pulling 
together stakeholders from industry, law enforcement, and all 
levels of Government, the National Transportation Safety Board 
has realized its goal time and time again.
    As committee members may know, fatalities from aviation 
accidents are down 99 percent since the board was founded. It 
is past time to take a similar approach to learning and 
evaluation in emergency management. And that is why I urge the 
committee to include in this legislation my proposal for a 
National Disaster Safety Board. This National Disaster Safety 
Board would be a nonpartisan, independent Government body. It 
would review management of natural hazards with a holistic 
approach, evaluating the response at all levels of Government 
and the private sector and through nonprofits.
    I say ``natural hazards,'' and that is for a reason. 
Disasters are what happens when human beings make wrong 
decisions in an emergency. Disasters can be avoided, but 
natural hazards like fires and hurricanes cannot.
    The National Disaster Safety Board would address the 
problem we currently face where an alphabet soup of State and 
Federal agencies each conduct their own lessons-learned 
process, and each draw their own parochial conclusions.
    It would address a related problem, which is that these 
different reviews use different data, make disparate 
recommendations, and are scattered across the internet, when 
they are publicly available at all.
    Look at the example from my home State of California and 
the 2018 Camp Fire, the deadliest fire in the United States in 
a century, and the biggest environmental cleanup in the history 
of California. These are terrible statistics. What they are 
not, though, is lessons. The lessons from the Camp Fire are 
scattered across half a dozen Government reports, from the 
Butte County district attorney's office to the National 
Institute of Standards and Technology, to the California office 
in charge of watersheds. Each looked at the Camp Fire from a 
particular point of view. None of them had the credibility or 
the mandate to do a 360-degree review and say, ``This is how we 
save lives next time.''
    If we had a disaster board like what I am proposing, we 
could start to find patterns. We might recognize that wildfires 
in California have more in common with floods in Louisiana than 
we realized. And perhaps we could find common solutions, as 
well.
    The Camp Fire also forced the evacuation of more than 
50,000 people. And across the U.S., 916,000 people were 
displaced by natural hazards in 2019. Do the evacuation 
procedures and emergency networks and systems we have in 
California reflect the lessons learned over the years in 
Florida or Texas? The National Disaster Safety Board will give 
the independent, nonpartisan analysis and recommendations to 
make sure that the answer to that question is yes.
    In the minute I have left, I want to suggest another 
important way for the committee to protect taxpayer dollars and 
encourage smart policymaking. From the American Recovery and 
Reinvestment Act to the CARES Act, we have seen the importance 
of oversight and accountability when Congress jumpstarts the 
economy. This is so important for this infrastructure bill, 
because we are aiming to reorient our economy to better fight 
climate change.
    Electrification of the transportation sector requires 
coordination between the private sector, multiple Government 
agencies, and all 50 States. That is a recipe for confusion and 
delay. So I encourage the committee to make sure that, when it 
comes to building up zero-emission vehicles and charging 
infrastructure, the Government has somebody in charge, not a 
working group, not an office with an acronym, but a person who 
is empowered and can say, ``The buck stops with me on electric 
vehicles.'' And I hope to hear that testimony from that 
electric vehicle czar or similar person in the not-too-distant 
future.
    Thank you again for the opportunity to testify. I yield 
back.
    [Ms. Porter's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Katie Porter, a Representative in Congress 
                      from the State of California
    Chair DeFazio and Ranking Member Graves, thank you for holding this 
hearing on advancing our country's surface transportation and 
infrastructure.
    Above the doors of the National Transportation Safety Board academy 
there is an inscription. It reads: ``From tragedy we draw knowledge to 
protect the safety of us all.''
    By pulling together stakeholders from industry, law enforcement, 
and all levels of government, the NTSB has realized this goal time and 
time again. As members of the committee may know, fatalities from 
aviation accidents are down 99% since the board was founded in 1967.
    It is far past time to take a similar approach to learning and 
evaluation in emergency management, and that is why I urge the 
committee to include my proposal for a National Disaster Safety Board 
in this legislation.
    The National Disaster Safety Board, or NDSB, would be a non-
partisan, independent government body. It would review management of 
natural hazards with a holistic approach, evaluating the response at 
all levels of government, in the private sector, and through non-
profits.
    I say natural hazards and that's for a reason. Disasters are what 
happens when human beings make the wrong decisions in an emergency. 
Disasters can be avoided, but natural hazards like fires and hurricanes 
cannot.
    The NDSB would address the problem we currently face where an 
alphabet soup of state and federal agencies each conduct their own 
lessons-learned process, and each draw their own parochial conclusions.
    It would address a related problem, which is that these different 
reviews use different data, make disparate recommendations, and are 
scattered across the internet--when they're publicly available at all.
    Take the example of my home state of California and the 2018 Camp 
Fire.
    By any metric, the Camp Fire was historic.
    The deadliest fire in the U.S. in a century.
    The biggest environmental cleanup in the history of California.
    The most expensive natural disaster in the world during a year that 
included hurricanes Michael and Florence.
    These are terrible statistics. What they are not, is lessons.
    The lessons are scattered across half a dozen government reports, 
from the Butte County District Attorney's Office, to National Institute 
of Standards and Technology, to the California office in charge of 
watersheds.
    Each looked at the Camp Fire from a particular point of view. None 
had the credibility or the mandate to do a 360 degree review and say: 
``this is how we save lives next time.''
    That is a problem, and one I imagine almost every member of this 
committee has experienced in their own state.
    If we had a board like this, we might start to find patterns. We 
might recognize that wildfires in California have more in common with 
floods in Louisiana than we realized--and perhaps common solutions as 
well.
    The Camp Fire was a disaster not only because of physical 
destruction, but because it forced the evacuation of more than 50,000 
people who then needed food, shelter, and medical care.
    That was a huge challenge, but not a new one in many parts of the 
country. Of the 916,000 people across the country who were displaced by 
natural hazards in 2019, most were displaced by floods or storms.
    Do the evacuation procedures, emergency networks, and other systems 
we have in place in California reflect the lessons learned over the 
years in Florida, or Texas?
    The National Disaster Safety Board will provide the independent, 
non-partisan analysis and recommendations to make sure that the answer 
to that question is ``yes.''
    In the few minutes I have remaining, I want to address another 
important way for the Committee to protect taxpayers dollars and 
encourage smart policy making.
    From the American Recovery and Reinvestment Act of 2009, to the 
CARES Act last year, we have seen the importance of oversight and 
accountability and when Congress jumpstarts the economy.
    That is especially important in the case of this infrastructure 
bill, because we are aiming to reorient our economy to meet the 
existential threat of global warming.
    When it comes to electrification of the transportation sector, this 
will require coordination between the private sector, multiple 
government agencies, and all 50 states.
    This is a recipe for confusion and delay, and so I encourage the 
committee to make sure that, when it comes to building up zero emission 
vehicles and charging infrastructure, the government has somebody in 
charge.
    Not a working group, not an office with an acronym, but a person 
who is empowered and can say ``the buck stops with me on electric 
vehicles.'' And I hope to hear the testimony of that person in the not-
too-distant future.
    Thank you once again for the opportunity to testify here today. I 
look forward to working together on this vital legislation.
    I yield back.

    Mr. Lamb. Thank you, Ms. Porter, for such fresh and new 
ideas. As well, there were some jokes among Members earlier 
about it taking 30 years to get some of these new ideas off the 
ground. And I don't think we have that kind of time, with 
respect to the ideas that you are talking about. So we will 
take those very seriously.
    The next five Members that we have up are Mr. Phillips, 
Mrs. Bustos, Ms. Meng, Mr. Hagedorn, and Mr. Cloud.
    So with that we turn to the gentleman from Minnesota, Mr. 
Phillips.

 TESTIMONY OF HON. DEAN PHILLIPS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Phillips. Thank you, Mr. Chairman pro tem, Chairman 
DeFazio, Ranking Member Graves, and all of you committee 
members. I appreciate the time.
    I represent Minnesota's Third Congressional District, which 
includes the western Twin Cities suburbs. We are a proud, a 
diverse, hard-working community. We are national leaders in 
healthcare, small business ownership, and hockey fandom. And 
our biggest export is Minnesota nice. We are also a tolerant 
community, and one which deeply values the principle of 
sharing.
    But I have to be blunt with all of you. My constituents in 
Minnesota are growing awfully tired of being one of just eight 
States in the country that pays more in Federal taxes to 
Washington than it receives back in Federal programs and 
support. In 2019 that amounted to Minnesotans sending an extra 
$1.8 billion to Washington more than it received back. In 
contrast, the average State in America receives from the 
Federal Government nearly $16 billion more than each State pays 
in each year. And that imbalance has a profound impact on my 
district. And nowhere is it felt more strongly than in our 
woeful infrastructure.
    I have met with leadership from every single city and town 
in my district, and I often hear the exact same things: our 
communities need 21st-century infrastructure to be competitive. 
Yes, Congress has been complacent on this issue for far too 
long. And yes, I will demand action on behalf of our State. So 
I am here today to honor that promise, and urge your support 
for a comprehensive, transformational infrastructure package 
for America.
    In Minnesota we have nearly 650 bridges, and nearly 5,000 
miles of highway in poor condition. Not only is poor road 
repair an economic disaster, but it is costing my constituents 
$400 million each year, which is a hazard also to public 
health.
    As traffic fatalities have surged statewide in Minnesota, 
we need a comprehensive approach to address surface 
transportation in our State, and all of our States.
    Water and wastewater infrastructure is another priority for 
our communities. As local officials have made very clear to me, 
sustainable water infrastructure not only ensures safe drinking 
water and a clean environment, but also strengthens our local 
economies. Experts say that Minnesota needs to invest $7.5 
billion to overhaul its aged and overburdened water systems, 
and support from Congress will be critical to make sure that 
transition happens as swiftly as possible.
    Another concern, especially following the wake of COVID-19, 
is the need for high-speed broadband in suburban, exurban, and 
rural districts like mine. And whether it is students trying to 
learn online, or an employee or a Member of Congress logging on 
to a virtual meeting just like this one, our communities need 
better broadband infrastructure to thrive in an interconnected 
world.
    And I want to close with one more sentiment that I have 
heard from leaders in my district, both Democrats and 
Republicans. It is that our communities' infrastructure needs 
go well beyond roads, bridges, and pipes. Infrastructure is 
about resiliency. It is about a foundation. It is about 
modernization. It encompasses everything from climate change 
mitigation to addressing our country's concerning mental health 
and addiction crisis. News today was that 87,000 Americans lost 
their lives to overdoses last year. We had almost 50,000 
suicides. People are struggling because of the pandemic, 
economic challenges, injustice, you name it. And so, at its 
core, infrastructure is about investing in our people and our 
future and our country's mental health.
    In the aftermath of this once-in-a-generation--God 
willing--catastrophe, it is time that we come together and make 
that investment together as a Congress.
    So I thank you for your time, Mr. Chairman, and I yield 
back.
    [Mr. Phillips' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Dean Phillips, a Representative in Congress 
                      from the State of Minnesota
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the Committee for the invitation to speak with you all today.
    I have the great honor of representing Minnesota's Third 
Congressional District, which includes the western Twin Cities metro 
area. We are a proud, diverse, and hardworking community. We are 
national leaders in healthcare, small business ownership, hockey fandom 
and of course, in Minnesota Nice.
    Today, however, I must be blunt with you. Few know this, but 
Minnesota is one of just eight states to pay more in federal taxes than 
it brings back in support. In 2019, that amounted to Minnesotans 
sending an extra $1.8 billion to Washington. In contrast, the average 
state receives from the federal government nearly $16 billion more than 
it pays each year.
    That imbalance has had a profound impact on my district, and 
nowhere is it felt more strongly than in our infrastructure. I have met 
with leadership from every city and town in Minnesota's Third, and far 
too often I find that I am repeating myself:

        ``Yes, our communities need 21st century infrastructure to 
        compete.''

        ``Yes, Congress has been complacent on this issue for far too 
        long.''

        ``And yes, I will demand action on behalf of our state.''

    I am here today to honor my promise and urge your support for a 
comprehensive infrastructure package.
    In Minnesota, there are more than 650 bridges and nearly 5,000 
miles of highway in poor condition. Not only is poor road repair an 
economic disaster--costing my constituents nearly $400 million each 
year--but it is a hazard to public health. As traffic fatalities surge 
statewide, we need a comprehensive approach to address surface 
transportation in Minnesota.
    Water and wastewater infrastructure is another priority for 
communities in my district. As local officials have made clear to me, 
sustainable water infrastructure not only ensures safe drinking water 
and a clean environment, but also strengthens local economies. Experts 
say that Minnesota will need to invest $7.5 billion to overhaul its 
aged and overburdened water systems, and support from Congress will be 
critical to ensure that transition happens as swiftly as possible.
    Another growing concern, especially following the wake of the 
COVID-19 pandemic, is the need for high-speed broadband in suburban, 
exurban, and rural districts like mine. Whether it's a student learning 
online or an employee logging on to a virtual meeting, our communities 
need better broadband infrastructure to thrive in our increasingly 
interconnected world.
    I want to close with another sentiment I have heard from leaders in 
my district, Democrats and Republicans alike. Our communities' 
infrastructure needs go beyond roads, bridges, and pipes. 
Infrastructure is about resiliency. It's about modernization. It 
encompasses everything from climate change mitigation to addressing our 
country's mental health crisis. At its core, infrastructure is about 
investing in our future. In the aftermath of a once-in-a-generation 
catastrophe, it's time to come together and make that investment.
    Thank you.

    Mr. Lamb. I am disappointed that there was no musical 
portion of the presentation after showing us that guitar the 
entire time, but thank you, Mr. Phillips.
    And with that we are on to the gentlelady from Illinois, 
Mrs. Bustos.

 TESTIMONY OF HON. CHERI BUSTOS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mrs. Bustos. All right, thank you, Congressman Lamb. And I 
do want to throw out my thanks to Chairman DeFazio for giving 
so many Members the opportunity to be able to share our 
transportation and infrastructure priorities with the committee 
today.
    So I served on the Transportation and Infrastructure 
Committee for my first three terms in Congress. And so I have a 
deep appreciation for your critical mission, and the essential 
work that you are doing. What I would like to do today is 
summarize and submit for the record a document that outlines 
the principles that I believe any infrastructure proposal 
should include, particularly those that address the needs of 
our small towns and rural communities, so much of which I serve 
in the congressional district in the central and northwestern 
and northern part of the State of Illinois.
    Because I know that you are working on a surface 
transportation reauthorization bill right now, I would like to 
focus my remarks on the priorities for that legislation. 
However, I do hope that this document will guide your work on 
all future infrastructure packages beyond the one immediately 
before us. I believe that, to build a strong foundation for a 
successful economy, our Nation requires a significant 
investment. To do this, any proposal needs to meet three goals. 
First, direct Federal investment to areas with demonstrated 
need.
    Number two, strengthen programs that target support to 
rural areas and small towns such as technical assistance.
    And three, maintain and expand policies like Buy American 
and Davis-Bacon requirements that support America's 
manufacturers and America's workers.
    Looking specifically to surface transportation, we must 
balance our investments in new infrastructure with making sure 
that our existing infrastructure is safe and reliable. For 
example, the American Road and Transportation Builders 
Association ``Bridge Report'' for this year found that, in my 
home State of Illinois--and by the way, we are home to now the 
third most bridges in poor condition in the Nation: pretty 
bad--over 10 percent of the bridges in the congressional 
district I serve are classified as structurally deficient.
    So meanwhile, in 2018, more than 34 percent of major rural 
roads across the country were rated in poor or mediocre 
condition. Families in the heartland like the ones I serve rely 
on surface transportation not only to get to work or to run to 
the grocery store, but also as an economic connection to the 
rest of the country. Manufacturers, growers, and producers all 
rely on roads, on bridges, on rail, on locks and dams to move 
their products to market.
    Increased freight traffic on roads, coupled with everyday 
use, have resulted in significant strain on our most important 
infrastructure, making it critical that we invest more in our 
highways, our bridges, our rail, all while providing a 
sustainable funding source for the Highway Trust Fund.
    Congress' call to address this lies not only in our 
economic recovery, but in basic public safety. Promoting public 
safety also requires raising awareness of Move Over laws. These 
laws vary from State to State--in Illinois, our Move Over law 
is known as Scott's Law--but many people don't realize that 
moving over for a stopped vehicle is more than a courtesy, it 
is a legal requirement. And after one of my constituents, State 
trooper Brooke Jones-Story, was struck and killed during a 
routine traffic stop, I knew that we needed to take action and 
to prevent this needless loss of life. And as the wife of a 
sheriff, I am grateful for the work our first responders do 
every day. I ask that this committee continue to join me in 
working to keep them safe.
    Last Congress, I appreciated that this committee included 
public awareness campaigns for Move Over laws as eligible 
expenses in highway safety programs in the Moving Forward Act. 
It is my hope that you will again prioritize this important 
initiative.
    Just to close, it was our parents' generation that left us 
with world-class infrastructure. And in order to build back 
better, we must look to repair the foundation we inherited, as 
well as build upon it. I look forward to working with all of 
you on the Transportation and Infrastructure Committee on these 
important initiatives so we can meet that promise for 
generations to come. And I hope that this can truly be a 
bipartisan effort.
    With that, Mr. Chairman, I yield back.
    [Mrs. Bustos' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Cheri Bustos, a Representative in Congress 
                       from the State of Illinois
    Thank you Chairman DeFazio and Ranking Member Graves for giving me 
the opportunity to share my Transportation and Infrastructure 
priorities with the Committee today.
    I served on this Committee for my first three terms, and I have a 
deep appreciation for its critical mission and essential work.
    Today, I would like to summarize and submit for the record a 
document outlining the principles that I believe any infrastructure 
proposal should include, particularly those that address the needs of 
our small towns and rural communities.
    Because I know you are working on a surface transportation 
reauthorization bill right now, I will focus my remarks on the 
priorities for that legislation. However, I hope this document will 
guide your work on all future infrastructure packages beyond the one 
immediately before us.
    To build a strong foundation for a successful economy, our nation 
requires a significant investment. To do this, any proposal must meet 
three goals:

        First--direct federal investments to areas with DEMONSTRATED 
        need;

        Second--STRENGTHEN programs that target support to rural areas 
        and small towns, such as technical assistance;

        And Third--MAINTAIN and EXPAND policies, like Buy American and 
        Davis-Bacon requirements, that support America's manufacturers 
        and workers.

    Looking specifically to surface transportation, we must balance our 
investments in new infrastructure with making sure that our existing 
infrastructure is safe and reliable.
    For example, the American Road and Transportation Builders 
Association's Bridge Report for 2021 found that my state of Illinois is 
home to the third-most bridges in poor condition in the nation. Over 10 
percent of the bridges in the congressional district I serve are 
classified as structurally deficient.
    Meanwhile, in 2018, more than 34 percent of major rural roads 
across the country were rated in poor or mediocre condition.
    Families in the Heartland, like those I serve, rely on surface 
transportation not only to get to work or run to the grocery store, but 
also as an economic connection to the rest of the country.
    Manufacturers, growers and producers all rely on roads, bridges and 
rail to move their products to market. Increased freight traffic on 
roads, coupled with everyday use, have resulted in significant strain 
on our most important infrastructure, making it critical that we invest 
more in our highways, bridges and rail, all while providing a 
sustainable funding source for the Highway Trust Fund.
    Congress' call to address this lies not only in our economic 
recovery, but in basic public safety.
    Promoting public safety also requires raising awareness of Move 
Over Laws. These laws vary from state to state--in Illinois, our Move 
Over Law is known as Scott's Law--but many people don't realize that 
moving over for a stopped vehicle is more than a courtesy--it is a 
legal requirement.
    After one of my constituents, State Trooper Brooke Jones-Story, was 
struck and killed during a routine traffic stop, I knew we needed to 
take action to prevent this needless loss of life. And as the wife of a 
sheriff, I'm grateful for the work our first responders do every day. I 
ask that this Committee continue to join me in working to keep them 
safe.
    Last Congress, I appreciated that this Committee included public 
awareness campaigns for Move Over Laws as eligible expenses in highway 
safety programs in the Moving Forward Act. It is my hope that you will 
again prioritize this important initiative.
    In closing, my parents' generation left us a world-class 
infrastructure system, but in order to build back better, we must look 
to repair the foundation we inherited, as well as build upon it. I look 
forward to working with you on these important initiatives to meet that 
promise for generations to come, and hope that this can be a truly 
bipartisan effort.

    Mr. Lamb. Thank you, and Mr. Bost is very thankful that you 
also mentioned the Move Over legislation that he was a part of, 
as well, again demonstrating the bipartisan spirit that we 
usually strive for on this committee.
    Thank you, Mrs. Bustos, and now we are onto Ms. Meng of New 
York.

TESTIMONY OF HON. GRACE MENG, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Ms. Meng. Thank you, Mr. Chairman, Chairman DeFazio, 
Ranking Member Graves, as well as all the distinguished members 
of this committee. Thank you for the opportunity to discuss 
several issues that are under the jurisdiction of the Committee 
on Transportation and Infrastructure. I am so grateful for all 
of your leadership, inclusiveness, and hard work to help our 
country build back better.
    I look forward to submitting for your committee's 
consideration infrastructure projects that are sure to improve 
the lives of my constituents in Queens, New York. Some of the 
projects that will be at the top of my agenda include 
strengthening our reliance on alternative energy, including 
through electric vehicle charging stations.
    I also want to thank this committee for your continued 
support of combating aviation noise, an issue that is so 
important in my district and so many across the country. As a 
founding member and former cochair of the Quiet Skies Caucus, I 
have worked on numerous initiatives--many with members of your 
committee--to mitigate the deafening airplane noise that has 
plagued my district for way too long. I thank you and your 
committee staff for being a tireless leader and partner on 
these issues and look forward to continuing this work when I 
reintroduce the Quiet Communities Act.
    Lastly, I am excited to discuss with you the issue of 
menstrual equity, and its importance to our economic and social 
infrastructure. I know that periods and menstrual products are 
not the first thing that come to mind when we say 
transportation and infrastructure. But it is a relevant issue, 
and an important one, especially during this unprecedented 
pandemic that has uprooted our economic and social balance.
    Access to safe, affordable menstrual products is a basic 
need, and a healthcare right for 51 percent of the U.S. 
population. It is estimated that a woman will use up to 16,000 
tampons in her lifetime, which equates to at least $7,000 over 
the course of her life. One might think these products are 
ubiquitous and cheap, but many people face difficulty when it 
comes to affording and accessing them. I know this because I 
have heard the heartbreaking testimonies from countless people 
across our Nation.
    Research has shown that the lack of access to menstrual 
products can hinder a person's day-to-day life, making it hard 
to attend school, go to work, secure job interviews, and pursue 
opportunities that could lead to economic achievement. That is 
why later this month I will be reintroducing a comprehensive 
bill on this issue, the Menstrual Equity for All Act, which 
will address the hardships that different people face in 
affording and accessing these products.
    Specifically, as it relates to this committee, yesterday I 
introduced a standalone section from the comprehensive bill 
that addresses public buildings. The Menstrual Products in 
Federal Buildings Act would require all public Federal 
buildings to provide free menstrual products in the restrooms. 
The U.S. Government is the largest employer in the country. It 
is estimated that there are over 2.1 million Federal civilian 
workers. This number does not even include the millions of 
contractors, grant employees, and others that make up our 
entire Federal workforce.
    The issue of affordability and accessibility is everywhere. 
We saw it during the longest Government shutdown in history, 
and we have seen it throughout this pandemic. After all, 
periods do not wait for pandemics. It is time that our 
Government finally walks the walk and sets an example by 
providing free menstrual products in all public buildings, just 
like we do with toilet paper, paper towels, and hand soap. 
Doing so will help alleviate the real-life barriers in 
accessing and affording these everyday products, while 
normalizing and destigmatizing this monthly necessity and basic 
human right.
    Thank you again for this opportunity to come before your 
committee today, and I yield back.
    [Ms. Meng's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace Meng, a Representative in Congress 
                       from the State of New York
    Chairman DeFazio and Ranking Member Graves, as well as 
distinguished members of this Committee, thank you for the opportunity 
to discuss several issues that are under the jurisdiction of the 
Committee on Transportation and Infrastructure. I am grateful for your 
leadership, inclusiveness, and hard work to help our country build back 
better.
    I look forward to submitting for your committee's consideration 
infrastructure projects that are sure to improve the lives of my 
constituents in Queens. Some of the projects that will be at the top of 
my agenda include strengthening our reliance on alternative energy, 
including through electric vehicle charging stations.
    I want to also thank this Committee for your continued support of 
combating aviation noise--an issue that is so important in my district. 
As a founding member and former co-chair of the Quiet Skies Caucus, I 
have worked on numerous initiatives--many with members of your 
committee--to mitigate the deafening airplane noise that has plagued my 
district for way too long. I thank you and your committee staff for 
being a tireless leader and partner on these issues--and look forward 
to continuing this work when I reintroduce the Quiet Communities Act.
    Lastly, I am excited to discuss with you the issue of menstrual 
equity and its importance to our economic and social infrastructure. I 
know periods and menstrual products are not the first thing that come 
to mind when we say: ``Transportation and Infrastructure.'' But it is a 
relevant issue--and an important one--especially during this 
unprecedented pandemic that has uprooted our economic and social 
balance. Access to safe, affordable menstrual products is a basic need 
and a health care right for 51 percent of the U.S. population.
    It is estimated that a woman will use up to 16,000 tampons in her 
lifetime, which equates to at least $7,000 over the course of her life. 
One might think these products are ubiquitous and cheap, but many women 
face difficulty when it comes to affording and accessing them. I know 
this because I have heard the heartbreaking testimonies from countless 
girls and women from across our nation.
    Research has shown that lack of access to menstrual products can 
hinder a person's day to day life, making it difficult to attend 
school, go to work, secure job interviews, and pursue opportunities 
that could lead to economic advancement. That is why later this month, 
I will be reintroducing a comprehensive bill on this issue, the 
Menstrual Equity for All Act, which will address the hardships that 
different women and girls face in affording and accessing these 
products.
    Specifically, as it relates to this committee, yesterday I 
introduced a standalone section from this comprehensive bill that 
addresses public buildings. The Menstrual Products in Federal Buildings 
Act would require all public federal buildings to provide free 
menstrual products in the restrooms.
    The U.S. government is the largest employer in the country. It is 
estimated that there are 2.1 million federal civilian workers. This 
number does not even include the millions of contractors, grant 
employees, and others that make up our entire federal workforce. The 
issue of affordability and accessibility is everywhere. We saw it 
during the longest government shutdown in history, and we have seen it 
throughout this pandemic. After all, periods do not wait for pandemics.
    It is time that our government finally walks the walk and sets an 
example by providing free menstrual products in all public buildings--
just as toilet paper, paper towels, and hand soap are already provided. 
Doing so will help alleviate the real-life barriers in accessing and 
affording these everyday products--while normalizing and destigmatizing 
this monthly necessity and basic human right.
    Thank you again for this opportunity to come before your committee.

    Mr. Lamb. Thank you, Ms. Meng, and next we are on to Mr. 
Hagedorn.

 TESTIMONY OF HON. JIM HAGEDORN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Hagedorn. Mr. Chairman, thank you. I appreciate the 
opportunity that you and the committee have offered here to 
talk a little bit about infrastructure needs, and as far as it 
applies to our district in southern Minnesota.
    I happen to represent the lower tier of Minnesota, so 
pretty much from Wisconsin to Iowa to South Dakota, and then 
Iowa up about 80 miles. And so lots of agriculture, lots of 
small business and manufacturing, and lots of medical care at 
Rochester with the Mayo Clinic and our fine rural hospitals 
across the district. So the transportation needs are pretty 
substantive.
    And as somebody who is on the Agriculture Committee, I can 
tell you that our farmers, for instance, they really need to 
not just produce our food and a lot of our energy needs, energy 
supplies, but they also need to get those things out, because 
most of them are consumed someplace else, sometimes far around 
the world.
    So roads and bridges, the basics, that is what we are 
looking for in this bill. Roads and bridges, airports, 
deepwater ports, rail, pipelines, locks and dams--you name it. 
So I think I would start there.
    Our district has a lot of diverse needs in transportation. 
And over on the Mississippi River, in Houston and Winona 
Counties, I think we have six locks and dams. And from what I 
understand, it costs upwards of maybe $80 million to keep those 
up to date. And some of them are 80, 100 years old. So I would 
say that, if the committee can kind of focus on that type of 
thing, that would be very important, because when we need to 
get our grain and other products to market, if there is a 
problem transporting down the river, it is going to lead to all 
sorts of bottlenecks, it is going to be very inefficient, and 
it is going to hurt our especially rural communities in 
southern Minnesota.
    And the roads and bridges, obviously, I think it has been 
too long since the committee and Congress has focused enough 
attention on our basic needs. I am a little concerned that 
there might be more money in a proposal out there for electric 
vehicles than there are for maintaining and upgrading our roads 
and bridges. That doesn't seem to make a lot of sense to me.
    If you want to do some things to promote good policies in 
energy, you might want to look at promoting E15, which is an 
ethanol program in order to drive down emissions and still 
allow people with internal combustion engines to get a very, 
very good product, and to help our rural communities, as well, 
where a lot of that is produced.
    You look at rail and pipelines and trucks, and they all 
kind of come together when you think about the Keystone 
pipeline. I am not sure I understand how an administration that 
claims they want to do infrastructure, the first thing that 
they did is they canceled the Keystone pipeline. And as farmers 
and others can tell you, when you have to drive or move crude 
oil on trucks and rail, all of a sudden, when farmers and 
others need to get their crops and their products to market, 
there aren't going to be enough cars on the railroads, and 
there aren't going to be enough trucks available in order to do 
that in an efficient way.
    Pipelines are so much more--not just efficient, but safe. 
And it just--to me, I think that was a really bad idea, and I 
hope that can be revisited, and we can get the Keystone 
pipeline back up and running, along with all the other energy 
construction infrastructure projects out there, distribution 
points, refineries, and the pipelines across the board.
    And then, in Minnesota and southern Minnesota we have some 
real basic needs in cities like Rochester. Rochester happens to 
be the home of the Mayo Clinic. I am one of their patients. 
They do fantastic work, the folks there, and people from all 
around the world travel to Rochester, Minnesota, a town of 
about 115,000 people. They spend sometimes long periods of time 
there, getting treatments and other things, as the doctors do 
their best to preserve life and let people live their best 
lives possible. And so the downtown is getting congested.
    There is a project that they are working on there. It is 
something that we may be talking with the committee down the 
road that we would like to propose, but that would be just one 
example of how we can help that city and alleviate some of the 
downtown congestion, and help people that travel, and improve 
the commerce and the economy.
    You look at the regional airports in our district. Again, 
Rochester is another example, because they need to improve 
their runways and their lighting system to make sure that at 
all times and all weather conditions they can get tissue 
samples, they can get transplant organs and other things in 
there to make sure that people, again, can have life preserved. 
And that has to happen--you know, it can't happen tomorrow or 
the next day. It has to happen immediately. So those types of 
upgrades are very important.
    Over on the other side of the district, in Mankato, we have 
the busiest airport in Minnesota without a control tower. So 
one of the things we are looking at is, can we build a physical 
tower, could we do a digital tower? Those are the types of 
projects that we are looking at, and we might be working with 
the committee down the road.
    The city of Jackson, another one, needs a new runway. The 
city of New Ulm, the cross runway, that needs improvement.
    So those are the types of things that we are working on in 
the district. We are looking to maybe partner with the 
committee as things move forward. And we are very excited about 
the one project that was completed last year, the Highway 14 
BUILD Grant that we received from the Department of 
Transportation. Now, with the State government, we are 
partnered up from Nicollet to New Ulm. We are going to have a 
four-lane highway. That is a big deal. We have had that project 
going from Rochester to New Ulm for over 50 years, and it is 
going to be completed here in the near future. So we are 
excited about that and everything else.
    I appreciate the committee's time, and I look forward to 
working with you down the road. Thank you.
    [Mr. Hagedorn's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Jim Hagedorn, a Representative in Congress 
                      from the State of Minnesota
                              Introduction
    <bullet>  As a member of the House Agriculture Committee, I know 
firsthand that high-quality transportation infrastructure is a 
necessity for the daily operations of America's farmers, ranchers and 
producers
    <bullet>  In rural farming communities, functioning roads and 
bridges are essential to the successful transportation of goods to 
market during harvest season
                        T&I Committee Priorities
    <bullet>  Highway bill that improves America's interstate 
transportation infrastructure should be top priority for committee
      -  Bill should not be a multitrillion dollar catch all
      -  The more expansive the bill becomes--testing the true 
definition of infrastructure--the more bipartisan agreement suffers
    <bullet>  It will be critical to ensure fair distribution between 
rural and urban areas
    <bullet>  Transportation bill needs to be about roads and bridges, 
not a vehicle for pushing socialist Green New Deal policies
    <bullet>  President Biden's plan does not make any investment in 
biofuels infrastructure, instead it provides $174 billion in electric 
vehicle infrastructure
      -  Nationwide E15 infrastructure coupled with investment in 
biofuels refineries will lead to lower emissions at a fraction of the 
cost
    <bullet>  Core programs include:
      -  Roads, bridges, airports, rails, ports
    <bullet>  Need to invest taxpayers' money wisely
      -  Unprecedented spending levels of the stimulus bill earlier 
this year and Democrats' current infrastructure proposal
                       Rep. Hagedorn's Priorities
    <bullet>  Southern Minnesota transportation priorities are the 
basics:
      -  Roads and bridges
      -  Locks and dams
        +  To ensure locks and dams in Winona and Houston Counties are 
upgraded
          <bullet>  Necessary for grain, and other goods, to travel up 
the Mississippi River
      -  Rails, pipelines, and trucks
        +  Pipelines, such as the Keystone XL Pipeline, are more 
efficient in moving crude oil
          <bullet>  Revoking Keystone XL's permit forces crude oil to 
be transported via other methods which are:
            -  Less safe
            -  Less efficient
            -  Less environmentally friendly
          <bullet>  I would encourage Biden Administration to 
reconsider its ruling on Keystone XL, especially given the high wage 
union jobs the project creates
    <bullet>  Important southern Minnesota projects:
      -  Alleviate traffic congestion in downtown Rochester
        +  Key to the expansion of the Mayo Clinic and welcoming 
patients from far and wide to the world's highest quality medical 
institution
          <bullet>  ``Medical tourism''
      -  Regional Airports
        +  Upgrade lighting system and runways
          <bullet>  Mayo clinic handles millions of tests, samples, 
transplant materials, life-saving medical technologies, etc.
        +  Busy airports in Minnesota without control towers
        +  Runway repaving, readjusting, and reconstruction
    <bullet>  Last Congress:
      -  Worked in bipartisan fashion with Governor Walz, Minnesota 
Department of Transportation, the State Legislature, and the Trump 
Administration to procure federal grant money, paired with state funds, 
to expand the Highway 14 corridor across southern Minnesota from two to 
four lanes.
        +  Project was 50 years in the making
        +  Major safety improvement
        +  Helps with economic vitality of the region
        +  Southern MN cities will have easier access, safety, and 
economic development
        +  Prime example of how bipartisan cooperation can achieve real 
results in the infrastructure space
                               Conclusion
    <bullet>  Thank you for your time today and I look forward to 
continued conversations, cooperation, and work toward a bipartisan 
agreement that will help repair roads, bridges, and other means of 
transportation for the safety and economic opportunity of the American 
people

    Mr. Lamb. Thank you, sir, and it does sound like our 
districts have a lot in common when it comes to the needs--
waterways, bridges that go over those waterways. And this 
committee has a pretty good track record in recent years of 
working to fix those things. So I think you will like what 
comes out of it.
    Up next is the gentleman from Texas, Mr. Cloud.

 TESTIMONY OF HON. MICHAEL CLOUD, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Cloud. Thank you, Mr. Chairman. I want to start off by 
just thanking you for having this hearing today. I really 
appreciate it.
    Of course, the Texas economy is diverse. It is supported by 
agriculture, energy, petrochemicals, manufacturing, and more. 
And as you know, all of these industries require a robust 
transportation network to get products to market. No matter the 
product, individuals and families in Texas depend on the jobs 
and economic growth that transportation infrastructure 
supports, as well as the rest of the Nation.
    On the topic of surface transportation priorities, one 
important project I wanted to discuss was I-69. This future 
interstate will stretch from the U.S.-Mexico border to the 
U.S.-Canadian border, spanning 2,500 miles, total. Instead of 
embarking on new construction, I-69 requires upgrades and 
extensions to existing highways. The completion of this 
interstate will allow more freight to be transported through 
the U.S. and to Mexico and Canada. Nearly half of the 
interstate will fall in my home State of Texas, and will run 
along the gulf coast, a major trading hub for the United 
States.
    Several Texas seaports, including the Ports of Corpus 
Christi and Houston, will undergo deepening and widening 
projects over the course of the next several years. This, along 
with other factors, will contribute to Texas' highway freight 
tonnage, doubling it by 2045. With increased freight comes 
increased trucks and more traffic congestion. The completion of 
I-69 can help reduce the amount of traffic congestion, because 
it would expand the number of lanes that are on existing roads. 
Therefore, I am requesting that the committee consider allowing 
future interstates to be eligible for National Highway Freight 
funding.
    While Texas has included projects related to I-69 in its 
freight mobility plan, National Highway Freight Program funding 
cannot be allocated to I-69. In the past I have worked with 
Congressman Cuellar and other members of the Texas delegation 
to make future interstates included in State freight plans 
eligible for National Highway Freight funding. This change can 
give Texas DOT and other State transportation departments an 
extra pool of money to use for the construction of future 
interstates.
    Another priority of mine is to revise MAP-21's requirements 
on designating roads as part of the interstate system. Roads 
that have been upgraded to interstate standards can only be 
designated as an interstate when a State's transportation 
department commits to connecting the road to an existing 
interstate within 25 years. And while this seems like an easy 
commitment, it can be hard for States to make this commitment 
when they are juggling other projects, specifically without the 
aforementioned funding.
    Local communities seeking to attract business investments 
to the region want to be able to place interstate signs along 
roads that have been upgraded to interstate standards already. 
As a result, I am committed to working with the committee on a 
solution that can allow these communities to place signs on 
upgraded segments of road. The solution will be either 
adjusting the law to give TxDOT and other States more time to 
commit to connecting noncontiguous segments of interstate or 
removing the commitment requirement altogether.
    Ultimately, I-69 will be a critical freight corridor for 
trade, and I look forward to working with the committee in the 
upcoming months on ways to help finance and expedite the 
completion of this interstate. Thank you very much.
    [Mr. Cloud's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Michael Cloud, a Representative in Congress 
                        from the State of Texas
    I want to start by thanking you all for the opportunity to speak 
here today.
    Texas' economy is diverse, as it is supported by agriculture, 
energy, petrochemicals, and manufacturing.
    All these industries require a robust transportation network to get 
products to market.
    No matter the product, individuals and families in Texas depend on 
the jobs and economic growth that transportation infrastructure 
supports.
    On the topic of surface transportation priorities, one important 
project I want to discuss is I-69.
    This Future Interstate will stretch from the U.S.-Mexico border to 
the U.S.-Canada border, spanning 2,500 miles total.
    Instead of embarking on new construction, I-69 requires upgrades 
and extensions to existing highways.
    The completion of this Interstate will allow more freight to be 
transported throughout the U.S. and to Mexico and Canada.
    Nearly half of the Interstate will fall in my home state of Texas 
and will run along the Gulf Coast--a major trading hub for the United 
States.
    I know that several of Texas' seaports--including the Ports of 
Corpus Christi and Houston--will undergo deepening and widening 
projects over the course of the next several years.
    This, along with other factors, will contribute to Texas' highway 
freight tonnage doubling by 2045.
    With increased freight comes increased trucks and more traffic 
congestion.
    The completion of I-69 can help reduce the amount of traffic 
congestion because it would expand the number of lanes that are on 
existing roads.
    Therefore, my first request is that the committee consider allowing 
Future Interstates to be eligible for National Highway Freight funding.
    While Texas has included projects related to I-69 in its Freight 
Mobility Plan, National Highway Freight Program funding cannot be 
allocated to I-69.
    In the past, I have worked with Congressman Cuellar and other 
Members of the Texas Delegation to make Future Interstates included in 
state freight plans eligible for National Highway Freight funding.
    This change can give TxDOT and other state transportation 
departments an extra pool of money to use for the construction of 
Future Interstates.
    Another priority of mine is to revise MAP-21's requirements on 
designating roads as part of the Interstate system.
    Roads that have been upgraded to Interstate standards can only be 
designated as an Interstate when a state transportation department 
commits to connecting the road to an existing Interstate within 25 
years.
    While this seems like an easy commitment, it can be hard for states 
to make this commitment when they are juggling other projects.
    Local communities seeking to attract business investment to their 
region want to be able to place Interstate signs on roads that have 
been upgraded to Interstate standards.
    As a result, I am committed to working with the committee on a 
solution that can allow these communities to place signs on upgraded 
segments of road.
    The solution will be either adjusting the law to give TxDOT more 
time to commit to connecting non-contiguous segments of an Interstate 
or removing the commitment requirement altogether.
    Ultimately, I-69 will be a critical freight corridor for trade.
    I look forward to working with the committee in the upcoming months 
on ways to help finance and expedite the completion of this Interstate.

    Mr. Lamb. Thank you, Mr. Cloud.
    And just for a rundown of who is coming up next, we have 
Mr. Keller, Mrs. Fletcher, Ms. Bass, Mr. Gottheimer, Mr. 
Quigley, Ms. Foxx, and Mrs. Kim following them.
    So with that I yield to my colleague from the Commonwealth 
of Pennsylvania, Mr. Keller.
    [Pause.]
    Mr. Lamb. Mr. Keller, we can't hear you. I think you might 
be on mute.
    [Pause.]
    Mr. Lamb. Still nothing.
    [Pause.]
    Mr. Lamb. Still nothing. Maybe we could have--it looks like 
Mr. Gottheimer is on.
    Mr. Gottheimer. I am here.
    Voice. Yes, let's go to Mr. Gottheimer next.
    Mr. Lamb. OK, we will go to Mr. Gottheimer, and then try to 
come back to Mr. Keller, while the staff works on it.
    Go ahead, Mr. Gottheimer.

TESTIMONY OF HON. JOSH GOTTHEIMER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Gottheimer. Thank you, Mr. Chairman and Ranking Member 
Graves and the committee. Thank you for inviting me to discuss 
one of the most important issues in my district, the quality of 
our transportation infrastructure.
    We desperately need--if I can begin talking about the 
Gateway project, because it is critical to fix and replace the 
tunnels underneath the Hudson River that connect New Jersey 
with New York City. They connect 20 percent of our GDP. The 
regional economy depends on the 200,000 people moving through 
the tunnels daily. If they don't run, or even if one tube is 
shut down, the American economy would lose $100 million a day. 
These 110-year-old tunnels are literally crumbling. Amtrak has 
said that one of the tunnels would likely have to be shut down 
within 5 years.
    The good news is the administration has already made 
progress on moving Gateway forward, with an environmental 
review to be done by May 28. But we still need to invest in the 
actual construction, to which New Jersey has already committed 
significant resources. And I ask the committee, in the upcoming 
surface reauthorization, to work with New Jersey and New York, 
including Railroads, Pipelines, and Hazardous Materials 
Subcommittee Chairman Payne, to create investment streams for a 
transformative project like Gateway.
    I would also like to discuss schoolbus safety. 
Unfortunately, and very sadly, we have lost schoolteachers and 
students in my district from preventable schoolbus crashes.
    Last Congress the committee included one of my two 
bipartisan schoolbus safety bills in H.R. 2. The committee 
included my bipartisan SECURES Act, which requires seatbelts on 
all schoolbuses, and makes three-point lap-and-shoulder 
seatbelts the national standard. New Jersey already implemented 
life-saving changes on buses, including three-point seatbelts 
and better driver background checks. Now it is time for every 
child nationwide to be protected on their way to school.
    My second bill, Miranda's Law, is named after Miranda 
Vargas, who, very sadly, was killed in a bus crash in my 
district. It will ensure that schools see red flags from 
dangerous bus drivers in real time to help remove dangerous 
schoolbus drivers from the road. I ask the committee to include 
both bills in the surface reauthorization bill.
    New York also--turning to another topic--just got the green 
light to take the next step forward on congestion pricing. This 
``Manhattan moocher'' congestion tax would charge drivers 
coming from New Jersey across the GW Bridge, where they already 
pay a $16 toll, a new $14 tax from driving into Midtown. That 
is a new annual tax on New Jersey drivers of $3,000 in addition 
to the $4,000 they already pay a year to cross the bridge. It 
is a sick joke to do this to families in the middle of a 
pandemic.
    We all know that northern New Jersey has a very limited 
public transportation system. So many people have to drive, 
including nurses working late shifts to help during COVID. The 
extra money for the MTA is on top of the $14 billion that we 
have already given to New York City from the COVID relief 
packages, and already the $1.5 billion they get every year from 
the Federal Government. New Jersey commuters shouldn't be 
responsible for bailing out the MTA, especially when Congress 
has already provided substantial relief. This is New York 
mooching off New Jersey to solve their own problems.
    My colleague, Bill Pascrell, and I have requested that 
Secretary Buttigieg and the U.S. DOT do the right thing. Let's 
all sit down and have a cooperative discussion about 
maintaining affordable commuting options and finding a better 
path forward that doesn't stick it to New Jersey drivers for 
New York's benefit. Adding a tax on New Jersey commuters who 
already pay a fortune is no way to make our region stronger.
    Lastly, we can't afford 4 more years of crumbling bridges, 
roads, and tunnels. I am confident that, working in a 
bipartisan way, we will get a great infrastructure bill done. 
However, a disastrous cap of $10,000 that gutted the State and 
local tax deduction was passed in the 2017 tax hike bill. And 
because of this, middle-class New Jersey families have been 
crushed, and residents have been leaving for other States. In 
fact, United Van Lines actually listed New Jersey as the 
number-one out-migration State, largely because of taxes, and 
largely because of SALT. It has affected middle- and lower 
class residents in high-cost-of-living States like mine, who 
are left to make up the difference when residents leave.
    So we are sick and tired of picking up the tab for 
``moocher'' States, other States that have gotten a free ride 
on our back, and then wanted to stick us with a larger bill 
after they gutted SALT. It is time we reinstate SALT, and 
actually give people in my State a real tax cut for middle-
class families. It is key. It is key, not just to helping our 
families get through this crisis, but also to making sure that 
we can help with programs that help so many of our other 
families.
    As we develop a bipartisan infrastructure package, any 
changes to the tax code that affects families, I have one point 
of view: no SALT, no dice.
    Thank you again for having me here today, Mr. Chairman, to 
discuss North Jersey's infrastructure needs that must be 
addressed. And thank you for the committee's leadership on 
these critical issues. I yield back.
    [Mr. Gottheimer's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Josh Gottheimer, a Representative in 
                 Congress from the State of New Jersey
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for inviting me to discuss one of the most 
important issues to the Fifth District of New Jersey: the quality of 
our transportation infrastructure, especially the Gateway Project, 
school bus safety, congestion taxes, and the SALT deduction.
                            Gateway Project
    We desperately need the Gateway Project to move forward to replace 
the tunnels underneath the Hudson River that connect New Jersey with 
New York City.
    The tunnels connect 20% of America's GDP, and the regional economy 
depends on 200,000 people moving every day though these tunnels. If the 
tunnels don't run, estimates are that America would lose $100 million 
every day.
    These 110-year old tunnels are literally crumbling and their 
condition was made worse from the severe damage during Hurricane Sandy. 
Amtrak has said that one of the tunnels would likely have to be shut 
down within 5 years. This Administration has already made progress on 
moving Gateway forward, with the recent news that the environmental 
review will be done by May 28th. But we still need to invest in the 
actual construction, which will be billions of dollars.
    I ask the Committee in the upcoming surface reauthorization to work 
with the New Jersey and New York Congressional delegations, including 
Rail Subcommittee Chairman Payne, to create investment streams for 
large, transformative projects like Gateway, that can't be easily paid 
for through existing formula or discretionary grant projects.
    We need these tunnels replaced ASAP, before they fail and wreak 
havoc on New Jersey and the nation.
                           School Bus Safety
    We also need to address school bus safety. Like many Members of 
Congress, I have sadly lost school teachers and students in preventable 
school bus crashes in my District. Last Congress, I was thrilled to be 
able to work with the Committee to include my two bipartisan school bus 
safety bills in H.R.2 and I ask the Committee to do so again.
    My bipartisan SECURES Act requires seat belts on all school buses, 
makes three-point lap-and-shoulder seat belts the national standard, 
and encourages innovative measures to ensure students actually wear 
their seat belts while on school buses.
    My second bill, Miranda's Law, named after Miranda Vargas, who was 
killed in a school bus crash in my district, will ensure that schools 
see red flags from dangerous bus drivers in real-time--to help remove 
dangerous school bus drivers from the road immediately.
                           Congestion Pricing
    In Northern New Jersey, another major issue that could greatly harm 
our families is New York's proposed new congestion tax scheme--where 
drivers would be charged upwards of $14 to enter their congestion 
pricing zone below 60th Street in midtown Manhattan. I call it the 
Manhattan Moocher Congestion Tax.
    This is a $3,000 dollars annual tax on every daily Jersey 
commuter--in addition to the nearly $4,000 they already pay every year 
to cross the GWB. How will hard-working people afford that? And in my 
part of northern New Jersey, there are very limited public transit 
options.
    When we work together, New Jersey and New York are a tough 
combination to beat. New York can easily pull back on this proposal and 
work with us toward a better solution for all. So I ask the Committee 
to help me, Representative Bill Pascrell, and other members of the New 
Jersey & New York City Delegation to sit down, and figure out a better 
solution that meets the region's transit needs while uniting the two 
states, not dividing them.
                                  SALT
    Lastly, we need to find a bipartisan path forward for a robust 
infrastructure investment package. To make that possible, some are 
considering altering the tax code to find ways to make those 
investments.
    As these negotiations begin, I've been clear that, if there are 
alterations made to the tax code for our families in New Jersey's Fifth 
District: no SALT, no dice.
    We absolutely need to reinstate our State and Local Tax deduction, 
which was disastrously capped in the 2017 Tax Hike Bill, driving up 
taxes for families in every county in my District and driving families 
out of New Jersey. Removing the SALT cap has broad bipartisan support. 
The House has already passed the SALT cap repeal three times, including 
as part of two previous COVID-19 relief packages in May and October of 
last year.
    As Congress puts together an infrastructure package to pay for this 
legislation, any tax changes that affect our families must reinstate 
the SALT deduction.
    Thank you for this Committee's leadership and for having me here 
today to discuss North Jersey's infrastructure needs that must be 
addressed.

    Mr. Lamb. Thank you. And we will try Mr. Keller again to 
see if the technical issues have been resolved.
    Go ahead, sir.
    Mr. Keller. Thank you, Mr. Chairman. Can you hear me now?
    Mr. Lamb. Yes.
    Mr. Keller. I appreciate that.

  TESTIMONY OF HON. FRED KELLER, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Keller. Again, thank you. I appreciate you having this 
hearing so that we can go over some of the priority 
transportation projects to be considered as part of the 
upcoming Surface Transportation Reauthorization Act.
    Pennsylvania's 12th Congressional District includes 15 
counties, each facing its own unique infrastructure challenges. 
I would like to touch on a few priorities that are important to 
the people of PA-12.
    First is a project in Woodward Township near Lock Haven 
State Route 1001 on Farrandsville Road. The goal is to 
construct a retaining wall with a sidewalk from the Jay Street 
Bridge to the lower portion of the Woodward Township Park area. 
The area has been unsafe for quite some time and is in 
desperate need of attention. A guide rail protecting vehicles 
from a steep drop to the river on one side, and a steep rock 
face on the other presents unnecessary dangers for pedestrians 
and traffic coming through the area on their way to the 
Susquehanna River, sports fields, and recreational facilities. 
The proposed project will widen State Route 1001, realign and 
improve intersection sight lines, upgrade pavement conditions, 
and add a 4-foot shoulder on each side.
    Another priority is the central Susquehanna Valley 
Throughway project in Snyder County, which is one of the 
largest transportation projects in Pennsylvania. This ongoing 
project needs strong Federal investment for earthwork and 
continued construction in the Shamokin Dam Borough to just 
north of Kratzersville Road in Winfield, Union County. This 
investment would improve traffic conditions and spur economic 
activity in the Susquehanna Valley, completing a north-south 
corridor, a four-lane highway through the Commonwealth of 
Pennsylvania. So very, very much needed for commerce, not just 
in Pennsylvania, but also New York State.
    I would also like to express my support for a highway 
reconstruction project on Atherton Street in State College 
Borough, Patton and Harris Townships, in Centre County. The 
project in question would improve the drainage system and 
existing pavement. It will also include minor widening, traffic 
signal work, and the installation of CCTV cameras to aid in 
integrated corridor management.
    Additionally, a project that runs through Loyalsock and 
Eldred Townships along Warrensville Road has needed attention 
for some time. The embankment failed in 2019 and has since been 
shut down due to safety concerns. Since that time, residents 
have had to travel along a 10-mile detour around this closure. 
Funding for this project would go a long way toward improving 
safety and reducing the flood risk in the community.
    Also of note are several projects in Lycoming and Clinton 
Counties that will upgrade the bus and service vehicle fleet, 
and install covering to protect these vehicles and extend their 
useful life, thereby allowing these areas to make the most out 
of this public investment.
    Finally, I would add that the value of BUILD or RAISE 
Grants cannot be overstated for the communities of PA-12. Since 
2009, the program has aided 678 projects in all 50 States. The 
program enables communities to leverage funding to make 
meaningful investments in their local infrastructure, leading 
to greater economic development, which is especially important 
for the rural areas like those I am very proud to represent.
    Making sure that much-needed infrastructure projects are 
able to get this assistance that is needed is a strong 
bipartisan objective. I hope this committee and the Department 
of Transportation will continue to lend support to this 
important program.
    Thank you, and I yield back.
    [Mr. Keller's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Fred Keller, a Representative in Congress 
                 from the Commonwealth of Pennsylvania
    Thank you Mr. Chairman. I appreciate you holding this hearing to go 
over some of the priority transportation projects to be considered as 
part of the upcoming surface transportation reauthorization act. 
Pennsylvania's 12th Congressional District includes 15 counties, each 
facing its own unique infrastructure challenges. I would like to touch 
on a few priorities that are important to the people of PA-12.
    First is a project in Woodward Township near Lock Haven on State 
Route 1001 on Farrandsville Road. The goal is to construct a retaining 
wall with sidewalk from the Jay Street Bridge to the lower portion of 
the Woodward Township Park area. The area has been unsafe for quite 
some time and is in desperate need of attention. A guide rail 
protecting vehicles from a steep drop to the river on one side and a 
steep rock face on the other presents unnecessary dangers for 
pedestrians and traffic coming through the area on their way to the 
Susquehanna River, sports fields, and recreational facilities. The 
proposed project will widen State Route 1001, realign and improve 
intersection sight lines, upgrade pavement conditions, and add a four 
foot shoulder on each side.
    Another priority is the central Susquehanna Valley Throughway in 
Snyder County, which is one of the largest transportation projects in 
Pennsylvania. This ongoing project needs Federal investment for 
earthwork and continued construction in the Shamokin Dam Borough to 
just north of Kratzersville Road in Winfield. Such investment would 
improve traffic conditions and spur economic activity in the 
Susquehanna Valley.
    I would also like to express my support for a highway 
reconstruction project on Atherton Street in State College Borough, 
Patton and Harris Townships, in Centre County. The project in question 
would improve the drainage system and existing pavement. It would also 
include minor widening, traffic signal work, and the installation of 
CCTV cameras to aid in integrated corridor management.
    Additionally, a project that runs through Loyalsock and Eldred 
Townships along Warrensville Road has needed attention for some time. 
The embankment failed in 2019 and has since been shut down due to 
safety concerns. Since that time, residents have had to travel along a 
10-mile detour around this closure. Funding for this project would go a 
long way toward improving safety and reducing flood risk in the 
community.
    Also of note are several projects in Lycoming and Clinton Counties 
that will upgrade the bus and service vehicle fleet and install 
covering to protect these vehicles and extend their useful life, 
thereby allowing these areas to make the most out of this public 
investment.
    Finally, I would add that the value of BUILD or RAISE grants cannot 
be overstated for the communities in PA-12. Since 2009, the program has 
aided 678 projects in all 50 states. The program enables communities to 
leverage funding to make meaningful investments in their local 
infrastructure leading to greater economic development, which is 
especially important for rural areas like those I am proud to 
represent. Making sure that much needed infrastructure projects are 
able to get the assistance they need is a strong bipartisan objective.
    I hope this committee and the Department of Transportation will 
continue to lend support to this important program.
    Thank you and I yield back.

    Mr. Lamb. Thank you, sir.
    And with that we turn to the gentlelady from the great 
State of Texas, Mrs. Fletcher.

TESTIMONY OF HON. LIZZIE FLETCHER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mrs. Fletcher. Thank you, Mr. Chairman, for the opportunity 
to testify today about the needs and priorities for 
infrastructure investment in Houston and Harris County, Texas.
    Of course, like people across the country, we have many 
needs and many opportunities for investment, and I look forward 
to working with the committee to identify and develop transit 
and transportation infrastructure in the third fastest growing, 
and already the third largest county in the country, as well as 
other investments that will help make our infrastructure more 
resilient, including our power grid and our water conveyance 
infrastructure, and to make our entire coastal region more 
resilient, which is where I want to focus my testimony today.
    As we discuss the American Jobs Plan, building on the 
important work of this committee, the President has told us 
that this is the moment to reimagine and rebuild, and to invest 
in the future of our country, in part, by investing in 
infrastructure that will be resilient to floods, storms, and 
other threats, and not fragile in the face of these increasing 
risks.
    Back home in Texas, we have been doing just that for nearly 
a decade: imagining, designing, and working to address the 
challenges of the past with an eye to the future. And the time 
to do that is now. That is why our plan for a transformative 
infrastructure should include the proposed Texas Coastal Spine, 
also known to us in Houston as the Ike Dike.
    While hurricanes are a fact of life along the gulf coast, 
in a little more than a decade our region has sustained 
increasingly dangerous and destructive hurricanes, causing loss 
of life, destruction of property, and hundreds of billions of 
dollars in damages. Hurricane Ike in 2008, from which this 
project takes its nickname, became the third costliest storm in 
U.S. history, causing $30 billion in losses to the Houston 
region, and killing 84 people. In 2015 and 2016, back-to-back 
500-year floods flooded more than 12,000 structures. In the 
following year, another 500-year flood named Hurricane Harvey 
killed 68 people and caused more than $125 billion in damages 
in the region.
    The scientists have told us that these storms will increase 
in size and frequency as a result of climate change. And we 
believe them. We have seen it with our own eyes. But we also 
know that, as bad as these storms were, it could have been 
worse. It could have been what the Houston Chronicle has 
described as a 20-foot wall of water smashing into tanks filled 
with oil and chemicals, transforming a bay teeming with life 
into a pit of poison.
    So what I am talking about now, what Texans have been 
talking about for a decade, is a plan to prevent a potential 
human and environmental catastrophe unlike any this country has 
ever seen. And that is because of the unique conditions that 
make this transformative plan to extend Galveston Island's 
existing seawall and constructing massive floodgates at the 
entrance to Galveston Bay, making this project a national 
priority.
    This investment is in our national economic interest. The 
Houston region, home to more than 7 million people, is also 
home to the Port of Houston, the busiest port in the country by 
total tonnage, and home to one of the largest, if not the 
largest, concentration of refining and petrochemical complexes 
in the world. Essential products like gasoline, jet fuel, 
plastics, fertilizers, and cleaning chemicals are all made 
here. The economic damage to the United States in the event of 
a catastrophic impact storm surge up the channel would have 
dire economic consequences across the country.
    Likewise, this investment is in our national security 
interest. The Texas gulf coast is responsible for 32 percent of 
the refining capacity for the entire country. And estimates are 
that around 40 percent of our Nation's jet fuel that we rely on 
for our national security is refined there. The consequences 
for loss of that capacity, for those as well as other fuels, 
cannot be understated as it relates to our national security.
    This investment is timely. We have seen broad community 
support to take transformative action from across our 
community. Texas State legislators, led by Representative Gene 
Wu, have asked the White House to include this project in the 
infrastructure package. We should, hopefully, see a final 
Chief's Report from the Army Corps of Engineers this year on 
the study.
    And this investment is smart. Studies have shown that, for 
every dollar spent on predisaster mitigation, the Federal 
Government saves $7 or more in future damages. In light of the 
cost I mentioned for our recent storms, the return on this 
investment is plain.
    This is the moment to do this. I will end my testimony with 
the few seconds I have left with the observation that was made 
in my very first hearing as a member of this committee in the 
116th Congress. There are costs to doing nothing. And the cost 
of the potential human and environmental disaster of a storm 
surge along the Texas gulf coast and up the Houston Ship 
Channel are too great to bear.
    I conclude with thanks to you for providing the opportunity 
to testify, and I yield back the balance of my time.
    [Mrs. Fletcher's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Lizzie Fletcher, a Representative in 
                    Congress from the State of Texas
    Thank you, Mr. Chairman for the opportunity to testify today about 
the needs and priorities for infrastructure investment in Houston and 
Harris County, Texas.
    Of course, like people across the country, we have many needs and 
many opportunities for investment, and I look forward to working with 
the Committee to identify and develop transit and transportation 
infrastructure in the third-fastest growing--and already the third 
largest--county in the country, as well as other investments that will 
help make our infrastructure more resilient, including our power grid 
and our water conveyance infrastructure, and to make our entire coastal 
region more resilient--which is where I will focus my testimony today.
    As we discuss the American Jobs Plan, building on the important 
work of this committee, the President has told us ``this is the moment 
to reimagine and rebuild'' and to invest in the future of our country, 
in part, by investing in infrastructure that will be resilient to 
floods, storms, and other threats, and not fragile in the face of these 
increasing risks.
    Back home in Texas, we have been doing just that for nearly a 
decade--imagining, designing, and working to address the challenges of 
the past with an eye to the future. And the time to do that is now.
    That is why our plan for transformative infrastructure should 
include the proposed Texas Coastal Spine, also known to us as the ``Ike 
Dike.''
    While Hurricanes are a fact of life along the Gulf Coast, in a 
little more than a decade, our region has sustained increasingly 
dangerous and destructive Hurricanes--causing loss of life, destruction 
of property, and hundreds of billions of dollars in damages.
    <bullet>  Hurricane Ike in 2008, from which this project takes its 
nickname, became the third-costliest storm in U.S. history, causing $30 
billion in losses to the Houston region and killing 84 people.
    <bullet>  In 2015 and 2016, back-to-back ``500 year'' floods, the 
Memorial Day floods flooded more than 6,000 structures.
    <bullet>  The following year, another ``500 year'' flood named 
Hurricane Harvey killed 68 people and caused more than $125 billion in 
damages in the region.

    The scientists have told us that these storms will increase in size 
and frequency as a result of climate change--and we believe them.
    We have seen it with our own eyes.
    But we also know that, as bad as all these storms were, it could 
have been worse.
    It could have been what the Houston Chronicle has described as a 
``20-foot wall of water smashing into tanks filled with oil and 
chemicals, transforming a bay teeming with life into a pit of poison.''
    So, what I am talking about now, what Texans have been talking 
about for a decade, is a plan to prevent a potential a human and 
environmental catastrophe unlike any this country has ever seen.
    That is because of the unique conditions that make this 
transformative plan to extend Galveston Island's existing seawall and 
construct massive floodgates at the entrance to Galveston Bay project a 
national priority.
    This investment is in our national economic interest.
    The Houston region, home to more than seven million people, is also 
home to the Port of Houston, the busiest port in the country by total 
tonnage, and home to one of the largest, if not the largest, 
concentration of refining and petrochemical complexes in the world. 
Essential products like gasoline, jet fuel, plastics, fertilizers, 
cleaning chemicals are all made here.
    The economic damage to the United States in the event of a 
catastrophic impact storm surge up the ship channel would have dire 
economic consequences across the country.
    We've seen a preview, when these facilities were closed for days as 
a result of Hurricane Harvey and this year's Winter Storm, we saw 
prices skyrocket across the country.
    This investment is in our national security interest.
    The Texas Gulf Coast is responsible for 32% of the refining 
capacity for the entire country. Estimates are that 40% of our nation's 
jet fuel that we rely on for our national security is refined there--
the consequences for loss of that capacity for our as well as other 
fuels cannot be understated as it relates to our national security.
    This investment is timely.
    We have seen broad community support to take transformative action 
from across the community. Texas state legislators, led by 
Representative Gene Wu, have asked the White House to include it in the 
infrastructure package. We should hopefully see a final chief's report 
from the Army Corps of Engineers this year on the study.
    This investment is smart.
    Studies have shown that for every dollar spent on pre-disaster 
mitigation, the Federal government saves seven dollars or more in 
future damages. In light of the costs I mentioned for our recent 
storms, the return on investment is plain.
    This investment is also a major undertaking. Estimates place the 
cost of the project at $26 billion, this project will require 
significant coordination between local entities and federal agencies. 
And we are ready to do it.
    This is the moment to do it.
    I will end my testimony with the observation made in my very first 
hearing as a member of this Committee in the 116th Congress, there are 
costs to doing nothing--and the costs of this potential human and 
environmental disaster of a storm surge along the Texas Gulf Coast and 
up the Houston Ship Channel are too great to bear.
    And I also conclude with thanks to you for providing the 
opportunity to testify today. I yield back the balance of my time.

    Mr. Lamb. Thank you, a valued former member of our 
committee, for your contributions and for how well you 
represent the people of the Houston area.
    And with that we move to the gentleman from Illinois, Mr. 
Quigley.
    [Pause.]
    Mr. Lamb. Go ahead, Mike, when you are ready.

 TESTIMONY OF HON. MIKE QUIGLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Quigley. Thank you. Thank you, Chairman. I thank the 
ranking member and members of the committee for the opportunity 
to speak today.
    As vice chairman of the Subcommittee on Transportation, and 
Housing and Urban Development, and Related Agencies, I believe 
it is absolutely vital that THUD and T&I work together to 
ensure that America's infrastructure is a driver of economic 
growth and meets the needs of all our citizens. I think we all 
agree we have a lot of work to do to get to that point.
    First, I would like to strongly endorse the President's 
vision for an infrastructure package that meets massive needs 
and levels of need in our country. I don't need to tell the 
members of this committee about the potential benefits of 
infrastructure investment. For decades we have dramatically 
underinvested in our national infrastructure. And I am grateful 
that this committee and this President understands the need to 
get back on track, and to ensure that we build the 
infrastructure we want, not the infrastructure we had.
    To that end, I would like to recommend that the committee 
consider establishing a Federal Highway Administration Hazard 
Mitigation Program so that we can ensure that Federal money is 
spent on resilient projects that Americans can depend on, 
regardless of the challenges of climate change.
    I would like to now focus in on a couple of often 
overlooked aspects of infrastructure that I believe are crucial 
in any bill this committee advances.
    First, park districts. In Illinois, park districts are 
special units of local government that are home not just to 
outdoor recreation facilities, but the century-old buildings 
and other historic landmarks. In my city of Chicago, the South 
Shore Cultural Center is just one great example. In addition to 
more than 70 acres that include a golf course, beach, and open 
areas, the cultural center is a historic site that dates back 
to 1905. It was even the site of Barack and Michelle Obama's 
wedding reception in 1992. Because of their unique mix of 
outdoor spaces and historic structures, there is no Federal 
funding program that helps support the vital preservation work 
that park districts do.
    I worked with my good friend and T&I Committee member, Chuy 
Garcia, last summer to help craft a small, but important park 
district grant program for inclusion in H.R. 2. While the 
provision wasn't included in the bill then, we were grateful 
that this committee and the Natural Resources Committee agreed 
to work with us on this issue, going forward.
    Likewise, I believe it is crucial for the Federal 
Government to support important cultural institutions like 
museums, zoos, and aquariums, both during and as we recover 
from COVID. These institutions located across the country and 
thousands of cities and towns represent our cultural heritage 
and are social, economic, and educational pillars of their 
communities. They have faced an unprecedented economic crisis, 
and they need and deserve our support. I will be sending a 
letter alongside Congressman Garcia to this committee expanding 
on the need for support for museums, zoos, and aquariums in an 
infrastructure package. And I would like to work with the 
committee on this important issue.
    Finally, I would like to speak about the Federal Bird Safe 
Buildings Act, which is before this committee. In fact, I have 
introduced a version of this bill in every Congress I have been 
a Member of, because I believe that we have a responsibility to 
be good stewards of the world we live in. Up to 1 billion birds 
die from colliding into buildings every year, which is a 
totally preventable problem. The cost-negligible bipartisan 
Bird Safe Buildings Act requires that public buildings 
constructed, acquired, or significantly altered by GSA 
incorporate bird-safe building materials and design features.
    Birds have an intrinsic cultural and ecological value and 
help generate billions of dollars annually to the U.S. economy 
through wildlife-watching activities. For all these reasons, it 
is vital that we take the simple, straightforward, and low-cost 
steps in my bill to protect birds from fatal collisions.
    This bill has been referred to Chairman Titus' 
subcommittee, and I thank her for her support of this in the 
past. I urge this committee to quickly consider and pass the 
Bird Safe Buildings Act, so that it can be brought to the floor 
for a vote in the full House.
    Chairman, members of the committee, thank you for your time 
today. I look forward to working with you and the committee, 
going forward. And thank you for your good work for the 
infrastructure of our country, and I yield back.
    [Mr. Quigley's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mike Quigley, a Representative in Congress 
                       from the State of Illinois
    Chairman DeFazio, Ranking Member Graves, Members of the Committee,
    Thank you for the opportunity to testify before the Transportation 
and Infrastructure Committee about a number of priorities that are 
important to me and to my constituents.
    As the Vice-Chairman of the Transportation, Housing, and Urban 
Development Appropriations Subcommittee, I believe it is vital that 
THUD and T&I work together to ensure that America's infrastructure is a 
driver of economic growth and meets the needs of all our citizens.
    And I think we'd all agree that we have a lot of work to do to get 
to that point.
    First today, I'd like to strongly endorse President Biden's vision 
for an infrastructure package that meets massive level of need in our 
country.
    I don't need to tell the members of this committee about the 
potential benefits of infrastructure investment.
    For decades, we have dramatically underinvested in our national 
infrastructure and I'm grateful that this Committee and this President 
understand the need to get back on track, and to ensure that we build 
the infrastructure we want, not the infrastructure we had.
    To that end, I'd like to recommend that the Committee consider 
establishing a Federal Highway Administration Hazard Mitigation 
program, so that we can ensure that federal money is spent on resilient 
projects that Americans can depend on, regardless of the challenges of 
a changing climate.
    I'd like now to focus in on a couple of often overlooked aspects of 
infrastructure that I believe are crucial in any bill this committee 
advances.
    First, park districts. In Illinois, park districts are special 
units of local government that are home not just to outdoor recreation 
facilities, but to century old buildings and other historic landmarks.
    In my city of Chicago, the South Shore Cultural Center is just one 
great example.
    In addition to more than 70 acres that include a golf course, a 
beach, and open areas, the cultural center building is a historic site 
that dates back to 1905.
    It was even the site of Barack and Michelle Obama's wedding 
reception in 1992.
    Because of their unique mix of outdoor spaces and historic 
structures, there's no federal funding program that helps support the 
vital preservation work that park districts do.
    I worked with my good friend and T&I committee member, Chuy Garcia 
last summer to help craft a small but important park district grant 
program for inclusion in HR 2.
    While the provision wasn't included in the bill then, we were 
grateful that this committee and the Natural Resources Committee agreed 
to work with us on this issue going forward.
    Likewise, I believe it is crucial for the federal government to 
support important cultural institutions like museums, zoos, and 
aquariums both during, and as we recover from, the COVID-19 pandemic.
    These institutions, located across the country in thousands of 
cities and towns, represent our cultural heritage and are social, 
economic, and educational pillars of their communities.
    They have faced an unprecedented economic crisis and they need and 
deserve our support.
    I will be sending a letter, alongside Congressman Garcia, to this 
committee expanding on the need for support for museums, zoos, and 
aquariums in an infrastructure package and I'd like to work with the 
Committee on this important issue.
    Finally, I'd like to speak about the Federal Bird Safe Buildings 
Act, which is before this committee.
    In fact, I have introduced a version of this bill in every Congress 
I have been a member of because I believe that we have a responsibility 
to be good stewards of the world we live in.
    Up to one billion birds die from colliding into buildings every 
year, which is a totally preventable problem.
    The cost-negligible, bipartisan Bird Safe Buildings Act requires 
that public buildings constructed, acquired, or significantly altered 
by GSA incorporate bird-safe building materials and design features.
    Birds have an intrinsic cultural, and ecological value and help 
generate billions of dollars annually to the U.S. economy through 
wildlife watching activities.
    For all these reasons, it's vital that we take the simple, 
straightforward, and low cost steps in my bill to protect birds from 
fatal collisions.
    This bill has been referred to Chairwoman Titus' subcommittee and I 
thank her for her support of it in the past.
    I urge the committee to quickly consider and pass the Bird Safe 
Buildings Act so that it can be brought the floor for a vote in the 
full House.
    Chairman DeFazio, members of the Committee, thank you for your time 
today. I look forward to working with the committee going forward and 
thank you for your good work for the infrastructure of our country.

    Mr. Lamb. Thank you, sir.
    And next, I believe, we have the gentlelady from North 
Carolina, Ms. Foxx.
    Ms. Foxx. I am on. Can you hear me, Conor?
    Mr. Lamb. We can hear you great.
    Ms. Foxx. OK. We got a little problem here. We are trying 
to do two--we were on another call, since you all were running 
so late. We have to----
    Voice. There we go, you are good.
    Ms. Foxx. OK.
    Voice. We are in committee now.
    Ms. Foxx. Now I am on. Can you hear me?
    Mr. Lamb. Yes, loud and clear.
    Ms. Foxx. Thank you, I am sorry. Today's schedule is a 
little crazy.

 TESTIMONY OF HON. VIRGINIA FOXX, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Ms. Foxx. I come before the committee today in support of 
designating U.S. 74 from Columbus, North Carolina, to Kings 
Mountain, North Carolina, as a future interstate, and to 
advocate for codifying this designation in the upcoming surface 
transportation reauthorization bill.
    The North Carolina U.S. 74 corridor passes through largely 
rural regions of the State, and is characterized by 
inconsistent travel speeds, bottlenecks at signaled 
intersections, and a high occurrence of vehicle accidents as 
the corridor moves through regional centers. The highway is 
also a crucial evacuation route for the southeast of the State 
in times of severe weather events. And you all hear about that 
a lot, I am sure.
    U.S. 74 provides a direct route between several interstates 
and is a vital freight corridor. But previous studies have 
identified the need to upgrade the highway to an interstate 
status in order to move the freight more efficiently, and to 
allow for better access to the western and southern parts of 
the State.
    In this district, U.S. 74 cuts through Cleveland, Gaston, 
and Rutherford Counties. While each of those counties would 
benefit from the proposed designation, for Rutherford County 
the designation is critical to the county's economic 
sustainability. The county is home to more than 66,000 people 
and sits in the foothills of the Blue Ridge Mountains, about an 
hour west of Charlotte. Textile manufacturing once was an 
economic driver for the communities of Rutherford County, but 
the county has been economically challenged since thousands of 
textile and furniture manufacturing jobs were outsourced in the 
early 1990s.
    In the time since, the county has made strides to redefine 
itself, and has diversified its industrial base into sectors 
such as automotive suppliers, data centers, and advanced 
materials. The county has worked to make improvements to its 
schools and has partnered with a nonprofit internet provider to 
expand broadband networks in its rural communities. Despite 
these efforts to attract private investments and diversify 
industries, Rutherford County is defined by the North Carolina 
Department of Commerce as an economically distressed tier 1 
county and by the Appalachian Regional Commission as an 
economically at-risk county.
    One of the major challenges facing Rutherford County in 
attracting outside investment is the fact that there are no 
interstates that run through it. That makes it difficult to 
attract investments from industry, who often want to be located 
near an interstate highway. Designating U.S. 74 as a future 
interstate from Columbus to Kings Mountain would have short-
term as well as long-term positive impacts for Rutherford 
County and its neighboring counties.
    While future interstate status gives no increased priority 
for projects or additional funding for the route, it does allow 
for the State to install future interstate signs immediately, 
which will help attract potential employers to the areas around 
U.S. 74. That is why support for the project has been expressed 
by the communities within Rutherford County, as well as from 
neighboring Polk and Cleveland Counties.
    I appreciate the opportunity to testify before the 
committee today and ask for your support for including this 
future interstate designation in the upcoming surface 
reauthorization bill.
    And I yield the balance of my time.
    [Ms. Foxx's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Virginia Foxx, a Representative in Congress 
                    from the State of North Carolina
    Thank you, I come before the committee today in support of 
designating US-74 from Columbus, North Carolina to Kings Mountain, 
North Carolina as a future interstate and to advocate for codifying 
this designation in the upcoming surface transportation reauthorization 
bill.
    North Carolina's US-74 corridor passes through largely rural 
regions of the state and is characterized by inconsistent travel 
speeds, bottlenecks at signaled intersections, and a high occurrence of 
vehicle accidents as the corridor moves through regional centers. The 
highway is also a crucial evacuation route for the southeast of the 
state in times of severe weather events.
    US-74 provides a direct route between several interstates and is a 
vital freight corridor, but previous studies have identified the need 
to upgrade the highway to an interstate status in order to move freight 
more efficiently and to allow for better access to the western and 
southern parts of the state.
    In my district, US-74 cuts through Cleveland, Gaston and Rutherford 
Counties. While each of those counties would benefit from the proposed 
designation, for Rutherford County the designation is critical to the 
county's economic sustainability.
    The county is home to more than 66,000 people and sits in the 
foothills of the Blue Ridge Mountains, about an hour west of Charlotte. 
Textile manufacturing once was an economic driver for the communities 
of Rutherford County, but the county has been economically challenged 
since thousands of textile and furniture manufacturing jobs were 
outsourced in the early 1990's.
    In the time since, the county has made strides to redefine itself 
and has diversified its industrial base into sectors such as automotive 
suppliers, data centers and advanced materials. The county has worked 
to make improvements to its schools and has partnered with a nonprofit 
internet provider to expand broadband networks in its rural 
communities. Despite these efforts to attract private investments and 
diversify industries, Rutherford County is defined by the North 
Carolina Department of Commerce as an economically distressed, Tier One 
county and by the Appalachian Regional Commission as an economically 
at-risk county.
    One of the major challenges facing Rutherford County in attracting 
outside investment is the fact that there are no interstates that run 
through it. That makes it difficult to attract investments from 
industries that often want to be located near an interstate highway.
    Designating US-74 as a future interstate from Columbus to Kings 
Mountain would have short term, as well as long term positive impacts 
for Rutherford County and its neighboring counties. While future 
Interstate status gives no increased priority for projects or 
additional funding for the route, it does allow for the state to 
install future interstate signs immediately, which will help attract 
potential employers to the areas around US-74. That is why support for 
the project has been expressed by the communities within Rutherford 
County, as well as from neighboring Polk and Cleveland counties.
    I appreciate the opportunity to testify before the committee today 
and ask for your support for including this future interstate 
designation in the upcoming surface reauthorization bill. Thank you and 
I yield the balance of my time.

    Mr. Lamb. Thank you.
    And next we have the gentlelady from California, Mrs. Young 
Kim.
    [Pause.]
    Mrs. Kim. Thank you.
    Mr. Lamb. Go ahead.
    Mrs. Kim. Am I recognized now?
    Mr. Lamb. Yes.

TESTIMONY OF HON. YOUNG KIM, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mrs. Kim. Thank you. Thank you, Chairman and the T&I 
Committee, for convening this very important Members' Day to 
hear about our priorities this Congress. I am proud to speak on 
behalf of my constituents in the 39th Congressional District of 
California.
    Now, more than ever, it is very important that any 
infrastructure legislation that is considered in this Congress 
has input from both sides of the aisle. Only together in a very 
bipartisan way can our country address some of the most 
pressing issues impacting the long-term sustainability of our 
infrastructure system.
    By reforming our user-fee system and incentivizing public-
private partnerships, we could find common ground to address 
the associated taxpayer cost of an infrastructure package 
without having to saddle our future generations with debt, or 
hamper our economic recovery from the COVID-19 crisis with tax 
increases.
    There is wide consensus from both parties that we must 
address the broad deficiencies of our ports, highways, bridges, 
and roads, but any infrastructure action by Congress must be 
targeted and effective in addressing our competitiveness 
abroad.
    For example, in my district the growth in global trade and 
local socio-economic changes in southern California have caused 
California State Routes 57 and 60 to become two of the most 
heavily traveled freight highway corridors in the country. 
Unfortunately, the American Transportation Research Institute 
has ranked the 57/60 confluence as the worst truck bottleneck 
in California, and one of the worst in the Nation.
    The movement of goods from San Pedro Bay Ports to points 
beyond Los Angeles County and to the major interstates of I-10, 
I-15, and I-40 often involves a truck trip on the confluence. 
Nearly 40 percent of the Nation's containerized imports pass 
through the San Pedro Bay Ports. Of that, 9 percent of trucks 
passing through the 57/60 confluence originate from the San 
Pedro Bay Ports. And approximately 75 percent of these imports 
are destined for final consumption outside the region. Trucking 
delays originating at the confluence ripple across the State, 
causing economic disruptions on industries beyond the corridor.
    The COVID-19 pandemic has highlighted the importance of 
investing in our supply chains and logistics networks to 
efficiently provide food and medical supplies. Legislation and 
efforts to improve our freight highways will support export-
import dependent industries and the creation of jobs throughout 
the United States.
    I urge the committee to work with me to strengthen the 
national freight highway system to improve the movement of 
goods and people through the 57/60 confluence, which serves as 
a vital freight highway connection linking southern California 
ports and manufacturing facilities that drive the regional, 
State, and national economy.
    Thank you again for allowing me to testify today, and for 
your leadership to improve our Nation's competitiveness and 
infrastructure. I look forward to working with this committee.
    [Mrs. Kim's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Young Kim, a Representative in Congress from 
                        the State of California
    Thank you, Chairman DeFazio and Ranking Member Graves, for 
convening this important Member Day to hear about our priorities this 
Congress.
    Now more than ever, is very important that any infrastructure 
legislation that is considered this Congress has input from both sides 
of the aisle.
    Only together--in a bipartisan way--can our country address some of 
the most pressing issues impacting the long-term sustainability of our 
infrastructure system.
    By reforming our user fee system and incentivizing public-private 
partnerships, we could find common ground to address the associated 
taxpayer costs of an infrastructure package without having to saddle 
our future generations with debt or hamper our economic recovery from 
the COVID-19 crisis with tax increases.
    There is wide consensus from both parties that we must address the 
broad deficiencies of our ports, highways, bridges, and roads--but any 
infrastructure action by Congress must be targeted and effective in 
addressing our competitiveness abroad.
    For example, in my district the growth in global trade and local 
socio-economic changes in Southern California have caused California 
State Routes 57 and 60 to become two of the most heavily traveled 
freight highway corridors in the country.
    Unfortunately, the American Transportation Research Institute has 
ranked the 57/60 Confluence as the worst truck bottleneck in California 
and one of the worst in the U.S.
    Movement of goods from the San Pedro Bay Ports to points beyond Los 
Angeles County and to the major interstates of I-10, I-15, and I-40 
often involves a truck trip on the Confluence. Nearly 40 percent of the 
nation's containerized imports pass through the San Pedro Bay Ports.
    9 percent of trucks passing trough the 57/60 Confluence originate 
from the San Pedro Bay Ports.
    Approximately 75 percent of these imports are destined for final 
consumption outside the region. Trucking delays originating at the 
Confluence ripple across the state, causing economic disruptions on 
industries beyond the corridor.
    The COVID-19 pandemic has highlighted the importance of investing 
in our supply chains and logistics networks to efficiently provide food 
and medical supplies.
    Legislation and efforts to improve our freight highways will 
support export-import-dependent industries and the creation of jobs 
throughout the United States.
    I urge the Committee to work with me to strengthen the National 
Freight Highway System to improve the movement of goods and people 
through the 57/60 Confluence, which serves as a vital freight highway 
connection linking Southern California ports and manufacturing 
facilities that drive the regional, state, and national economy.
    Thank you again for allowing me to testify today and for your 
leadership to improve our nation's competitiveness and infrastructure.
    I look forward to working with this Committee in the 117th 
Congress.

    Mr. Lamb. Thank you, Mrs. Kim, for your testimony.
    Next up we have--in this order, the next five Members will 
be: Ms. Bass of California; Ms. Adams of North Carolina; Mr. 
Sherman of California; Mr. Mann of Kansas; and Ms. Schrier of 
the State of Washington.
    So with that we turn to the gentlelady from California, Ms. 
Karen Bass.

TESTIMONY OF HON. KAREN BASS, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Ms. Bass. Thank you very much. I want to thank Chair 
DeFazio, Ranking Member Graves, and members of the House T&I 
Committee for the opportunity to testify before you today.
    Our Nation's transportation system, we all know, is in 
desperate need of investment, and especially equitable 
investment that elevates different communities. For decades, 
access to Federal highway and transit funding has benefitted 
too few.
    I would like to call your attention to the Build Local, 
Hire Local Act, which I introduced in the 116th Congress with 
Senator Gillibrand, and I plan to reintroduce this spring. Our 
bill emphasizes increased access to the DBE, or Disadvantaged 
Business Enterprise program, to create opportunities. Our bill 
also strengthens wage and labor standards, while increasing the 
robustness of environmental assessments for infrastructure 
projects because of climate change.
    The Build Local, Hire Local Act is designed to create 
opportunities for all Americans--veterans, the disabled--so we 
reinvest in our Nation equitably. Our legislation even creates 
an apprenticeship pathway for workers in low-income communities 
to create vibrant, economically prosperous, and environmentally 
sustainable neighborhoods.
    At its heart, the Build Local, Hire Local Act starts the 
long-term process of undoing decades of highway and 
construction projects that have bifurcated many communities.
    Equally important, the legislation strengthens local hire 
policy. As you know, local hire is essential to providing good-
paying transportation jobs. Without instituting local-hire 
policy, people cannot fully benefit directly from the Federal 
funds that flow to our district. So I was pleased to see in the 
American Jobs Plan that it supports local hire.
    I urge the committee to support the reinstatement of the 
local-hire pilot program at the Department of Transportation. 
It was first instituted in 2015, and, essentially, what it is 
is that it removes an unnecessary regulation that, essentially, 
prohibits Federal funds on transportation projects from 
prioritizing people who live in the area of the project from 
being employed by the project.
    Last Congress I was pleased to see H.R. 2, the Moving 
Forward Act, which passed the House in July 2020, that includes 
a provision to redefine ``small business'' for the Department 
of Transportation's DBE program so it matches the definition 
used by the SBA. It is a technical fix that, if enacted into 
law, will allow small businesses who are currently not eligible 
for the DBE program to qualify. I urge the committee to keep 
this provision in its entirety in the final infrastructure 
package this Congress to ensure minority- and women-owned 
businesses can fully benefit from the DBE program.
    Finally, Chair and members of the committee, I would like 
to call your attention to an intractable issue affecting my 
district, as well as many other districts in the region and our 
Nation, and that is airplane noise. Constituents in my district 
and across the country who may live several miles away from an 
airport have found themselves bombarded by airplane noise from 
newly concentrated flightpaths. In this case, an arrival 
procedure into the Los Angeles International Airport.
    The constituents suffer the adverse health effects of 
excessive noise, which includes increased incidence of sleep 
disruption, learning loss, hypertension, and heart disease, and 
also in the Los Angeles area, where the entertainment industry 
is key, a lot of businesses have been interrupted because it is 
very difficult to shoot, especially outside, if you have 
concentrated, consistent noise.
    So right now, the COVID-19 pandemic has rattled the 
aviation industry with dramatic reductions in the number of 
flights. So this presents a unique opportunity to rethink 
aviation. As flights begin to ramp up again, we must seek 
solutions that bring relief to residents who live beneath these 
concentrated flightpaths. The FAA must give greater attention 
to airplane noise and address this important challenge.
    I want to thank the chairman and the ranking member and 
members of the committee for the opportunity to testify. It has 
been an honor to speak to the needs of my constituents, and the 
policies that would elevate all of us in the country. Thank you 
very much.
    [Ms. Bass' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Karen Bass, a Representative in Congress 
                      from the State of California
    Chair DeFazio, Ranking Member Graves, and members of the House 
Committee on Transportation & Infrastructure, thank you for the 
opportunity to testify today.
    Our nation's transportation system is in desperate need of 
investment--and especially, equitable investment that elevates 
communities of color and minority- and women-owned businesses. For 
decades, access to federal highway and transit funding has benefited 
too few. Now, more than ever, on the tail end of a pandemic that has 
devastated communities but especially those of African-Americans and 
Latinos, who make up the heart of essential workers, we need to take 
bold action to equitably rebuild our nation's infrastructure. That 
means prioritizing the concerns of communities long burdened by 
historically unjust transportation policy.
    First, I'd like to call your attention to the ``Build Local, Hire 
Local Act,'' which I introduced in the 116th Congress with Senator 
Gillibrand and plan to reintroduce this spring. Our bill emphasizes 
increased access to the Disadvantaged Business Enterprise program, 
which creates opportunities for businesses owned by minorities. Our 
bill also strengthens wage and labor standards, while increasing the 
robustness of environmental assessments for infrastructure projects 
because climate change is here and needs addressing.
    The ``Build Local, Hire Local Act,'' is designed to create 
opportunities for all Americans--veterans, the formerly incarcerated, 
and the disabled--so we reinvest in our nation equitably. Our 
legislation even creates an apprenticeship pathway for workers in low-
income communities to create vibrant, economically prosperous, and 
environmentally sustainable neighborhoods. At its heart, the ``Build 
Local, Hire Local Act'' starts the long-term process of undoing decades 
of highway and construction planning that has bifurcated communities of 
color. It begins to break down unjust barriers to employment and access 
to clean air that have impacted so many African Americans and 
communities of color.
    Equally important, the legislation strengthens local hire policy. 
As you know, local hire policy is essential to providing good-paying 
transportation jobs for people living in California's 37th Congress 
District in Los Angeles, which I have the honor of representing, where 
several transit and highway construction projects are ongoing. Without 
instituting local hire policy, Angelenos cannot fully benefit directly 
from the federal funds that flow to our District. What's more, African 
Americans and Latinos are disproportionately impacted from accessing 
quality jobs.
    This is why I was pleased to see President Biden's ``American Jobs 
Plan'' support local hire policy.
    It's clear Congressional and White House policy are aligned on this 
issue, which is why I also urge the committee to support the 
reinstatement of the Local Hire Pilot Program at the Department of 
Transportation (DOT), which was first instituted in 2015 and put on 
pause by the previous administration. The Local Hire Pilot Program is 
simple: it would permit recipients of federal highway and transit funds 
to hire locally. If reinstated, this would make a world of difference 
to Angelenos in the Congressional District, especially given how the 
pandemic has caused many businesses to suffer and shut down. Local hire 
policy will help uplift our District's long-term economic trajectory.
    Last Congress, I was pleased to see H.R. 2, the Moving Forward Act, 
which passed the House in July 2020, include a provision to redefine 
``small business'' for the DOT's Disadvantaged Business Enterprise 
(DBE) program so it matches the definition used by the Small Business 
Administration. That technical fix, if enacted into law, will allow 
small businesses currently not eligible for the DBE program to qualify. 
I urge the committee to keep this provision in its entirety in the 
final infrastructure package this Congress to ensure minority- and 
women-owned businesses can fully benefit from the DBE program.
    Finally, Chair DeFazio and Members of the Committee, I'd like to 
call your attention to an intractable issue affecting the 37th 
Congressional District of California, as well as many other in the 
region and our nation--airplane noise.
    Constituents in similar Congressional Districts, which are located 
near major international airports, in this case the Los Angeles 
International Airport, suffer from the adverse health effects of 
airplane noise. That includes sleep disruption, hypertension, and 
stress. As we know, Next Gen technology implemented by the Federal 
Aviation Administration (FAA) created an otherwise unseen degree of 
overhead flight concentration. My staff have worked tirelessly to 
pursue avenues that might disperse flights, mitigate low-flying 
aircraft, and reduce the number of nighttime airplanes.
    Right now, the COVID-19 pandemic has rattled the aviation industry, 
and in so doing, the pandemic has presented a unique opportunity to 
rethink aviation. We should be mindful of instituting changes that will 
allow residents who live beneath flight paths to experience a greater 
sense of calm. At its core, the FAA must prioritize airplane noise. 
Then, too, we must ensure the FAA uses the most reliable and accurate 
metrics to measure noise and that aircrafts are installed with the 
latest technology to limit the noise of engines. Let's work together to 
develop new and innovative means to address this longstanding challenge 
and provide our constituents with some relief.
    Thank you, Mr. Chairman, Ranking Member Graves, and Members of the 
House Committee for the opportunity to testify.
    It has been an honor to speak to the needs of my constituents and 
the policies that would elevate Angelenos and communities of color. I 
appreciate your time.

    Ms. Davids [presiding]. Thank you, and the gentlewoman from 
North Carolina, Ms. Adams, is recognized for 5 minutes.

 TESTIMONY OF HON. ALMA S. ADAMS, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Ms. Adams. Thank you very much. Thank you to Chairman 
DeFazio, to Ranking Member Graves, and to the distinguished 
members of this committee for the opportunity to be with you 
today. I am excited to share with you the priorities of North 
Carolina's 12th Congressional District, and what we will be 
able to accomplish with your help through your Member-
designated projects.
    Charlotte, the largest city in my district, has grown 
tremendously over the past decade. We are now the 15th largest 
city in the country. At the same time, our county, Mecklenburg, 
has over 1 million residents, and is one of the most populated 
in North Carolina. Unfortunately, our transportation 
infrastructure has not kept pace with our rapid growth.
    And that is why our Charlotte Area Transit System, CATS, 
boldly invested to create our State and region's first light 
rail transit back in 2007. And with the support of then-
Secretary of Transportation and former Charlotte mayor, Anthony 
Foxx, and my friend and colleague, THUD Appropriations Chairman 
David Price, CATS secured the Federal funding necessary to 
create our light rail system through the Capital Investment 
Grant program.
    And prior to COVID-19, the LYNX Blue Line facilitated 
travel for almost 30,000 North Carolinians daily, 30,000. And 
we know that our light rail works, and that is why we are 
looking to fund this expansion. We want to connect our northern 
towns to uptown Charlotte, to the Charlotte Douglas Airport. 
And with your help, we will be able to connect our entire 
region to our mass transit system.
    So as you work to draft a surface transportation 
reauthorization and infrastructure package, I want to strongly 
encourage you to increase the authorized funding for the 
Capital Investment Grant program.
    I want to applaud you, Chairman DeFazio, for your work last 
Congress to dramatically increase the CIG program's authorized 
level of funding. I look forward to working with you in the 
weeks and the months ahead as this committee develops this 
necessary legislation.
    And now I want to just take a moment to address some of the 
requests that my office has received for Member-designated 
projects.
    In Cornelius, North Carolina, the Westmoreland interchange 
project will help facilitate the development of a new hospital 
that will anchor the region. In Huntersville, North Carolina--
all still in my district--the downtown greenway project would 
help connect residents to a park and ride lot that will enable 
thousands to easily reach work in uptown and relaxation in 
downtown Huntsville. In Charlotte, Member-designated project 
funds will enable our local area transit system to purchase 
more electric buses, which will keep our air clean and our 
people moving. And it will also allow the city to install 
streetlights on our high-injury network to help prevent 
automobile accidents and save lives.
    In closing, Mr. Chair, I want to thank you and the 
committee again for the opportunity to advocate for my 
constituents, for my city, and county. Down in North Carolina 
we like to say that Charlotte has got a lot, and I am hoping 
that, with your help, we can get just a little bit more. Thank 
you, and I am so very pleased to answer any questions that you 
may have. I yield back.
    [Ms. Adams' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Alma S. Adams, a Representative in Congress 
                    from the State of North Carolina
    Thank you Chairman DeFazio, Ranking Member Graves, and the 
distinguished members of this Committee for the opportunity to be with 
you today.
    I'm excited to share with you the priorities of North Carolina's 
12th District, and what we will be able to accomplish with your help 
through your Member Designated Projects.
    Charlotte, the largest city in my district, has grown tremendously 
over the past decade. We are now the 15th largest city in the country.
    At the same time, our county, Mecklenburg, has over one million 
residents and is one of the most populated in North Carolina.
    Unfortunately, our transportation infrastructure has not kept pace 
with our rapid growth.
    That's why our Charlotte Area Transit System--CATS--boldly invested 
to create our state and region's first light rail transit back in 2007.
    With the support of then-Secretary of Transportation and former 
Charlotte Mayor Anthony Foxx and my friend and colleague THUD 
Appropriations Chairman David Price, CATS secured the federal funding 
necessary to create our light rail system through the Capital 
Investment Grant (CIG) program.
    Prior to COVID-19, the LYNX Blue Line facilitated travel for almost 
30,000 North Carolinians daily!
    We know that our light rail works. That's why we're looking to fund 
its expansion: we want to connect our northern towns to Uptown 
Charlotte to airport.
    And with your help, we'll be able to connect our entire region to 
our mass transit system.
    So, as you work to draft a surface transportation reauthorization 
and infrastructure package, I strongly encourage you to increase the 
authorized funding for the Capital Investment Grant program.
    I want to applaud you, Chairman DeFazio, for your work last 
Congress to dramatically increase the CIG program's authorized level of 
funding.
    I look forward to working with you in the weeks and months ahead as 
this Committee develops this necessary legislation.
    Now I want to take just a minute to address some of the requests 
that my office has received for Member Designated Projects.
    In Cornelius, NC, the Westmoreland Interchange project will help 
facilitate the development of a new hospital that will anchor the 
region.
    In Huntersville, NC, the downtown greenway project will help 
connect residents to a park and ride lot that will enable thousands to 
easily reach work in Uptown and relaxation in downtown Huntersville.
    In Charlotte, member designated project funds will enable our local 
area transit system to purchase more electric buses, which will keep 
our air clean and our people moving.
    And it will also allow the city to install streetlights on our high 
injury network to help prevent automobile accidents and save lives.
    In closing, Mr. Chairman, I want to thank you and the Committee 
again for the opportunity to advocate for my constituents and for my 
city and county.
    Down in North Carolina, we like to say that ``Charlotte's got a 
lot.''
    I'm hoping that with your help, we can get a little bit more.
    Thank you and I am pleased to answer any questions you may have.

    Ms. Davids. Thank you. The gentlewoman yields back.
    The Chair will now recognize Mr. Sherman of California for 
5 minutes.

 TESTIMONY OF HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Sherman. Thank you. I want to join with Karen Bass--
and, I am sure, others--in saying how important it is that the 
committee focus the FAA's attention on airport noise. It is a 
horrendous problem in my district, in Karen Bass' district, and 
so many others around the Los Angeles area.
    I want to focus now on the need to build a subway through 
the Sepulveda Pass. The San Fernando Valley, ``the Valley,'' is 
cut off from the rest of Los Angeles by the Santa Monica 
Mountains. And every day 400,000 commuters in 383,000 cars 
drive between the Valley and the West Side of Los Angeles on 
the 405 Freeway, as it runs for 9 miles through the Sepulveda 
Pass. This is the greatest geographic bottleneck in California. 
By comparison, the Golden Gate Bridge needs to accommodate only 
112,000 cars per day, only one-third of the number that go 
through the Sepulveda Pass.
    For these unfortunate motorists, what should be a 12-minute 
drive instead takes 45 minutes or longer. And that is on top of 
the other parts of their commute. The daily commuter spends an 
average of 56 hours sitting in traffic in the Sepulveda Pass 
every year. That is 56 hours a year, on top of the rest of 
their commute.
    Already listed among the Nation's top 10 congested 
roadways, the Sepulveda Pass corridor serves a population that 
is expected to grow by 14 percent over the next two decades.
    This project has substantial local support. The residents 
of Los Angeles County, already paying quite robust income and 
property taxes, went to the polls and raised the sales tax rate 
in our county up to 10\1/4\ percent in order to pass Measure M, 
which provides over half the money needed for the $10 billion 
project I am describing.
    Metro, our transportation agency, estimates that this 
project will attract between 122,000 and 137,000 daily riders, 
based on the conditions we expect in 2042. By taking these 
would-be drivers out of their cars, this project will reduce 
our regional vehicle-miles traveled by over 1 million miles a 
year, and reduce vehicle-hours traveled by 72,000 hours per 
year.
    In addition to the time and cost faced by the commuter, the 
Sepulveda Pass subway project offers an opportunity to improve 
local air quality in Los Angeles--the area that gave you the 
word ``smog,'' it has been synonymous with difficulties in air 
quality for many decades--and it will reduce automobile 
emissions of CO2 by 156 million pounds per year.
    Now, in addition to asking the committee to support a 
subway through the Sepulveda Pass, I also support short-term 
efforts designed to ameliorate the problem on the freeway a 
bit. This includes a specific request being brought forward by 
the L.A. County Metropolitan Transportation Authority, and by 
improving the striping and other aspects of the 405, we will 
prevent this from getting as much worse as it would, otherwise. 
But ultimately, we need a subway.
    Let me give you one other extraordinary reason to support 
this project. When this subway is built, I will retire from 
Congress. That may be the biggest incentive for some of you to 
support this project. Thank you.
    [Mr. Sherman's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Brad Sherman, a Representative in Congress 
                      from the State of California
    The reason the San Fernando Valley is so-called a ``valley'' is due 
to its famous separation from the westside of Los Angeles by the Santa 
Monica Mountain range.
    And every day, over 400,000 commuters in some 383,500 cars make the 
drive between the Valley and the westside, by sharing a section of the 
405 freeway as it runs for nine miles along a low-mountain pass known 
as the Sepulveda Corridor.\1\
---------------------------------------------------------------------------
    \1\ Source: https://www.fhwa.dot.gov/policyinformation/tables/
02.cfm Dept of Transportation, Federal Highway Data for 2019; Sepulveda 
Transit Corridor Feasibility Report, p. ES-6)
---------------------------------------------------------------------------
    By comparison, the Golden Gate Bridge sees just 112,000 cars per 
day, less than a third of the cars in the Sepulveda Pass.\2\
---------------------------------------------------------------------------
    \2\ Source: https://www.goldengate.org/bridge/history-research/
statistics-data/annual-vehicle-crossings-toll-revenues/
---------------------------------------------------------------------------
    For these unfortunate motorists, what should be a 12-minute drive 
during free-travel takes over 45 minutes at peak periods.\3\
---------------------------------------------------------------------------
    \3\ Source: I-405 Level 2 Traffic & Revenue Study Interstate 405 
(Sepulveda Pass) ExpressLanes Intermediate (Level II) Traffic & Revenue 
Study http://libraryarchives.metro.net/DPGTL/congestionpricing/2019-
Metro-405-SepulvedaPass-ExpressLanes-Study.pdf (p.27 Figure 3-12) INRX 
Data for 2016.
---------------------------------------------------------------------------
    The daily commuter spends an average 56 hours of their lives per 
year sitting in traffic in the Sepulveda Pass--that is 56 hours in 
addition to what their commute would take if there was no 
bottleneck.\4\
---------------------------------------------------------------------------
    \4\ https://inrix.com/press-releases/2019-traffic-scorecard-us/ 
INRIX Data for 2019.
---------------------------------------------------------------------------
    Already listed among the nation's top 10 most congested roadways 
(ninth),\5\ the Sepulveda Pass Corridor serves a population that is 
expected to grow by 14% over the next two decades.\6\
---------------------------------------------------------------------------
    \5\ https://inrix.com/press-releases/2019-traffic-scorecard-us/ 
INRIX Data for 2019.
    \6\ Source: Sepulveda Pass Transit Corridor Feasibility Report, 
Table 2-3
---------------------------------------------------------------------------
    As this happens, commuters are growing desperate for a transit 
alternative through the Sepulveda Corridor.
    Gratefully, through the passage of measure M, Los Angeles voters 
have approved the initial financing for the development and 
construction of a three-phase capital project culminating in subway 
line through the Sepulveda Pass.
    Los Angles Metro is currently working to develop a heavy-rail 
concept that aims to provide a Valley-to-Westside trip in just under 20 
minutes.
    Metro past ridership forecasts for the Sepulveda rail line have 
estimated that the project would attract between 122,000 and 137,000 
daily riders based on 2042 conditions.
    By taking these would-be-subway-riders out of their cars, the 
Sepulveda Pass Project is estimated to reduce regional vehicle miles 
traveled by up to 1,039,000 miles per year and vehicle hours traveled 
by up to 72,000 hours per year.\7\
---------------------------------------------------------------------------
    \7\ Source: Sepulveda Transit Corridor Feasibility Report, p. 59
---------------------------------------------------------------------------
    In addition to the time and cost saved by the commuter, the 
Sepulveda Pass Project offers an important opportunity to improve local 
air quality and to reduce automobile emissions through an expected to 
reduction of CO2 by up to 156,000,000 pounds per year.\8\
---------------------------------------------------------------------------
    \8\ Based on VMT in Sepulveda Transit Corridor Feasibility Report, 
p. 59
---------------------------------------------------------------------------
    The needed infrastructure will not be built overnight, and we 
cannot wait to immediately address the current congestions through the 
Sepulveda Pass. In addition to asking the Committee to support our 
efforts to establish a subway line, the Committee should also support 
efforts too increase the capacity of the 405 freeway. This includes a 
specific request being brought forward with the LA County Metropolitan 
Transportation Authority. We should convert the existing HOV lane into 
an Express Lane and possibly add a second Express Lane in each 
direction over the 10 miles between I-10 and US-101.
    The Transportation and Infrastructure Committee will be looking at 
hundreds of projects as it continues its work. Alleviating congestion 
in the Sepulveda Pass is a priority for the residents of the San 
Fernando Valley, Southern California, and our national infrastructure. 
I look forward to working with the Chair on this critical 
infrastructure.

    Ms. Davids. The gentleman yields back.
    All right, next the Chair would like to recognize the 
gentleman from Kansas, Mr. Mann.
    [Pause.]
    Ms. Davids. OK, Mr. Mann may be experiencing technical 
difficulties. We will go to the gentlewoman from Washington, 
Ms. Schrier.
    You are recognized for 5 minutes.
    [Pause.]
    Dr. Schrier. Hi, this is Kim.
    Ms. Davids. You are recognized for 5 minutes.
    Dr. Schrier. Had you called on me?
    Ms. Davids. Oh, Ms. Schrier, you are recognized for 5 
minutes.

  TESTIMONY OF HON. KIM SCHRIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Dr. Schrier. Well, thank you very much. Thank you, Chairman 
DeFazio, Ranking Member Graves for hosting this Members' Day 
today. I appreciate the opportunity to testify about my 
priorities and concerns as a representative from Washington's 
Eighth Congressional District.
    And my district has it all: farms, crowded suburbs, 
mountain passes that close frequently, rural roads, 
interstates, freight rail, ferries, wind and hydropower, and 
more. And so I am submitting a longer letter to address all of 
these concerns, but I wanted to highlight just a few for you 
today.
    First, in Washington State we are a leader in clean energy 
production, and have made investments in hydro, wind, and solar 
power, which are critical for broader electrification and 
meeting our future clean energy goals. And in particular, our 
State is a large producer of hydropower. Only 3 percent of 
dams, though, have actually produced hydropower in America, and 
we could double that production without building a single new 
dam.
    In the next decade, close to 30 percent of U.S. hydropower 
projects are going to come up for relicensing, and I am 
interested in how to leverage this opportunity, building on the 
work already done in academia and advocacy and industry by 
focusing on the renewable energy and storage benefits of 
hydropower, and the environmental and economic benefits of 
healthy rivers.
    This would include rehabilitating dams to improve safety 
and resiliency. It would include retrofitting powered dams, and 
adding power generation at nonpowered dams, while addressing 
fish passage, flood mitigation, and grid integration. And it 
would also include removing dams that don't provide sufficient 
benefits to justify their environmental impacts.
    For trade, a separate issue, it is a priority to ensure 
that the rural areas in my district are well connected. The 
Wenatchee Valley in my district is a prime example. The valley 
and surrounding rural areas depend on an 11-mile Apple Capital 
Loop to carry more than 100,000 vehicles each day. The nearest 
interstate highway is 40 miles away, and travel is really 
constrained by mostly two-lane, rural roads and two bridges. 
Improvements in this loop are critical for trade, emergency 
services, and fire safety.
    At the economic heart of my district is agriculture. 
Central Washington is home to some of the Nation's largest 
growers and exporters, and farmers and growers face chronic 
challenges to get their products to market, including frequent 
road closures, port delays, and that distance from an 
interstate highway.
    More acutely, farmers have shared with me how pandemic 
conditions, trade imbalances, port shortcomings, and 
international shipping practices at our ports are negatively 
impacting their industry, threatening export markets and also 
the relationships they developed over decades. Shipping has 
become really unpredictable, delayed, more expensive, and 
perilous, especially for perishable goods like the apples and 
cherries coming from my district. Ships are frequently 
returning to China empty, rather than with our exports. And so, 
along with improvements in shipping policies, our ports and 
shipping infrastructure require modernization to preserve our 
agricultural community.
    Finally, I want to talk about safety. Chelan County is 
highly vulnerable to catastrophic wildfires. And during the 
last fire evacuation efforts, it became alarmingly evident to 
my constituents that that same Apple Capital Loop was 
insufficient for safe evacuation. It is another compelling 
reason for those improvements.
    And finally, I would love to highlight climate action and 
environmental stewardship. Washington State has invested 
millions of dollars to address downstream barriers that block 
Chinook salmon from reaching their spawning grounds. And 
headwaters located in our national forests are critical to 
having salmon populations thrive downstream.
    So in the coming weeks I am planning to reintroduce the 
Legacy Roads and Trails bill, which ensures dedicated funding 
to the U.S. Forest Service for projects that protect clean 
water and riparian habitat. This program focuses on urgently 
needed road decommissioning of unused or unsafe roads, the 
removal or replacement of culverts and other fish passage 
barriers, and the repair and maintenance of roads and trails.
    And so thank you for your leadership, and for attending to 
the needs of my district. And I yield back the very minuscule 
balance of my time. Thank you.
    [Dr. Schrier's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Kim Schrier, a Representative in Congress 
                      from the State of Washington
    Dear Chairman DeFazio and Ranking Member Graves,
    I appreciate the opportunity to testify about my priorities and 
concerns as representative of Washington state's 8th congressional 
district. I write to respectfully request consideration of the 
following priorities as you work to reauthorize surface transportation 
programs.
    Washington state depends on many facets of infrastructure for its 
trade, resiliency, and economic success. Washington's 8th District, my 
district, depends on smooth, connected roads, reliable public 
transportation, and comprehensive freight rail to ensure agricultural 
goods can be transported, economies can grow, and communities can 
access the services they need. Four hundred of the ``structurally 
deficient'' bridges that are necessary for travel are in Washington 
state. From a labor perspective, there are more than 700,000 direct and 
indirect jobs that can be created in Washington State through a 
national infrastructure package. Economic recovery is only possible 
with continued federal investment in and support for the next 
generation of engineers, operators, technicians, mechanics, and other 
transportation workers.
    There are several areas that I wish to touch on that are extremely 
important to my state and district:
    <bullet>  Hydropower and Washington State
    <bullet>  Keeping our rural areas connected physically and 
virtually;
    <bullet>  Improving our highways and interchanges;
    <bullet>  Getting our goods to port;
    <bullet>  Addressing congestion and safety concerns that impact my 
constituents; and
    <bullet>  Ensuring our infrastructure and our wildlife and salmon 
can co-exist.
                    Hydropower and Washington State
    In Washington state, we are a leader in clean energy production and 
have made investments in hydro, wind, and solar power which are 
critical for broader electrification and meeting our clean energy 
goals.
    Washington State is the top producer of hydroelectric power in the 
US. It accounts for approximately 25% of the country's annual 
hydroelectricity generation. Yet nationally, only three percent of dams 
actually produce hydropower, and we could double current energy 
production without building a single new dam. In the next decade, close 
to 30 percent of U.S. hydropower projects will come up for relicensing. 
I am interested in how to leverage this opportunity, building on the 
work already done in academia, advocacy, and the industry by focusing 
on the renewable energy and storage benefits of hydropower and the 
environmental and economic benefits of healthy rivers. This includes 
rehabilitating dams to improve safety and resiliency. It includes 
retrofitting powered dams and adding power generation at non-powered 
dams while addressing fish passage, flood mitigation, and grid 
integration. It also includes removing dams that do not provide 
sufficient benefits to society to justify their detrimental 
environmental impacts.
    Keeping our rural areas connected & improving our highways and 
                              interchanges
    Washington's rural areas need connected, reliable infrastructure. 
Wenatchee Valley in my district is a prime example: it is a hub at the 
crossroads of highways going east to Spokane, west to Seattle, north to 
British Columbia, and south to Yakima and the Tri-Cities. It is the 
heart of Washington, settled in a rural part of the state East of the 
Cascade Mountains. The nearest Interstate Highway is 40 miles away. The 
Valley and surrounding rural areas depend on their 11-mile Apple 
Capital loop to carry more than 100,000 vehicles each day. Freight, 
businesses, commuters, transit, emergency services, residents and 
visitors must travel on it.
    Connectivity is vital for Washington's economy and trade. 
Washington's economy relies heavily upon the freight rail system to 
ensure movement of the state's agricultural, chemical, and natural 
resources and manufactured products to local, national, and 
international markets. Some small roads and railways are the only way 
that goods can make it from our agricultural centers to our ports. 
Stampede Pass is an example of a small rail that runs a long course in 
my district, cutting across Central Washington and Pierce and King 
Counties, ensuring that goods can traverse the mountain pass even when 
roads are shut down. Our state has committed to ensuring this railway 
can stay viable, investing in electrification for more efficient 
travel. Dedicated federal investments in projects like this will allow 
for more railways to be improved and built, and for economies to be 
more connected and flourish.
                       Getting our goods to port
    The economic heart of my district is agriculture. Central 
Washington is home to some of the nation's largest growers and 
exporters, selling hay, apples, pears, potatoes and cherries around the 
world. Farmers and growers face chronic challenges to get their 
products to market, including frequent road closures, port delays, and 
distance from interstate highways.
    More recently, farmers have shared with me how pandemic conditions, 
trade imbalances, port shortcomings, and international shipping 
practices are impacting their industry, threatening export markets and 
international relationships they have built over decades. Right now, 
because of profitability and trade imbalance, ships return to China 
with empty containers rather than wait for our agricultural goods. Our 
farmers and growers face great uncertainty and high prices to get their 
products overseas. This threatens to upend our nation's agricultural 
industry and agricultural markets abroad for years to come.
    While I continue to work with the Federal Maritime Commission to 
find possible solutions to this global shipping crisis, I ask that you 
consider the importance of maintaining and improving the domestic 
infrastructure--the roads, bridges, railways, rivers, and ports--that 
these farmers rely on.
               Addressing congestion and safety concerns
    Chelan County is highly vulnerable to catastrophic wildfires. In 
fact, it gets the second highest risk rating in the country. During the 
last fire evacuation efforts, it became alarmingly evident to my 
constituents that the Apple Capital Loop mentioned previously was 
insufficient for safe evacuation. It is another compelling reason for 
those much-needed improvements.
    Safety is also a consideration for our highways, as is the case in 
most of the country. I would highlight Interstate 90, the main east-
west corridor that traverses our state and my district. It is critical 
for getting produce and hay to the port, but also a critical 
transportation route for daily commutes and travel. In addition to 
standard road repairs, widening and improving the interchange with SR18 
will reduce dangerous traffic back-ups and resulting collisions, and 
cut transit time.
    Similarly, updates to maintain the structural integrity of Vantage 
Bridge on 
I-90--the only interstate crossing of the Columbia River in the area 
for 75 miles--will allow for safe passage of both people and freight, 
particularly during emergencies such as wildfires. And, of course, 
improvements we make now need to be future-proofed, sustainable, and 
resilient in the face of a changing climate.
  Ensuring our infrastructure and our wildlife and salmon can co-exist
    Representatives Kilmer, Larsen, and I have been working 
collectively to identify ways to protect endangered salmon and Southern 
Resident orca populations in various legislative vehicles within the 
committee's jurisdiction, including WRDA \1\ and provisions associated 
with Legacy Roads and Trails within the Moving Forward Act of last 
year.\2\
---------------------------------------------------------------------------
    \1\ https://schrier.house.gov/media/press-releases/schrier-and-
larsen-introduce-bill-assist-salmon-and-steelhead-passage
    \2\ https://wildearthguardians.org/brave-new-wild/news/guardians-
applauds-inclusion-of-legacy-roads-and-trails-remediation-program-in-
moving-forward-act/
---------------------------------------------------------------------------
    In the coming weeks, I plan to reintroduce the Legacy Roads and 
Trails bill which ensures projects that protect clean water and 
reconnect fish habitat are prioritized. As we all know, when roads are 
not adequately maintained, culverts become clogged with debris, 
landslides occur, bridges weaken, and roads wash out. Large amounts of 
sediment can end up in mountain streams, suffocating fish and burying 
stream channels. This program focuses on urgently needed 
decommissioning of unused or unsafe roads in our national forests, 
removal or replacement of fish passage barriers, and road and trail 
repair and maintenance. The program's capacity for leveraging is among 
its strengths. In many cases, the Forest Service can successfully 
leverage Legacy Roads and Trails funding with a variety of private, 
local, state, and other federal funding sources, substantially 
stretching the reach of every dollar allocated to the program.
    This program specifically compliments the work of our state to 
update and/or remove culverts to improve water quality and habitat for 
Chinook salmon, bull trout, and steelhead. These fish are an important 
part of Northwest culture and heritage and have suffered heavily. These 
efforts are critical, and we need to have sustained federal investment 
to make it a reality.
    You have always been a champion for the Pacific Northwest and I 
sincerely thank you, and Ranking Member Graves, for your leadership and 
attention to these important issues. I look forward to partnering with 
you, your committee, and my colleagues from both sides of the aisle as 
this legislation develops. We need to build back better for our 
communities, for our economy, and for our climate. Thank you for your 
consideration.

    Ms. Davids. Thank you, Rep. Schrier.
    And next the Chair would like to recognize Congressman Mann 
from Kansas for 5 minutes.
    [Pause.]
    Ms. Davids. OK, we will go ahead and recognize Mr. Jacobs 
from New York for 5 minutes.

 TESTIMONY OF HON. CHRIS JACOBS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Jacobs. Good afternoon. Thank you very much for the 
opportunity to be here today and address the committee. I am 
Chris Jacobs from the 27th Congressional District.
    As we move forward with the efforts to expand our Nation's 
infrastructure, I want to bring to your attention the important 
issue in my home State of New York. New York is currently the 
only State in the Union to still impose absolute liability on 
employers and property owners for gravity-related falls. This 
archaic standard is otherwise known as the Scaffold Law. 
Absolute liability under the Scaffold Law means that employers 
and property owners are fully liable for workplace accidents, 
regardless of the contributing fault of the worker.
    Due to this strict liability statute, an employer is 100 
percent liable if an employee, as an example, is harmed, even 
if that employee is very intoxicated. Contrast that with the 
liability standard of comparative negligence, the standard of 
every other State in the Nation, which allows for a reasonable 
determination of fault between the two parties.
    Studies have indicated that the Scaffold Law adds 
approximately 8 to 10 percent to the cost of construction in 
New York State, in every single project in New York State, 
whether it is public or private, no matter what the size of the 
project.
    Due in part to the extreme standard set by the Scaffold 
Law, the cost of construction in New York State, as a result, 
is higher than any other State in the Nation, resulting in 
unnecessary taxpayer spending across all levels of Government.
    According to one study, the Scaffold Law is expected to add 
an additional $180 to $300 million to New York City's Gateway 
project. The Tappan Zee Bridge project, also known as Mayor 
Cuomo Bridge--a major project--was estimated to have incurred 
$300 million in additional unnecessary cost, due to the 
Scaffold Law.
    In a recent amicus brief, the New York State Transit 
Authority stated it is in an existential financial crisis. Its 
public liability burden in 2019 was $150 million, much of that 
due to the Scaffold Law.
    These costs represent hundreds of millions of dollars that 
could have gone towards improving our schools, repairing New 
York City's subway system, and fixing roads throughout New York 
State.
    Defenders of the Scaffold Law say it improves worksite 
safety, but data shows the opposite. A study deemed practice-
ready by the Transportation Research Board of the National 
Academies of Science, Medicine, and Engineering concluded that 
the law actually increases both fatal and nonfatal injuries by 
670 each year.
    The challenges presented by the Scaffold Law are why I 
introduced the Infrastructure Expansion Act, H.R. 1300, which 
would exempt federally funded projects from the Scaffold Law, 
and instead place them on the standard of comparative 
negligence.
    Mr. Chairman, I would like to enter into the record a 
letter of support from over 65 organizations throughout New 
York State supporting my bill.
    [The information follows:]

                                 <F-dash>
Letter of January 7, 2021, from the Allied Building Metal Industries et 
           al., Submitted for the Record by Hon. Chris Jacobs
                                                   January 7, 2021.

    Dear Member of Congress:
    On behalf of more than sixty-five membership organizations, 
including trade associations, chambers of commerce, housing advocates, 
agricultural organizations, and municipal advocates, we are writing to 
request that you support HR 1300, the Infrastructure Expansion Act of 
2021. Introduced by your colleague Representative Chris Jacobs (R-NY), 
this bill will protect scarce federal infrastructure funds imposing the 
same liability standard on federally-funded New York projects that is 
found in 49 other states.
    Unfortunately, New York remains the only state in the nation to 
impose absolute liability on construction projects under Labor Law 240/
241, a statute known as the ``Scaffold Law.'' This outdated law holds 
property owners and contractors fully liable for worksite accidents, 
regardless of the contributing fault of the worker. To understand the 
injustice of this law, take for example, that the courts have ruled 
time and time again that the intoxication of an employee is not a 
defense for an employer under the statute.
    Due to this absurd standard, it costs more to build in New York 
than anywhere else in the country. Data collected from the Port 
Authority of New York and New Jersey indicates that the insurance costs 
on cross-border construction projects are doubled on the New York side. 
Researchers at the Rockefeller Institute of Government found that for 
taxpayers, the law results in a cost of more than $785 million 
annually. It is estimated that New Yorkers spent more than $200 million 
in added costs for the Mario Cuomo (Tappan Zee) Bridge due to 
additional costs of the statute. The New York City School Construction 
Authority estimated the law cost them over $400 million in a three-year 
period.
    Defenders of the Scaffold Law say that it improves worksite safety, 
but data shows the opposite. A study deemed ``practice ready'' by the 
Transportation Research Board of the National Academies of Science, 
Medicine, and Engineering concluded that the law actually increases 
both fatal and non-fatal injuries by 670 each year.
    With the current unprecedented strain on state and local budgets, 
the federal government cannot continue to waste valuable infrastructure 
dollars.
        We respectfully request your support,

Allied Building Metal Industries.
American Council of Engineering Companies of New York.
American Property Casualty Insurance Association.
American Subcontractors Association.
Associated Builders and Contractors of New York State.
Associated General Contractors of New York State.
Association for a Better Long Island.
Big I NY.
Bronx Chamber of Commerce.
Brooklyn Chamber of Commerce.
Buffalo Building Owners & Managers Association.
Buffalo Niagara Partnership.
Builders Exchange of Rochester.
Builders Exchange of the Southern Tier.
Building Contractors Association of Westchester & Mid-Hudson Region.
Building Trades Employers Association.
Business Council of New York State.
Business Council of Westchester.
Capital Region Chamber of Commerce.
Chamber Alliance of New York State.
Chemung County Chamber of Commerce.
Commerce Chenango.
Construction Exchange of Buffalo & Western New York.
Construction Industry Council of Westchester & Hudson Valley.
Corning Area Chamber of Commerce.
Cortland County Chamber of Commerce.
Eastern Contractors Association.
Empire State Subcontractors Association.
Fulton Montgomery Chamber of Commerce.
General Contractors Association of New York.
Genesee County Chamber of Commerce.
Greater Binghamton Chamber of Commerce.
Greater Olean Chamber of Commerce.
Greater Rochester Chamber of Commerce.
Habitat for Humanity of New York State.
Home Builders & Remodelers of Central New York.
Hornell Area Chamber of Commerce.
Hudson Valley Gateway Chamber.
Hudson Valley Mechanical Contractors Association.
Lake George Regional Chamber of Commerce & CVB.
Lawsuit Reform Alliance of New York.
Long Island Builders Institute.
Minority & Women Contractors & Developers Association.
National Association of Minority Contractors--New York Tri-State 
Chapter.
National Association of Mutual Insurance Companies.
National Association of Surety Bond Producers.
National Federation of Independent Business New York.
Northeastern Retail Lumber Association.
Northeastern Subcontractors Association.
New York Conference of Mayors.
New York Farm Bureau.
New York State Association for Affordable Housing.
New York State Builders Association.
Partnership for New York City.
Professional Insurance Agents of New York.
Real Estate Board of New York.
Rochester Home Builders Association.
Rome Area Chamber of Commerce.
Sheet Metal & Air Conditioning Contractors of New York State.
Society of Indo-American Engineers and Architects.
Special Riggers Association of New York City.
Subcontractors Trade Association.
Syracuse Builder's Exchange.
Trucking Association of New York.
Ulster County Regional Chamber of Commerce.
Westchester County Association.
West Seneca Chamber of Commerce.
Wyoming County Chamber of Commerce.

    Mr. Jacobs. The Scaffold Law is particularly challenging 
for minority- and women-owned businesses, as the inflated 
premiums they must pay for liability insurance put them at a 
competitive disadvantage when bidding projects against larger 
firms. That is why groups such as the Minority and Women 
Contractors and Developers Association and the National 
Association of Minority Contractors have been vocal supporters 
of Scaffold Law reform. I am proud to have their support on my 
bill.
    Other supporters of Scaffold Law reform and my bill include 
the New York State Association for Affordable Housing. The 
Scaffold Law is estimated to add $10,000 to the cost of a 
single-family home in New York State. Anyone interested in 
making New York State more affordable for families should 
support inclusion of my legislation in any infrastructure 
package.
    Another supporter I am proud to have is Habitat for 
Humanity. Like the New York State Association for Affordable 
Housing, Habitat for Humanity appreciates efforts to make 
housing in New York State more affordable. However, they have 
an additional issue with the Scaffold Law. In the wake of 
Superstorm Sandy, Habitat and its volunteer partners rushed to 
help Long Island recover. However, they struggled to find 
insurance because of the Scaffold Law, and were hindered to 
make an impact after that disaster.
    For the sake of our roads, and our bridges, and our 
schools, our railroads, our homes, and all New Yorkers, the 
Scaffold Law must be reformed. What I am asking for today is 
consideration in any infrastructure package to include 
provisions in my bill which would mandate that comparative 
negligence be utilized.
    Why am I saying this? If $1 billion right now came in New 
York State and Federal taxpayer money through an infrastructure 
bill, 10 percent of that would be peeled off because of the 
Scaffold Law, $1 million would be essentially wasted. I want 
that money, and I think most New Yorkers want that money spent 
on real projects. Reforming the Scaffold Law for an 
infrastructure bill will make that happen.
    Thank you very much, and I yield back.
    [Mr. Jacobs' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Chris Jacobs, a Representative in Congress 
                       from the State of New York
    Hello. Thank you to the Committee for letting us be here today.
    As we move forward with efforts to expand our nation's 
infrastructure I want to bring to your attention an important issue in 
my home state of New York. New York is currently the only state in the 
union to impose absolute liability on employers and property owners for 
gravity-related injuries. This archaic standard is enshrined in New 
York's Labor Law 240/241, otherwise known as the ``Scaffold Law.''
    Absolute liability under the Scaffold Law means employers and 
property owners are fully liable for worksite accidents, regardless of 
the contributing fault of the worker. To understand the injustice of 
this law, take for example that courts have ruled repeatedly that the 
intoxication of an employee is not a defense for an employer under the 
statute. Contrast this with the liability standard of comparative 
negligence--the standard in every other state--which allows for a 
reasonable determination of fault between two parties.
    Studies have indicated the Scaffold Law adds approximately 8-10% to 
the cost of construction in New York State. Due in part to the extreme 
standard set by the Scaffold Law, the cost of construction in New York 
is higher than anywhere else in the nation, resulting in unnecessary 
taxpayer spending across all levels of government. According to one 
study, the Scaffold Law is expected to add an additional $180 to $300 
million to the Gateway Program. The Tappan Zee Bridge is estimated to 
have incurred up to $400 million in additional costs due to the 
Scaffold Law. In a recent amicus brief, the New York City Transit 
Authority stated it is in an existential financial crisis. Its public 
liability burden in 2019 was $150 million dollars, much of that due to 
the Scaffold Law. These costs represent hundreds of millions of dollars 
that could have gone toward improving our schools, repairing the New 
York City subway, or fixing our roads.
    Defenders of the Scaffold Law say that it improves worksite safety, 
but data shows the opposite. A study deemed ``practice ready'' by the 
Transportation Research Board of the National Academies of Science, 
Medicine, and Engineering concluded that the law actually increases 
both fatal and non-fatal injuries by 670 each year.
    The challenges presented by the Scaffold Law are why I have 
championed the Infrastructure Expansion Act (H.R. 1300), which would 
exempt federally funded projects from the Scaffold Law and instead 
place them on a standard of comparative negligence.
    Mr. Chairman I would like entered into the record a letter of 
support from over sixty-five organizations throughout New York State 
supporting my bill.
    The Scaffold Law is particularly challenging for minority and women 
owned businesses, as the inflated premiums they must pay for liability 
insurance puts them at a competitive disadvantage when bidding for 
projects against larger firms. That is why groups such as the Minority 
& Women Contractors & Developers Association and the National 
Association of Minority Contractors have been vocal supporters of 
Scaffold Law reform. I am proud to have their support for my bill.
    Other supporters of Scaffold Law reform and my bill include the New 
York State Association for Affordable Housing. The Scaffold Law is 
estimated to add $10,000 to the cost of a single-family home in New 
York State. Anyone interested in making New York State more affordable 
for families should support inclusion of my legislation in any 
infrastructure package.
    Another supporter I am proud to have is Habitat for Humanity. Like 
the New York State Association for Affordable Housing, Habitat for 
Humanity appreciates efforts to make housing in New York more 
affordable. However, they have an additional issue with the Scaffold 
Law. In the wake of Superstorm Sandy, Habitat and its volunteer 
partners rushed to help Long Island recover, however they struggled to 
find insurance because of the Scaffold Law.
    For the sake of our roads, our bridges, our schools, our railroads, 
our homes and all New Yorkers, the Scaffold Law must be reformed. I 
urge the Committee to include my legislation in the infrastructure 
package. With that I yield back.

    Ms. Davids. The gentleman yields back.
    The Chair would like to recognize Mr. Mann from Kansas for 
5 minutes.

  TESTIMONY OF HON. TRACEY MANN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Mann. Thank you, Chairman DeFazio, Ranking Member 
Graves, members of the committee, including my Kansas 
colleague, Sharice Davids. Thank you for giving me this 
opportunity to speak with you about transportation and 
infrastructure priorities for the First Congressional District 
of Kansas.
    My district, aptly named the Big First, is the 11th largest 
congressional district in the country, spanning 63 counties in 
central and western Kansas. As you can imagine, with a district 
that size, we greatly rely on roads, rails, waterways, and 
other forms of infrastructure to connect our rural communities 
to one another and to the rest of the world.
    The Big First backbone is agriculture. It is home to more 
than 60,000 farms, and is made up of farmers, ranchers, feedlot 
managers, nutritionists, ethanol producers, ag lenders, and 
agribusiness owners who feed, fuel, and clothe the world. 
Farmers and ranchers depend on roads, bridges, and rail to 
safely transport these goods to market.
    So from the beginning of planting season to the end of 
harvest, and from the time a baby calf hits the ground to the 
time we take them to town, these forms of transport help to 
efficiently deliver our ag products around the globe. However, 
moving livestock and perishable ag commodities brings a 
separate set of issues for drivers that Kansans are well aware 
of, as the leader in cattle production.
    For decades, farmers and ranchers in the transport of ag 
goods across our district and State have fallen victim to 
archaic trucking regulations, leaving little to no room for 
livestock hauling exemptions. S. 792, the Haulers of 
Agriculture and Livestock Safety Act, the HAULS Act, as 
introduced by Senator Deb Fischer, my neighbor to the north in 
Nebraska, would address these concerns.
    The HAULS Act would update the hours-of-service exemption 
for ag products and livestock that have been regularly modified 
by Congress to provide flexibility to ag and livestock haulers. 
This bill would add 150 air-miles on the back end of the trip, 
allowing drivers the extra time to safely navigate the rural 
roads where they haul. It would also allow the hours-of-service 
exemptions to continue nationwide all year round, removing the 
seasonal limits set by State-designated planting and harvesting 
periods.
    I am supportive of the work of the coalition of more than 
100 ag organizations to modernize the ag exemptions to the 
hours-of-service rule and provide flexibility for haulers, and 
urge the committee to review the legislation in full, if 
similar legislation is introduced in the House, or if the HAULS 
Act reaches the House floor for a vote.
    Another important issue for rural districts like mine is 
aviation, which is supported through Essential Air Service and 
Small Community Air Service Development Programs. Both programs 
ensure that our smaller communities can maintain a minimal 
level of scheduled air service to larger cities, whether 
through direct support or by working with communities to 
address air service issues.
    As the home State to the ``air capital of the world,'' 
Essential Air Service enables communities like Salina, Liberal, 
Dodge City, Garden City, and Hays to connect to the world 
through aviation. As your committee continues work on 
transportation and infrastructure legislation, we must ensure 
that rural communities are part of the conversation and a 
priority for these discussions.
    Beyond transportation, the importance of broadband cannot 
be overstated in connecting rural communities to the rest of 
the country, whether for virtual school, telemedicine, or 
remote work. Rural broadband must be considered as an important 
piece in our infrastructure conversations, whether occurring in 
this committee or others across Congress.
    The roads, highways, rails, aviation, as well as broadband 
connect all of us across the country, and add to the quality of 
life in rural communities. Our investments today will promote 
rural economies long into the future and make our communities a 
prosperous place to live for the next generations.
    Thank you, Congresswoman Davids, for the opportunity to 
speak on the issue impacting the First Congressional District 
of Kansas, and I yield back the remainder of my time.
    [Mr. Mann's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Tracey Mann, a Representative in Congress 
                        from the State of Kansas
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, I appreciate the opportunity to speak with you about 
transportation and infrastructure priorities from the First District of 
Kansas.
    My district, aptly nicknamed the ``Big First'', is the 11th largest 
Congressional District in the country, spanning 63 counties in central 
and western Kansas. As you can imagine, with a district that size, we 
greatly rely on roads, rail, waterways, and other forms of 
infrastructure to connect our rural communities to one another and to 
the rest of the world.
    The Big First's backbone is agriculture; it is home to more than 
60,000 farms and is made up of farmers, ranchers, feed lot managers, 
nutritionists, ethanol producers, ag lenders, and agribusiness owners 
who feed, fuel, and clothe the world. Farmers and ranchers depend on 
roads, bridges, and rail to safely transport these goods to market.
    From the beginning of planting season to the end of the harvest, 
and from the time a baby calf hits the ground to the time we take them 
to town, these forms of transport help to efficiently deliver our 
agricultural products around the globe.
    However, moving livestock and perishable ag commodities brings a 
separate set of issues for drivers that Kansans are well aware of, as 
the leader in cattle production. For decades, farmers and ranchers and 
transporters of agricultural goods across our district and state have 
fallen victim to archaic trucking regulations leaving little to no room 
for livestock hauling exemptions.
    S. 792, the Haulers of Agriculture and Livestock Safety (HAULS) Act 
as introduced by Senator Deb Fischer, my neighbor to the north in 
Nebraska, would address these concerns. The HAULS Act would update the 
hours-of-service exemptions for ag products and livestock that have 
been regularly modified by Congress, to provide flexibility to ag and 
livestock haulers. This bill would add 150 air-miles on the back end of 
the trip, allowing drivers the extra time to safely navigate the rural 
roads with their haul. It would also allow the hours-of-service 
exemptions to continue nationwide all year-round, removing the seasonal 
limits set by state designated planting and harvest periods.
    I am supportive of the work of a coalition of more than 100 ag 
organizations to modernize the agricultural exemptions to the hours-of-
service rule and provide flexibility for haulers and urge the Committee 
to review the legislation in-full if similar legislation is introduced 
in the House or if the HAULS Act reaches the House for a vote.
    Another important issue for rural districts like mine is aviation, 
which is supported through the Essential Air Service and Small 
Community Air Service Development Programs. Both programs ensure that 
our smaller communities can maintain a minimal level of scheduled air 
service to larger cities, whether through direct support or by working 
with communities to address air service issues. As the home state to 
the Air Capital of the World, Essential Air Service enables communities 
like Salina, Liberal, Dodge City, Garden City, and Hays to connect to 
the world through aviation.
    As your committee continues work on transportation and 
infrastructure legislation, we must ensure that rural communities are 
part of the conversation and a priority in these discussions. Beyond 
transportation, the importance of broadband cannot be overstated in 
connecting rural communities to the rest of the country, whether for 
virtual school, telemedicine, or remote work. Rural broadband must be 
considered as an important piece in our infrastructure conversations, 
whether occurring on this committee or others across Congress.
    The roads, highways, rails, aviation, as well as broadband connect 
all of us across the country and add to the quality of life in rural 
communities. Our investments today will promote rural economies long 
into the future and make our communities a prosperous place to live for 
the next generations.
    Thank you for the opportunity to speak on the issues impacting the 
First District of Kansas, and I yield back the remainder of my time.

    Ms. Davids. Thank you, Rep. Mann, I appreciate your 
advocacy on behalf of our State.
    Next the Chair would like to recognize Rep. Higgins from 
New York for 5 minutes.

 TESTIMONY OF HON. BRIAN HIGGINS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Higgins. Yes, thank you very much, and the chairman and 
the ranking member.
    It is often said that, in urban design, there is no 
neutrality, that the built environment either serves to hurt or 
to heal. A decade of expressway building in the Nation in the 
1950s, including Buffalo, fed that era's obsession with 
automobiles. It hurt city neighborhoods, and it destroyed a lot 
of parkland and a lot of quality of life, including 80 acres of 
Olmsted parks and parkways in Buffalo, New York.
    The Kensington Expressway destroyed nearly 45 acres of 
parkland, including Olmsted's grandest parkway, denying for 
decades an entire neighborhood the enjoyment and health 
benefits that parks offer, which various groups are trying to 
fix. The Scajaquada Expressway in Buffalo dissected Delaware 
Park, and stole more than 40 acres of land. We see this 
throughout the entire Nation, that while we are going to 
rebuild the infrastructure of the country, we have to fix the 
infrastructure that has destroyed certain communities, and 
those communities are underserved communities in places like 
Buffalo, New York.
    I am very optimistic about the $20 billion that is in the 
infrastructure bill to restore neighborhoods that have been 
destroyed by expressway construction. I think it should be 
more. I think it should be $50 billion, because those 
communities have been denied investment. They have been denied 
health and safety for the people that live in and around those 
communities.
    We have a great opportunity here to rebuild the 
infrastructure of our country, but we also have an obligation, 
more so than anything else, to help those underserved 
communities that have been devastated by decades of expressway 
building. We need more parks. We need more parkways. We need 
more pedestrian and bicycle access so that everybody will have 
access to good parks, and the healing power of parks and 
parkways that these expressways destroyed so many years ago.
    With that, I will yield back.
    [Mr. Higgins' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Brian Higgins, a Representative in Congress 
                       from the State of New York
    Chair DeFazio, Ranking Member Graves, members of the Committee, 
thank you for giving me the opportunity to speak before you today to 
talk about the importance of infrastructure investment to the future of 
the communities I serve in Western New York state.
    Mark Zandi, a conservative economist from Moody's Analytics, 
estimates every one dollar in infrastructure investment generates $1.60 
in economic growth. Beth Ann Bovino, the chief economist for Standard 
and Poors, thinks that number could be as high as $2.70 when taking 
into account current economic conditions caused by the COVID-19 
pandemic.
    Mr. Chairman, we have a once in a generation opportunity for 
historic infrastructure investment. We need to get this right, and we 
need to make sure that our priorities in this bill bring communities 
together, providing a remedy to past problems.
    We need to start thinking about what a post-pandemic world looks 
like and how we can renew and rebuild.
    Under previous national efforts devoted to infrastructure 
investment, my community flourished.
    We built the Erie Canal to connect the eastern seaboard to the 
Great Lakes, making Buffalo a maritime harbor to connect American goods 
to the world.
    The construction of railroads and the production of cheap and 
affordable hydropower created by harnessing the power of Niagara Falls, 
we became an industrial powerhouse and for a time one of the most 
prosperous communities in the world.
    And to address some of the public health challenges we faced in the 
19th century, like cholera, we built one of the most significant public 
park systems in the country, designed by Frederick Law Olmsted, a 
public good that all can still enjoy as a refuge.
    But infrastructure decisions can sometimes hurt, not heal. It can 
tear our communities apart.
    Robert Moses used brute political force to construct highways 
through, and throughout, cities across New York State including Buffalo 
and Niagara Falls. They destroyed the economic viability of countless 
neighborhoods and isolated Black and Brown communities from 
opportunity.
    The Skyway, the Kensington, the Scajaquada, the aptly-named Robert 
Moses Parkway in Niagara Falls--have split up neighborhoods, degraded 
our public parks, and separated people from the natural resources they 
should be able to enjoy as well as each other.
    So the American Jobs Plan presents us with a new opportunity to fix 
past mistakes, bring people together and promote equitable development, 
and improve the life quality and productivity of our community and our 
country.
    I am pleased that the plan proposes a $20 billion targeted 
investment to repair the problems caused by past decisions that 
disregarded the lived environment and experience of people in 
neighborhoods highways were constructed through.
    This program means that an Olmsted-designed park median could be 
restored by downgrading the Kensington Expressway on Buffalo's East 
Side, reconnecting a neighborhood designed to be cohesive but that has 
suffered from being split apart.
    The Scajaquada Expressway, could actually be reset as a parkway 
designed for the safety of nearby residents who want to enjoy Delaware 
Park, not as an underutilized speed trap. This downgrade would open up 
new opportunities for recreation and ecological habitat restoration.
    It means the obsolete Skyway can be removed so that our community 
can fully benefit from its waterfront, obscured for over century by 
industrial development.
    And it means the City of Niagara Falls can once again be connected 
to its natural wonders along the Niagara River Gorge by removing the 
Robert Moses Parkway.
    Mr. Chairman, these are just a few examples of the transformational 
initiatives that the American Jobs Plan, and specifically this highway 
bill, could bring to my community.
    These investments will create jobs, and good American jobs, but 
this highway bill presents an opportunity to make our communities 
better for everyone that live there. I urge you to work with me to help 
bring voice to my community.
    Thank you for giving me the opportunity to present this testimony 
today.

    Ms. Davids. Thank you, Congressman.
    The Chair would now like to recognize Mrs. Luria from 
Virginia for 5 minutes.

TESTIMONY OF HON. ELAINE G. LURIA, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF VIRGINIA

    Mrs. Luria. And thank you, Rep. Davids, and thank you to 
Chairman DeFazio, Ranking Member Graves, and to my colleagues 
on the committee for giving me this opportunity.
    I would like to bring to attention some critical issues 
that are important not only in my district, but across the 
Nation. As you all know, our Nation's infrastructure has been 
neglected for far too long. Our bridges, roads, and transit are 
aging and in desperate need of repair.
    One thing I would like to start with is talking about 
harbors and the Harbor Maintenance Trust Fund. I would like to 
take this opportunity to thank the committee for their work 
during the last Congress with the Water Resources Development 
Act, WRDA, for 2020. The culmination of that work included 
provisions to ensure full utilization of the harbor maintenance 
tax revenues, as well as unlocking more than $9 billion in 
unspent balance in the Harbor Maintenance Trust Fund.
    Full use of the Harbor Maintenance Trust Fund is essential 
to ensuring our Nation's navigation channels are adequately 
maintained. This is especially important in my district, where 
the Port of Virginia has begun dredging to deepen and widen the 
Norfolk Harbor, while we await a ``new start'' designation and 
Federal construction funding.
    Proper maintenance both now and after completion of the 
Norfolk Harbor's channel improvement are critical to ensure the 
channel is safe and efficient for both commercial and military 
traffic. I hope that our colleagues on the Appropriations 
Committee take advantage of the Harbor Maintenance Trust Fund 
provisions to not only fully fund operation and maintenance at 
our ports and harbors, but also to increase the construction 
funding to keep the critical projects like the Norfolk Harbor 
on schedule, and delivering its economic benefits of nearly $4 
billion to the Nation, more than $10 return for every Federal 
dollar invested.
    Similarly, as this committee works on an infrastructure 
package, I ask that you include the Army Corps navigation 
projects as essential components in building back better.
    We would like to also touch on rail, which is a critical 
element, as well, of our intermodal transit and port facility 
located in southeastern Virginia. It is vital to not only my 
district, but the Nation's economy, as well. Last year the Port 
of Virginia was awarded a $20 million Federal grant to expand 
its rail operation, and this grant would allow the port to 
double the existing capacity of the Norfolk International 
Terminals Central Rail Yard.
    Currently, 34 percent of the port's total volume moves to 
market by double-stack rail service, and that demand is 
forecast to increase 40 percent, with the need for capacity to 
process an additional 200,000 containers for export, annually. 
Without expansion, the terminals' current operation could not 
keep up with growth, resulting in more movement of freight by 
truck on local roads and highways, rather than by rail.
    Expansion in Hampton Roads maintains the expected level of 
service to cargo owners all the way to the Midwest and Ohio 
Valley and other inland markets.
    Next I would like to mention coastal resiliency. Like many 
communities that are close to the ocean, coastal Virginia 
experiences challenges related to recurrent flooding and rising 
sea levels. Our region needs resilient infrastructure that 
stands strong against the challenges of a changing climate.
    Virginia's Second Congressional District is home to Naval 
Station Norfolk, which is the world's largest naval station. 
And we also have installations from every branch of the 
service. In 2019, a Department of Defense report found that the 
Greater Hampton Roads is one of the most vulnerable areas of 
flooding in the entire United States. When it floods in coastal 
Virginia, it becomes more than just a local nuisance. It truly 
does become a national security issue. We must make investments 
in durable infrastructure to protect both our local economy and 
our national security and military readiness.
    Last I would like to touch on public transit, which is also 
critical in coastal Virginia. Hampton Roads has one of the 
largest bus networks in the Commonwealth of Virginia. And an 
example is Route 20, which is one of the most populated bus 
routes in the Commonwealth, from Virginia Beach to downtown 
Norfolk. Bus transit should be a priority in upcoming surface 
transportation bills because it is an affordable way to expand 
public transit.
    An overwhelming number of my constituents use buses to 
commute to and from work and school, medical appointments, 
essential shopping, and on all of their daily tasks. So bus 
service is an integral part of coastal Virginia's economy, as 
it is many other places around the country. So I urge that we 
provide adequate resources for modernizing and expanding our 
public transit networks.
    In closing I would like again to thank Chairman DeFazio and 
Ranking Member Graves and my colleagues on the committee for 
giving me the chance to speak about transportation and 
infrastructure priorities throughout coastal Virginia. By 
making these much-needed investments in our infrastructure, we 
can set our communities up for sustainable economic success in 
the future.
    Thank you, and I yield back.
    [Mrs. Luria's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Elaine G. Luria, a Representative in 
               Congress from the Commonwealth of Virginia
    Thank you, Chairman DeFazio, Ranking Member Graves, and to my 
colleagues on the Committee for giving me this opportunity. I would 
like to bring some attention to a few critical issues not only in my 
district but across the nation.
    As you all know, our nation's infrastructure has been neglected for 
far too long. Our bridges, roads, and transit are aging and are in 
desperate need of repair.
                     Harbor Maintenance Trust Fund
    <bullet>  I would like to take this opportunity to thank the 
committee for their work during the last Congress with WRDA 2020.
    <bullet>  The culmination of their work included provisions to 
ensure full use of Harbor Maintenance Tax revenues as well as unlocking 
the more than $9 billion unspent balance in the Harbor Maintenance 
Trust Fund.
    <bullet>  Full use of the HMT is essential to ensuring our nation's 
navigation channels are adequately maintained.
    <bullet>  This is especially important in my District where The 
Port of Virginia has begun dredging to deepen and widen Norfolk Harbor, 
while we await a New Start designation and federal construction 
funding.
    <bullet>  Proper maintenance both now and after completion of 
Norfolk Harbor's channel improvement are critical to ensure the channel 
is safe and efficient for both commercial and military traffic.
    <bullet>  I hope that our colleagues on the Appropriations 
committee take advantage of the HMTF provisions to not only fully fund 
Operations and Maintenance at our ports and harbors but to also 
increase the construction funding to keep critical projects like 
Norfolk Harbor on schedule and delivering its economic benefits of 
nearly $4 billion to the nation--more than $10 returned for every 
federal dollar invested.
    <bullet>  Similarly, as this committee works on an infrastructure 
package, I ask you to include the Army Corps' navigation program as an 
essential component in Building Back Better.
                                  Rail
    <bullet>  Expanding rail access through the Port of Virginia is 
vital to my district as well as the nation's economy and safety.
    <bullet>  Last year, the Port was awarded a $20 million federal 
grant to expand its rail operation. This grant will allow the Port to 
double the existing capacity of the Norfolk International Terminal's 
Central Rail Yard.
    <bullet>  Currently, 34 percent of the Port's total volume moves to 
market by double-stack rail service, and that demand is forecast to 
exceed 40 percent with a need for capacity to process an additional 
200,000 containers for export.
    <bullet>  Without expansion, the terminal's current operation could 
not keep up with growth, resulting in more movement of freight by truck 
on local roads and highways.
    <bullet>  Expansion in Hampton Roads maintains the expected level 
of service to cargo owners in the Midwest, Ohio Valley, and other 
inland markets.
                           Coastal Resiliency
    <bullet>  Like many communities that are close to the ocean, 
Coastal Virginia experiences the challenges of recurrent flooding and 
rising sea levels. Our region needs resilient infrastructure that 
stands strong against the challenges of our changing climate.
    <bullet>  Virginia's Second District is home to Naval Station 
Norfolk, which is the world's largest naval station and installations 
from every branch of service.
      -  In 2019, a Department of Defense report found that greater 
Hampton Roads is one of the areas ``most vulnerable to flooding'' in 
the entire United States.
      -  When it floods in Coastal Virginia, it becomes more than just 
a local nuisance--it becomes a national security issue.
    <bullet>  We must make investments in innovative and durable 
infrastructure to protect both, our local economy and our national 
security and military readiness.
    <bullet>  As a Navy veteran representing Hampton Roads, I know 
America's military communities desperately need funding for 
infrastructure projects to promote readiness. We must fund and improve 
on initiatives like the Defense Community Infrastructure Program to put 
our communities in the best position moving forward.
                                Transit
    <bullet>  Transit is critical in Coastal Virginia. Hampton Roads 
has one of the largest bus networks in the Commonwealth. Route 20, for 
example, is one of the most populated bus routes in the Commonwealth, 
running from Virginia Beach to Downtown Norfolk.
    <bullet>  Bus transit should be a priority in an upcoming surface 
transportation bill because it is an affordable way to expand public 
transit. An overwhelming number of my constituents use buses to commute 
to and from work, in addition to school, workforce development, medical 
appointments, and essential shopping and retail.
    <bullet>  Bus service is an integral part of Coastal Virginia's 
economy, providing jobs in the community and helping many working 
families throughout our community get from place to place, especially 
in rural areas.
                                Closing
    <bullet>  Again, I would like to thank Chairman DeFazio, Ranking 
Member Graves, and my colleagues on the Committee for giving me the 
chance to speak about transportation and infrastructure priorities 
throughout Coastal Virginia.
    <bullet>  By making much-needed investments in our infrastructure, 
we can set our communities up for sustainable economic success.

    Ms. Davids. Thank you, the gentlewoman yields back.
    Next the Chair will recognize the gentleman from Hawaii, 
Mr. Case, for 5 minutes.

 TESTIMONY OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Case. Chair, Ranking Member, and members of our U.S. 
House Transportation and Infrastructure Committee, aloha and 
mahalo for the opportunity to update the committee on key 
transportation and infrastructure issues and needs from my home 
State of Hawaii.
    I would like to highlight three today for your 
consideration and assistance: number 1, adapting our surface 
transportation network to the impacts of climate change on 
coastal communities; number 2, supporting our critical Honolulu 
Area Rapid Transit, or HART, project; and number 3, 
strengthening efficient safety and community disruption 
regulation of commercial helicopter and small aircraft 
operations.
    First, as an island State, Hawaii is uniquely challenged by 
the growing threats of climate change. Sea levels are projected 
to rise 20 to 30 percent above the global mean by 2100, 
resulting in coastal erosion and flooding already-threatened 
hundreds of miles of key coastal roadways in Hawaii alone. Only 
a large and sustained investment in critical infrastructure to 
include coastal resiliency and road relocation will maintain 
our surface transportation network. I urge the committee to 
continue to support new technologies and strategies and 
projects to meet this challenge.
    Second, and in the same vein, Hawaii, and especially the 
urban center of Honolulu, is in critical need of alternative 
modes of transportation. A 2019 study ranked Honolulu as the 
single-most traffic congested of all medium-sized American 
cities. Mass transit remains our best current, and especially 
long-term, option to provide efficient and reliable 
transportation in our urban core. Our HART project, now over 50 
percent complete, has, like virtually all other large mass 
transit projects, endured substantial cost increases and 
delays. However, it is even more critical now to Hawaii's 
transportation and infrastructure, present and future. I ask 
for this committee's continued support for HART and other mass 
transit projects, nationwide.
    Finally, I ask for the committee's support of full and 
responsive regulation by the Federal Aviation Administration--
and if the FAA remains unable or unwilling to do so, by other 
Federal, State, and local regulatory agencies--of rapidly 
increasing safety and community disruption concerns from 
commercial tour helicopters and small aircraft operations.
    In many parts of our country, but especially Hawaii, these 
operations have accelerated rapidly in recent years. Yet 
regulatory capacity and commitment by the FAA has not kept 
pace, with tragic and widespread consequences: 2019 pre-COVID 
alone saw 17 tour flight and skydiving accidents nationwide, 
with 37 tragic deaths from 6 of those crashes. Hawaii saw 3 
dead in the crash of a commercial air tour helicopter into a 
residential neighborhood, 11 more dead in the crash of a 
commercial skydiving plane, and then 7 more dead in a 
commercial air tour helicopter crash in a remote mountain 
region.
    The National Transportation Safety Board, which reviews 
incidents, but cannot regulate changes, has concluded that 
existing safety-related regulation of commercial tour 
helicopters and small aircraft skydiving operations is 
insufficient. Just yesterday the NTSB reported that 1 factor in 
the 11-dead skydiving crash was insufficient FAA inspection of 
the aircraft's safety. Many of the NTSB-specific 
recommendations have not been adopted by the FAA.
    These operations have also disrupted whole communities with 
excessive noise and other impacts on the ground, destroyed the 
peace and sanctity of special places, and weakened security and 
management of national security operations.
    The FAA states that its responsibility is strictly 
operational safety and national airspace efficiency and does 
not extend to ground disruption and other negative impacts. As 
a result, the operators are virtually free to fly wherever, 
whenever, and as often as they want. And they do, with little 
or no self-regulation.
    I need and ask for this committee's assistance in resolving 
this intolerable situation. For starters, I seek your support 
for H.R. 389, my Safe and Quiet Skies Act, which would require 
the FAA to implement the NTSB's recommended enhanced safety 
regulations; prohibit flights over certain Federal properties, 
to include military installations, national cemeteries, and 
national parks; require standard equipment to monitor the 
location of flights; prevent pilots from also serving as tour 
guides; and limit decibel levels to those commonly applied to 
operations in residential areas on the ground. There are other 
approaches that get to the same place, and I ask to work with 
this committee toward their implementation.
    In closing, I want to extend my warmest mahalo for your 
leadership in fixing our Nation's transportation and 
infrastructure, and for your consideration of Hawaii's critical 
needs.
    I yield back.
    [Mr. Case's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Ed Case, a Representative in Congress from 
                          the State of Hawaii
    Chairman DeFazio, Ranking Member Graves and Members of the U.S. 
House Transportation and Infrastructure Committee:
    Aloha and mahalo for the opportunity to update the Committee on key 
transportation and infrastructure issues and needs for my home state of 
Hawai`i. I would like to highlight three today for your consideration 
and assistance: (1) adapting our surface transportation network to the 
impacts of climate change on coastal communities; (2) supporting our 
critical Honolulu Area Rapid Transit (HART) project; and (3) 
strengthening deficient safety and community disruption regulation of 
commercial helicopter and small aircraft operations.
    As an island state, Hawai`i is uniquely challenged by the growing 
threat of climate change. Sea levels are projected to rise 20% to 30% 
above the global mean by 2100. Resulting coastal erosion and flooding 
already threaten hundreds of miles of key coastal roadways in Hawai`i 
alone. Only a large and sustained investment in critical infrastructure 
to include coastal resiliency and road relocation will maintain our 
surface transportation network. I urge the Committee to continue to 
support new technologies and strategies and projects to meet this 
challenge.
    In the same vein, Hawai`i and especially the urban center of 
Honolulu is in critical need of alternate modes of transportation. A 
2019 study ranks Honolulu as the single most traffic-congested of all 
medium-sized American cities. Mass transit remains our best current and 
especially long-term option to provide efficient and reliable 
transportation in our urban core.
    Our HART project, now over 50% complete, has, like virtually all 
other large mass transit projects, endured substantial cost increases 
and delays. However, it is even more critical now to Hawaii's 
transportation and infrastructure present and future. I ask for this 
Committee's continued support for HART and other mass transit projects 
nationwide.
    Finally, I ask for the Committee's support of full and responsive 
regulation by the Federal Aviation Administration (FAA) and, if the FAA 
remains unable or unwilling to do so, by other federal, state and local 
regulatory agencies, of rapidly increasing safety and community 
disruption concerns from commercial tour helicopters and small aircraft 
operations.
    In many parts of the country, but especially Hawai`i, these 
operations have accelerated rapidly in recent years. Yet regulatory 
capacity and commitment by the FAA has not kept pace, with tragic and 
widespread consequences.
    2019 pre-COVID alone saw 17 tour flight and skydiving accidents 
nationwide, with 37 tragic deaths from six of those crashes. Hawai`i 
saw three dead in the crash of a commercial air tour helicopter into a 
residential neighborhood, eleven more dead in the crash of a commercial 
skydiving plane and then seven more dead in a commercial air tour 
helicopter crash in a remote mountain region.
    The National Transportation Safety Board (NTSB), which reviews 
incidents but cannot regulate changes, has concluded that existing 
safety-related regulation of commercial tour helicopters and small 
aircraft skydiving operations is insufficient. Just yesterday, the NSTB 
reported that one factor in the eleven-dead skydiving crash was 
insufficient FAA inspection of the aircraft safety. Many of the NTSB's 
specific recommendations have not been adopted by the FAA.
    These operations have also disrupted whole communities with 
excessive noise and other impacts, destroyed the peace and sanctity of 
special places and weakened security and management of national 
security operations. The FAA states that its responsibility is strictly 
operational safety and national airspace efficiency and does not extend 
to ground disruption and other negative impacts. As a result, the 
operators are virtually free to fly wherever, whenever and as often as 
they want. And they do, with little to no self-regulation.
    I need and ask for this Committee's assistance in resolving this 
intolerable situation. For starters, I seek your support for H.R. 389, 
my Safe and Quiet Skies Act, which would require the FAA to implement 
the NTSB's recommended enhanced safety regulations, prohibit flights 
over certain federal properties, to include military installations, 
national cemeteries and national parks, require standard equipment to 
monitor the location of flights, prevent pilots from also serving as 
tour guides, and limit decibel levels to those commonly applied to 
operations in residential areas. There are other approaches that get to 
the same place, and I ask to work with this Committee towards their 
implementation.
    In closing, I want to extend my warmest mahalo for your leadership 
in fixing our nation's transportation and infrastructure and for your 
consideration of Hawaii's critical needs.

    Ms. Davids. Thank you, the gentleman yields back.
    The Chair would now recognize the gentlelady from 
California, Ms. Speier, for 5 minutes.
    [Pause.]
    Ms. Davids. OK, we will go ahead and move on to the 
gentlelady from Texas, Ms. Escobar.
    You are recognized for 5 minutes.

    TESTIMONY OF HON. VERONICA ESCOBAR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Escobar. Thank you so much, Madam Chair, for this 
opportunity to discuss policy priorities critical to El Paso 
while the committee is working toward the reintroduction of 
H.R. 2.
    El Paso is a vibrant border community, home to over 800,000 
people. It has seen steady growth over the past decade, but our 
infrastructure spending has historically not kept pace. Like 
most of America, our highways and bridges are congested and in 
disrepair, causing issues for locals who rely on them to get to 
work, go to school, and more.
    However, infrastructure issues in border communities like 
mine are not just problems for locals, but for every American. 
Our roads are critical trade arteries for the rest of the 
country, with over $800 billion in trade entering through El 
Paso's ports of entry in 2019 alone. In short, border 
infrastructure is national and international infrastructure.
    While local governments and State agencies like the Texas 
Department of Transportation have been doing what they can, the 
Federal Government needs to step up. That is why I am urging 
the committee to consider increasing the border set-aside 
created in the FAST Act for surface transportation program 
funds from 5 percent to 10 percent in H.R. 2.
    I am also asking the committee to make this set-aside 
mandatory for border States. There are no border Members on 
T&I, and I want to ensure that the committee understands why 
border communities are so important. High-quality border 
infrastructure benefits not just those who live on the border, 
but those far from the border, as well. We need to give 
strategically located border communities like El Paso the 
resources that we need to revitalize our economies, better our 
residents' lives, and enhance our role as key trade corridors 
for our country.
    The other critical element to border infrastructure are our 
land ports of entry. These ports are just as crucial as our 
coastal counterparts, with billions in trade crossing by land 
every day. They also serve a national security interest, with 
Customs and Border Protection using them to facilitate everyday 
flow and preventing contraband from entering our borders.
    Nevertheless, many of these ports were built in the last 
century and are outdated. Such conditions are impairing CBP's 
ability to perform their mission, leading to significant 
congestion, long wait times, and security concerns. These 
delays also pose an environmental and health risk for 
neighborhoods surrounding the ports, because the idling cars 
spew harmful particulates into the air.
    Local governments are trying to do their part by investing 
in and seeking funding for infrastructure around the ports. An 
example is the Stanton Street Bridge Intelligent Transportation 
System I am submitting for the committee's consideration under 
the surface reauthorization process. Yet because these ports 
play such a critical role for our national economy, I urge the 
committee to include a significant investment for inland port 
infrastructure and technology in H.R. 2, because the Federal 
Government has a stake in international trade and commerce.
    Finally, I would like to call the committee's attention to 
colonias, which exist exclusively along the U.S.-Mexico border. 
Sometimes referred to as ``the Forgotten America,'' these 
communities can oftentimes lack suitable roads, access to clean 
drinking water, and sewage treatment.
    Last year the House of Representatives moved to include two 
of my colonia-related amendments in the final version of H.R. 
2. The first directed the Department of Transportation to 
conduct a study of colonia infrastructure, and the second would 
have established the Colonia State of Good Repair Grant program 
to address colonia surface infrastructure. I am urging the 
committee to include these amendments in the upcoming version 
of H.R. 2, with one change. The Colonia State of Good Repair 
Grant program needs to invest $500 million over 4 years to make 
a real dent in the infrastructure needs of colonias across the 
border.
    In addition to surface infrastructure, water infrastructure 
is desperately needed for all colonias. Based on a recent 
estimate, El Paso County will need approximately $700 million 
to address colonia water and wastewater infrastructure. While 
President Biden's American Jobs Plan contains historic 
investments in these areas, I am concerned colonias will be 
left behind or put into programs where they need to compete 
with other regions for funding. That is why I urge you to set 
aside water infrastructure funds specifically for colonias and 
the local governments helming these projects.
    We must also ensure no local match is needed, because 
putting together a match presents another barrier to access for 
these already economically disadvantaged communities.
    Thank you for the opportunity to testify before you today, 
and I look forward to collaborating with the committee further 
on H.R. 2. I yield back.
    [Ms. Escobar's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Veronica Escobar, a Representative in 
                    Congress from the State of Texas
    Thank you Chairman DeFazio and Ranking Member Graves. I look 
forward to taking this opportunity to discuss policy priorities 
critical to El Paso while you are working towards the reintroduction of 
H.R. 2.
    El Paso is a vibrant border community home to over 800,000 people. 
It has seen steady growth over the past decade, but our infrastructure 
spending is not keeping pace. Our highways and bridges are congested 
and in disrepair, causing issues for locals who rely on them to get to 
work, go to school, and more. However, infrastructure issues in border 
communities like mine are not just problems for locals, but for every 
American. Our roads act as critical trade arteries for the rest of the 
country, with over 800 billion dollars in trade entering through El 
Paso's ports of entry alone in 2019. In short, border infrastructure is 
national infrastructure. While local governments and state agencies 
like the Texas Department of Transportation have been doing what they 
can, the federal government needs to step up. That is why I am urging 
the committee to consider increasing the border set-aside created in 
the FAST Act for Surface Transportation Program funds from 5 percent to 
10 percent in H.R. 2. I am also asking the committee to make this set-
aside mandatory for border states. There is a consistent pattern, 
particularly in Texas, of underinvesting in border infrastructure and 
instead shifting funding towards other metropolitan centers. I 
understand that projects in non-border cities are important, but I 
believe it is just as important to recognize high quality border 
infrastructure will benefit both those who live on the border and those 
who do not. We need to give border communities the chance to receive 
just as much funding as other cities so they can revitalize their 
economies, better their residents' lives, and enhance their role as key 
trade pathways for our country.
    The other critical element to border infrastructure are our land 
ports of entry. These ports are just as crucial as their coastal 
counterparts, with billions in trade crossing by land every day. They 
also serve a national security interest, with Customs and Border 
Protection using them to facilitate everyday flow and preventing 
contraband from crossing our borders. Nevertheless, many of these ports 
were built in the 20th century and are outdated. Such conditions are 
impairing CBP's ability to perform their mission, leading to further 
congestion, wait times, and security concerns. These delays also pose 
an environmental and health risk for neighborhoods surrounding the 
ports because the idling cars spew harmful particulates into the air. 
Local governments are trying to do their part by investing and seeking 
funding for infrastructure around the ports, such as the Stanton Street 
Bridge Intelligent Transportation System I am submitting for the 
committee's consideration under the surface reauthorization process. 
Yet, because these ports play such a critical role for our national 
economy, I urge the committee to include a significant investment for 
inland port infrastructure and technology in H.R. 2 because the federal 
government has a stake in their success.
    Finally, I would like to call the committee's attention to 
colonias, which exist exclusively along the U.S.-Mexico border. 
Sometimes referred to as ``The Forgotten America'', these communities 
can oftentimes lack suitable roads, access to clean drinking water, and 
sewage treatment. Last year the House of Representatives moved to 
include two of my colonia related amendments in the final version of 
H.R. 2. The first directed the Department of Transportation to conduct 
a study of colonia infrastructure and the second would have established 
the Colonia State of Good Repair Grant Program to address colonia 
surface infrastructure. I am urging the committee to include these 
amendments in the coming version of H.R. 2 with one change. The Colonia 
State of Good Repair Grant Program needs to invest 500 million dollars 
over four years to make a real dent in the infrastructure needs of 
colonias across the border.
    In addition to surface infrastructure, water infrastructure is 
desperately needed for all colonias. Based on a recent estimate, El 
Paso County will need approximately 700 million dollars to address 
colonia water and wastewater infrastructure. While President Biden's 
American Jobs Plan contains historic investments in these areas, I am 
concerned colonias will be left behind or put into programs where they 
need to compete with other regions for funding. That is why I urge you 
to set aside water infrastructure funds specifically for colonias and 
the local governments helming these projects. We must also ensure no 
local match is needed because putting together a match presents another 
barrier to access for these already economically disadvantaged 
communities.
    Thank you for the opportunity to testify before you today and I 
look forward to collaborating with the committee further on H.R. 2.

    Ms. Davids. Thank you, the gentlelady yields back.
    The committee will now stand in recess for 10 minutes.
    [Recess.]
    Mr. Malinowski [presiding]. The committee will come to 
order, and I recognize Mr. Espaillat for 5 minutes.

   TESTIMONY OF HON. ADRIANO ESPAILLAT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Espaillat. Thank you. Thank you so much. Thank you, Mr. 
Chairman, Ranking Member. Thank you for allowing me this 
opportunity, members of the committee, for allowing me to 
testify on the important items I believe should be addressed in 
a surface transportation reauthorization.
    As a recent member of this committee, and I miss being part 
of it, and the only one representing New York City, there are a 
number of items that I believe deserve consideration. I want to 
thank the committee for including a number of my priorities in 
H.R. 2, the Moving Forward Act, last year, and I encourage you 
to include them once again.
    My Transportation Alternatives Enhancements Act is critical 
for encouraging projects to promote safe bike and pedestrian 
infrastructure and, together with the Complete Streets Act and 
the SAFE Streets Act, will make our roads safe for all users, 
while promoting healthier, greener transportation 
infrastructure.
    I also want to applaud the committee's inclusion in H.R. 2 
of the new gridlock program to attack the plague of congestion 
in new and innovative ways. New York City is pioneering a 
congestion pricing and reduction program, the first of its kind 
in America. In fact, as a State legislator, I was an advocate 
of this important measure. And the gridlock program will serve 
to scale these innovative solutions in a way that improves 
mobility and efficiency, while improving air quality in 
minority communities in particular, like the ones that I 
represent in northern Manhattan and the Bronx.
    Additionally, we must use infrastructure investment as a 
job-generating opportunity for underserved communities. Not 
only must we develop the pipeline for workers for 21st-century 
infrastructure projects, but we must also focus our training 
and hiring efforts in communities that have been historically 
left behind when these projects hit the ground.
    I strongly support the inclusion of an initiative focused 
on generating partnerships between industry, State and local 
government, and institutions of higher learning, and vocational 
programs that target economically disadvantaged communities. 
For example, the City College of New York in my district has 
been working to develop a state-of-the-art infrastructure 
training institute, with purpose-built curricula and on-the-job 
training initiatives. It will be called the Charles Rangel 
Institute for Transportation and Infrastructure. And I am 
currently working very hard with former Congressman Charles 
Rangel in this endeavor.
    I believe that this is a model that can be replicated, 
targeting communities of color who are often underrepresented 
in the infrastructure workforce. In fact, greener 
infrastructure, but no jobs left behind for those communities.
    Finally, I want to reiterate my strong support for transit 
and other major infrastructure investments, initiatives such as 
BUILD and Capital Investment Grants, which will help to 
complete the Gateway program.
    But most importantly for me, the second phase of the Second 
Avenue Subway that will go right through East Harlem, a 
transportation desert that I currently represent, which I had 
the pleasure of touring with the chairman 2 years ago. In fact, 
it is a shovel-ready program. The tunnel is already built. It 
was built back in the 1970s, before the city hit fiscal 
problems. And so 75 percent of the work is already there.
    As we authorize the Federal surface transportation program, 
it would not only invest more in these key initiatives, but 
also build upon their success, while ensuring that these 
programs are implemented in an effective and predictable 
manner.
    The Second Avenue Subway second phase will be a regional 
project. It will connect with Metro-North to other counties 
outside of New York City, a short distance to the airport by 
bus, La Guardia Airport, and potential water transportation in 
the new campus established from the west side of that corridor 
by Columbia University.
    As we look forward to authorizing, we should also include 
policy that ensures a transparent and predictable process for 
the critical competitive grant programs.
    Thank you once again for this opportunity to testify, and 
for all of your hard work in doing this. I yield back, Mr. 
Chairman.
    [Mr. Espaillat's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Adriano Espaillat, a Representative in 
                  Congress from the State of New York
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the committee for allowing me this opportunity to testify about 
important items I believe should be addressed as you consider 
reauthorizing surface transportation programs. As a former member of 
this committee, and the only one representing New York City, there are 
a number of items I believe deserve consideration.
    First and foremost, I want to thank the committee for including a 
number of my priorities in H.R. 2, the Moving Forward Act, last year. 
My Transportation Alternatives Enhancements Act is critical for 
encouraging projects to promote safe bike and pedestrian 
infrastructure, and together with the Complete Streets Act and the SAFE 
Streets Act will not only make our roads safe for all users but will 
direct us toward healthier, greener transportation infrastructure. All 
or portions of these bills were incorporated into H.R. 2, and I urge 
you to include them again. I also want to applaud the committee for 
including the new ``gridlock'' program to attack the plague of 
congestion in new, innovative ways. New York City is pioneering a 
congestion pricing and reduction program, the first of its kind in 
America, and believe this new program will serve to scale these 
innovative solutions in a way that improves our local and regional 
transportation systems and reduces the harmful emissions that have 
harmed air quality in minority communities like the ones I represent in 
Northern Manhattan and the Bronx.
    Additionally, we must use infrastructure investment as a job-
generating opportunity for underserved communities. Not only must we 
develop the pipeline of workers for 21st-century infrastructure 
projects, but we must also focus our training and hiring efforts in 
communities that have been historically left behind when these projects 
hit the ground. I would strongly support the inclusion of language in 
surface transportation legislation focused on generating partnerships 
between industry, state and local governments, and institutions of 
higher education or vocational training that target economically 
disadvantaged communities. For example, the City College of New York in 
my district has been working to develop a state-of-the-art 
infrastructure training institute with purpose-built curricula and on-
the-job training initiatives. I believe this is a model that can be 
replicated throughout the country targeting communities of color, who 
are often underrepresented in the infrastructure workforce. In doing 
so, we can address not only issues of inequity but also a looping 
skills gap. I also recommend making changes in current Department of 
Transportation policies that will allow more women- and minority-owned 
businesses to participate in and contribute to federally financed 
infrastructure projects. I strongly believe that if we invest in 
training in diverse communities and promote policies that make projects 
accessible to a more diverse array of participants, we can create a 
cycle of success that will redound to the benefit of generations to 
come.
    Mass transit is one of the most important areas in need of 
investment, not just in New York but throughout America. Regional and 
local public transportation systems are critical economic drivers that 
provide communities with access to jobs, education and training 
opportunities and services, as well as reduce our collective carbon 
footprint by taking cars off the road. Transit also facilitates growth 
for local businesses. According to the American Public Transportation 
Association, each dollar invested in public transportation creates four 
dollars in economic returns, from job creation to increased business 
sales. While the majority of this investment occurs at the state and 
local levels, the federal government provides key support that helps 
get needed projects off the ground. Programs like the Better Utilizing 
Investments to Leverage Development (BUILD) Transportation 
Discretionary Grant program, the Capital Investment Grant program's New 
Starts, Small Starts and Core Capacity grants and others accelerate 
community-changing projects in rural, suburban and urban areas alike, 
such as the Second Avenue Subway project in my district. As we 
reauthorize federal surface transportation programs, we must not only 
invest more in these key initiatives, but also seek to build upon and 
duplicate their success. We must also ensure these programs are carried 
in an effective and predictable manner so local transit agencies can 
carry out needed long-term planning. The previous administration made 
numerous, unexpected changes to financing requirements and often issued 
what appeared to be arbitrary, politically-motivated decisions. As we 
look to reauthorization, we should include policies that ensure a 
transparent and predictable process for these critical competitive 
grant programs.
    Lastly, but just as important, is the need to review outdated 
federal formulas that govern the distribution of federal transportation 
dollars, particularly relating to transit. Many of our federal 
transportation formulas do not prioritize large, high-ridership 
systems, and it some cases it does not adequately reward those who are 
often doing the right thing, both by maintaining systems as best they 
can and by raising their own revenue to meet their challenges. For 
example, New York's Metropolitan Transportation Authority has seen its 
share of these programs decline over the past decade, even as pre-COVID 
ridership has greatly increased. As a legacy system that serves 
millions of people per day, more than any other in the country, the 
MTA's needs are unmatched, and while we do our part in New York to 
ensure the MTA gets the funding it needs, we very much believe it no 
longer receives the fair share that it deserves. I remain very grateful 
to the committee for its help in providing urgent COVID-19 relief to 
the MTA to address the short-term financial issues resulting from the 
pandemic, but I believe the committee must look to long-term changes 
that will ensure good actors in the public transit space can continue 
to meet the needs of the millions of Americans they serve.
    Again, thank you for the opportunity to testify and for considering 
these priorities. I am also very grateful to you for taking the 
important step of allowing members to provide project-specific requests 
to the committee. This restoration of the ``power of the purse'' is a 
critical step to ensuring individual members can use their knowledge of 
their own districts to prioritize their constituents' needs. I look 
forward to working with you on my requests as well as the important 
issues outlined above.

    Mr. Malinowski. Thank you so much for that testimony.
    And now, just so that everybody is ready, I want to preview 
the next three Members who will be presenting. We will go to 
Mr. Cicilline first, Ms. Sherrill, and then Ms. Barragan.
    So I will now yield 5 minutes to Congressman Cicilline.

   TESTIMONY OF HON. DAVID N. CICILLINE, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Cicilline. Thank you very much. And I want to thank 
Chairman DeFazio for inviting me to share my thoughts with you 
as the committee works to reauthorize the surface 
transportation programs, and to pass President Biden's American 
Jobs Plan.
    My home State of Rhode Island ranks 49th in the Nation for 
infrastructure conditions and has the highest rate of 
structurally deficient bridges in the country. These challenges 
present an urgent need to repair and rebuild our roads, 
bridges, ports, and transit systems to create jobs, invest in 
local economies, and enhance the safety of our communities.
    As you continue to develop legislation to address 
transportation and infrastructure needs, it is my hope that you 
will consider the following priorities.
    First, studies have found that use of innovative materials 
is cost effective and provides longlasting durability when 
compared to conventional materials. I introduced the IMAGINE 
Act, which would encourage research and deployment of 
innovative construction materials in transportation projects 
nationwide. Investing in new techniques and materials could 
help extend the life of critical public works that draw 
increasingly poor condition ratings. I urge the committee to 
support the bipartisan and bicameral solution to our Nation's 
infrastructure needs.
    Second, 4.1 million Americans are served by sewage 
treatment plants that provide less than secondary treatment, a 
basic requirement of Federal law. Unfortunately, the financial 
burden to meet Federal requirements often falls on State and 
local governments that cannot shoulder the cost of facility 
maintenance and upgrades. In fact, only 37 percent of the 
Nation's infrastructure capital investment needs were met in 
2019. This is unacceptable. I urge the committee to establish a 
new grant program that specifically addresses the needs of 
wastewater infrastructure in financially distressed 
municipalities. All Americans should have access to safe and 
clean drinking water.
    Third, the National Scenic Byways Program brings economic 
development and tourism to communities by recognizing historic, 
scenic, and culturally important roads around the country. The 
passage of the Reviving America's Scenic Byways Act led to the 
designation of 49 new National Scenic Byways earlier this year. 
I support $55 million in funding for the program, and the 
creation of a quality assistance program to provide technical 
assistance, and help designees continue to meet the criteria of 
the program.
    Fourth, I recently introduced legislation that will further 
support the activities laid out in President Biden's American 
Jobs Plan throughout southern New England. The Southern New 
England Regional Commission Act would allow communities in 
Rhode Island, Massachusetts, and Connecticut to utilize Federal 
resources to invest in economic improvements through a number 
of areas, such as defense and maritime manufacturing, and 
better utilize innovative materials in public transit programs. 
With aging infrastructure and unemployment rates above the 
national average, these States urgently need the economic 
revitalization this commission will provide.
    Not to be forgotten, our Nation's community centers need 
our support. From senior centers to recreation facilities to 
organizations that offer programming for all ages, community 
centers come in many forms. However, they all provide Americans 
with opportunities to learn, socialize, and access key 
services. Congress should harness these engines of good by 
investing in facility acquisition and programming.
    Finally, robust investments in coastal resiliency and 
broadband access will bring our Nation's infrastructure into 
the 21st century. By 2050 rising sea levels will cause the land 
currently occupied by 300 million people to flood at least once 
a year. We must build and retrofit infrastructure capable of 
withstanding the rising waters, more intense and more frequent 
storms brought on by climate change.
    Internet access is essential to complete homework, look for 
a job, and communicate with others. Yet 44 million U.S. 
households do not have a standard broadband connection. 
Investments in high-speed broadband will end the isolation 
facing millions of Americans, create more jobs, and help 
strengthen our economy.
    We have the opportunity to pass the once-in-a-generation 
infrastructure package that will stabilize and modernize the 
Nation's economy, and put millions of people to work. We must 
invest in innovative materials, expand access to clean water, 
support historic roads, address each region's unique needs, 
combat climate change, and expand access to broadband. And 
thank you for your continued work on these vital issues, and I 
appreciate your consideration. I look forward to working with 
the committee, and I thank you for this opportunity.
    [Mr. Cicilline's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. David N. Cicilline, a Representative in 
                Congress from the State of Rhode Island
    Chairman DeFazio, thank you for inviting me to share my thoughts 
with you as the committee works to reauthorize surface transportation 
programs and pass President Biden's American Jobs Plan.
    My home state of Rhode Island ranks 49th in the nation for 
infrastructure conditions and has the highest rate of structurally 
deficient bridges in the country. These challenges present an urgent 
need to repair and rebuild our roads, bridges, ports, and transit 
systems to create jobs, invest in local economies, and enhance the 
safety of our citizens.
    As you continue to develop legislation to address our 
transportation and infrastructure needs, it is my hope that you will 
consider including the following priorities.
    First, studies have found that use of innovative materials is cost 
effective and provides long lasting durability when compared to 
conventional materials. I introduced the IMAGINE Act, which would 
encourage research and deployment of innovative construction materials 
in transportation projects nationwide.
    Investing in new techniques and materials could help extend the 
life of critical public works that draw increasingly poor condition 
ratings. I urge the committee to support this bipartisan and bicameral 
solution to our nation's infrastructure needs.
    Second, 4.1 million Americans are served by sewage treatment plants 
that provide less than secondary treatment, a basic requirement by 
federal law.
    Unfortunately, the financial burden to meet federal requirements 
often falls on state and local governments that cannot shoulder the 
cost of facility maintenance and upgrades. In fact, only 37% of the 
nation's infrastructure capital investment needs were met in 2019. This 
is unacceptable.
    I urge the committee to establish a new grant program that 
specifically addresses the needs of wastewater infrastructure in 
financially distressed municipalities. All Americans should have access 
to safe and clean water.
    Third, the National Scenic Byways Program brings economic 
development and tourism to communities by recognizing historic, scenic, 
and culturally important roads around the country. The passage my bill, 
the Reviving America's Scenic Byways Act led to the designation of 49 
new national scenic byways earlier this year.
    I support $55 million in funding for the program and the creation 
of a Quality Assistance Program to provide technical assistance and 
help designees continue to meet the criteria for the program.
    Fourth, I recently introduced legislation that will further support 
the activities laid out in President Biden's American Jobs Plan 
throughout Southern New England.
    The Southern New England Regional Commission Act would allow 
communities in Rhode Island, Massachusetts, and Connecticut to utilize 
federal resources to invest in economic improvements through a number 
of areas such as defense and maritime manufacturing, and better utilize 
innovative materials in public transit programs.
    With aging infrastructure and unemployment rates above the national 
average, these states urgently need the economic revitalization this 
commission will provide.
    Not to be forgotten, our nations community centers need our 
support.
    From senior centers to recreation facilities to organizations that 
offer programing for all-ages, community centers come in many forms. 
However, they all provide Americans with opportunities to learn, 
socialize, and access key services. Congress should harness these 
engines of good by investing in facility acquisition and programing.
    Finally, robust investments in coastal resiliency and broadband 
access will bring our nation's infrastructure into the 21st Century.
    By 2050 rising sea levels will cause land currently occupied by 300 
million people to flood at least once a year. We must build and 
retrofit infrastructure capable of withstanding the rising waters, more 
intense and more frequent storms brought on by climate change.
    Internet access is essential complete homework, look for a job, and 
communicate with others. Yet, 44 million U.S. households do not have a 
standard broadband connection. Investments in high-speed broadband will 
end the isolation facing millions of disconnected Americans, create 
more jobs, and strengthen the economy.
    We have the opportunity to pass once in a generation infrastructure 
packages that will stabilize and modernize the nation's economy and put 
millions of Americans to work. We must invest in innovative materials, 
expand access to clean water, support historic roads, address each 
region's unique needs, combat climate change, and expand access to 
broadband.
    I thank you for your continued advocacy on these vital issues and 
appreciate your consideration. I look forward to working together.

    Mr. Malinowski. Thank you, Mr. Cicilline.
    I now yield 5 minutes to my colleague from New Jersey, 
Congresswoman Sherrill.

TESTIMONY OF HON. MIKIE SHERRILL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Ms. Sherrill. OK, thank you, Mr. Chair. It is wonderful to 
be here. Thank you to Chairman DeFazio, Ranking Member Graves, 
and members of the committee, and thank you so much to my good 
friend, Tom Malinowski, for all his continuous and hard work on 
this committee, and on particularly the Gateway Tunnel project. 
Thanks to two representatives, Payne and Sires, for their 
outstanding work to support New Jersey's priorities on this 
committee.
    I want to speak today about an issue that is critical to my 
district's economy and the quality of life of my constituents: 
the Gateway Tunnel project. The Gateway is not just a local or 
regional issue. It is critically important to the entire 
Nation's transportation network and economic health.
    The Northeast Corridor is the most heavily trafficked rail 
corridor in the Nation, and is essential to the travel of 
almost 1 million people every single day. Gateway is the 
linchpin at the center of that system. But the Hudson River 
tunnel it currently relies on is now over a century old, and 
was severely damaged during Superstorm Sandy, creating the risk 
for a devastating shutdown. According to a 2019 impact study, 
such a shutdown would cost the U.S. economy $16 billion over 4 
years, reduce property values by $22 billion in New Jersey 
alone, and cost $7 billion in lost revenue to all levels of our 
government.
    A shutdown means more pollution, longer commutes, and 
increased motor vehicle accidents, further harming the single 
most economically productive region in our country. It also 
means the increased stress when a parent is contending with a 
delayed train while trying to pick up kids from daycare or make 
it home to a soccer game.
    I have personally examined the damage to the tunnels and 
saw the exposed rebar, crumbling walls, and corroded wires left 
by the hurricane. Maintenance crews are able to do basic upkeep 
for a few hours, but it is simply not enough to fix the 
underlying damage. We have already delayed a structural fix for 
years and allowed the tunnel to continue to deteriorate. We 
simply can't afford to wait any longer while hoping a shutdown 
doesn't occur.
    The Gateway Tunnel project would modernize and improve the 
Northeast Corridor system and minimize the risk of this 
potentially catastrophic failure. It would be a transformative 
infrastructure improvement for the Nation's busiest rail 
corridor and would create significant resiliency and efficiency 
improvements for the entire Northeast Corridor. That is why I 
have worked so hard since my first day in office to expedite 
the funding and approvals needed to finally implement this 
project.
    This hasn't been easy over the past few years. The previous 
administration was an active impediment in our efforts to 
finish the project. They continually missed deadlines for 
approving the project, leading to heavy delays in planning and 
construction that put our regional economy at even greater 
risk.
    I was thrilled to hear Transportation Secretary Buttigieg 
echo my priorities when he expressed his desire to move forward 
with Gateway during his Senate confirmation hearings. And the 
Biden administration recently announced that they will be 
moving forward with the approval process for the Gateway Tunnel 
project.
    Furthermore, the administration's infrastructure proposal 
includes $80 billion for passenger rail, with a specific set-
aside for Amtrak's Northeast Corridor, as well as $25 billion 
for complex projects of regional and national significance. 
Both of these provisions could provide the financing that we 
critically need to complete Gateway.
    The funding strongly aligns with the priorities that this 
committee outlined through its landmark infrastructure reform 
package, the Moving Forward Act. I was so proud to vote for 
that bill last year because it recognized the necessity of 
upgrading and modernizing our rail system. And I want to thank 
the committee for all of the work that you put into crafting 
that legislation.
    The Moving Forward Act contains several funding provisions 
that could be used to support the completion of Gateway. This 
included $29 billion for Amtrak, with $13 billion going to the 
Northeast Corridor; $19 billion for the Passenger Rail 
Improvement, Modernization and Expansion, the PRIME grant 
program; $9 billion for the Projects of National and Regional 
Significance grant program; and $7 billion for the Consolidated 
Rail Infrastructure and Safety Improvements grants program.
    As Congress begins negotiations for this infrastructure 
package, therefore, I urge you to prioritize capital financing 
for major projects that are significant to the entire Nation, 
such as Gateway. The new Projects of National and Regional 
Significance grant program and the Moving Forward Act is 
exactly the type of fund that Gateway needs. And that program 
is remarkably similar to the $25 billion included in President 
Biden's proposal for ambitious projects with benefits to the 
regional or national economy, but that are too large or complex 
for existing funding programs.
    It is my hope that this new funding from Congress, 
alongside the administration's strong willingness to take 
Gateway to the finish line on the regulatory side, will enable 
us to finish this long overdue and desperately needed project. 
At a time when the Northeast region is still in the early 
stages of our economic recovery after being the first States 
hit by the pandemic, this project will create thousands of 
jobs, and create significant new efficiencies that will help to 
power our economic recovery.
    I am so appreciative of the tremendous leadership that this 
committee has demonstrated in support of Gateway over the past 
3 years and look forward to engaging with all of you on this 
critical issue. This is an issue that is central to so many 
families and businesses in my district, and I will continue to 
advocate for them until we have completed Gateway.
    So thank you so much, Mr. Chairman Malinowski, and I yield 
back.
    [Ms. Sherrill's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Mikie Sherrill, a Representative in Congress 
                      from the State of New Jersey
    Thank you Chairman DeFazio, Ranking Member Graves, and Members of 
the Committee for providing me the opportunity to testify today. I also 
want to thank my good friends and colleagues from New Jersey, Reps. 
Malinowski, Payne, and Sires, for their outstanding work to support our 
state's priorities on this Committee.
    I want to speak today about an issue that is critical to my 
district's economy and the quality of life of my constituents--the 
Gateway Tunnel Project. But Gateway is not just a local or regional 
issue, it is critically important to the entire nation's transportation 
network and economic health. The Northeast Corridor is the most heavily 
trafficked rail corridor in the nation and is essential to the travel 
of almost a million people every day. Gateway is the linchpin at the 
center of that system. But the Hudson River tunnel it currently relies 
on is now over a century old and was severely damaged during Superstorm 
Sandy, creating the risk for a devastating shutdown.
    According to a 2019 impact study, such a shutdown would cost the US 
economy $16 billion over 4 years, reduce property values by $22 billion 
in New Jersey alone, and cost $7 billion in lost revenue to all levels 
of our government. A shutdown means more pollution, longer commutes, 
and increased motor vehicle accidents--further harming the single most 
economically productive region in our country.
    It also means the increased stress when a parent is contending with 
a delayed train while trying to pick up their kids from daycare or make 
it home to see a soccer game.
    I have personally examined the damage to the tunnels and saw the 
exposed rebar, crumbling walls, and corroded wires left by the 
Hurricane. Maintenance crews are able to do basic upkeep for a few 
hours every night, but it is simply not enough to fix the underlying 
damage. We have already delayed a structural fix for years and allowed 
the tunnel to continue to deteriorate. We simply cannot afford to wait 
any longer while hoping a shutdown doesn't occur.
    The Gateway Tunnel project would modernize and improve the 
Northeast Corridor system and minimize the risk of this potentially 
catastrophic failure. It would be a transformative infrastructure 
improvement for the nation's busiest rail corridor, and would create 
significant resiliency and efficiency improvements for the entire 
Northeast Corridor. That's why I've worked so hard since my first day 
in office to expedite the funding and approvals needed to finally 
complete the project.
    This hasn't been easy over the past few years. The previous 
administration was an active impediment in our efforts to finish the 
project. They continually missed deadlines for approving the project, 
leading to heavy delays in planning and construction that put our 
regional economy at even greater risk.
    I was thrilled to hear Transportation Secretary Buttigieg echo my 
priorities when he expressed his desire to move forward with Gateway 
during his Senate confirmation hearings, and the Biden administration 
recently announced that they will be moving forward with the approval 
process for the Gateway Tunnel project. Furthermore, the 
administration's infrastructure proposal includes $80 billion for 
passenger rail, with a specific set aside for Amtrak's Northeast 
Corridor, as well as $25 billion for complex projects of regional and 
national significance. Both of these provisions could provide the 
financing that we critically need to complete Gateway.
    This funding strongly aligns with the priorities that this 
Committee outlined through its landmark infrastructure reform package, 
the Moving Forward Act. I was so proud to vote for that bill last year 
because it recognized the necessity of upgrading and modernizing our 
rail system, and I want to thank the Committee for all of the work that 
you put into crafting that legislation. The Moving Forward Act 
contained several funding provisions that could be used to support the 
completion of Gateway. This included $29 billion for Amtrak (with $13 
billion going to the Northeast Corridor), $19 billion for the Passenger 
Rail Improvement, Modernization, and Expansion (PRIME) grant program, 
$9 billion for the Projects of National and Regional Significance grant 
program, and $7 billion for the Consolidated Rail Infrastructure and 
Safety Improvements (CRISI) grant program.
    As Congress begins negotiations over this infrastructure package, 
therefore, I urge you to prioritize capital financing for major 
projects that are significant to the entire nation, such as Gateway. 
The new Projects of National and Regional Significance grant program in 
the Moving Forward Act is exactly the type of fund that Gateway needs, 
and that program is remarkably similar to the $25 billion included in 
President Biden's proposal for ambitious projects with benefits to the 
regional or national economy, but that are too large or complex for 
existing funding programs.
    It is my hope that this new funding from Congress, alongside the 
Administration's strong willingness to take Gateway to the finish line 
on the regulatory side, will enable us to finish this long overdue and 
desperately needed project. At a time when the northeast region is 
still in the early stages of our economic recovery after being the 
first states hit by the pandemic, this project will create thousands of 
jobs and create significant new efficiencies that will help to power 
our economic recovery.
    I am so appreciative of the tremendous leadership that this 
Committee has demonstrated in support of Gateway over the past three 
years, and look forward to engaging with all of you on this critical 
issue. This is an issue that is central to so many families and 
businesses in my district, and I will continue to advocate for them 
until we have completed Gateway.
    Thank you, Mr. Chairman, and I yield back.

    Mr. Malinowski. Thank you, Congresswoman Sherrill.
    In New Jersey, when we say there is light at the end of the 
tunnel, we mean that literally. I think it is safe to say that 
the Gateway is on track, but we will all work together to make 
sure that it actually does happen. So thank you again for your 
testimony.
    I now yield 5 minutes to Congresswoman Barragan of 
California.

 TESTIMONY OF HON. NANETTE DIAZ BARRAGAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Barragan. Well, thank you, Mr. Chairman, and thank you 
to all the members of the committee for the opportunity to 
testify today. There are four main priorities I want to outline 
for you that will infuse equity and climate justice into our 
Nation's transportation system.
    The first is to provide funding parity for transit. 
Currently, transit receives about 20 percent of Federal 
funding, and highways receive 80 percent. Greater investment in 
transit is important for reducing air pollution and supporting 
people who rely on transit for commuting to work, medical 
appointments, and the grocery store. I am asking for you to 
provide at least 50 percent of Federal resurfacing 
authorization funding for transit.
    This need is significant. Transit systems, including L.A. 
Metro, are recovering from major declines in ridership caused 
by the pandemic, and significant capital project backlogs. L.A. 
Metro faces needs of $5.5 billion for maintaining and upgrading 
bus and rail vehicles, facilities, and rail lines over the next 
15 years. Their plan to address this need heavily relies on 
future Federal assistance.
    Secondly, zero-emissions transit vehicles. As part of an 
increased investment in transit, the committee should increase 
funding for replacing diesel-burning transit vehicles with 
zero-emissions technology. Currently, the city of Los Angeles 
has a goal of transitioning its entire bus fleet to zero 
emissions by 2030. This is critical for reducing transportation 
pollution from burning diesel, which causes dangerous air 
pollution in my district and communities of color throughout 
the country.
    The Biden administration's infrastructure plan includes 
replacing 50,000 transit vehicles with zero-emissions vehicles 
by 2030. This is a great start, but the committee should go as 
big as possible. There are over 180,000 public transit vehicles 
available in our country for service.
    Third, as part of your investments to reduce our dependency 
on cars, we need greater Federal support for biking and walking 
infrastructure. My district lacks safe pedestrian and cyclist 
access to parks and open spaces, particularly for communities 
along the lower Los Angeles River.
    For example, the predominantly low-income communities 
living in the neighborhoods along Artesia Boulevard, the major 
west-to-east corridor running through North Long Beach and 
across the river, cannot access the river's bike path through 
Artesia Boulevard.
    Finally, ports infrastructure grants program. I am 
requesting greater investment in ports through the Port 
Infrastructure Development Program. This is the primary Federal 
source of funding for strengthening and modernizing port 
terminals and their integration into the American supply chain. 
The last year has demonstrated the importance of strengthening 
and protecting the supply chain from disruption. The Port of 
Los Angeles alone faces a $260 million gap between 
infrastructure needs and budgeted funding for construction.
    And with that I want to thank the committee for the 
opportunity to testify. I look forward to working with you in 
the 117th Congress to advance 21st-century transportation 
solutions that improve the quality of life in our communities 
and address the climate crisis.
    Thank you, and I yield back.
    [Ms. Barragan's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Nanette Diaz Barragan, a Representative in 
                 Congress from the State of California
    Thank you Chair DeFazio and Ranking Member Graves for providing 
members with an opportunity to testify on our priorities for the 
reauthorization of the surface transportation program. There are four 
main priorities I want to outline for you that will infuse equity and 
climate justice into our nation's transportation system.
                          More Transit Funding
    The first is to provide funding parity for transit. Currently, 
transit receives about twenty percent of federal funding, and highways 
receive eighty percent. Greater investment in transit is important for 
reducing air pollution and supporting people who rely on transit for 
commuting to work, medical appointments, and the grocery store. I am 
asking for you to provide at least fifty percent of federal resurfacing 
authorization funding for transit.
    The need is significant. Transit systems including LA Metro are 
recovering from major declines in ridership caused by the pandemic and 
significant capital project backlogs. LA Metro faces needs of $5.5 
billion for maintaining and upgrading bus and rail vehicles, 
facilities, and rail lines over the next 15 years. Their plan to 
address meet this need relies heavily on future federal assistance.
                    Zero Emissions Transit Vehicles
    As part of an increased investment in transit, the committee should 
increase funding for replacing diesel burning transit vehicles with 
zero emissions technology. Currently the city of Los Angeles has a goal 
of transitioning its entire bus fleet to zero emissions by 2030. This 
is critical for reducing transportation pollution from burning diesel, 
which causes dangerous air pollution in my district and communities of 
color throughout the country.
    The Biden Administration's infrastructure plan includes replacing 
50,000 transit vehicles with zero emission vehicles by 2030. This is a 
great start, but the committee should go as big as possible. There are 
over 180,000 public transit vehicles available in our country for 
service.
           Greater Funding for Biking/Walking Infrastructure
    Third, as part of your investments to reduce our dependency on 
cars, we need greater federal support for biking and walking 
infrastructure. My district lacks safe pedestrian and cyclist access to 
parks and open spaces, particularly for communities along the lower Los 
Angeles River.
    For example, the predominantly low-income communities living in the 
neighborhoods along Artesia Boulevard, the major west to east corridor 
running through North Long Beach and across the river, cannot access 
the river's bike path through Artesia Boulevard.
                   Ports Infrastructure Grant Program
    Finally, I am requesting greater investment in ports through the 
Ports Infrastructure Development Program. This is the primary federal 
source of funding for strengthening and modernizing port terminals and 
their integration into the American supply chain. The last year has 
demonstrated the importance of strengthening and protecting the supply 
chain from disruption.
    The Port of Los Angeles alone faces a $260 million gap between 
infrastructure needs and budgeted funding for construction.
                                Closing
    Thank you again for taking my priorities into consideration. I look 
forward to working with you in the 117th Congress to advance 21st 
century transportation solutions that improve the quality of life in 
our communities and address the climate crisis.

    Mr. Malinowski. Thank you so much.
    I now yield 5 minutes to Mr. Jones of New York.

TESTIMONY OF HON. MONDAIRE JONES, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Jones. Well, thank you, Mr. Chairman and Ranking Member 
Graves and members of the committee, for the opportunity to 
appear before you and to share my testimony. It is a great 
honor to speak to you today about the district where I grew up 
and now represent in the United States Congress.
    There is no shortage of transportation and infrastructure 
needs in Westchester and Rockland Counties, suburbs of New York 
City that are in New York's 17th Congressional District. As you 
know, surface transportation across New York State is 
notoriously in bad shape, and nearly half of all locally or 
State-maintained roads in New York are in poor or mediocre 
condition, according to a study by the national transportation 
research nonprofit known as TRIP.
    Similarly, many of our bridges are old and in need of 
repair. In fact, nearly 10 percent of all bridges in the State 
of New York were determined to be structurally deficient, 
according to the American Society of Civil Engineers. That 
number should be zero.
    But this is all information you can easily find and will 
likely hear from my colleagues in the New York delegation. I am 
here because I want to talk to you about something you may not 
know, something that is a high priority for many of my 
constituents in Rockland County, which is the more 
underresourced portion of my congressional district, and it 
happens to be where I grew up. And that is the need for 
improved commuter rail from Rockland County into New York City.
    The Hudson River runs through the middle of my district, 
with Rockland County on the west bank of the river, and 
Westchester County on the east bank of the river. I grew up in 
Rockland, and since I was a child, I can remember people 
talking about the need for a one-seat train ride into New York 
City. Currently, Rocklanders going into New York City must take 
New Jersey Transit into the State of New Jersey, then transfer 
to a different train station at Secaucus Junction in New 
Jersey, before finally getting to New York Penn Station. This 
is deeply inconvenient and makes Rockland a less attractive 
place to live for working families.
    Contrast that with the experience of my constituents in 
Westchester, who live on the other side of the Hudson River, 
and ride to and from our Nation's economic capital, New York 
City, every day on the Metro-North Railroad without ever having 
to transfer to a different train. The one-seat ride to the city 
has helped Westchester prosper, and has encouraged transit-
oriented sustainable development. Unfortunately, the same can't 
be said about rail service in Rockland County.
    As an initial matter, in most parts of Rockland, which has 
over 325,000 residents, there is no train service. And that 
means you have to drive or take a bus to get into New York 
City, both of which are bad for the environment. Rockland's 
challenge of too few rail stations is compounded by a lack of 
direct service to New York City, which operates to deny 
Rocklanders the same benefits as their more affluent neighbors 
in Westchester County.
    In researching this issue I have found that completion of 
the Gateway program is key to delivering a one-seat ride 
between Rockland County and New York Penn Station. Several of 
the projects that comprise the Gateway program have a direct 
impact on my goal of securing a one-seat ride for Rocklanders. 
Chief among them are two projects that are underway.
    First, the new Hudson River tunnel, which will expand 
railroad capacity, improve safety, and reduce delays currently 
impacting service into New York City.
    And the second is the expansion of New York Penn Station, 
which will be necessary to accommodate the increased train 
capacity resulting from a new Hudson River tunnel. I am 
confident that, with this new administration, and support from 
Congress, these projects will be built without further delay.
    My concern is about what comes next. In order to secure a 
one-seat ride for my constituents in Rockland, the next piece 
of the Gateway program that must come into place is completion 
of the Bergen Loop project, also known as the Secaucus Loop. If 
built, the Bergen Loop will create a pathway for the one-seat 
ride that Rockland County needs. Passengers will no longer have 
to transfer at Secaucus and wait for another train that heads 
into the city.
    With robust funding in the surface transportation 
reauthorization bill for major infrastructure projects like 
Gateway, we can make the one-seat ride from Rockland to New 
York City a reality. This is of the utmost importance to me and 
to the hundreds of thousands of my constituents who deserve 
reliable and convenient access to economic opportunities in the 
city.
    And so I urge the committee to provide strong funding and 
resources to complete infrastructure Projects of National and 
Regional Significance, including the Gateway program. Thank you 
very much, and I yield back.
    [Mr. Jones' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Mondaire Jones, a Representative in Congress 
                       from the State of New York
    Thank you, Chairman DeFazio, Ranking Member Graves, and Members of 
the Committee, for the opportunity to appear before you and share my 
testimony. It is a great honor to speak to you today about the district 
where I grew up and now represent in the United States Congress.
    There is no shortage of transportation and infrastructure needs in 
Westchester and Rockland Counties, suburbs of New York City that are in 
New York's 17th Congressional District. As you know, surface 
transportation across New York State is notoriously in bad shape. 
Nearly half of all locally or state-maintained roads in New York are in 
poor or mediocre condition, according to a study by the national 
transportation research nonprofit known as TRIP.\1\
---------------------------------------------------------------------------
    \1\ ``New York Transportation by the Numbers: Meeting the State's 
Need for Safe, Smooth, and Efficient Mobility,'' TRIP: A National 
Transportation Research Nonprofit, December 2020, https://tripnet.org/
wp-content/uploads/2020/12/TRIP_New_York_Transportation_by_the_
Numbers_Report_December_2020.pdf
---------------------------------------------------------------------------
    Similarly, many of our bridges are old and in need of repair. In 
fact, nearly 10 percent of all bridges in the State of New York were 
determined to be structurally deficient, according to the American 
Society of Civil Engineers.\2\ That number should be zero.
---------------------------------------------------------------------------
    \2\ ``2021 Report Card for America's Infrastructure: New York 
Infrastructure Overview,'' American Society of Civil Engineers, 
accessed April 10, 2021, https://infrastructurereportcard.org/state-
item/new-york/
---------------------------------------------------------------------------
    But this is all information you can find easily and will likely 
hear from my colleagues in the New York delegation. I am here because I 
want to talk with you about something you may not know, something that 
is a high priority for many of my constituents in Rockland County, 
which is the more under-resourced portion of my district and where I 
grew up. And that is the need for improved commuter rail from Rockland 
County to New York City.
    The Hudson River runs through the middle of my district, with 
Rockland County on the west bank of the river and Westchester County on 
the east bank of the river. I grew up in Rockland County and since I 
was a child, I can remember people talking about the need for a one-
seat train ride to New York City.
    Currently, Rocklanders going into New York City must take New 
Jersey Transit into the State of New Jersey, then transfer to a 
different train at the Secaucus Junction station in New Jersey before 
finally getting to New York-Penn Station.
    This is deeply inconvenient and makes Rockland a less attractive 
place to live for working families. Contrast that with my constituents 
in Westchester County, who live on the other side of the Hudson River 
and ride to and from our nation's economic capital, New York City, 
every day on the Metro-North Railroad without ever having to transfer 
to a different train.
    The one-seat ride to the city has helped Westchester County prosper 
and has encouraged transit-oriented sustainable development. 
Unfortunately, the same cannot be said about rail service in Rockland 
County. As an initial matter, in most parts of Rockland County, which 
has over 325,000 residents, there is no train service. That means, in 
most parts of Rockland, you have to drive or take a bus to get into New 
York City, both of which are bad for the environment. I can also tell 
you from firsthand experience that bus service in Rockland is 
unreliable, which can be devastating when you depend on it to get to 
work.
    Rockland's challenge of too few rail stations is compounded by a 
lack of direct service to New York City, which operates to deny 
Rocklanders the same benefits as their more affluent neighbors in 
Westchester.
    People in suburban communities benefit from convenient, reliable 
public transportation to urban areas. It allows them the ability to 
move to more affordable neighborhoods while maintaining access to the 
economic opportunities in the city. This is evident in Westchester 
County, where the one-seat ride makes it easy to get off the roads and 
commute by train. And that is what my constituents in Rockland deserve.
    In researching this issue, I have found that completion of the 
Gateway Program is key to delivering a one-seat ride between Rockland 
County and New York-Penn Station. Several of the projects that comprise 
the Gateway Program have a direct impact on my goal of securing a one-
seat ride for Rocklanders.
    Chief among them are two projects that are underway. First, the new 
Hudson River tunnel, which will help expand rail capacity, improve 
safety, and reduce delays currently impacting service into New York 
City.
    Second is the expansion of New York-Penn Station, which will be 
necessary to accommodate the increased train capacity resulting from 
the new Hudson River tunnel. I am confident that with this new 
administration and support from Congress, these projects will be built 
without further delay.
    My concern is about what comes next. In order to secure a one-seat 
ride for my constituents in Rockland County, the next piece of the 
Gateway Program that must come into place is completion of the Bergen 
Loop project, also known as the Secaucus Loop. If built, the Bergen 
Loop will create a pathway for the one-seat ride that Rockland County 
needs. Passengers will no longer have to transfer at Secaucus Station 
and wait for another train that heads into the city.
    With robust funding in the Surface Transportation Reauthorization 
bill for major infrastructure projects like Gateway, we can make the 
one-seat ride from Rockland to New York City a reality. This is of the 
utmost importance to me and to the hundreds of thousands of my 
constituents who deserve convenient and reliable access to economic 
opportunities in the city.
    As Congress considers legislation to build and improve our 
infrastructure for a more sustainable future, commuter rail must be an 
important part of the conversation. I strongly believe that we must 
invest in commuter rail to improve existing service and expand it for 
those who lack access.
    I urge the committee to provide strong funding and resources to 
complete infrastructure projects of national and regional significance, 
including the Gateway Program, so that Rockland County and communities 
like it can enjoy convenient and reliable access to economic 
opportunities in the city.

    Mr. Malinowski. Thank you, Mr. Jones. And you are 
absolutely right. There is no way we get a one-seat ride for 
any number of commuter railways west of the Hudson River 
without completing the new Hudson tunnel, and repairing the old 
one. And it is good to be reminded it is not just New Jersey 
that is involved here.
    I yield 5 minutes to Congresswoman Leger Fernandez.

 TESTIMONY OF HON. TERESA LEGER FERNANDEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Leger Fernandez. Thank you so very much, and thank you 
for holding this hearing to listen to Members' ideas as we 
enact a bold infrastructure plan.
    We are in a transformative moment as we climb out of the 
recession, address the climate crisis, and build a better, more 
equitable future. New Mexico needs infrastructure investments 
that will create a foundation for our communities to thrive. It 
is estimated that deficient roads in New Mexico cost each 
driver $767 per year. My State schools face an over $400 
million capital expenditure gap. We will need $1.4 billion to 
meet drinking water needs.
    But New Mexico is also ground zero for the potential for 
bold climate action, and also the potential for economic 
disaster if we are not careful about the transition into a 
green economy. Our ecosystem is fragile, and a warmer planet 
could mean extensive droughts and wildfires that will threaten 
the beautiful State we call home.
    But we must also transition with an understanding of the 
potential harm to the communities that depend on jobs and tax 
revenue. This is an issue affecting many communities, not just 
New Mexico.
    We can start with connecting our rural and underserved 
communities to economic opportunity. I urge the committee to 
prioritize funding for transportation infrastructure that 
specifically connects economies transitioning away from oil and 
gas to existing railroads and transportation networks.
    For example, Farmington, New Mexico, which is in the San 
Juan gas basin, is connected by oil and gas pipelines to the 
rest of the economy, but lacks access to a commercial rail 
line, which they desperately want so that they can move into 
the new future. A new electric rail line there could become a 
prototype for rail innovation, while spurring the just 
transition.
    Nowhere are transportation and infrastructure needs more 
apparent than in our Tribal communities. Whether it is the lack 
of running water and plumbing, or inadequate roads to take 
elders to health facilities, COVID-19 has exposed the deep 
infrastructure inequities that Tribal communities face. Navajo 
children can't ride the bus sometimes because bridges and roads 
are too deteriorated for the buses. The Navajo Nation recently 
reported $7.9 billion is required to address its infrastructure 
needs alone. According to the GAO, there are over 150,000 miles 
of roads and Tribal lands in the United States. Over half are 
unpaved and in poor condition.
    I was counsel to numerous Tribes and their entities, and I 
have seen the devastating impacts of underinvestment that led 
to COVID deaths and despair. Now, as the chair of the Committee 
on Natural Resources' Subcommittee for Indigenous Peoples of 
the United States, I want to highlight our Federal Government's 
unique trust obligation to Tribes. As you evaluate Member-
designated project submissions, I urge the committee to honor 
this trust responsibility, and consider granting Members 
additional funding for projects submitted by Tribal 
governments.
    Now I want to address building back beautiful. Arts and 
culture are an essential part of American infrastructure and 
can help unite the country and allow every story to be 
celebrated as the American story. That is why New Mexico 
invests in the creative economy with 1 percent for the arts set 
aside in every publicly funded project, 1 percent set aside. 
The creative economy in New Mexico, therefore, represents about 
10 percent of the paychecks in our State.
    Our Federal Government recognized the value of arts and 
culture after the Depression, when we created the WPA to employ 
muralists and other creative workers whose art still inspires 
us. Today, when our Nation is so divided, we desperately need 
to be reminded of our cultures, our shared experiences, and 
what binds us together as Americans. Similar to New Mexico's 1 
percent for the arts funding, I encourage setting aside a small 
percentage of each infrastructure project for use in creative 
programs in the locale of the spending. We need to put 
musicians, playwrights, muralists, and poets back to work to 
help rebuild and heal our Nation.
    We must build back beautiful. As Amanda Gorman said at the 
inauguration, ``Being American is more than a pride we inherit, 
it's the past we step into and how we repair it.''
    Thank you again to the chair and ranking member of the 
committee. I look forward to working together to achieve these 
critical investments.
    I yield back.
    [Ms. Leger Fernandez's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Teresa Leger Fernandez, a Representative in 
                 Congress from the State of New Mexico
    Good morning and thank you Chair DeFazio and Ranking Member Graves 
for holding this hearing.
    I appreciate this Committee's commitment to enact a bold 
infrastructure plan in this transformative historic moment as we climb 
out of a recession, address the climate crisis, and build a better, 
more equitable future. Like many states throughout the country, New 
Mexico needs infrastructure investments that will create the foundation 
for our communities to thrive. In fact, according to the American 
Society of Civil Engineers (ASCE), deficient roads in New Mexico cost 
each driver $767 per year and the State's schools face an over $400 
million capital expenditure gap. ASCE also estimates that the State 
will need $1.4 billion to meet drinking water infrastructure needs. 
Although today's Committee hearing is focused on surface transportation 
reauthorization legislation, I urge the Committee to consider an 
expansive view of infrastructure so we can help New Mexicans and all 
Americans.
    New Mexico is also ground zero for the potential for bold climate 
action and also the potential for economic disaster if we don't 
transition with an understanding of the likely harm to the communities 
that have depended on fossil fuel development for both jobs and tax 
revenue. Our ecosystem is very fragile, and a warmer planet could mean 
extensive droughts and wildfires that threaten our very existence in 
the beautiful place we New Mexicans call home. As a result, connecting 
communities and promoting economic diversification, while also making 
strides toward a clean energy future, is crucial.
                          Economic Opportunity
    This starts with connecting our rural and underserved communities 
to economic opportunity. In addition to supporting funding and policy 
to address our deteriorating roads and bridges, I urge the Committee to 
direct funding to transportation infrastructure that specifically 
connects economies transitioning away from oil and gas to existing 
railroads and transportation networks. For example, Farmington, New 
Mexico is connected by oil and gas pipelines to the rest of the 
economy, but lacks access to a commercial rail line. This could become 
a prototype for rail innovation while spurring the just transition.
    Nowhere are these kinds of transportation and infrastructure needs 
more apparent than in our tribal communities. Whether it's the lack of 
running water and plumbing for tribal households, or inadequate roads 
to take elders to healthcare facilities, COVID-19 has exposed the deep 
infrastructure inequities that tribal communities face. For example, 
Navajo children often cannot ride the school bus because bridges and 
roads are deteriorated. In fact, the Navajo Nation recently reported 
$7.9 billion is required to address its infrastructure needs alone. 
While COVID-19 displayed these unacceptable conditions, we know these 
problems are due to decades of underinvestment.
                    Investment in Tribal Communities
    I was Counsel to numerous Native American Tribes and their entities 
for 30 years and I have seen the devastating impacts of this 
underinvestment. Now, I am honored to serve as the Chair of the Natural 
Resources Subcommittee for Indigenous Peoples. Our federal government 
has a unique trust obligation to Tribes. As you evaluate Member-
designated project submissions, I urge the Committee to bear in mind 
this trust responsibility and consider granting Members additional 
funding for projects submitted by Tribal governments and their entities 
within their districts. Tribal reservations are vast and in need of 
road improvement. According to the Government Accountability Office, 
there are over 150,000 miles of roads on Tribal lands, over half of 
which are unpaved and often in poor condition. In just my district, I 
have 16 federally recognized tribes, and the Jicarilla Apache Nation, 
alone, maintains about 700 miles of BIA and Tribal roads. As a result, 
it's past time we ramp up funding and support for the Tribal 
Transportation Program under the Department of Transportation as well 
as the Road Maintenance Program under the Bureau of Indian Affairs, 
just to name two programs.
    And to be clear, tribal infrastructure needs extend well beyond 
roads and bridges. We must also invest in our drinking water systems, 
electricity sector, and broadband. We can make legitimate progress in 
all these areas, improving communities and enabling New Mexico's to 
take advantage of its enormous potential to be a leader in the clean 
energy economy.
                            A WPA for Today
    In New Mexico, arts and culture are an essential part of American 
infrastructure and can help unite the country as we allow every story 
to be celebrated as the American story. The creative economy helps turn 
a town into a community. That is why our state invests in the creative 
economy with a 1 percent for the arts set aside in our publicly funded 
projects and the creative economy accounts for 10 percent of the jobs 
in the state. Our federal government recognized this value decades ago 
when it created the Works Progress Administration (``WPA'') to employ, 
among others, muralists, photographers, and other creative workers 
whose beautiful creations during the depression inspire us today. In a 
time when our nation is so divided, we desperately need to be reminded 
of our cultures and shared experiences and what binds us together as 
Americans. I urge you to invest in the creative economy, like we did 
with the WPA, as we rebuild and reimagine our communities.
    Similar to the 1 percent for the arts funding, I encourage setting 
aside a percentage of the infrastructure projects for use in creative 
projects in the locale of the spending. We need to put the musicians, 
playwrights, muralists and poets back to work to help rebuild and heal 
our nation. As Amanda Gorman said at your inauguration, ``Being 
American is more than a pride we inherit, it's the past we step into 
and how we repair it.''
    Thank you again to the Chair and Ranking Member. I look forward to 
working together to achieve these critical investments.

    Mr. Malinowski. Thank you so very much.
    I now yield 5 minutes to Congressman Green of Texas.

 TESTIMONY OF HON. AL GREEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Green. Thank you very much, Mr. Chairman. I greatly 
appreciate the opportunity to present some projects from my 
congressional district.
    I would also like to thank Chairman DeFazio, as well as 
Ranking Member Graves, for this opportunity.
    Mr. Chairman, we have many projects that we can call to 
your attention. And because there are so many, I am going to 
just quickly go through a good number of them.
    We have a request from our Metropolitan Transit Authority, 
and this transit authority is requesting a project that would 
connect Missouri City, Texas, with the Texas Medical Center and 
downtown Houston through Metro's regional express network. This 
project would cost approximately $50 million. The funds 
requested are $5 million, and the timeline for completion would 
be 3 to 4 years.
    We have the Westchase District project. This project, the 
purpose of which would be to change the roads in the district, 
and improve transportation access and options for residents, 
and improve multimodal safety in the region. The proposed 
changes to the stormwater system, sewage system, and water 
lines would improve flood management in the future. It would 
take about 8 months to break ground, and about 18 months 
thereafter to complete the project. The estimated cost is 
$20.35 million, we are requesting $4 million.
    The Sharpstown Trail Project has many phases to it. I 
believe that parks, whenever possible, should be made available 
to persons who don't always have the opportunity to visit 
parks. This area is 66 percent low-income, and 60 percent 
Latinx. My hope is that, with this project, we can turn an 
underutilized green space into a convenient path to 
neighborhoods, schools, and businesses. The approximate cost is 
$2.8 million. The funds requested are $1 million.
    We have a similar project that is called phase 2, and it 
has a cost of $1.75 million, funds requested $1.4 million.
    A similar project is in the Brays Bayou Greenway Trail 
area, and this project would turn an underutilized green space 
into a convenient path to neighborhoods, schools, and 
businesses. This would benefit an area that is 71 percent 
Hispanic and 20.7 percent African American. The total estimated 
cost, $1.4 million. The funds requested, $1 million.
    Finally, in terms of the trails, we have a phase 2 of the 
Brays Bayou Greenway Trail, and this project would cost about 
$11 million, the funds requested, $5 million.
    All of the things that I am calling to your attention are 
highlighted in my written document that has been submitted.
    Then we have the Hill at Sims. This is requested by the 
Houston Parks Board. This is a request by the board that wants 
to turn the Hill at Sims, a 100-acre regional detention basin, 
into a public park. This project is important, because it would 
serve approximately 1,773 people within a 10-minute walk and, 
hopefully, it would be completed by the end of 2022.
    We have the Mustang Bayou Flood Control Center. This 
project has to do with flood control. It is estimated that in 
Fort Bend County, 43 percent of the properties are at risk of 
flooding. The project will dramatically improve the safety and 
economy of the region. The cost for this project is 
$23,640,000, and the request is for the entire amount to help 
us with the flooding in Houston.
    There is another section of this same project that would 
provide similar help, in terms of eliminating flooding and 
preventing it, to the extent that we can. And it would be a 
$16,092,000 request.
    So on now to the final project, which is the Legacy 
Community Health Transportation Support Program. This is an 
FQHC, and the FQHC would like to provide support by helping 
persons who are in need of medical care to have a means by 
which they can get to the FQHC. It is a ride project. The total 
estimated cost is $50,000, and the funds requested are $50,000.
    Mr. Chairman, I believe that a good many of these projects 
are absolutely beneficial. In fact, all of them would be 
beneficial to the people that I serve. And I am hopeful that, 
if there are exceptions to rules, that we might fall into some 
exceptions for some of these projects. I do understand that 
there are certain rules that we have to adhere to.
    But I thank you for the opportunity to present these 
projects and look forward to working with you not only on these 
projects, but on the many other projects that have been called 
to your attention today. I have been really impressed with the 
needs that we have, and want to do what I can to meet not only 
the needs of the people of the Ninth Congressional District, 
but the needs of the people across the length and breadth of 
our country.
    I thank you, and I will yield back any time that I have 
left.
    [Mr. Green's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Al Green, a Representative in Congress from 
                           the State of Texas
    Dear Chairman DeFazio, thank you for receiving the attached 
information and providing me with the opportunity to testify before the 
Committee on Transportation and Infrastructure for Members' Day 
Hearing. Attached you will find a list of projects that I desire to 
submit as of Monday, April 12, 2021. I request you to consider these 
projects as you work to reauthorize surface transportation programs.
    Should you have any additional questions, please do not hesitate to 
contact my Chief of Staff.
               MISSOURI CITY/BELT WAY 8 TRANSIT FACILITY
    <bullet>  REQUESTING ENTITY:
      <bullet>  Metropolitan Transit Authority of Harris County (METRO)
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  METRO requests funding for the first phase of a project 
to provide a new commuter bus service between the Texas Medical Center 
(TMC) and Missouri City.
      <bullet>  A new facility will be located near US 90A and BW8, 
which will include a bus platform for both regional express and local 
buses, as well as parking for commuters.
      <bullet>  The facility will eventually house a multi-story 
parking garage to support increased travel demand, capable of 
accommodating approximately 2,000 vehicles.
      <bullet>  The facility will also have an end of line connection 
for the proposed METRORapid West Houston BRT Corridor line and the 
Gessner bus line.
        <bullet>  The Gessner bus line is part of the BOOST Network, a 
program to improve speed, reliability, and access for 16 high-
ridership, frequent bus routes.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  This project will connect Missouri City with TMC and 
Downtown Houston through METRO's regional express network.
        <bullet>  The project will allow METRO to provide more service 
over its current levels.
        <bullet>  The project will also improve connections between 
Fort Bend County and TMC and Downtown Houston.
      <bullet>  This project will serve fast-growing portions of Harris 
County and Missouri City.
    <bullet>  COMMUNITY SUPPORT: This project was a component of the 
transit plan in our area that was the basis for a 2019 $3.5 billion 
bond referendum. That referendum passed with almost 70 percent of the 
vote. The communities served by the specific project had even wider 
margins in favor than other areas.
    <bullet>  TOTAL ESTIMATED COST: $50M.
    <bullet>  FUNDS REQUESTED: $5M.
    <bullet>  OTHER SOURCES OF FUNDING: Local funding sources will be 
used as matching funds if necessary.
    <bullet>  TIMELINE FOR COMPLETION: Completion of this specific 
project will be about 3-4 years. The full ``express service'' corridor 
will take a few more years to complete.
                           WESTCHASE DISTRICT
    <bullet>  REQUESTING ENTITY:
      <bullet>  Westchase District
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  The Westchase district is proposing the complete 
reconstruction of Meadowglen Lane from Woodland Park Drive to Rogerdale 
Road.
      <bullet>  The district wants to upgrade the storm water system 
(drainage), the sewer system, and existing water lines. The project 
will also provide dedicated bicycle, pedestrian, and transit 
facilities. These facilities either do not currently exist and/or are 
in substandard condition.
      <bullet>  The project will right-size the travel lanes to current 
standards, improving safety, while providing safe and accessible routes 
for bicyclists, pedestrians, and transit users. The project will 
provide drainage improvements consistent with post-Hurricane Harvey 
standards.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  The project is meant to benefit residents of the 
Westchase district:
        <bullet>  District residents are above the regional average in 
terms of population density, percent minority households, households 
below the poverty line, households without cars, and households with 
limited English proficiency.
        <bullet>  The proposed changes to the roads in the District 
will improve transportation access and options for residents and 
improve multimodal safety in the region.
        <bullet>  The proposed changes to the storm water system, sewer 
system, and water lines will improve flood management in the future.
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  Outreach efforts have been conducted to get community 
input on the project.
      <bullet>  There have been several community driven focus group 
meetings in which residents, employers, and developers have given their 
opinions
      <bullet>  This project is also part of the West Houston Mobility 
study, which was an H-GAC funded effort.
      <bullet>  This project also had a public input process throughout 
January-April 2015.
        <bullet>  This process included a visioning workshop, an 
alternatives workshop, and an open house.
      <bullet>  The project is identified in the Houston-Galveston Area 
Council 2045 Regional Transportation Plan (RTP)--this is the long-range 
federal transportation document for the region.
      <bullet>  The project is supported by local and statewide elected 
officials and letters of support are on file.
    <bullet>  TOTAL ESTIMATED COST: $2.35M
    <bullet>  FUNDS REQUESTED: $4M
    <bullet>  OTHER SOURCES OF FUNDING: The District has funding 
available in its current capital improvement program to cover all costs 
outside of the federal request being made.
    <bullet>  TIMELINE FOR COMPLETION: Construction can break ground 8 
months from funding approval. Construction completion will take 
approximately 18 months from that date.
                       SHARPSTOWN TRAIL (PHASE 1)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Houston Parks Board
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  The Houston Parks Board wants to build the Sharpstown 
Trail, a roughly 3-mile trail that could connect the Sharpstown 
neighborhood to the Westchase Trails in the north and Brays Bayou 
Greenway in the south.
      <bullet>  This project proposal is for Phase 1 of the trail's 
construction, from Sands Point Drive to Beechnut Street--1.82 miles.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  The project would turn an underutilized green space 
into a convenient path to neighborhoods, schools, and businesses.
      <bullet>  The project will serve approximately 14,000 people 
within a 10-minute walk.
        <bullet>  66% are low income
        <bullet>  60% Hispanic
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The Sharpstown Trail project is community driven: 
members of the Sharpstown Civic Association have been advocating for 
the trail's construction for several years.
      <bullet>  Multiple community meetings have been held throughout 
the trail's design process.
    <bullet>  TOTAL ESTIMATED COST: $2.8M
    <bullet>  FUNDS REQUESTED: $1M
    <bullet>  OTHER SOURCES OF FUNDING: $1.8M match
    <bullet>  TIMELINE FOR COMPLETION: Construction estimated to be 
completed by the end of 2022.
                       SHARPSTOWN TRAIL (PHASE 2)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Houston Parks Board
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  The Houston Parks Board wants to build the Sharpstown 
Trail, a roughly 3-mile trail that could connect the Sharpstown 
neighborhood to the Westchase Trails in the north and Brays Bayou 
Greenway in the south.
      <bullet>  This project proposal is for Phase 2 of the trail's 
construction, which would build .83 miles of the trail.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  Together with phase 1 of the trail, this project would 
turn an underutilized green space into a convenient path to 
neighborhoods, schools, and businesses.
      <bullet>  The project will serve approximately 14,000 people 
within a 10-minute walk.
        <bullet>  66% are low income
        <bullet>  60% Hispanic
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The Sharpstown Trail project is community driven: 
members of the Sharpstown Civic Association have been advocating for 
the trail's construction for several years.
      <bullet>  Multiple community meetings have been held throughout 
the trail's design process.
    <bullet>  TOTAL ESTIMATED COST: $1.75M
    <bullet>  FUNDS REQUESTED: $1.4M
    <bullet>  OTHER SOURCES OF FUNDING: $350,000 match
    <bullet>  TIMELINE FOR COMPLETION: Construction estimated to take 
around 5 years.
                  BRAYS BAYOU GREENWAY TRAIL (PHASE 1)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Houston Parks Board
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  The Houston Parks Board wants to expand the Brays Bayou 
Greenway Trail.
      <bullet>  This project proposal is for Phase 1 of the trail's 
construction, which will fill in a .5-mile gap in the Brays Bayou 
Greenway Trail and connect the Braeburn Glen neighborhood's north and 
south sides.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  This project would turn an underutilized green space 
into a convenient path to neighborhoods, schools, and businesses.
      <bullet>  The project will serve approximately 6,300 people 
within a 10-minute walk.
        <bullet>  Per capita income of the residents is $14,124
        <bullet>  71% Hispanic
        <bullet>  20.7% Black alone
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The Trail's Phase 1 design has been vetted by the 
community, including the Braeburn Glen Civic Association (the community 
which this trail runs through) and the Council Member's CIP meetings.
      <bullet>  Multiple community meetings have been held throughout 
the trail's design process.
    <bullet>  TOTAL ESTIMATED COST: $1.4M
    <bullet>  FUNDS REQUESTED: $1M
    <bullet>  OTHER SOURCES OF FUNDING: $400,000 match
    <bullet>  TIMELINE FOR COMPLETION: Construction estimated to be 
completed by the end of 2022.
                  BRAYS BAYOU GREENWAY TRAIL (PHASE 2)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Houston Parks Board
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  The Houston Parks Board wants to expand the Brays Bayou 
Greenway Trail.
      <bullet>  This project proposal is for Phase 2 of the trail, 
which will create a 7-mile trail along Brays Bayou from I69 to Eldridge 
Road.
      <bullet>  This trail will connect residential neighborhoods 
including Alief and the West Houston/West Oaks communities with the 
rest of the Brays Bayou Greenway Trail.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  This project would turn an underutilized green space 
into a convenient path to neighborhoods, schools, and businesses.
      <bullet>  The project will serve approximately 50,488 people 
within a 10-minute walk.
        <bullet>  Per capita income of the residents is $18,083
        <bullet>  56.2% Hispanic
        <bullet>  22.7% Black alone
        <bullet>  13.9% Asian alone
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The Trail's Phase 2 design has been vetted by community 
and civic groups, including the Alief Super Neighborhood, the West Oaks 
Super Neighborhood, Brays Village HOA, Royal Oaks HOA, Shadowlakes HOA, 
and both Council Members' CIP meetings.
      <bullet>  Brays Village HOA provided the land needed for the 
trail to the Houston Parks Board for $1
      <bullet>  Shadowlakes HOA and MUD 359 are providing funds to add 
additional connections through their community that will tie into the 
Brays Bayou Greenway Trail Phase 2.
      <bullet>  Multiple community meetings have been held throughout 
the trail's design process.
    <bullet>  TOTAL ESTIMATED COST: $11M
    <bullet>  FUNDS REQUESTED: $5M
    <bullet>  OTHER SOURCES OF FUNDING: $5.9M match
    <bullet>  TIMELINE FOR COMPLETION: Construction estimated to be 
completed by the end of 2023.
                              HILL AT SIMS
    <bullet>  REQUESTING ENTITY:
      <bullet>  Houston Parks Board
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  The Houston Parks Board wants to turn the Hill at Sims, 
a 100-acre regional detention basin, into a public park.
      <bullet>  Harris County Flood Control District owns the basin and 
the adjacent 150 acre property along Scott Street.
        <bullet>  Together, these properties could form a new regional 
park in the Sunnyside/South Acres/Crestmont Park area of Houston.
      <bullet>  The site is within walking distance of multiple 
schools, parks, churches, and neighborhoods.
      <bullet>  The project will include a side path along Scott 
Street, and a trail around the detention basins, additional nature 
trails, water access, and trail amenities.
      <bullet>  This project would connect the neighborhood to the Sims 
Bayou Greenway to the north.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  The project will serve approximately 1,773 people 
within a 10-minute walk.
        <bullet>  36% are low income, 22% are medium income
        <bullet>  78% of the residents are African American
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  Multiple community meetings about the project have been 
held throughout the planning process and will continue during the 
design process.
    <bullet>  TOTAL ESTIMATED COST: $1.4M
    <bullet>  FUNDS REQUESTED: $1M
    <bullet>  OTHER SOURCES OF FUNDING: $400,000 match
    <bullet>  TIMELINE FOR COMPLETION: End of 2022.
           MUSTANG BAYOU FLOOD CONTROL (UPPER BAYOU SECTION)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Fort Bend County, TX
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  Fort Bend County hopes to build a flood control project 
for Mustang Bayou.
      <bullet>  Currently, the Bayou is poorly drained; this project 
will provide drainage and flood control to a low-income area in the 
County.
      <bullet>  The Mustang Bayou Flood Control Project is divided into 
three sections--this proposal is for the Upper Bayou section.
        <bullet>  The project's three sections each address a section 
of the Mustang Bayou with a long history of flash flooding.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  An estimated 43% of properties in Fort Bend County are 
at risk of flooding.
        <bullet>  The area has long been a target of hurricanes, 
tropical storms, and heavy rains.
      <bullet>  The project will dramatically improve the safety and 
economy of the region, since flooding along the Bayou has been very 
damaging to local neighborhoods and businesses.
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The community around the Mustang Bayou brought the 
issue of poor drainage and flood control to the Fort Bend County board, 
urging the board to prioritize the issue to prevent loss of life and 
improve residents' quality of life.
    <bullet>  TOTAL ESTIMATED COST: $23,640,000.
    <bullet>  FUNDS REQUESTED: $23,640,000.
    <bullet>  OTHER SOURCES OF FUNDING: Unspecified.
    <bullet>  TIMELINE FOR COMPLETION: Unspecified.
           MUSTANG BAYOU FLOOD CONTROL (Middle Bayou Section)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Fort Bend County, TX
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  Fort Bend County hopes to build a flood control project 
for Mustang Bayou.
      <bullet>  Currently, the Bayou is poorly drained; this project 
will provide drainage and flood control to a low-income area in the 
County.
      <bullet>  The Mustang Bayou Flood Control Project is divided into 
three sections--this proposal is for the Middle Bayou section.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  An estimated 43% of properties in Fort Bend County are 
at risk of flooding.
        <bullet>  The area has long been a target of hurricanes, 
tropical storms, and heavy rains.
      <bullet>  The project will dramatically improve the safety and 
economy of the region, since flooding along the Bayou has been very 
damaging to local neighborhoods and businesses.
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The community around the Mustang Bayou brought the 
issue of poor drainage and flood control to the Fort Bend County board, 
urging the board to prioritize the issue to prevent loss of life and 
improve residents' quality of life.
    <bullet>  TOTAL ESTIMATED COST: $16,092,000.
    <bullet>  FUNDS REQUESTED: $16,092,000.
    <bullet>  OTHER SOURCES OF FUNDING: Unspecified.
    <bullet>  TIMELINE FOR COMPLETION: Unspecified.
           MUSTANG BAYOU FLOOD CONTROL (Lower Bayou Section)
    <bullet>  REQUESTING ENTITY:
      <bullet>  Fort Bend County, TX
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  Fort Bend County hopes to build a flood control project 
for Mustang Bayou.
      <bullet>  Currently, the Bayou is poorly drained; this project 
will provide drainage and flood control to a low-income area in the 
County.
      <bullet>  The Mustang Bayou Flood Control Project is divided into 
three sections--this proposal is for the Lower Bayou section.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  An estimated 43% of properties in Fort Bend County are 
at risk of flooding.
        <bullet>  The area has long been a target of hurricanes, 
tropical storms, and heavy rains.
      <bullet>  The project will dramatically improve the safety and 
economy of the region, since flooding along the Bayou has been very 
damaging to local neighborhoods and businesses.
    <bullet>  COMMUNITY SUPPORT:
      <bullet>  The community around the Mustang Bayou brought the 
issue of poor drainage and flood control to the Fort Bend County board, 
urging the board to prioritize the issue to prevent loss of life and 
improve residents' quality of life.
    <bullet>  TOTAL ESTIMATED COST: $12,492,000.
    <bullet>  FUNDS REQUESTED: $12,492,000.
    <bullet>  OTHER SOURCES OF FUNDING: Unspecified.
    <bullet>  TIMELINE FOR COMPLETION: Unspecified.
         LEGACY COMMUNITY HEALTH TRANSPORTATION SUPPORT PROGRAM
    <bullet>  REQUESTING ENTITY:
      <bullet>  Legacy Community Health of Houston
    <bullet>  PROJECT DESCRIPTION:
      <bullet>  Legacy Community Health hopes to expand its 
transportation support program for patients (the program currently 
serves four clinics).
      <bullet>  This program gives rides to medical appointments and 
healthy food access sites, such as pantries, grocery stores, and WIC 
offices.
      <bullet>  With the financial support of $50,000, LCH can scale 
its transportation services to support additional clinic sites to serve 
patients.
    <bullet>  WHY IS THIS PROJECT IMPORTANT:
      <bullet>  By providing this support, LCH could help address deep-
rooted health disparities in the 9th district and evaluate the impact 
of access to healthy food and medical care on long-term health 
outcomes.
        <bullet>  These include healthy birth weight, gestational 
diabetes, maternal mortality, and chronic disease prevention.
    <bullet>  COMMUNITY SUPPORT: Not specified.
    <bullet>  TOTAL ESTIMATED COST: $50,000.
    <bullet>  FUNDS REQUESTED: $50,000.
    <bullet>  OTHER SOURCES OF FUNDING: Unspecified.
    <bullet>  TIMELINE FOR COMPLETION: Unspecified.

    Mr. Malinowski. Thank you so much. Just to preview, our 
next five Members will be Mr. Bowman, Ms. Underwood, Mr. Levin, 
Ms. Jayapal, and Ms. Craig, in that order.
    So I will begin by yielding 5 minutes to Mr. Bowman of New 
York.

 TESTIMONY OF HON. JAMAAL BOWMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Bowman. Thank you to Chair DeFazio and Ranking Member 
Graves for the opportunity to testify today.
    When I launched my campaign for Congress, the first rally I 
attended in my district was at Co-Op City in the Bronx. This is 
the largest naturally occurring retirement community in the 
world, and the largest affordable housing development in the 
entire country. And the rally was about New York's Metropolitan 
Transportation Authority reducing bus service to this 
incredible community.
    As a new congressman, I fought successfully for a new COVID 
vaccination center at Co-Op City, because it was taking seniors 
an entire 2 hours via two trains and a bus to get to the 
closest mass vaccination site. All of this speaks to the 
discriminatory and inequitable distribution of transit needs in 
my district and across the country. Even in a city with the 
largest public transit system in the country.
    The MTA's infrastructure needs are well known. With the 
Federal Government's help, they are seeking to invest over $50 
billion in the region's transit system over the next few years.
    What if places like Co-Op City could be the flagships for a 
new, transformative approach to infrastructure?
    What if transit-oriented development meant focusing on the 
well-being of our communities by expanding access to childcare, 
education, nature, and the arts?
    We should be linking together innovative models of public 
and affordable housing like Co-Op City and other public 
services with extensive new transit networks, all of it fully 
accessible, and all of it zero carbon.
    My district, New York's 16th, encompasses parts of 
Westchester County and the Bronx. Because of the way people's 
lives are intersected and invaded by highways, trucks, and 
polluting facilities, the Bronx has some of the highest rates 
of asthma in the country. Within New York City, Bronx children 
are the most likely to be hospitalized by asthma. These burdens 
are a daily reality for many children: nationwide, 1 out of 11 
public schools is located within 500 feet of a highway or truck 
route.
    Fossil fuel pollution leads to roughly 350,000 premature 
deaths every year in the U.S., and Black people are exposed to 
particulate matter at 1.5 times the rate of the general 
population. Comorbidities linked to this pollution have made 
COVID even deadlier. And all of this is concentrated in red-
line communities that face a variety of crises like undrinkable 
water or failing sewage systems. In the city of Mount Vernon in 
my district, aging pipes are regularly sending wastewater into 
people's homes.
    Transit is a part of this larger infrastructure crisis. 
Getting from one side of my district to the other is a 
nightmare. Many people commute from Westchester into New York 
City for work, and this is extremely challenging for those who 
already struggle with the cost of housing and childcare. Some 
try to----
    Voice. Yes, they named them all. They didn't even name 
the----
    Mr. Bowman. Please mute. Thank you.
    Some try to lower the costs by avoiding the more expensive 
commuter rail system, which greatly increases their commute 
time. This leads to a horrible quality of life for many 
thousands of people.
    Instead of bringing us together, our current transportation 
system keeps us apart. Prior Federal infrastructure investments 
like the Federal Highway Administration's work during urban 
renewal, destroyed Black and Brown communities in my district. 
Highways built during this time, like the Cross Bronx 
Expressway, remain physical barriers that separate my 
constituents from the resources they need to thrive, and 
pollute the air that they breathe.
    So, as we authorize transportation programs and pass the 
next recovery package, we can't be satisfied by just fixing 
highways, or increasing the number of electric vehicles on the 
road. As with all of our infrastructure, whether we are talking 
about physical or social infrastructure, we need to rethink and 
rebuild from the ground up. We need to heal the wounds of 
history. We need to reconstruct these systems based on 
principles of care and love for all people, and for the planet 
we share.
    Every American should be able to efficiently navigate their 
city, suburb, or town by train or electric bus. And they 
shouldn't have to pay much, if anything, to do it.
    Everyone should be able to access transit that is fully 
compliant with the Americans with Disabilities Act and beyond.
    Let's build safe, walkable, bike-friendly and accessible 
streets and communities knit together by a world-class, 
affordable, high-speed rail system. Let's turn our unnecessary 
highways into parks, and protect communities from displacement 
and gentrification. And at every turn, we have to combine zero-
carbon structures with the public services, good-paying 
employment opportunities, and clean environments that all 
people need to be free.
    Thank you very much, and I yield back.
    [Mr. Bowman's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Jamaal Bowman, a Representative in Congress 
                       from the State of New York
    Thank you to Chair DeFazio and Ranking Member Graves for the 
opportunity to testify today.
    When I launched my campaign for Congress, the first rally I 
attended in my district was at Co-Op City in the Bronx. This is the 
largest naturally occurring retirement committee, and the largest 
affordable housing development, in the entire country. And the rally 
was about New York's Metropolitan Transportation Authority reducing bus 
service to this incredible community.
    As a new Congressman, I fought successfully for a new COVID 
vaccination center at Co-Op City--because it was taking seniors an 
entire two hours, via two trains and a bus, to get to the closest mass 
vaccination site. All of this speaks to depth, and the racist 
distribution, of transit needs in the United States. Even in a city 
with the largest public transit system in the country.
    The MTA's infrastructure needs are well-known. With the federal 
government's help, they are seeking to invest over $50 billion in the 
region's transit system over the next few years. What if places like 
Co-Op City could be the flagships for a new, transformative approach to 
infrastructure? What if transit-oriented development meant focusing on 
the well-being of our communities, by expanding access to childcare, 
education, nature, and the arts? We should be linking together 
innovative models of public and affordable housing like Co-Op City, and 
other public services, with extensive new transit networks. All of it 
fully accessible, and all of it zero-carbon.
    My district, New York's 16th, encompasses parts of both Westchester 
County and the Bronx. Because of the way people's lives are intersected 
and invaded by highways, trucks, and polluting facilities, The Bronx 
has some of the highest rates of asthma in the country. Within New York 
City, Bronx children are the most likely to be hospitalized by asthma. 
These burdens are a daily reality for many children: nationwide, 1 out 
of 11 public schools is located within 500 feet of a highway or truck 
route.
    Fossil fuel pollution leads to roughly 350,000 premature deaths 
every year in the US, and Black people are exposed to particulate 
matter at 1.5 times the rate of the general population. Comorbidities 
linked to this pollution have made COVID even deadlier. And all of this 
is concentrated in redlined communities that face a variety of crises, 
like undrinkable water or failing sewage systems. In the city of Mount 
Vernon in my district, aging pipes are regularly sending wastewater 
into people's homes.
    Transit is a part of this larger infrastructure crisis. Getting 
from one side of my district to the other is a nightmare. Many people 
commute from Westchester into New York City for work, and this is 
extremely challenging for those who already struggle with the cost of 
housing and childcare. Some try to lower the cost by avoiding the more 
expensive commuter rail system, which greatly increases their commute 
time. This leads to a horrible quality of life for many thousands of 
people.
    Instead of bringing us together, our current transportation system 
keeps us apart. Prior federal infrastructure investments, like the 
Federal Highway Administration's work during Urban Renewal, destroyed 
Black and Brown communities in my district. Highways built during this 
time, like the Cross Bronx Expressway, remain physical barriers that 
separate my constituents from the resources they need to thrive, and 
pollute the air that they breathe.
    So as we reauthorize transportation programs and pass the next 
recovery package, we can't be satisfied by just fixing highways, or 
increasing the number of electric vehicles on the road. As with all of 
our infrastructure--whether we're talking about physical or social 
infrastructure--we need to rethink and rebuild from the ground up. We 
need to heal the wounds of history. We need to reconstruct these 
systems based on principles of care and love for all people, and for 
the planet we share.
    Every American should be able to efficiently navigate their city, 
suburb, or town by train or electric bus, and they shouldn't have to 
pay much--if anything--to do it. Everyone should be able access transit 
that is fully compliant with the Americans with Disabilities Act, and 
beyond.
    Let's build safe, walkable, bike-friendly, and accessible streets 
and communities--knit together by a world-class, affordable high-speed 
rail system. Let's turn our unnecessary highways into parks, and 
protect communities from displacement and gentrification. And at every 
turn, we have to combine new, zero-carbon structures with the public 
services, good-paying employment opportunities, and clean environments 
that all people need to be free.
    Thank you again, and I yield back.

    Mr. Malinowski. Thank you so much, and I now yield 5 
minutes to Congresswoman Underwood of Illinois.
    [Pause.]
    Mr. Malinowski. Congresswoman Underwood?
    [Pause.]
    Mr. Malinowski. Congresswoman Underwood, you're up. Can you 
hear us?
    [Pause.]
    Mr. Malinowski. We'll come back to Congresswoman Underwood. 
Mr. Levin----
    Ms. Underwood [interrupting]. I believe I was next, I don't 
know if I am recognized to speak.
    Mr. Malinowski. Yes, Lauren, I just recognized you. Can you 
hear me?
    Ms. Underwood. OK, now I can hear you. Thank you so much, 
Mr. Chairman.
    Mr. Malinowski. Great.
    Ms. Underwood. OK.

    TESTIMONY OF HON. LAUREN UNDERWOOD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Underwood. Mr. Chairman, I am so grateful that you 
provided this opportunity for noncommittee members to share our 
priorities with the Transportation and Infrastructure 
Committee.
    In the wake of a devastating pandemic, we have a once-in-a-
lifetime opportunity this year to fix our Nation's neglected 
infrastructure and set our country up for economic success for 
decades to come. I am thrilled that President Biden and 
congressional Democrats are moving quickly to build on the 
downpayment in the American Rescue Plan with much-needed, long-
term investments in our communities--policies with widespread 
and bipartisan support.
    My district runs from the Chicago suburbs and exurbs to the 
Wisconsin border and the rural communities that border 
Wisconsin. The infrastructure needs are broad, and over the 
last 2 years my team and I have consistently surveyed our local 
leaders so that we can best advocate for their needs. Let me 
tell you what we have heard.
    Most people in my district aren't thinking in the 
trillions. But for some of them, they might as well be, because 
of how hard it is to access existing Federal funding streams.
    So that is my first point. This package truly needs to be 
``big picture'' when it comes to distributing the resources 
that it includes. It needs to meet the needs of small 
communities that can't afford a lobbyist or a full-time grant 
writer, not just the big guys.
    Next, this package needs to be ``big picture'' in how it 
defines infrastructure. Expanding Metra mass transit services 
to the Chicago suburbs in Kendall County is one of the top 
priorities for economic opportunity and quality of life in my 
district. So is securing a new, long-term water source for 
Joliet and surrounding communities facing the risks of unstable 
water supply due to depleted aquifers.
    In addition to smaller investments through community 
project funding, these kinds of larger scale, regional projects 
need to be part of the conversation about an infrastructure 
package.
    But as we revitalize transportation, we need to be bold in 
how we improve the tools needed to support an economy that 
works for everyone, including so many communities in my 
district that need greater investment.
    In McHenry County, infrastructure means rural broadband 
access for small businesses and students, including finalizing 
new maps that better address exactly which areas are still 
pretty much dial-up. In Spring Grove, infrastructure means 
upgrading water treatment facilities to help people in our 
community live healthier lives. In West Chicago, infrastructure 
means removing and replacing old water service lines 
contaminated with lead.
    We need to build new projects and fix and maintain old 
ones. Continuing to put off maintenance of our existing 
infrastructure isn't just dangerous, it is way too expensive 
for our constituents and our Government. The average Illinois 
driver pays over $600 per year in costs incurred by driving on 
roads in need of repair.
    And the 2017 Republican tax law raised costs for my 
constituents even further by eliminating the SALT deduction, an 
issue that absolutely must be addressed by this Congress at the 
soonest opportunity.
    These upgrades need to be made, and as you all know, they 
are never again going to be cheaper than they are today. Will 
all of this be a serious investment? Well, of course, because 
we should be paying for quality American workers and quality 
American jobs, not tax cuts for the biggest corporations.
    And lastly, as we talk about cost, I want to note that a 
lack of action is the most expensive choice of all. Failing to 
meet this mandate to go big and get our country back on track 
as we battle this pandemic, failing to deliver on the reasons 
that voters sent us here with a Democratic Senate, House, and 
White House for the first time in a decade, that will come with 
costs that fall most heavily on the American people that we 
serve.
    So thank you again for having me. I am looking forward to 
working together with all of you to bring America's 
infrastructure into the future. I yield back.
    [Ms. Underwood's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Lauren Underwood, a Representative in 
                  Congress from the State of Illinois
    Thank you, Mr. Chairman, for providing this opportunity for non-
committee Members to share their priorities with the Transportation and 
Infrastructure Committee.
    In the wake of a devastating pandemic, we have a once-in-a-lifetime 
opportunity this year to fix our nation's neglected infrastructure and 
set our country up for economic success for decades to come. I am 
thrilled that President Biden and congressional Democrats are moving 
quickly to build on the down payment in the American Rescue Plan with 
much-needed long-term investments in our communities--policies with 
widespread and bipartisan public support.
    My district runs from the Chicago suburbs and exurbs all the way up 
to rural communities on the Wisconsin border. The infrastructure needs 
are broad, and over the last two years my team and I have consistently 
surveyed our local leaders so that we can best advocate for their 
needs.
    Let me tell you what we've heard: Most people in my district aren't 
thinking in the trillions. But for some of them, they might as well 
be--because of how hard it is to access existing federal funding 
streams.
    So that's my first point: this package truly needs to be big-
picture when it comes to distributing the resources it includes. It 
needs to meet the needs of small communities that can't afford a 
lobbyist or a full-time grantwriter, not just the big guys.
    Next, this package needs to be big-picture in how it defines 
``infrastructure.''
    Expanding Metra mass transit service to the Chicago suburbs in 
Kendall County is one of the top priorities for economic opportunity 
and quality of life in my district. So is securing a new long-term 
water source for Joliet and surrounding communities facing the risks of 
unstable water supply due to depleted aquifers.
    In addition to smaller investments through Community Project 
Funding, these kinds of larger-scale regional projects need to be part 
of the conversation about an infrastructure package.
    But as we revitalize transportation, we need to be bold in how we 
improve the tools needed to support an economy that works for 
everyone--including so many communities in my district that need 
greater investment.
    In McHenry County, ``infrastructure'' means rural broadband access 
for small businesses and students--including finalizing new maps that 
better address exactly which areas are still pretty much on dial-up.
    In Spring Grove, ``infrastructure'' means upgrading water treatment 
facilities to help people in our community lead healthier lives.
    In West Chicago, ``infrastructure'' means removing and replacing 
old water service lines contaminated with lead.
    We need to build new projects and fix and maintain old ones. 
Continuing to put off maintenance of our existing infrastructure isn't 
just dangerous, it's way too expensive for our constituents and our 
government. The average Illinois driver pays over $600 per year in 
costs incurred by driving on roads in need of repair.
    And the 2017 Republican tax law raised costs for my constituents 
even further by eliminating the SALT deduction--an issue that 
absolutely must be addressed by this Congress at the soonest 
opportunity.
    These upgrades need to be made, and as you all know, they're never 
again going to be cheaper than they are today. Will all of this be a 
serious investment? Of course! Because we should be paying for quality 
American workers and quality American jobs, not tax cuts for the 
biggest corporations.
    And lastly, as we talk about costs, I want to note that a lack of 
action is the most expensive choice of all. Failing to meet this 
mandate to go big and get our country back on track as we battle this 
pandemic--failing to deliver on the reasons that voters sent us here 
with a Democratic Senate, House, and White House for the first time in 
a decade--that will come with costs that fall most heavily on the 
American people we serve.
    Thank you all again for having me--I'm looking together to working 
with all of you to bring America's infrastructure into the future.

    Mr. Malinowski. Thank you, Ms. Underwood, and I now have 
the pleasure of yielding 5 minutes to Mr. Levin from 
California.

TESTIMONY OF HON. MIKE LEVIN, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Levin of California. Well, thank you, Mr. Chairman. And 
thank you, Chair DeFazio and Ranking Member Graves, for holding 
today's Members' Day hearing.
    This Congress we have a unique opportunity to pass the long 
awaited infrastructure package that our constituents have been 
repeatedly promised over the years. And as you assemble the 
portions of the infrastructure package that fall under the 
Transportation and Infrastructure Committee's jurisdiction, I 
urge you to incorporate provisions that address the climate 
crisis, both by making our transportation infrastructure more 
resilient, and by reducing greenhouse gas emissions.
    In particular, I urge you to prioritize regionally and 
nationally significant mega-projects that build resiliency, 
such as a key railway relocation project in my district.
    President Biden's American Rescue Plan aims to unify and 
mobilize the country to fight the climate crisis, which it 
calls one of the great challenges of our time. Strengthening 
the resilience of our infrastructure is critical as our country 
experiences the impacts of this climate crisis. In my district 
in southern California, climate change means more intense 
wildfires, deeper droughts, and rising sea levels. I know that 
many of my colleagues on both sides of the aisle have also 
experienced these impacts, which is why climate resilience has 
been a significant area of bipartisan cooperation.
    I commend your committee on the bipartisan progress you 
have made in this space previously, and I hope it can expand 
this Congress.
    Like in many parts of the country, the rising sea levels in 
my district have accelerated coastal erosion. This has caused a 
range of concerning impacts for coastal safety and property, 
including threats to the integrity of the Los Angeles-San 
Diego-San Luis Obispo Rail Corridor, also known as the LOSSAN 
Rail Corridor, which is the second busiest intercity passenger 
rail corridor in the Nation that also carries a minimum of $1 
billion worth of goods annually.
    A portion of this rail corridor in San Diego County runs 
through the city of Del Mar on bluffs located adjacent to the 
Pacific Ocean. The Del Mar Bluffs, which support the railroad 
infrastructure and track bed, have experienced and continue to 
be vulnerable to major erosion. Most recently, there were major 
bluff collapses in March of 2021 and December of 2020, which 
necessitated continued emergency work to shore up the bluffs 
and maintain the integrity of the LOSSAN Rail Corridor. And I 
can share the photos with the committee, and you would be 
astonished that it wasn't a more serious loss of life or loss 
of property.
    A significant failure of the bluffs impacting the LOSSAN 
Rail Corridor for an extended period of time will severely harm 
the local and regional economy. And we are talking of two of 
the most important population centers in the United States. 
This impacts jobs, schools, and all economic activity 
throughout southern California, and really through the Western 
United States.
    The corridor is used by commuter and intercity trains, and 
also supports significant freight operations. As such, it is 
part of the U.S. Strategic Rail Corridor Network, also known as 
STRACNET, that provides critical service to 147,000 Active Duty 
servicemembers and 5 major military installations in the San 
Diego area.
    Our local metropolitan planning organization, the San Diego 
Association of Governments, is executing a project to protect 
the LOSSAN Rail Corridor by relocating it inland--for those 
that know, by the 5 Freeway, adjacent to the 5 Freeway. 
Significant planning is already complete, and SANDAG has also 
been conducting exploratory geotechnical work. We ultimately 
expect the relocation project will cost approximately $3 
billion, while creating tens of thousands of jobs.
    So I strongly urge you to consider funding for resilience 
projects like the LOSSAN Corridor relocation in the 
infrastructure package. And in particular, I hope you 
prioritize regionally and nationally significant mega-projects 
like this that improve freight and commuter mobility across all 
modes, stimulate the economy, provide congestion relief, 
improve safety, build resiliency, and so much more, while 
considering existing federally recognized programs such as 
STRACNET.
    Additionally, funding should be set aside to support the 
LOSSAN Rail Corridor specifically, as is done for the Northeast 
Corridor, the intercity rail corridor that ranks just ahead of 
LOSSAN in ridership. This project is a triple win. It creates 
jobs, it bolsters climate resilience, and it protects our 
national security, and it is critical for southern California.
    So thank you for the opportunity to testify. I look forward 
to working with you on these critical resilience projects in 
the 117th Congress. Thanks, and I yield back.
    [Mr. Levin of California's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Mike Levin, a Representative in Congress 
                      from the State of California
    Thank you, Chair DeFazio and Ranking Member Graves, for holding 
today's Member Day hearing. This Congress, we have a unique opportunity 
to pass the long-awaited infrastructure package that our constituents 
have been repeatedly promised. As you assemble the portions of the 
infrastructure package that fall under the Transportation and 
Infrastructure Committee's jurisdiction, I urge you to incorporate 
provisions that address the climate crisis, both by making our 
transportation infrastructure more resilient and by reducing greenhouse 
gas emissions. In particular, I urge you to prioritize regionally and 
nationally significant mega-projects that build resiliency, such as a 
key railway relocation project in my district.
    President Biden's American Rescue Plan aims to unify and mobilize 
the country to fight the climate crisis, which it calls one of the 
great challenges of our time. Strengthening the resilience of our 
infrastructure is critical as our country experiences the impacts of 
the climate crisis. In my district, climate change means more intense 
wildfires, deeper droughts, and rising sea levels. I know that many of 
my colleagues on both sides of the aisle have also experienced these 
impacts, which is why climate resilience has been a significant area of 
bipartisan cooperation. I commend your committee on the bipartisan 
progress you have made in this space previously, and I hope it can 
expand this Congress.
    Like in many parts of the country, the rising sea levels in my 
district have accelerated coastal erosion. This has caused a range of 
concerning impacts for coastal safety and property, including threats 
to the integrity of the Los Angeles-San Diego-San Luis Obispo (LOSSAN) 
Rail Corridor, which is the second busiest intercity passenger rail 
corridor in the nation and also carries $1 billion worth of goods 
annually. A portion of the LOSSAN Rail Corridor in San Diego County 
runs through the City of Del Mar on bluffs located adjacent to the 
Pacific Ocean. The Del Mar Bluffs, which support the railroad 
infrastructure and track-bed, have experienced and continue to be 
vulnerable to major erosion. Most recently, there were major bluff 
collapses in March 2021 and December 2020, which necessitated continued 
emergency work to shore up the bluffs and maintain the integrity of the 
LOSSAN Rail Corridor.
    A significant failure of the bluffs impacting the LOSSAN Rail 
Corridor for an extended period of time will severely harm the local 
and regional economy and the ability for individuals to access jobs, 
schools, and other economic activity centers in Southern California. 
This corridor is used by commuter and intercity trains, and also 
supports significant freight rail operations. As such, it is part of 
the U.S. Strategic Rail Corridor Network (STRACNET) and provides 
critical service to the 147,000 active duty servicemembers and five 
major military installations in the San Diego Area.
    Our local metropolitan planning organization, the San Diego 
Association of Governments (SANDAG), is executing a project to protect 
the LOSSAN Rail Corridor by relocating it inland. Significant planning 
is already complete and SANDAG has also been conducting exploratory 
geotechnical work. We ultimately expect the relocation project will 
cost approximately $3 billion, while creating tens of thousands of 
jobs.
    I strongly urge you to include funding for resilience projects like 
the LOSSAN Corridor relocation in the infrastructure package. In 
particular, you should prioritize regionally and nationally significant 
mega-projects that improve freight and commuter mobility across all 
modes, stimulate the economy, provide congestion relief, improve 
safety, and build resiliency, while considering existing federally-
recognized programs such as STRACNET. Additionally, funding should be 
set aside to support the LOSSAN Rail Corridor specifically, as is done 
for the Northeast Corridor, the intercity passenger rail corridor that 
ranks just ahead of LOSSAN in ridership.
    The LOSSAN relocation project is a triple win: it creates jobs, 
bolsters climate resilience, and protects our national security. It is 
absolutely critical for Southern California.
    Thank you for the opportunity to testify. I look forward to working 
with you on these critical resilience issues during the 117th Congress.

    Mr. Malinowski. Thank you so much.
    And next I am happy to yield 5 minutes to Congresswoman 
Jayapal of Washington.

TESTIMONY OF HON. PRAMILA JAYAPAL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Ms. Jayapal. Thank you very much, Mr. Chairman, for this 
opportunity to share the concerns of Washington's Seventh 
Congressional District.
    As we consider how to best repair a country ravaged by a 
pandemic, I would like to raise four key priorities from my 
district: support for bridges, small and medium-sized cities, 
light rail, and earthquake resilience.
    My first priority is generous funding for bridges, 
including for the BUILD Grant program. My district is 
surrounded by water, so bridges are critical to the health of 
our communities and regional economy. Look no further than the 
West Seattle Bridge, which was the most trafficked structure in 
Seattle until the city was forced to close the bridge last 
March of 2020, after an inspection revealed serious cracks in 
the infrastructure.
    Seattle has since been working expeditiously to safely 
restore access, but the impact has been devastating for my 
constituents. West Seattle is accessible primarily through this 
bridge, so the city had to detour traffic to a much smaller 
crossing, which has strained other residential neighborhoods 
with traffic congestion and poor air quality. Businesses have 
been experiencing delays in getting supplies. The Port of 
Seattle terminal has experienced delayed truck deliveries to 
shipping containers. Customers from all over the region are 
unwilling to fight traffic to get to businesses, or frustrated 
at delayed food deliveries, and this is only going to get worse 
as COVID restrictions are lifted and people begin commuting 
again.
    And the West Seattle Bridge is just one of the many bridges 
that needs assistance. The Seattle Department of Transportation 
recently analyzed 77 of our vehicle bridges in Seattle and 
found that in 2019, 65 percent were only in fair condition, and 
6 percent were in poor condition, a truly untenable situation. 
I am grateful that the House passed H.R. 2 last year with a 
drastic increase in funding. But given its stalling in the 
Republican Senate last session, the need is more urgent than 
ever, and I urge the committee to expand its support for 
bridges in this next package.
    Second, there is an urgent need for dedicated funding for 
medium-sized cities. The need for infrastructure improvements 
for roads and bridges is necessary, regardless of the size of 
city. And yet, small and medium-sized cities in my district 
face a much greater challenge in accessing the funding that is 
needed for critical repairs and projects. They have to compete 
against large cities for funds, but they just don't have the 
same resources as their larger counterparts. These smaller 
cities need a better shot at accessing funding so they can 
attract economic activity and address safety and quality of 
life for their residents. As we lead the economic recovery, 
let's provide robust and dedicated support to these small and 
medium-sized cities to ensure reliable infrastructure.
    Third, I urge the committee to continue expanding its 
support for light rail projects. In my district, Sound Transit 
will triple our light rail system, an ambitious expansion. 
Further, our light rail system now runs on 100 percent carbon-
free electricity, a first for major light rail systems in the 
country, through an innovative agreement signed with Puget 
Sound Energy to purchase wind energy directly from the 
utility's Green Direct Program. This is projected to save more 
than $390,000 in electricity costs over the 10-year contract, 
while also supporting new, local, clean-energy jobs.
    In our State, transportation is responsible for 40 percent 
of greenhouse gases, and transit is the linchpin of regional 
sustainability. Our country and our region need Federal 
assistance on important projects like this that reduce 
congestion, support our economy, and address climate change.
    Finally, I want to briefly note my strong support for 
Federal assistance for earthquake resilience and risk reduction 
projects. The Pacific Northwest is highly prone to earthquakes, 
and Washington will continue to experience damaging, deadly, 
and expensive quakes. In fact, a FEMA spokesman put it bluntly: 
``The entire northwest coast will be toast.''
    Mr. Chairman, I know these are issues that you understand 
well, and I urge the committee to continue providing robust 
funding for States to prepare. As Congress enacts reforms to 
support a full economic recovery, I look forward to working 
with you to ensure substantial funding for bridges, dedicated 
funding for medium-sized cities, prioritizing earthquake 
resiliency, and our light rail systems.
    Thank you, Mr. Chairman, and I yield back.
    [Ms. Jayapal's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Pramila Jayapal, a Representative in 
                 Congress from the State of Washington
    Chairman DeFazio and Ranking Member Graves, thank you for this 
opportunity to share the concerns of Washington's seventh congressional 
district.
    As we consider how to best repair a country ravaged by a pandemic, 
I would like to raise four key priorities: support for bridges, small 
and medium-sized cities, light rail, and earthquake resilience.
    My first priority is generous funding for bridges, including for 
the BUILD Grant program. My district is surrounded by water so bridges 
are critical to the health of our communities and regional economy. 
Look no further than the West Seattle Bridge, which was the most 
trafficked structure in Seattle until the city was forced to close the 
bridge in March 2020 after an inspection revealed cracks in the 
infrastructure. Seattle has since been working expeditiously to safely 
restore access, but the impact has been devastating for my 
constituents. West Seattle is accessible primarily through this bridge. 
The city had to detour traffic to a much smaller crossing which 
strained other residential neighborhoods with traffic congestion and 
poor air quality. Businesses, have been experiencing delays in getting 
supplies. The Port of Seattle terminal has experienced delayed truck 
deliveries to shipping containers. Customers from all over the region 
are unwilling to fight traffic to get to businesses or frustrated at 
delayed food deliveries. These delays will only get worse as COVID 
restrictions are lifted and people begin commuting again.
    And the West Seattle bridge is just one of the many bridges that 
needs assistance: the Seattle Department of Transportation recently 
analyzed 77 vehicle bridges and found that in 2019, 65 percent were in 
fair condition, and 6 percent were in poor condition--a truly untenable 
situation.
    I am grateful that the House passed H.R. 2 last year with a drastic 
increase in funding. But given its stalling in the Republican Senate 
last session, the need is more urgent than ever and I urge the 
committee to expand its support for bridges in the next package.
    Additionally, there is an urgent need for dedicated funding for 
medium-sized cities. The need for infrastructure improvements for roads 
and bridges is necessary regardless of the size of the city; yet small 
and medium cities face a greater challenge in accessing funding needed 
for critical repairs and projects. They must compete against large 
cities for funds, but do not have the same resources as their larger 
counterparts. These smaller cities need a better shot at accessing 
funding so they can attract economic activity and address safety and 
quality of life for their residents. As we lead economic recovery, we 
must provide robust and dedicated support to these small and medium-
sized cities to ensure reliable infrastructure.
    Third, I urge the committee to continue expanding its support for 
light rail projects. In my district, Sound Transit will triple its 
light rail system, an ambitious expansion. Further, our light rail 
system now runs on 100 percent carbon-free electricity, a first for 
major light rail systems in the country, through an innovative 
agreement with Puget Sound Energy to purchase wind energy directly from 
the utility's Green Direct program. This is projected to save more than 
$390,000 in electricity costs over the 10-year contract while also 
supporting new local clean energy jobs. In our state, transportation is 
responsible for 40 percent of greenhouse gases and transit is the 
linchpin of regional sustainability.
    Our country and our region needs federal assistance on important 
projects like this that reduce congestion, support our economy and 
address climate change.
    Finally, I want to briefly note my strong support for federal 
assistance for earthquake resilience and risk reduction projects. The 
Pacific Northwest is highly prone to earthquakes and Washington will 
continue to experience damaging, deadly, and expensive quakes. In fact, 
a FEMA spokesperson put it bluntly: the entire northwest coast will be 
toast.\i\ Mr. Chairman, I know these are issues that you understand 
well and I strongly urge the Committee to continue providing robust 
funding for states to prepare.
---------------------------------------------------------------------------
    \i\ Kathryn Schulz, The Really Big One, The New Yorker (July 13, 
2015) https://www.newyorker.com/magazine/2015/07/20/the-really-big-one
---------------------------------------------------------------------------
    As Congress enacts reforms to support a full economic recovery, I 
look forward to working with you to ensure substantial funding for 
bridges, dedicated funding for medium-sized cities, prioritizing 
earthquake resiliency, and light rail systems. Thank you.

    Mr. Lynch [presiding]. The Chair recognizes the gentlelady 
from Minnesota, Ms. Craig, for 5 minutes.
    I am not sure if you are muted.

  TESTIMONY OF HON. ANGIE CRAIG, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Ms. Craig. Thank you so much, Mr. Chairman, and thank you 
to Chairman DeFazio for recognizing the importance of this 
Members' Day hearing.
    I am grateful for all of the work that together we 
accomplished in the 116th Congress, and I very much look 
forward to working with you, Chairman DeFazio and Ranking 
Member Graves, to continue our work together.
    As I have told you before, I came to Congress to work on 
the issues facing everyday Americans and everyday Minnesotans, 
like fixing our Nation's crumbling infrastructure by making it 
easier for communities in my district to carry out 
transformational projects. As a former member of the T&I 
Committee, I was proud to help shape H.R. 2 in the last 
Congress, and set the roadmap for putting people back to work 
on our infrastructure plan, like adding a lane and interchange 
on I-35 in Lakeville to ease traffic; improving Highway 52 in 
Goodhue County; and completing outstanding projects on Highway 
13 that will improve freight access. Completing these projects, 
among many others, will help reduce congestion, increase 
safety, and are the infrastructure projects of our future.
    The Moving Forward Act contained a number of key 
infrastructure policy priorities that we must get across the 
finish line this year. Therefore, I would strongly urge the 
committee to include the following policy proposals contained 
within the bill.
    First is funding for active transportation projects with an 
Active Transportation Connectivity Grant program to support 
infrastructure investment in connected active transportation 
networks for walking and bicycling. The funding would support 
the development of active transportation networks such as the 
Veterans Memorial Greenway, which will connect Lebanon Hills 
and the Mississippi River Greenway through the Inver Grove 
Heights and Eagan communities. Last year H.R. 2 proposed to 
dedicate $250 million in 1 year for the program. The 
infrastructure bill under development should include the grant 
program with full funding of $500 million per year over the 
full life of the bill.
    Secondly, increase Federal-aid highway funding and 
establish the Community Transportation Investment Grants 
program. This would help local governments such as Dakota 
County access new sources of funding to complete key community 
projects that are urgently needed, but currently lack the 
funding to complete.
    Third, continue to recognize the importance of freight, and 
ensure devoted funding for multimodal transportation projects 
such as those under development on Highway 13 between 
Burnsville and Savage in my congressional district.
    Fourth, increase flexibility and direct funding for rural 
communities and re-adopt the Craig Local Roads Amendment. H.R. 
2 contained historic investments in dedicated local 
transportation funding, including the $600 million per year 
through the Community Transportation Grant program for projects 
that improve safety and make necessary improvements, with a 
minimum of 25 percent of those funds set aside for our rural 
communities. It also would have established the Rebuild Rural 
Grant program focused on infrastructure in rural communities, 
and expand the High Risk Rural Roads program, and increase 
investments for safe rural roads without depleting other 
funding resources.
    The base bill should also include the text of my amendment 
that was included to provide dedicated surface transportation 
block grant funding to local roads in communities with 
populations under 5,000.
    Three more quick priorities.
    Create a standalone bridge repair program. The updated 
proposal should carry over the minimum bridge investment 
requirement that will help States keep their bridges safe.
    Encourage transportation and infrastructure careers. The 
bill should again examine current efforts and look for ways to 
encourage diverse applicants to fill in-demand transportation 
career opportunities.
    Finally, increase available, safe truck parking. The bill 
should incorporate provisions of my Truck Parking Safety 
Improvement Act to address the shortage of parking for 
commercial motor vehicles to improve the safety of commercial 
motor vehicle drivers.
    I have also been hearing directly from my local communities 
about the specific projects they wish to see funded under the 
committee's new process, and I look forward to sharing those 
with each of you soon. It is clear that demand is high for a 
robust infrastructure package to meet the overwhelming need, 
from the community's perspective, to increase our active trail 
networks, repair our highways and freeways to a state of good 
repair, and invest in modern transit systems.
    Finally, I would also strongly encourage the committee to 
add relevant infrastructure programs such as the EPA's section 
319 program, and include the text of the bipartisan Local Water 
Protection Act again this Congress, as the bill is advanced for 
a final floor vote.
    Thank you so much for your time and attention to such 
important matters, and I yield back the balance of my time.
    [Ms. Craig's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Angie Craig, a Representative in Congress 
                      from the State of Minnesota
    Thank you Chairman DeFazio for recognizing me and holding today's 
Member Day Hearing.
    I'm grateful for all the work we accomplished in the 116th Congress 
together and am very much looking forward to working with you and 
Ranking Member Graves to continue our work.
    As I've told both of you before, I came to Congress to work on 
issues facing everyday Americans, like fixing our Nation's crumbling 
infrastructure by making it easier for communities in my district to 
carry out transformational projects.
    As a former member of the Transportation and Infrastructure 
Committee, I was proud to help shape H.R.2 last Congress and set the 
roadmap for putting people back to work on our infrastructure needs--
like adding a lane and interchange on I-35 in Lakeville to ease 
traffic, improving Highway 52 in Goodhue County and completing 
outstanding projects on Highway 13 that will improve freight access.
    Completing these projects, among many others, will help reduce 
congestion, increase safety and are the infrastructure projects of our 
future.
    The Moving Forward Act contained a number of key infrastructure 
policy priorities that we must get across the finish line this year.
    I would strongly urge the Committee to include the following policy 
proposals contained within the bill:
    <bullet>  Funding for active transportation projects with an Active 
Transportation Connectivity Grant Program to support infrastructure 
investment in connected active transportation networks for walking and 
bicycling. The funding would support the development of active 
transportation networks such as the Veterans Memorial Greenway, which 
will connect Lebanon Hills and the Mississippi River Greenway through 
Inver Grove Heights and Eagan. Last year, H.R. 2 proposed to dedicate 
$250 million in one year for the program; the infrastructure bill under 
development should include the grant program with full funding at $500 
million per year over the full life of the bill. (Sec. 1309)
    <bullet>  Increase Federal-aid highway funding and establish the 
Community Transportation Investment Grants program. This would help 
local governments such as Dakota County access new sources of funding 
to complete key community projects that are urgently needed but 
currently lack the funding to complete. (Sec. 1302)
    <bullet>  Continue to recognize the importance of freight and 
ensure devoted funding for multimodal transportation projects such as 
those under development on Highway 13 between Burnsville and Savage in 
my Congressional District. (Sec. 1212)
    <bullet>  Increase flexibility and direct funding for rural 
communities, and re-adopt the Craig Local Roads Amendment. H.R.2 
contained historic investments in dedicated local transportation 
funding, including the $600 million per year through the Community 
Transportation Grant Program for projects that improve safety and make 
necessary improvements, with a minimum of 25% of those funds set aside 
for rural communities. (Sec. 1302). It also would have established the 
Rebuild Rural Grant program (Sec. 1307) focused on infrastructure in 
rural communities and expanded the High Risk Rural Roads Program (Sec. 
1209) and increase investments for safe rural roads without depleting 
other funding resources. The base bill should also include the text of 
my amendment that was included to provide dedicated surface 
transportation block grant funding to local roads in communities under 
5,000.
    <bullet>  Create a standalone bridge repair program. The updated 
proposal should carry over the minimum bridge investment requirement 
that will help states keep their bridges safe. (Sec. 1207)
    <bullet>  Encourage Transportation and Infrastructure Careers. The 
bill should again examine current efforts and look for ways to 
encourage diverse applicants to fill in-demand transportation career 
opportunities. (Sec. 1610)
    <bullet>  Increase Available Safe Truck Parking. The bill should 
incorporate provisions of my Truck Parking Safety Improvement Act 
(H.R.2187) to address the shortage of parking for commercial motor 
vehicles to improve the safety of commercial motor vehicle drivers.

    I have also been hearing directly from my local communities about 
the specific projects they wish to see funded under the Committee's new 
process and look forward to sharing those with you soon.
    It is clear demand is high for a robust infrastructure package to 
meet the overwhelming need from my communities to increase our active 
trail networks, repair our highways and freeways to a state of good 
repair and invest in modern transit systems.
    I also strongly encourage the Committee to add relevant 
infrastructure programs such as the EPA's Sec. 319 program and include 
the text of the bipartisan Local Water Protection Act again this 
Congress as the bill is advanced for a final floor vote.
    Thank you for your time and attention to such an important matter. 
I yield back the balance of my time.

    Mr. Lynch. The gentlelady yields back. Our excellent 
committee staff has informed me that the following Members are 
in the queue and will be recognized in the following order: Mr. 
Neguse of Colorado, Mr. Tonko of New York, Congresswoman 
Stevens from Michigan, and Congresswoman Sanchez from 
California.
    So Mr. Neguse from Colorado, you are now recognized.

TESTIMONY OF HON. JOE NEGUSE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Neguse. Thank you, Mr. Chairman, for the opportunity to 
testify today about some of my priorities within the 
Transportation and Infrastructure Committee's jurisdiction.
    I represent a vast and diverse district, Colorado's Second 
Congressional District, that is bigger than the State of New 
Jersey, that stretches from Boulder to Fort Collins and along 
the Front Range of Colorado up through our mountain 
communities. The infrastructure needs of my district are as 
diverse as the geography of the district itself, which is also 
rapidly growing. In my district and across the United States, 
our infrastructure is no longer able to meet the needs of the 
population and is in desperate need of repair and investments.
    In Colorado there are more than 450 bridges, and 3,600 
miles of roadway that are currently in poor condition. The 
State's infrastructure received a C-minus on its Infrastructure 
Report Card, illustrating the dire need for these investments 
that we are talking about today.
    There are a number of projects that are shovel-ready and we 
will certainly advocate for as we work on the infrastructure 
bill in the months ahead, in particular including improvements 
on northern I-25 and on I-70 in the Floyd Hill project in my 
community. And I appreciate the opportunity to highlight those 
priorities, among others, for the committee.
    I also want to talk about the importance of resiliency in 
our infrastructure. As many of us have seen in our districts, 
natural disasters are continuing to increase in number and 
severity as a result of climate change. In the last 10 years, 
extreme weather events have cost my State, Colorado, $50 
billion in damages. In my community, many communities are still 
recovering from devastating flooding that occurred 8 years ago, 
in 2013, and now from the first and second largest wildfires in 
recorded Colorado history, which burned in Colorado's Second 
Congressional District last summer and last fall.
    We have to prioritize resiliency when building and 
rebuilding infrastructure to ensure that what we are building 
will be able to withstand the challenges of climate change.
    I want to thank the committee for the work that you have 
already done to prioritize resiliency, and I would just ask you 
to respectfully consider my Climate Resilient Communities Act 
legislation in the upcoming infrastructure package. The bill 
would require a study on the benefits in prioritizing 
resiliency at the Federal Emergency Management Agency, or FEMA. 
I was glad to work with this committee, and with Chairman 
DeFazio in particular, last summer to include this bill as an 
amendment to the Moving Forward Act, and I would hope to work 
with you all again this year to include this bill in the 
legislation.
    Secondly, I would be remiss if I didn't talk about the 
Wildfire Recovery Act, which is a bill that I introduced on a 
bipartisan basis with Representative Curtis of Utah. And I know 
it is incredibly important to the chairman, Chairman DeFazio, 
as well.
    The bill is a result of the large fires in Colorado and 
many communities in the West, including in the States of 
Oregon, Nevada, Utah, and California, experienced last year. 
Driven by community concerns about meeting the cost share 
requirements for Fire Management Assistance Grants, FMAG, from 
FEMA, which supports firefighting costs related to wildfires, 
this bill would allow for flexibility in the Federal cost share 
for FMAG, and direct FEMA to issue guidance for raising that 
cost share. For communities working to recover from wildfires, 
and really facing a lot of budget pressures, flexibility in the 
Federal cost share for the FMAG program would be a huge help. 
And I hope to work with you and the committee in terms of 
including this effort in the upcoming legislative package.
    Lastly, I want to mention another issue that is certainly 
very important to my district, which is train horns and quiet 
zones. The train horn noise and quiet zones issue, I know, has 
percolated before this committee on occasion in the past. Last 
year I worked with the committee to include an amendment 
studying train horn noise and additional measures that can be 
used to qualify for quiet zones. I think many Members will 
attest to this from the feedback they have received from their 
communities, that the quiet zone process can be very arduous 
and confusing for small cities and communities and counties 
working on these applications.
    And so this amendment would provide much-needed clarity for 
those communities, and I would hope that the committee would 
consider including that amendment, which would reduce the 
burdens on communities, and increase the transparency 
surrounding the quiet zone process in, ultimately, the final 
infrastructure bill that is approved by the committee.
    In closing, I want to thank Chairman DeFazio and Ranking 
Member Graves for the opportunity to testify before you today, 
and I want to thank you for the many opportunities you provided 
for Members to engage in the infrastructure and surface 
transportation reauthorization projects, and the exciting 
opportunities provided with Member-designated projects.
    And I also want to thank, in particular, the staff of the 
Transportation and Infrastructure Committee, who have just been 
so incredible to work with, with our team, in ensuring that we 
highlight these various priorities, which are incredibly 
important to the people of Colorado and, ultimately, the people 
of our country.
    With that, Mr. Chairman, I thank you for your 
consideration, and I yield back the balance of my time.
    [Mr. Neguse's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Joe Neguse, a Representative in Congress 
                       from the State of Colorado
    Thank you Chairman DeFazio and Ranking Member Graves for the 
opportunity to testify today about some of my priorities within the 
Transportation and Infrastructure committee jurisdiction.
    I represent a vast and diverse district, Colorado's Second, from 
Boulder and Fort Collins along the Front Range of Colorado up through 
the mountains. The infrastructure needs of my district are as diverse 
as the geography of the district itself, which is also rapidly growing. 
In my district and across the US, our infrastructure is no longer able 
to meet the needs of the population and is in desperate need of repair 
and further investments.
    In Colorado, there are more than 450 bridges and 3,600 miles of 
roadway that are currently in poor condition. The state's 
infrastructure received a C- on its infrastructure report card, 
illustrating the dire need for these investments that we are talking 
about today.
                        Resilient Infrastructure
    I would like to start by talking about the importance of resiliency 
in our infrastructure. As many of us have seen in our districts, 
natural disasters are continuing to increase in number and severity, as 
a result of climate change. In the last ten years, extreme weather 
events have cost Colorado $50 billion in damages. In my district, 
communities are still recovering from devastating flooding that 
occurred in 2013; and now from the first and second-largest wildfires 
in Colorado history that burned in Colorado's Second District last 
summer and fall.
    We must prioritize resiliency when building and rebuilding 
infrastructure, to ensure that what we are building will be able to 
withstand the challenges of climate change. I thank you for the work 
you are already doing to prioritize resiliency, and I would ask you to 
consider including my Climate Resilient Communities Act in the upcoming 
infrastructure package. This bill would require a study on the benefits 
to prioritizing resiliency at the Federal Emergency Management Agency 
(FEMA). I was glad to work with you last summer to include this bill as 
an amendment to the Moving Forward Act, and hope to work with you again 
this year to include this bill.
                         Wildfire Recovery Act
    I would also like to talk about the Wildfire Recovery Act, a bill I 
introduced with Rep. Curtis of Utah as a result of the large fires 
Colorado--and many communities in the West--experienced last year. 
Driven by community concerns about meeting the cost share requirements 
for Fire Management Assistance Grants (FMAG) from FEMA, which supports 
firefighting costs related to wildfires, this bill would allow for 
flexibility in the federal cost share for FMAG and direct FEMA to issue 
guidance for raising that cost share. For communities working to 
recover from wildfires and facing budget pressures, flexibility in the 
federal cost share for the FMAG program would be a great help, and I 
hope to also work with you on including this effort in the upcoming 
legislative package.
                            RRIF Equity Act
    I would also like to express my support for legislation soon to be 
introduced by my colleague from Colorado, Representative Perlmutter, 
which would provide a fix for an issue with the Railroad Rehabilitation 
Improvement and Financing (RRIF) grant program that we have been 
working with your committee on the last few years. Despite having 
repaid their entire loan, the Regional Transportation District (RTD) in 
Colorado is unable to get their Credit Risk Premium (CRP) returned to 
them until every grantee from their loan cohort has repaid their loans.
    Last year, a fix for this issue was included in the House-passed 
appropriations bill, but unfortunately it was not included in the final 
Fiscal Year 2021 appropriations package. I am supportive of this bill 
my colleague introduced, and efforts to ensure RTD and others in their 
loan cohort can receive their Credit Risk Premium once they've repaid 
their entire loan.
                      Train Horns and Quiet Zones
    Another issue of importance in my district is that of train horn 
noise and Quiet Zones. Last year, I also worked with your committee to 
include an amendment studying train horn noise and additional measures 
that can be used to qualify for Quiet Zones. The Quiet Zone process can 
be arduous and confusing for cities and counties working on these 
applications, and this amendment would provide needed clarity for those 
communities. I look forward to continuing to work with you on these 
efforts, as we look for ways to reduce the burden on communities and 
increase transparency surrounding the Quiet Zone process.
                                Closing
    In closing, thank you Chairman DeFazio and Ranking Member Graves 
for the opportunity to testify before you today. I additionally want to 
thank you for the many opportunities you have provided for members to 
engage in the infrastructure and surface transportation reauthorization 
process, and the exciting opportunities provided with Member Designated 
Projects.
    I am glad we will be building off of last year's Moving Forward 
Act, which included key investments in built infrastructure such as 
roads, bridges, transit, and railroads, but also included funding for 
school buildings and other important infrastructure. Our infrastructure 
is in dire need of investment across the board, and I am excited about 
the opportunities ahead of us to craft a comprehensive infrastructure 
package that meets the needs of the American people.
    Thank you, and I yield back.

    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from New York, Mr. 
Tonko, for 5 minutes.

TESTIMONY OF HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Tonko. Thank you, thank you. I just thank the Chair 
DeFazio, Representative Lynch, and members of the committee for 
the opportunity to address the Transportation and 
Infrastructure Committee today.
    For far too long, our Nation's infrastructure has fallen 
into disrepair, dragging down our economy, and leaving us 
failing to meet the needs of the American people, and 
struggling to compete with the rest of the world. I continue to 
hear from residents of New York's 20th Congressional District 
about the risks posed by crumbling infrastructure. We have seen 
bridges collapse, communities experience repeated flooding, and 
the lack of equitable access to public transit.
    New York received a C-minus grade on its Infrastructure 
Report Card from the American Society of Civil Engineers. This 
barely passing grade illuminates many deficiencies that require 
immediate attention, including repairs to our highways and 
bridges; modernization of public transportation, including 
trains and transit; the need to modernize our drinking water 
systems and wastewater treatment works and to do so with 
greater coordination in our approach to action within the 
interconnected water and sewer sectors; and efforts to increase 
energy efficiency to reduce household energy costs, improve 
weatherization, and ensure grid resiliency.
    Transformational spending on infrastructure is key to our 
economic recovery. In districts like mine, the expansion of 
rail networks to connect small towns, addressing repeated water 
main breaks, the revitalization of local ports, and increased 
funding for innovative research and development will provide 
short-, medium-, and certainly long-term improvements to the 
systems that connect us and our economic prospects.
    In our efforts to maximize job creation, we must ensure 
that disadvantaged communities are not left behind. An outsized 
emphasis on shovel-ready requirements predominantly benefits 
already well-off communities over those that, without early-
stage support, would be unable to get projects past initial 
engineering and design work. For struggling towns and cities, 
this early project investment can make all the difference.
    I believe that addressing our infrastructure challenges are 
a critical component of our holistic efforts to combat climate 
change and ensure a livable world for current and future 
generations. Building back better means embracing science, 
prioritizing the resiliency of our built and our natural 
environment. As chair of the Energy and Commerce Committee's 
Subcommittee on Environment and Climate Change, I recognize 
that the climate crisis is one of the greatest challenges of 
our lifetime. And bold Federal climate action presents one of 
the greatest opportunities to create millions of good-paying 
jobs, and ensure that our workers and our businesses can 
compete in the already ongoing transition to a sustainable 
future and a clean-energy economy.
    Earlier this year I helped introduce the CLEAN Future Act, 
ambitious climate legislation that would ensure that the United 
States take aggressive action this decade to achieve net zero 
greenhouse gas pollution as quickly as possible. There is no 
question that this infrastructure bill is a tremendous 
opportunity to help us reach those lofty climate goals. Our 
Nation's deteriorating infrastructure is not solely a State or 
Federal issue. It is not a small or large business issue. It is 
not a Democratic or a Republican issue. Infrastructure is an 
American issue that directly affects our ability to compete in 
the global marketplace and provide financial security for 
millions of American families.
    In this moment we are presented with a once-in-a-lifetime 
opportunity to overcome the darkness of this pandemic, combat 
climate change, and rebuild our Nation in ways that make us 
stronger, safer, and certainly more respected. This is not only 
an opportunity to pave the roads we drive and improve our 
bridges. This is an opportunity to pave the way to a clean 
energy economy and build a bridge to connect us with a most 
prosperous future. Time is of the essence, and I look forward 
to working with you to deliver this powerful investment in the 
lives and livelihoods of all Americans.
    My district is a compilation of several small cities, mill 
towns that are looking to reinvent themselves, to have that 
reconstruction effort made in their generation, and to have a 
comeback scenario really be a live and real concept. To do 
that, we need to make certain we invest in those small cities, 
those struggling cities. They need that opportunity to compete 
effectively, to have shovel-ready. They need those funds for 
that early start initiative. And they need to have 
information--inserting resources on items that will address 
quality of life, including rail opportunities, train stations, 
and certainly the efforts to have green moments, with 
infrastructure that provides innovative opportunities for 
infrastructure in their comeback scenario reconstruction 
moment.
    So thank you, one and all, for the opportunity to invest in 
all of our communities, and to give that particular attention 
to innovation and our struggling communities looking to 
reinvent themselves.
    With that I yield back, Mr. Chair.
    [Mr. Tonko's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Paul Tonko, a Representative in Congress 
                       from the State of New York
    Thank you, Chairman DeFazio, for the opportunity to address the 
Committee today.
    For far too long, our nation's infrastructure has fallen into 
disrepair, dragging down our economy and leaving us failing to meet the 
needs of the American people and struggling to compete with the rest of 
the world. I continue to hear from residents of New York's 20th 
congressional district on the risks posed by crumbling infrastructure--
we have seen bridges collapse, communities experience repeated 
flooding, and a lack of equitable access to public transit.
    New York received a C- grade on its Infrastructure Report Card from 
the American Society of Civil Engineers. This barely passing grade 
illuminates many deficiencies that require immediate attention--
including repairs to our highways and bridges; modernization of public 
transportation, including trains and transit; the need to modernize our 
drinking water systems and wastewater treatment works, and to do so 
with greater coordination in our approach to action within the 
interconnected water and sewer sectors; and efforts to increase energy 
efficiency to reduce household energy costs, improve weatherization, 
and ensure grid resiliency.
    Transformational spending on infrastructure is key to our economic 
recovery--in districts like mine, the expansion of rail networks to 
connect small towns, addressing repeated water main breaks, the 
revitalization of local ports, and increased funding for innovative 
research and development will provide short, medium, and long-term 
improvements to the systems that connect us and our economic prospects.
    In our efforts to maximize job creation, we must ensure that 
disadvantaged communities are not left behind. An outsized emphasis on 
shovel-ready requirements predominantly benefits already well-off 
communities over those who, without early-stage support would be unable 
to get projects past initial engineering and design work. For 
struggling towns and cities, this early project investment can make all 
the difference.
    I believe that addressing our infrastructure challenges are a 
critical component of our holistic efforts to combat climate change and 
ensure a livable world for current and future generations. Building 
back better means embracing science, prioritizing the resiliency of our 
built and natural environment.
    As Chairman of the Energy and Commerce Committee's Subcommittee on 
Environment and Climate Change, I recognize that the climate crisis is 
one of the greatest challenges of our lifetime--and bold federal 
climate action presents one of the greatest opportunities to create 
millions of good paying jobs and ensure that our workers and businesses 
can compete in the already ongoing transition to a sustainable future 
and a clean energy economy. Earlier this year, I helped introduce the 
CLEAN Future Act, ambitious climate legislation that would ensure that 
the United States take aggressive action this decade to achieve net 
zero greenhouse gas pollution as quickly as possible.
    There is no question that this infrastructure bill is a tremendous 
opportunity to help us reach those climate goals.
    Our nation's deteriorating infrastructure is not solely a state or 
federal issue. It is not a small or large business issue. It is not a 
Democratic or a Republican issue. Infrastructure is an American issue 
that directly affects our ability to compete in the global marketplace 
and provide financial security for millions of American families.
    In this moment, we are presented with a once-in-a-lifetime 
opportunity to overcome the darkness of this pandemic, combat climate 
change, and rebuild our nation in ways that make us stronger, safer, 
and more respected.
    This is not only an opportunity to pave the roads we drive and 
improve our bridges--this is an opportunity to pave the way to a clean 
energy economy and build a bridge to connect us with a more prosperous 
future.
    Time is of the essence, and I look forward to working with you to 
deliver this powerful investment in the lives and livelihoods of all 
Americans.

    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentlewoman from Michigan, Ms. 
Stevens, for 5 minutes.

    TESTIMONY OF HON. HALEY M. STEVENS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Stevens. Great, thank you so much, Mr. Chair, for 
affording the time for these Member hearings. I am delighted to 
testify before you here today.
    Certainly it is no surprise, and it is certainly an 
imperative for the State of Michigan and in my district, 
located in the southeastern corridor, that we are in desperate 
need of road improvements. And it is an unfunded mandate, and 
it is hampering economic activity. It is hurting public safety. 
And it is a demand that is crying out from every corner of 
Michigan's incredible 11th Congressional District.
    Though our local and State officials have led the way with 
investing in local infrastructure and supporting infrastructure 
needs, there just hasn't been enough Federal support in our 
communities involving infrastructure needs, including simply 
making sure that our existing roads are still effective and 
safe.
    There is a great example of a project in my district that I 
am really excited to share with all of you here today, a 
bipartisan, bicounty, multiple-community project called the 
Beck Road Improvement Corridor. This multijurisdictional 
project seeks to expand a congested roadway that is part of our 
Federal-aid highway, and install a grade separation to 
alleviate traffic and improve safety. The Beck Road Business 
Corridor Railroad Crossing Safety Project will construct a 
five-lane overpass over a current at-grade three-track railroad 
crossing on a busy business corridor with over 28,000 cars 
daily in the fastest growing section of the Metro Detroit area.
    There are many--in fact, almost countless--industrial and 
retail concerns lining the Beck Road Business Corridor that 
must use a congested two-lane Beck Road corridor--lane--roadway 
and crossing that serves at least three freight trains. Right? 
So this is just a major focus of my communities, and something 
that we have been rallying around for years now. So we have got 
over 340 Wixom employers near the Beck Road Business Corridor 
railroad grade crossing area that depend on this road for 
access for their employers, for employees, for customers, and 
for freight traffic. There are approximately 7,000 jobs within 
1 mile on either side of Beck Road. The average daily traffic 
counted on this road has increased approximately 200 percent 
over the last 20 years, resulting in a crash frequency that is 
10 times worse than the regional average.
    This project has strong community support, as I mentioned, 
and what I would like to do here--I have this map, all right? 
And I want to enter, Mr. Chair, to the record, this map of the 
project to show its significance for the region. All right? We 
have an aerial view of the map, and we have the actual snapshot 
of what that map looks like, if that is OK, Mr. Chairman.
    Mr. Lynch. Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
Aerial View and Map of the Beck Road Project, Submitted for the Record 
                        by Hon. Haley M. Stevens
                        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Stevens. Thank you. So this is by no means the only 
project in my district worth highlighting as a critical piece 
of our thriving innovation ecosystem. But it is one example of 
how far investments can go to make our constituents' lives 
better, and to make sure that we are all receiving our fair 
share of Federal funding and utilization of Federal taxpayer 
dollars. Certainly, approaches have been taken--received grants 
that have not been awarded at this time.
    We also need for Michigan--it is incumbent on me to mention 
the consideration and the importance of electric vehicle 
charging infrastructure. The auto industry is the economic 
backbone of both my district and the State of Michigan, and our 
companies and workers have been long making investments into 
new battery production technology to increase the use of 
electric vehicles in the United States. So what we would like 
you to do is make sure that we are prioritizing electric 
vehicle infrastructure in any upcoming legislation, and to 
ensure that the United States of America is the continued 
driver and accelerator and proliferator of this great American 
jobs opportunity in electric vehicles.
    I am looking forward to working with you and your committee 
as we continue to invest in infrastructure and address issues 
such as safety and congestion, and I yield back, Mr. Chair.
    [Ms. Stevens' prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Haley M. Stevens, a Representative in 
                  Congress from the State of Michigan
    Good afternoon. I would like to thank you, Chairman DeFazio, 
Ranking Member Graves, and distinguished Members of the Transportation 
and Infrastructure Committee for hosting this hearing today to seek our 
input on infrastructure issues critical to our districts.
    As I visit every corner of my incredible district in southeastern 
Michigan, one common theme has become abundantly clear--our roads are 
in desperate need of improvement. Though our local and state officials 
have led the way with investing in our infrastructure, there has not 
been nearly enough federal support for our communities' evolving 
infrastructure needs, from electric vehicle infrastructure to simply 
making sure our existing roads are still effective.
    One such project in my district is the Beck Road Improvement 
Corridor. This is a multi-jurisdictional project comprised of four 
municipalities and two countries, which seeks to expand a congested 
roadway to alleviate traffic.
    There are approximately 7,000 jobs within one mile on either side 
of Beck Road, with hundreds of companies that rely on this road for 
freight and customer traffic. The average daily traffic county on this 
road has more than doubled over the past 20 years, resulting in a crash 
frequency that is 10 times worse than the regional average.
    Though I strongly support continued investment in transit options 
to reduce congestion and increase safety, our roadways and bridges have 
been so neglected that making investments such as this project today 
will create meaningful solutions to accommodate traffic growth, safety, 
and economic development in regions such as my district where public 
transit is not easily accessible.
    This is by no means the only project in my district worth 
highlighting as a critical piece of our thriving innovation ecosystem 
in Michigan-11, but it is one example of how far our investments can go 
to make our constituents' lives better and their families safer.
    Another topic I would like to lay before the Committee's 
consideration is the importance of electric vehicle charging 
infrastructure. The auto industry is the economic backbone of both my 
district and the state of Michigan, and our companies and our workers 
have been making investments into new battery and production technology 
to increase the use of electric vehicles in the United States.
    Though the technology and market issues are key, our electric 
vehicle development is only as good as the infrastructure that enables 
widespread consumer use. With any infrastructure package, we have a 
great opportunity to invest in a standardized charging system across 
the U.S. to ensure that any driver of an electric vehicle has access to 
adequate charging capability while creating good-paying American union 
jobs.
    I look forward to working with your committee to invest in 
America's infrastructure while creating jobs and sparking innovative 
solutions to critical transportation issues such as safety and 
congestion.
    Thank you, and I yield back.

    Mr. Lynch. The gentlelady yields back.
    The Chair now recognizes the gentlewoman from California, 
Ms. Sanchez, for 5 minutes.

    TESTIMONY OF HON. LINDA T. SANCHEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Sanchez. Thank you, Mr. Chairman, and thank you to the 
ranking member, as well, for this important opportunity to 
highlight the needs of working families in my communities.
    In southern California we are used to wasting, literally, 
years of our lives just sitting, stuck in traffic. For so many 
families, the pandemic has been the first time that traffic 
wasn't a daily reality in their lives. And for a short time 
before the wildfire season, we experienced the cleanest air 
anyone can remember after our highways emptied out. It 
shouldn't take the worst global health crisis in a century, and 
our lives coming to a standstill, just to experience some fresh 
air. We have got to do better, especially for communities like 
mine in eastern L.A. County that have seen transportation 
investments pass us by.
    I have been proud to work with L.A. Metro, the county, and 
local agencies on projects to fix this inequity. For example, 
the West Santa Ana Branch will finally bring rail service to 
1.2 million L.A. County residents who have never had an 
alternative to sitting in traffic, whether in a car or a bus. 
Once this 19-mile corridor is complete, it will link the cities 
that I serve, like Bellflower, Artesia, and Cerritos, with the 
entire L.A. Metro rail network.
    Many other cities I represent can finally look forward to 
rail service through the extension of the Gold Line through the 
Eastside Corridor phase 2. This critical project will bring 
clean, affordable transportation, and historic opportunities to 
the cities of Montebello, Pico Rivera, Santa Fe Springs, and 
Whittier.
    Neither project by themselves will erase decades of 
uninvestment and underinvestment, but they are exactly the kind 
of meaningful differences that we can make to reduce some of 
the daily pressures on working families. And neither would be 
possible without my community's willingness to vote itself tax 
increases time and time again. We put our own skin in the game 
over and over again, because we can't wait any longer to fix 
the Federal Government's historic obsession with highways that 
divide our communities.
    While we build a future for our kids that isn't dependent 
on sitting in a car, we also have got to take better care of 
the roads and bridges that we continue to rely on. The Del Amo 
Boulevard Bridge is a perfect example of what happens when the 
Federal Government fails to keep up with the basics. It is over 
50 years old, it is rated structurally deficient, and it snarls 
traffic every single day. It also connects two counties and 
three cities, so it is the kind of project that the Federal 
Government should help fix.
    Fortunately, L.A. Metro has stepped up with county tax 
dollars so that we can proceed with the project's planning. But 
this transportation reauthorization should be the first step in 
better helping our communities keep up with our infrastructure 
needs. After the crisis we have lived through, the work we are 
doing this year is deeply urgent to finally put the pandemic in 
the rearview mirror.
    But we can't just rebuild to the old normal, where the 
first breath of clean air comes from our economy being closed 
overnight. We have got to rebuild a future where clean air and 
opportunity is a reality for all, no matter what zip code you 
live in. By properly funding critical projects like these, we 
will accomplish just that.
    Thank you, Mr. Chairman, for listening to my comments, and 
I yield back.
    [Ms. Sanchez's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Linda T. Sanchez, a Representative in 
                 Congress from the State of California
    Thank you, Chairman DeFazio and Ranking Member Graves, for this 
important opportunity to highlight the needs of working families in my 
community.
    In Southern California, we are used to wasting years of our lives 
to just sitting in traffic. For so many families, the pandemic has been 
the first time that traffic wasn't a daily reality in their lives.
    And for a short time before wildfire season, we experienced the 
cleanest air anyone can remember after our highways emptied out. It 
shouldn't take the worst global health crisis in a century and our 
lives coming to a standstill just to experience some fresh air.
    We've got to do better.
    Especially for communities like mine in eastern LA county that have 
seen transportation investments pass us by. I've been proud to work 
with LA Metro, the county, and local agencies on projects to fix this 
inequity.
    For example, the West Santa Ana Branch will finally bring rail 
service to 1.2 million LA County residents who have never had an 
alternative to sitting in traffic--whether in a car or a bus.
    Once this 19 mile corridor is complete, it will link many of the 
cities I serve like Bellflower, Artesia, and Cerritos with the entire 
LA Metro rail network. Many other cities I represent can also finally 
look forward to rail service through the extension of the Gold Line 
through the Eastside Corridor Phase 2.
    This critical project will bring clean, affordable transportation 
and historic opportunity to the cities of Montebello, Pico Rivera, 
Santa Fe Springs, and Whittier. Neither of these projects by themselves 
will erase decades of underinvestment. But they are exactly the kind of 
meaningful differences we can make to reduce some of the daily pressure 
on working families.
    And neither would be possible without my community's willingness to 
vote itself tax increases time and again. We put our own skin in the 
game over and over again because we can't wait any longer to fix the 
federal government's historic obsession with highways that divide our 
communities.
    While we build a future for our kids that isn't dependent on 
sitting in a car, we also have got to take better care of the roads and 
bridges we will continue to rely on. The Del Amo Boulevard bridge is a 
perfect example of what happens when the federal government fails to 
keep up with the basics.
    It's over 50 years old, rated ``structurally deficient,'' and 
snarls traffic every single day. It also connects 2 counties and 3 
cities. So it is the kind of project that the federal government should 
help fix.
    Fortunately LA Metro has stepped up with county tax dollars so that 
we can proceed with the project's planning.
    But this transportation reauthorization should be the first step in 
better helping our communities keep up with our infrastructure needs. 
After the crisis we have lived through, the work we are doing this year 
is deeply urgent to finally put the pandemic in the rearview mirror.
    But we can't just rebuild to the old normal where the first breath 
of clean air came from our economy closed overnight. We've got to 
rebuild to a future where clean air and opportunity is a reality for 
all. No matter the zip code.
    By properly funding critical projects like these, we will.
    Thank you, Mr. Chairman, I yield back.

    Mr. Lynch. The gentlelady yields back.
    Our excellent staff has once again informed me that the 
following Members are now in the queue, and will be recognized 
in the following order: Mr. Rosendale of Montana; Ms. Gay 
Scanlon of Pennsylvania; Mr. O'Halleran of Arizona; Mr. Levin 
of Michigan; Mrs. Lawrence of Michigan; Mrs. Trahan of 
Massachusetts; and Mr. Connolly of Virginia.
    So the Chair now recognizes Mr. Rosendale of Montana for 5 
minutes.

 TESTIMONY OF HON. MATTHEW M. ROSENDALE, Sr., A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MONTANA

    Mr. Rosendale. Chairman DeFazio and Ranking Member Graves, 
thank you very much for having me here today.
    As you look to develop surface transportation legislation, 
I ask that you recognize the importance of Federal-aid highways 
in rural States and the vital role they play, not only my 
community, but nationally.
    Federal-aid highways are the lifeblood of Montana's 
economies, serving interstate commerce and tourism, and they 
provide vital connections for people and businesses from all 
over the country. Montana's agriculture, natural resources, and 
energy industries rely heavily on strong highway systems to 
provide access to domestic and international markets. The State 
of Montana has 73,648 miles of road, of which they rely heavily 
on Federal funding, as we have one of the lowest population 
bases in the country. I ask that you recognize the benefits of 
investment in highways in rural States, and the unique 
challenges faced by States with long stretches of road and few 
people to support them.
    Furthermore, I ask that the committee consider legislation 
to invest in our Nation's infrastructure, and I urge you to 
include bipartisan language that authorizes the Keystone XL 
pipeline. As you know, on the first day in office, President 
Biden issued an Executive order revoking the permit for a 
Keystone XL pipeline. I urge you to consider the lasting 
impacts this policy will have on Montana taxpayers and local 
economies.
    The Keystone XL pipeline would cross the United States-
Canadian border in Phillips County, Montana. This project would 
provide 12,000 jobs to the surrounding areas, and has already 
created 200 jobs in Montana alone, therefore stimulating local 
economies and creating additional jobs to support these 
workers.
    The Keystone XL pipeline would generate tens of millions of 
dollars in tax revenues for local communities, including county 
governments and school districts. In fact, the project would 
provide $26 million per year in combined tax revenue to six 
Montana counties, and approximately $60 million annually, 
statewide. The President's decision to cancel the permit will 
eliminate 3,700 Montana-based construction jobs that would have 
garnered $127 million in employment earnings.
    This project would benefit historically poor rural areas. I 
urge the committee to take up bipartisan language that 
authorizes the Keystone XL pipeline.
    Thank you for allowing me to come before the committee to 
discuss Montana's priorities. I yield my remaining time.
    [Mr. Rosendale's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Matthew M. Rosendale, Sr., a Representative 
                 in Congress from the State of Montana
    Chairman DeFazio, Ranking Member Graves, thank you for having me 
here today.
    As you look to develop surface transportation legislation, I ask 
that you recognize the importance of federal-aid highways in rural 
states and the vital role they play not only in my community, but 
nationally.
    Federal-aid highways are the life blood of Montana's economies, 
serving interstate commerce, tourism, and they provide vital 
connections for people and business from all over the country.
    Montana's agriculture, natural resources, and energy industries 
rely heavily on strong highway systems to provide access to domestic 
and international markets.
    The state of Montana has 73,648 miles of road, of which they rely 
heavily on federal funding as we have one of the lowest population 
bases in the country.
    I ask that you recognize the benefits of investment in highways in 
rural states and the unique challenges faced by states with long 
stretches of road and few people to support them.
    Furthermore, I ask that the committee consider legislation to 
invest in our nation's infrastructure, and I urge you to include 
bipartisan language that authorizes the Keystone XL Pipeline.
    As you know, on his first day in office President Biden issued an 
Executive Order revoking the permit for the Keystone XL pipeline.
    I urge you to consider the lasting impacts this policy will have on 
Montana taxpayers and local economies.
    The Keystone XL pipeline would cross the United States-Canadian 
border in Philips County, MT.
    This project would provide 12,000 jobs to the surrounding areas and 
has already created 200 jobs in Montana alone.
    Therefore, stimulating local economies and creating additional jobs 
to support these workers.
    The Keystone XL pipeline would generate tens of millions of dollars 
in tax revenues for local communities, including county governments and 
school districts.
    In fact, the project would provide $26 million per year in combined 
tax revenue to 6 Montana counties.
    The president's decision to cancel the permit, will eliminate 3,700 
Montana based construction jobs that would have garnered $127 million 
in employment earning.
    This project would benefit historically poorer, rural areas.
    I urge the committee to take up bipartisan language that authorizes 
the Keystone XL Pipeline.
    Thank you for allowing me to come before the committee to discuss 
Montana's priorities.
    I yield my time.

    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes Ms. Gay Scanlon from Pennsylvania 
for 5 minutes.

    TESTIMONY OF HON. MARY GAY SCANLON, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Ms. Scanlon. Thank you so much for hosting us to talk about 
the needs of our districts.
    I represent Pennsylvania's Fifth Congressional District, 
which includes parts of Philadelphia and its suburbs, and much 
of the infrastructure network for the region and, in fact, the 
east coast. My district includes Philadelphia's airport, port, 
rail yard, and a key part of the Northeast Corridor, dozens of 
miles of highway and passenger rail lines. Pennsylvania's Fifth 
Congressional District also includes much of the Southeastern 
Pennsylvania Transportation Authority's transit network, which 
operates commuter and light rail lines, subways, trolleys, and 
buses that link Philadelphia and its suburbs.
    The problems facing my district's infrastructure system are 
not that different from those of similar Northeast cities. 
Systems are old, heavily used, and authorities don't have 
enough money to meet their maintenance needs. For decades we 
have allowed this underfunding to persist, so that now the 
Greater Philadelphia area has billions of dollars in 
maintenance backlogs, which, in turn, prevent investment in 
modernization, expansion, or other improvements, as every 
dollar is stretched thin to keep the whole network functioning.
    The Pennsylvania Department of Transportation spends about 
$9 billion a year, and yet this meets only about half the 
Commonwealth's maintenance, modernization, and upgrade needs. 
My region's MPO, the Delaware Valley Regional Planning 
Commission, estimates that the Philadelphia region will need 
$130 billion over the next 25 years to bring the system to a 
state of good repair. And SEPTA has a $5 billion maintenance 
backlog, with a $640 million annual capital budget.
    This lack of funding is unsustainable, and that is why it 
is so important for Congress to get these infrastructure bills 
right. With the right amount of funding, and with the 
commitment of forward-thinking and long-term investments, we 
can provide the foundation for robust economic growth in the 
21st century. The fixes, upgrades, and expansions that Federal 
dollars will facilitate will translate directly into jobs and 
economic activity, as well as less traffic, better and more 
economical road safety, and cleaner air and water.
    And so I ask your committee to continue to lead the way in 
providing robust, comprehensive funding to meet the country's 
infrastructure needs. We need funding for backlogs, new 
projects, climate change mitigation, and road safety; funding 
for airports, ports, and multimodal connections to ensure 
reliable, low-cost supply chains for businesses and 
manufacturers; and funding for Amtrak to improve passenger rail 
service and explore opportunities for high-speed rail.
    The possibilities for our country are endless. We need only 
the imagination to realize these ambitious goals.
    We cannot afford to limit our conversations on 
infrastructure to roads and bridges. Social infrastructure must 
be part of any bill we move forward if we are to maintain 
America's competitiveness in the global economy.
    Congress made great progress last year in passing H.R. 2, 
the Moving Forward Act, which included keystone bills from the 
Education and Labor, Energy and Commerce, and Financial 
Services Committees to rebuild our schools, construct 
affordable housing, and expand broadband access to the whole 
country. These projects, along with affordable, quality 
childcare for our next generation, and provisions to help our 
seniors age in place and with dignity, will have a tremendous 
impact on my constituents, while creating good-paying jobs and 
stimulating economic growth.
    I know that some of these issues may be beyond your 
committee's jurisdiction, but I ask that you please continue 
working with the other committees to ensure that the American 
Jobs Plan meets the ambitious goals set by President Biden. As 
you develop these important infrastructure bills, I thank you 
for keeping these concerns in mind.
    Thank you all again for holding this hearing and allowing 
me to share my district's priorities with you. I yield back.
    [Ms. Scanlon's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Mary Gay Scanlon, a Representative in 
             Congress from the Commonwealth of Pennsylvania
    Chairman DeFazio, Ranking Member Graves, and the entire committee--
thank you for providing your colleagues with the opportunity to voice 
our infrastructure priorities as you all begin working on this year's 
surface transportation reauthorization bill and the American Jobs Plan.
    In the months ahead, Congress has a once in a generation 
opportunity to fix, modernize, and reimagine our infrastructure systems 
to address today's shortcomings and tomorrow's needs. We have aging 
transportation networks, fragile electric grids, and a shamefully 
lacking water infrastructure that leaves an unacceptably high number of 
Americans without clean drinking water or adequate sewage systems. And, 
all of this is happening in the greater context of the climate crisis, 
where on one hand, our infrastructure remains vulnerable to climate 
change, and on the other, smart investments in our infrastructure will 
allow for emissions reductions and greater climate resiliency. So, as 
you consider these problems and the bold solutions necessary to address 
them, I ask that you please consider the needs of my district.
    I represent Pennsylvania's Fifth Congressional district, which 
includes parts of Philadelphia and its suburbs, and much of the city's 
infrastructure network. My district includes Philadelphia's airport, 
port, rail yard, and, as a key part of the northeast corridor, dozens 
of miles of highways and passenger rail lines. PA-5 also includes much 
of the Southeastern Pennsylvania Transportation Authority's transit 
network, which operates multiple commuter and light rail lines that 
link Philadelphia and its suburbs.
    The problems facing my district's infrastructure system are not 
that different from those of similar northeast cities--everything is 
old, heavily used, and transportation authorities don't have nearly 
enough money to meet their maintenance needs. For decades, Congress 
allowed this underfunding to persist, so that now the greater 
Philadelphia area has billions of dollars in maintenance backlogs, 
Which in turn prevent investment in modernization, expansion, or other 
improvements, as every dollar is stretched thin to keep the whole 
network functioning.
    The Pennsylvania Department of Transportation spends about $9 
billion a year, and yet this only meets about half the Commonwealth's 
maintenance, modernization, and upgrade needs. My region's MPO--the 
Delaware Valley Regional Planning Commission--estimates that the 
Philadelphia region will need $130 billion over the next 25 years to 
bring the system to a state of good repair. And, SEPTA has a $5 billion 
maintenance backlog with a $640 million annual capital budget. This 
lack of funding is unsustainable, and that is why it is so important 
for Congress to get these infrastructure bills right.
    With the right amount of funding, and with a commitment to forward-
thinking, long-term investments, we can provide the foundation for 
robust economic growth in the 21st Century. The fixes, upgrades, and 
expansions that federal dollars will facilitate will translate directly 
into jobs and economic activity, as well as less traffic, better road 
safety, and cleaner air and water.
    And so, if there's one thing you take away from my testimony today, 
it's that your committee leads the way in providing robust, 
comprehensive funding to meet the country's infrastructure needs. We 
need funding for backlogs, new projects, climate change mitigation, and 
road safety; funding for airports, ports, and multimodal connections to 
ensure reliable, low-cost supply chains for businesses and 
manufacturers; and funding for Amtrak to improve passenger rail service 
and explore opportunities for high-speed rail. The possibilities for 
our country are endless; we need only the imagination to realize these 
ambitious goals.
    As you continue to develop these important infrastructure bills, 
please keep these concerns in mind. Thank you all again for holding 
this hearing and allowing me to share my district's priorities with 
you.

    Mr. Lynch. The gentlelady yields back.
    The Chair now recognizes the gentleman from Arizona, Mr. 
O'Halleran, for 5 minutes.

TESTIMONY OF HON. TOM O'HALLERAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. O'Halleran. I want to thank the chairman and the 
ranking member. Thank you for offering this important 
opportunity for Members to come before the committee to speak 
about infrastructure priorities. I am grateful for this 
opportunity to highlight the needs of rural and Tribal 
communities across Arizona.
    The lack of bipartisan solutions to our national 
infrastructure has cost communities billions of dollars in 
economic activity and put the lives of children and families 
across the Nation in danger. I am looking forward to a 
bipartisan process going forward.
    To rebuild rural communities, Congress must focus on 
economic development, including high-speed broadband, improving 
educational outcomes, and access to high-quality healthcare in 
rural communities. Rebuilding roads and highways in rural and 
Tribal areas must be a priority for any upcoming infrastructure 
package. While only 19 percent of the United States population 
lives in rural areas, 45 percent of all roadway fatalities 
occur on rural roads, making them two times more deadly than 
urban roads.
    Every day, Arizona families drive on some of the most 
dangerous roads in the country. I just spent my time back in 
the district driving 2,000 miles on rural roads, and I can 
guarantee you they are in terrible shape. Across Arizona's 
First Congressional District alone, dozens of critical roads 
and bridge projects await completion. Arizona ranks the fifth 
highest in fatality rate per 100 million vehicle-miles traveled 
on rural and noninterstate roads.
    The High Risk Rural Roads Safety Grant Program Act of 2021 
would establish a grant program for high-risk rural road 
projects, specifically local and Tribal roads outside State 
department of transportation control. This bill, which I 
introduced with Representative Westerman from Arkansas, will 
invest in safety and economic activity by providing resources 
and funding necessary to carry out critical safety projects.
    Nationally, 43 percent of America's public roads are in 
poor condition, and safety risks will continue to increase 
without action. Inclusion of my bill in an infrastructure 
package would improve the condition of many roads throughout 
the Nation and give rural America an opportunity to get funds 
they might not ever get again.
    Additionally, I encourage the committee to address other 
rural transportation needs. For example, the Forest Service has 
a road and bridge maintenance backlog that exceeds $3 billion. 
Addressing this backlog will stimulate rural economies and 
allow for safer conditions in many forests across the country. 
I have six national forests and the Grand Canyon in the 
district.
    Lastly, water infrastructure, both for flood control and 
safe drinking water, is critical to a successful future for 
many Americans. Finishing projects like the Army Corps Little 
Colorado River Winslow Levee will improve life in rural 
communities and provide good jobs.
    Ensuring all Americans have access to high-speed broadband, 
providing clean water, investing in aging energy systems, and 
rebuilding healthcare infrastructure is essential to American 
success, especially as our communities recover from the COVID-
19 pandemic. This infrastructure package must respond to the 
needs of all Americans, including those in rural and Tribal 
communities.
    The cost of inaction on infrastructure is too high to delay 
any further: first of all, health and safety; secondly, the 
cost just rises exponentially.
    Again, I thank the committee for hearing from all Members, 
and I look forward to working together to address critical 
infrastructure issues.
    Thank you very much, and I yield.
    [Mr. O'Halleran's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Tom O'Halleran, a Representative in Congress 
                       from the State of Arizona
    Chairman DeFazio, Ranking Member Graves, thank you for offering 
this important opportunity for Members to come before the Committee to 
speak about infrastructure priorities.
    I'm grateful for this opportunity to highlight the needs of rural 
and tribal communities across Arizona. The lack of bipartisan solutions 
to our national infrastructure has cost communities billions of dollars 
in economic activity and put the lives of children and families across 
the nation in danger.
    To rebuild rural communities, Congress must focus on economic 
development including high-speed broadband, improving educational 
outcomes, and access to high quality health care in rural communities.
    Rebuilding roads and highways in rural and tribal areas must be a 
priority for any upcoming infrastructure package. While only 19% of the 
US population lives in rural areas, 45% of all roadway fatalities occur 
on rural roads, making them 2 times more deadly than urban roads. Every 
day, Arizona families drive on some of the most dangerous roads in the 
country. Across the 1st Congressional District alone dozens of critical 
road and bridge projects await completion. Arizona ranks the 5th 
highest in fatality rate per 100 million vehicle miles traveled on 
rural and non-interstate roads.
    The High-Risk Rural Roads Safety Grant Program Act of 2021 would 
establish a grant program for high-risk rural road projects, 
specifically local and tribal roads outside state department of 
transportation control. This bill, which I introduced with 
Representative Westerman from Arkansas, will invest in safety and 
economic by providing resources and funding necessary to carry out 
critical safety projects. Nationally, 43% of America's public roads are 
in poor condition and safety risks will continue to increase without 
action. Inclusion of my bill in an infrastructure package would improve 
the condition of many roads across the nation.
    Additionally, I encourage the committee to address other rural 
transportation needs. For example, the Forest Service has a road and 
bridge maintenance backlog that exceeds three billion dollars. 
Addressing this backlog will stimulate rural economies and allow for 
safer conditions in many forests across the country.
    Lastly, water infrastructure, both for flood control and safe 
drinking water is critical to a successful future for many Americans. 
Finishing projects like the Army Corps Little Colorado River Winslow 
Levee will improve life in rural communities, and provide good jobs.
    Ensuring all Americans have access to high-speed broadband, 
providing clean water, investing in aging energy systems, and 
rebuilding health care infrastructure is essential to American success, 
especially as our communities recover from the COVID-19 pandemic. This 
infrastructure package must respond to the needs of all Americans, 
including those in rural and tribal communities. The cost of inaction 
on infrastructure is too high to delay any further.
    Again, I thank the committee for hearing from all members and I 
look forward to working together to address critical infrastructure 
issues.

    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Levin, for 5 minutes.

TESTIMONY OF HON. ANDY LEVIN, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Levin of Michigan. Thank you so much, Mr. Chairman. 
Thanks to Chairman DeFazio and Ranking Member Graves. I really 
appreciate the opportunity to provide testimony on behalf of 
Michigan's Ninth Congressional District as you work to 
reauthorize our Nation's surface transportation programs. On 
behalf of my constituents, I want to highlight the need for 
action on electric vehicle, or EV, charging infrastructure; on 
green transportation infrastructure more broadly; and on 
important local projects across Michigan's Ninth Congressional 
District.
    President Dwight D. Eisenhower once implemented a radical 
idea: a system of highways that would bring America together. 
It is time to expand on that idea and bring America's 
infrastructure into the 21st century. To do that, and to 
encourage our country's needed shift to EVs so that we may end 
our dependence on internal combustion vehicles, we must pass 
the EV Freedom Act, my bill to create a network of high-speed 
EV chargers throughout the National Highway System in 5 years.
    This bill will create thousands of good-paying jobs, with 
robust Buy American and prevailing-wage requirements to protect 
hardworking Americans. I applaud President Biden's commitment 
to expanding the Nation's EV charging network, and rapidly 
building a network of at least 500,000 chargers. But what is 
really needed, the key role of the Federal Government, is to 
provide high-speed chargers along our Nation's roadways to 
facilitate road trips and slay range anxiety. I believe the EV 
Freedom Act is the policy to get us there. We can supercharge 
our economy, create the jobs of the future, further unify our 
country in a sustainable way, and at long last lead the world 
in green energy infrastructure.
    But we can't stop there. The overall transportation sector 
represents the largest source of U.S. greenhouse emissions. We 
need to tackle the climate crisis and our crumbling 
infrastructure simultaneously by taking a big, bold step 
towards total transportation electrification. That is exactly 
what my BUILD GREEN Infrastructure and Jobs Act with Senator 
Warren, Senator Markey, and Representative Ocasio-Cortez will 
accomplish. It invests $500 billion over 10 years in State, 
local, and Tribal projects to jumpstart the transition to all-
electric public vehicles and rail, and modernize the Nation's 
infrastructure. Modeled after the Department of 
Transportation's successful BUILD Grants program, this is the 
investment we need to expand transportation electrification 
with urgency, and create good-paying, union jobs.
    Before I close today, I want to talk about the topic that 
is perhaps most urgent of all: investing in projects that will 
benefit communities in Michigan's Ninth Congressional District. 
My team and I have spent the last month collecting input from 
our local communities on critical transportation projects in 
need of Federal investment to get them across the finish line. 
Every one has funding also from State and local partners.
    I am so grateful to our local leaders who identified 
projects varying from improvements in traffic signals, 
expanding bike lanes, resurfacing badly torn-up roads, 
increasing drainage along roadways, building ADA sidewalk 
ramps, and expanding green infrastructure. I look forward to 
sharing more details about these projects with the committee, 
and I request respectfully that the committee bear these 
priorities in mind when allocating funding to rebuild our 
crumbling roads and bridges, while simultaneously ensuring our 
investments tackle the climate crisis with the urgency and 
boldness it requires.
    Again, I thank you for your consideration and the chance to 
speak to you today. I look forward to working with you on all 
of this, and I yield back.
    [Mr. Levin of Michigan's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Andy Levin, a Representative in Congress 
                       from the State of Michigan
    Chairman DeFazio and Ranking Member Graves: thank you for the 
opportunity to provide testimony on behalf of Michigan's 9th District 
as you work to reauthorize our nation's surface transportation 
programs. On behalf of my constituents, I would like to highlight the 
need for action on electric vehicle--or EV--charging infrastructure, on 
green transportation infrastructure more broadly, and on important 
local projects across Michigan's 9th District.
    President Dwight D. Eisenhower once implemented a radical idea--a 
system of highways that would bring America together. It's time to 
expand on that idea and bring America's infrastructure into the 21st 
century.
    To do that, and to encourage our country's needed shift to EVs so 
that we may end our dependence on conventional vehicles, we must enact 
the EV Freedom Act, my bill to create a network of high-speed EV 
chargers across the national highway system in five years. This bill 
will create thousands of good-paying jobs with robust Buy America and 
prevailing wage requirements to protect hardworking Americans.
    I applaud President Biden's commitment to expanding the nation's EV 
charging network and building rapidly a network of at least 500,000 
chargers. I believe the EV Freedom Act is the policy to get us there. 
We can supercharge our economy, create the jobs of the future, further 
unify our country in a sustainable way and lead the world in green 
energy infrastructure.
    But we cannot stop there.
    The transportation sector represents the largest source of U.S. 
greenhouse emissions.\1\ We need to tackle simultaneously the climate 
crisis and our crumbling infrastructure by taking a big, bold step 
towards total transportation electrification.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency (EPA). (2019). Sources of 
Greenhouse Gas Emissions. https://www.epa.gov/ghgemissions/sources-
greenhouse-gas-emissions
---------------------------------------------------------------------------
    That is exactly what my BUILD GREEN Infrastructure and Jobs Act 
with Senator Warren, Senator Markey and Representative Ocasio-Cortez 
will accomplish. It invests $500 billion over 10 years in state, local 
and tribal projects to jumpstart the transition to all electric public 
vehicles and rail and modernize the nation's infrastructure. Modeled 
after the Department of Transportation's successful BUILD grants 
program, this is the investment we need to expand transportation 
electrification with urgency and create good-paying union jobs.
    Before I close today, I want to talk about the topic that is 
perhaps most urgent: investing in projects that will benefit 
communities in Michigan's 9th district. My team and I have spent the 
last month collecting input from our local communities on critical 
transportation projects in need of federal investment to get them 
across the finish line.
    I'm so grateful to our local leaders, who identified projects 
varying from improvements in traffic signals, expanding bike lanes, 
resurfacing badly torn up roads, increasing drainage along roadways, 
building ADA sidewalk ramps, and expanding green infrastructure.
    I look forward to sharing more details about these projects with 
the Committee and request, respectfully, that the Committee bear these 
priorities in mind when allocating funding to rebuild our crumbling 
roads and bridges while simultaneously ensuring our investments tackle 
the climate crisis with the urgency and boldness it requires.
    Again, I thank you for your consideration and the chance to speak 
to you today. I look forward to working with you.

    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentlelady from Michigan, Mrs. 
Lawrence, for 5 minutes.

   TESTIMONY OF HON. BRENDA L. LAWRENCE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Lawrence. Thank you so much. I am glad to have this 
opportunity.
    We know that the American Society of Civil Engineers 2018 
report stated that Michigan received an overall grade of a D-
plus, which describes our infrastructure systems as old and 
outdated, illustrating how severe Michigan's infrastructure 
challenges are. But Michigan is not alone in this struggle.
    As a former mayor who had responsibility for 
infrastructure, struggling with the budget, trying to figure 
out how to make it work, coming up with our local matches, our 
economic downturn caused by this ongoing COVID-19, investing in 
infrastructure and good-paying jobs are even more imperative to 
my home State and our country's economic development, more than 
ever.
    As the chairman rightfully stated, during the March 25th 
committee hearing with Transportation Secretary Pete Buttigieg, 
we know that in this pivotal time it is not just how much we 
invest, but how we invest these funds that will determine 
whether our infrastructure bill moves our Nation in the right 
direction.
    We move our Nation in the right direction by ensuring that 
the infrastructure package is inclusive. This means ensuring 
women and communities of color are represented in the 
infrastructure workforce. We work to remove any and all 
barriers to the participation. We know that when we commit to 
rebuilding back better, that we cannot rebuild back better if 
it is not rebuilt back better by all of our community, by 
people of color, by women, that when we get all hands on deck, 
all of our economy--and we won't have these pockets of poverty 
left behind as the country is moving forward like we saw in the 
New Deal. We know at that time in our history we were proud of 
our investments, but we left people behind, and we do not want 
to do that this time.
    One of the ways we can do that is by expanding women's 
participation in apprenticeship programs and other job training 
programs. We need to ensure that we are open and inclusive in 
letting of the contracts of these billions of dollars that we 
are going to invest in our infrastructure.
    We know that we have a union President. However, our unions 
cannot continue to do business as usual, or else we will end up 
in the same place that we were before. Our workforce--when you 
go into these communities of color, and they see the truck pull 
up, and we see all these people making these good-paying jobs, 
then we must ensure that they see their community represented 
in these contracts and in the workforce.
    We must also provide supportive service to make it easier 
to participate in job training and apprenticeship programs such 
as pre-apprenticeship and childcare, transportation vouchers, 
tools, workwear, and retention services.
    I want to commend the Biden administration for recognizing 
the need to strengthen our workforce, including investment in 
social infrastructure. Let us be clear about one thing: social 
infrastructure is infrastructure, and it is critical to our 
overall competitiveness.
    I share the chairman's goal to build on H.R. 2, the Moving 
Forward Act, and how those priorities overlap with the 
administration goals of Build Back Better. And we must be able 
to build back better with women and with minorities included as 
a part of this recovery and jobs package.
    As the proud representative of the Motor City, the city 
that put the country on wheels, I stand ready to work with 
members of this committee in a bipartisan manner to rebuild our 
crumbling infrastructure, to electrify our vehicles, and move 
our Nation forward.
    I want to thank you, thank you, Chairman and the ranking 
member, for providing this opportunity, and I yield back. Thank 
you.
    [Mrs. Lawrence's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Brenda L. Lawrence, a Representative in 
                  Congress from the State of Michigan
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for the opportunity to testify today regarding the 
paramount need to invest in our nation's infrastructure.
    I am grateful for the Committee's leadership on this issue and for 
advancing a critically important conversation about how we can move 
forward with surface transportation authorization and promote robust 
investment in our infrastructure.
    As a former Mayor, I understand that investing in our nation's 
infrastructure is not only critical to our economy, but also to our 
nation's recovery.
    One of my top priorities in the 117th Congress is to ``fix the damn 
roads,'' a pointedly accurate statement championed by Michigan Governor 
Gretchen Whitmer.
    Michigan's infrastructure is critical for our economic progress, 
yet because of underinvestments in our roads and bridges, drivers are 
burdened with vehicle repair costs and small businesses suffer due to a 
loss in productivity.
    According to a 2019 report from the Transportation Asset Management 
Council, 39 and 40 percent of major state roads in Michigan were rated 
in poor and fair condition, respectively, while only 21 percent were 
considered to be in good condition.
    Similarly, in the American Society of Civil Engineers' 2018 report 
card, Michigan received an overall grade of D+, which described our 
systems as ``old and outdated,'' illustrating the severity of 
Michigan's infrastructure challenges. Michigan is not alone in that 
struggle--we need a comprehensive investment in our nation's 
infrastructure.
    With the economic downturn caused by the ongoing COVID-19 pandemic, 
investing in infrastructure and good paying jobs are more imperative to 
my home state and our country's economic development than ever before.
    As the Chairman rightfully stated during the March 25, 2021 
Committee hearing with Transportation Secretary Pete Buttigieg: ``We 
know that in this pivotal time, it's not just how much we invest, but 
how we invest these funds that will determine whether an infrastructure 
bill moves our nation in the right direction.''
    We move our nation in the right direction by ensuring that the 
infrastructure package is inclusive.
    This means ensuring women and communities of color are represented 
in the infrastructure workforce, and we work to remove any and all 
barriers to their participation.
    In 2018, women made up nearly 47 percent of the U.S. workforce, but 
only account for 15 percent of the U.S. transportation industry 
workforce.
    We must change this.
    One of the ways we can do this is by expanding women's 
participation in apprenticeship programs and other job training 
programs.
    We must also provide supportive services to make it easier to 
participate in job training and apprenticeship programs, such as pre-
apprenticeship, child care, transportation vouchers, tools, work wear, 
and retention services.
    I want to commend the Biden Administration for recognizing the need 
to strengthen our workforce as well, including investments in social 
infrastructure. Let me be clear about one thing: social infrastructure 
is infrastructure and it is critical to our overall competitiveness.
    I share the Chairman's goals to build on H.R. 2, the Moving Forward 
Act, and how those priorities overlap with the Administration's goals 
to Build Back Better.
    But we must be able to Build Back Better with women included as 
part of this recovery and jobs package.
    As the proud Representative of the Motor City, I stand ready to 
work with Members of this Committee in a bipartisan manner to rebuild 
our crumbling infrastructure and move our nation forward.
    I want to thank the Chairman and Ranking Member for providing me an 
opportunity to testify before you today, and I yield back.

    Mr. Lynch. The gentlelady yields back.
    The Chair now recognizes the gentlelady from Massachusetts, 
Ms. Trahan, for 5 minutes.

  TESTIMONY OF HON. LORI TRAHAN, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mrs. Trahan. Mr. Chairman, Ranking Member Graves, thank you 
for allowing me to testify before you today.
    Two years ago, I came before this committee to urge the 
advancement of two critical priorities for Massachusetts' Third 
Congressional District: reauthorizing and strengthening the 
Pipeline Safety Act, and massively increasing the Federal 
Government support for America's wastewater infrastructure 
needs, in particular, putting an end to combined sewer 
overflows.
    As you know, on the first priority, due in large measure to 
the outstanding work of this committee, as well as the Energy 
and Commerce Committee, the PIPES Act became law at the end of 
2020. This new law improves public safety and energy 
reliability in an environmentally sound manner. I am 
particularly grateful that the package included legislation 
that Senator Markey, Congressman Moulton, and I introduced, the 
Leonel Rondon Pipeline Safety Act.
    This specific measure, which was named in honor of a young 
victim of the gas explosion that struck the Merrimack Valley on 
September 13th, 2018, is designed to prevent the types of 
catastrophic failures that took Leonel's life, injured so many 
others, and destroyed property in the cities of Lawrence and 
the towns of Andover and North Andover. This committee's work, 
I have no doubt, will save lives and property, and it will 
restore peace of mind to the communities that I am honored to 
represent.
    Now that this bill has become law, I ask that you ensure 
the various rulemakings are rolled out on time, and consistent 
with congressional intent. In particular, section 206 includes 
a requirement that qualified employees be present on-site at 
gas distribution system pipeline projects to prevent 
overpressurization.
    In the Merrimack Valley case, a remote system in Ohio 
detected the overpressurization, but could not control the gas 
flow. Had this provision already been in the law, this disaster 
may have been avoided. The PIPES Act requires a new regulation 
on this provision within 180 days of enactment. And as of today 
we are 109 days from enactment. So please be sure that 
deadlines like this one are not allowed to slip.
    With respect to the second matter, wastewater 
infrastructure, the committee's Moving Forward Act marks 
tremendous progress in restoring the Federal Government's role 
in protecting our waterways. As members of this committee know, 
Congress has long extended aid to help our cities and towns 
comply with the Clean Water Act. However, for much of the last 
30 years, this aid has largely come in the form of loans, 
specifically the State revolving funds.
    While these loans are crucial, the cities and towns that I 
represent are in need of grants, as well. Indeed, one of the 
recurring requests from community project funding that I have 
received from mayors and town managers is grant assistance for 
water and wastewater projects.
    The need for these funds to upgrade wastewater systems 
cannot be overstated. Combined sewer systems--outmoded 
technology from the 19th century--routinely convey, by design, 
millions of gallons of untreated sewage directly into nearby 
bodies of water. Representatives Pappas, Kuster, Moulton, and I 
are particularly concerned by the recurring discharge of CSOs 
into the Merrimack River, a drinking water source for over half 
a million people. This is a problem that can only be solved by 
increased Federal investment.
    I was pleased that the Moving Forward Act included a 77-
percent increase in the authorized funding level for the sewer 
overflow control grants program, $2 billion over 5 years. And 
over the last 2 years, Congress has begun providing real 
dollars for the new sewer control grants program. Indeed, the 
EPA announced funding allocations earlier this month. While we 
are not yet hitting the fully authorized level, we are at least 
pointed in the right direction.
    I am especially appreciative of the fact that the committee 
adopted a provision inspired by the Stop Sewage Overflow Act, a 
bill that Representative LaHood and I have filed. The provision 
reduces the CSO grant program's non-Federal cost share 
requirement for economically disadvantaged areas. Households 
struggling to make ends meet simply do not have the space in 
their budgets to continually pay more and more in rising sewer 
rates. This provision will offer some much-needed relief.
    As this committee advances infrastructure legislation, I 
would ask that you include the highest funding level possible 
for the CSO grants program and continue to prioritize easing 
the burden on economically disadvantaged communities in need of 
this aid.
    Thank you so much for your consideration, and I yield back.
    [Mrs. Trahan's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Lori Trahan, a Representative in Congress 
                 from the Commonwealth of Massachusetts
    Chairman DeFazio and Ranking Member Graves, thank you for allowing 
me to testify before you today.
    Two years ago, I came before this committee to urge the advancement 
of two critical priorities for Massachusetts' Third Congressional 
District: Reauthorizing and strengthening the Pipeline Safety Act; and 
massively increasing the federal government's support for America's 
wastewater infrastructure needs--in particular, putting an end to 
combined sewer overflows.
    As you know, on the first priority, due in large measure to the 
outstanding work of this committee as well as the Energy and Commerce 
Committee, the ``PIPES Act'' became law at the end of 2020.
    This new law improves public safety and energy reliability in an 
environmentally sound manner.
    I am particularly grateful that the package included legislation 
that Senator Markey, Congressman Moulton, and I introduced--the Leonel 
Rondon Pipeline Safety Act.
    This specific measure, which was named in honor of a young victim 
of the gas explosions that struck the Merrimack Valley on September 
13th, 2018, is designed to prevent the types of catastrophic failures 
that took Leonel's life, injured many others, and destroyed property in 
the city of Lawrence and towns of Andover and North Andover.
    This committee's work, I have no doubt, will save lives and 
property; and it will restore peace of mind to the communities I'm 
honored to represent.
    Now that this bill has become law, I ask that you ensure the 
various rulemakings are rolled out on-time and consistent with 
Congressional intent.
    In particular, section 206 includes a requirement that qualified 
employees be present on-site at gas distribution system pipeline 
projects to prevent overpressurization.
    In the Merrimack Valley case, a remote system in Ohio detected the 
overpressurization--but could not control the gas flow. Had this 
provision already been in the law, this disaster may have been avoided.
    The PIPES Act requires a new regulation on this provision within 
180 days of enactment.
    As of today, we are 109 days from enactment. Please be sure that 
deadlines like this one are not allowed to slip.
    With respect to the second matter--wastewater infrastructure--the 
committee's Moving Forward Act marked tremendous progress in restoring 
the federal government's role in protecting our waterways.
    As members of this committee know, Congress has long extended aid 
to help our cities and towns comply with the Clean Water Act. However, 
for much of the last 30 years, this aid has largely come in the form of 
loans--specifically, the State Revolving Funds.
    While these loans are crucial, the cities and towns that I 
represent are in need of grants as well. Indeed, one of the recurring 
requests for ``community project funding'' that I have received from 
mayors and town managers is grant assistance for water and wastewater 
projects.
    The need for these funds to upgrade wastewater systems cannot be 
overstated. Combined sewer systems--outmoded technology from the 19th 
century--routinely convey, by design, millions of gallons of untreated 
sewage directly into nearby bodies of water.
    Representatives Pappas, Kuster, Moulton and I are particularly 
concerned by the recurring discharge of C-S-Os into the Merrimack 
River, a drinking water source for over half a million people. This is 
a problem that can only be solved by increased federal investment.
    I was pleased that the Moving Forward Act included a 77 percent 
increase in the authorized funding level for the sewer overflow control 
grants program--$2 billion over five years.
    And over the last two years, Congress has begun providing real 
dollars for the new sewer control grants program. Indeed, the EPA 
announced funding allocations earlier this month. While we're not yet 
hitting the fully authorized level, we're at last pointed in the right 
direction.
    I'm especially appreciative of the fact that the committee adopted 
a provision inspired by the Stop Sewage Overflow Act--a bill that 
Representative LaHood and I have filed. The provision reduces the C-S-O 
grant program's non-federal cost-share requirement for economically-
disadvantaged areas.
    Households struggling to make ends meet simply do not have the 
space in their budgets to continually pay more and more in rising sewer 
rates. This provision will offer some much-needed relief.
    As this committee advances infrastructure legislation, I would ask 
that you include the highest funding level possible for the C-S-O 
grants program and continue to prioritize easing the burden on 
economically-disadvantaged communities in need of this aid.
    Thank you, and I yield back.

    Mr. Lynch. The gentlelady yields back. There is currently a 
vote in Congress on the floor, so we are going to recess just 
briefly, and I am going to run over and vote, and somebody else 
is going to take the chair. So we will just go into a brief 
recess, subject to the will of the chair.
    [Recess.]
    Mr. Kahele [presiding]. The Committee on Transportation and 
Infrastructure will come to order.
    The Chair recognizes Member Mr. Ryan from Ohio.
    Mr. Ryan. Thank you, Mr. Chairman. Can you hear me OK?
    Voice. Yes.
    Mr. Kahele. Yes, Mr. Ryan, we got you loud and clear.
    Mr. Ryan. All right, I appreciate it.

 TESTIMONY OF HON. TIM RYAN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF OHIO

    Mr. Ryan. I want to thank you, Mr. Chairman, and Chairman 
DeFazio, Ranking Member Graves, members of the committee. Thank 
you for the opportunity to testify before you here this 
afternoon. I want to thank Chairman DeFazio for his leadership 
throughout the COVID-19 pandemic, and on each of the COVID-19 
relief packages we passed, and the American Rescue Plan. And as 
Congress begins to do our work on the transportation and 
infrastructure bill, I would like to share some of my 
priorities within the committee's jurisdiction.
    One of my top priorities is making sure that the 
Youngstown-Warren Regional Airport in my district continues to 
fulfill its essential mission as a key component of the local 
transportation infrastructure in northeast Ohio. Market forces 
in recent years, including the most recent setback of U.S. 
commercial air services from COVID-19 travel restrictions and 
health and safety concerns, has left this airport in the 
precarious position of losing its commercial service 
categorization, and being reclassified as a general aviation 
airport, causing the loss of significant dollars intended for 
community airports under the CARES Act and subsequent program 
awards.
    Additionally, the Youngstown-Warren Airport is one of very 
few airports that serve as home to an active Air Force Reserve 
station. This is important, because the airport, regardless of 
whether it is classified as a commercial airport or a general 
aviation airport, is always responsible for maintaining the 
runways for the Air Force C-130s that use them. It is very 
costly for the airport to provide a safely maintained and 
operational facility for the U.S. Air Force, and the 
Youngstown-Warren Airport counts on robust airport improvement 
funds to afford that maintenance.
    I especially want to thank your committee staff, including 
Brian Bell, Alex Burkett, Adam Weiss, and Josue Ambriz for 
taking the time to meet with my staff and the officials from 
the Youngstown-Warren Regional Airport, and offering to work 
with us to get this issue addressed.
    President Biden's call to rebuild our crumbling roads and 
bridges is one that is heard loud and clear in Ohio. Ohio has 
received a C-minus grade on its Infrastructure Report Card. We 
have 1,377 bridges and over 4,925 miles of highway in 
disrepair. There is a desperate need for funding towards Ohio's 
critical means of transportation.
    One well-known example of infrastructure that needs fixing 
is the Brent Spence Bridge connecting Covington, Kentucky, and 
Cincinnati, Ohio. This bridge, which is currently carrying 
double the load it was built for, is critically important to 
Ohio's economy, and Members of Congress and Presidents from 
both parties have been promising to get it fixed for years. Now 
is the time to finally get this bridge fixed.
    Another example of where we need additional investment is 
the Appalachian Development Highway System. I urge the 
committee to fund the completion of this crucial transportation 
network throughout Ohio and Appalachia. Completing this highway 
system will go a long way towards raising the standards of 
living of the people who live in this historically impoverished 
region.
    When it comes to how we move across the country, I believe 
it is crucial that we increase our efforts to support the 
production of electric vehicles and electric vehicle charging 
infrastructure across our country. And investment in this 
technology is an opportunity for the United States to reclaim 
its role as leader in clean technology manufacturing amidst the 
climate crisis.
    Manufacturing electric vehicles will also offer good-paying 
jobs to our workers, but only if we invest in them first. With 
the investments already made here in my district in battery and 
vehicle production, we can continue to lead the way in 
supporting clean energy manufacturing.
    Turning to other parts of our Nation's crumbling 
infrastructure, I have been a long-time advocate that the 
Federal Government must invest in removing dangerous lead pipes 
across the United States. I am encouraged to see the Biden 
administration's infrastructure plan echoes this goal.
    This Congress, I sponsored legislation that would invest 
$100 billion to remove every lead pipe in the country. I 
adamantly believe that every person has a right to clean 
drinking water. We cannot stand by and watch as another 
generation of America's children are neurologically poisoned by 
lead pipes. I urge the committee to make this crisis end.
    America's waterways are another area that I want to work 
with the committee to address. Currently, there is a lack of 
coordination between the Army Corps of Engineers and the EPA 
when it comes to cleaning up polluted rivers. As a result, I 
have a river in my district, the Mahoning River, in desperate 
need of Federal investment. The entire community wishes to get 
this river cleaned up and restored to a free-flowing state, but 
the U.S. Army Corps of Engineers is unwilling to help remove 
contaminated sediment because they are afraid of being sued 
under the Environmental Protection Agency's CERCLA rules.
    The interagency paralysis, which has lasted decades, is a 
shameful example of Government bureaucracy at its worst. I urge 
the committee to work with me on a fix so we do not leave this 
contamination in place, so that we can turn this waterway into 
an economic asset in northeast Ohio, so that our children will 
be able to access this river.
    Lastly, I am thankful that this plan has put jobs and 
rebuilding our American workforce front and center for how we 
accomplish these important priorities. Ohio's workers helped 
build this country into what it is today, and they stand ready 
to build the infrastructure that will be funded by this 
committee. That is why we must maintain strong Buy American 
provisions and protections. I strongly encourage the committee 
to prioritize policies that ensure America's workers build 
America's infrastructure. Doing so is an investment in the 
quality of life of those not only for my constituents in Ohio, 
but for all across the Nation.
    Mr. Chairman, I look forward to working with you, your 
staff, and across the aisle to make sure we address the issues 
outlined here today. Again, thank you for your steadfast 
leadership and attention to these very important issues.
    With that, I yield back the balance of my time.
    [Mr. Ryan's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Tim Ryan, a Representative in Congress from 
                           the State of Ohio
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee--thank you for the opportunity to testify before you this 
morning.
    And thank you Chairman DeFazio for your leadership throughout the 
COVID-19 pandemic and on each of the COVID-19 relief packages we 
passed. Most recently, the American Rescue Plan that is simply an 
amazing achievement on behalf of the American people.
    As Congress begins it work on transportation and infrastructure, I 
would like to share some of my priorities within the Committee's 
jurisdiction.
    One of my top priorities is making sure that the Youngstown Warren 
Regional Airport (YNG) in my district continues to fulfill its 
essential mission as a key component of the local transportation 
infrastructure of Northeast Ohio. Market forces in recent years--
including the most recent setback to US commercial air service from 
COVID-19 travel restrictions and health safety concerns--has left this 
airport in the precarious position of losing its Commercial Service 
categorization and being reclassified as a general aviation airport, 
causing the loss of significant dollars intended for community airports 
under the CARES Act and subsequent programs awards. Additionally, the 
Youngstown-Warren airport is one of very few airports that serves as 
home to an active Air Force Reserve Station. This is important because 
the Airport--regardless of whether it's classified as a commercial 
airport or a general aviation airport--is always responsible for 
maintaining the runways for the Air Force C-130's that use them. It is 
very costly for the Airport to provide a safely maintained and 
operational facility for the U.S. Air Force, and the Youngstown-Warren 
Airport counts on robust Airport Improvement Funds to afford that 
maintenance. I especially want to thank your committee staff--including 
Brian Bell, Alex Burkett, Adam Weiss, and Josue Ambriz--for taking the 
time to meet with my staff and officials from Youngstown-Warren 
Regional Airport and offering to work with us to get this issue 
addressed.
    President Biden's call to rebuild our crumbling roads and bridges 
is one that is heard loud and clear in Ohio. Ohio has received a C- 
grade on its Infrastructure Report Card. We have 1,377 bridges and over 
4,925 miles of highways in disrepair.
    There is a desperate need for funding towards Ohio's critical means 
of transportation. One well-known example of infrastructure that needs 
fixed is the Brent Spence Bridge connecting Covington, Kentucky to 
Cincinnati, Ohio. This bridge, which is currently carrying double the 
load it was built for, is critically important to Ohio's economy and 
Members of Congress and Presidents from both parties have been 
promising to get it fixed for years. Now is the time to finally get 
this bridge fixed.
    Another example of where we need additional investment is the 
Appalachian Development Highway System. I urge the Committee to fund 
the completion of this crucial transportation network throughout Ohio 
and Appalachia. Completing this highway system will go a long way 
toward raising standards of living in this historically impoverished 
region.
    When it comes to how we move across the country, I believe that 
it's crucial that we increase our efforts to support the production of 
electric vehicles and electric vehicle charging infrastructure across 
our country. An investment in this technology is an opportunity for the 
United States to reclaim its role as a leader in clean technology 
manufacturing amidst the climate crisis. Manufacturing electric 
vehicles will also offer good paying jobs to our workers, but only if 
we invest in them first. With the investments already made here in my 
district in battery and vehicle production, we can continue to lead the 
way in supporting clean energy manufacturing.
    Turning to other parts of our nation's crumbling infrastructure, I 
have been a long-time advocate that the federal government must invest 
in removing dangerous lead pipes across the United States. I am 
encouraged to see the Biden Administration's Infrastructure plan echoes 
this goal. This Congress, I've sponsored legislation that would invest 
$100 billion dollars to remove every lead pipe in the country. I 
adamantly believe that every person has a right to clean drinking. We 
cannot stand by and watch as another generation of America's children 
are neurologically poisoned by lead pipes. I urge the Committee to make 
address this crisis.
    America's waterways are another area that I want to work with the 
committee to address. Currently, there is a lack of coordination 
between the Army Corps of Engineers and the EPA when it comes to 
cleaning up polluted rivers. As a result, I have a river in my 
district--the Mahoning River--in desperate need of federal investment. 
The entire community wishes to get this river cleaned up and restored 
to free flowing state but the U.S. Army Corps of Engineers is unwilling 
to help remove contaminated sediment because they are afraid of being 
sued under the Environmental Protection Agency's CERLA rules. This 
interagency paralysis--which has lasted decades--is a shameful example 
of government bureaucracy at its worst. I urge the Committee to work 
with me on a fix so we do not leave this contamination in place and so 
we can turn this waterway into an economic asset for Northeast Ohio.
    Lastly, I am thankful that this plan has put jobs and rebuilding 
our American workforce front in center for how we accomplish these 
important priorities. Ohio's workers helped build this country to what 
it is today, and they stand ready to build the infrastructure that will 
be funded by this Committee. That is why we must maintain strong Buy 
America protections, and I strongly encourage the Committee to 
prioritize policies that ensure America's workers build America's 
infrastructure. Doing so is an investment in the quality of life of 
those not only for my constituents in Ohio, but for all across the 
nation.
    Mr. Chair, I look forward to working with you, with your staff, and 
across the aisle to make sure we address the issues outlined here 
today.
    Again, thank you for your steadfast leadership and attention to 
these important issues.

    Mr. Kahele. Mahalo, Mr. Ryan.
    The Chair will now recognize the Member from the Virgin 
Islands, Ms. Plaskett.

 TESTIMONY OF HON. STACEY E. PLASKETT, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Ms. Plaskett. Thank you very much, Mr. Chairman. Thank you 
to the ranking member. Members of the committee, good afternoon 
and thank you for the opportunity to present a statement of my 
views as we move forward on infrastructure legislation.
    As the Member of Congress representing the Virgin Islands, 
I came to Congress determined to increase long-term Federal 
investment in all types of infrastructure. Supporting the 
movement of people, goods, and information through our 
infrastructure is crucial to driving investment in our 
communities and maintaining America's economic competitiveness.
    President Biden's American Jobs Plan offers us a historic 
opportunity to build on the Moving Forward Act that was passed 
by the House last session and make further progress on 
infrastructure legislation.
    In the midst of so much uncertainty in the economy during 
the current public health crisis, the American people need the 
certainty to count on stable and strong investment in 
infrastructure to sustain and create jobs, as well as to 
enhance the mobility and safety of American motorists, 
passengers, and throughput systems. The American Jobs Plan 
proposes to make a sound investment in America.
    It is my hope that this committee takes care to make sure 
that equally extends to the underserved areas like the U.S. 
Territories--equally, and at the best, with equity. I ask that 
this include provisions to not only reverse the inequitable 
funding cuts endured by the Territories for almost 30 years 
now, but also to help those areas catch up and bring our 
Federal highways up to Federal standards--that being the equity 
portion.
    While several States have received steady incremental 
increases in overall funding since the expiration of the 
Intermodal Surface Transportation Efficiency Act of 1991, when 
the set-aside formula for funding the Territorial highway 
program was scrapped, severe cuts have resulted in great strain 
on the surface transportation infrastructure in the U.S. 
Territories.
    Instead of continuing to receive a percentage of highway 
funding, the allocation for the Territories was frozen at a 
flat-dollar amount, and that continues to this day. As a 
result, the Territorial highway program share of overall 
Federal-aid highway program funding has progressively declined 
by 50 percent from then until now, with the most significant 
decline occurring since enactment of the MAP-21 Act of 2012.
    In the meantime, substandard highways, roads, and other 
infrastructure have been further affected by harsh weather 
patterns which have caused the Virgin Islands and other U.S. 
Territories to have an even more substantial need for Federal 
transportation infrastructure funding. In my district the 
people still feel the aftermath of major category 5 hurricanes 
every day. It has been their new normal for some time before 
the current new normal of life in the midst of a global 
pandemic.
    We know firsthand that there are areas in every reach of 
this country that are in desperate need of revitalizing 
infrastructure. It is my primary request that the bill reported 
out of this committee to implement the American Jobs Plan, with 
respect to surface transportation, will lay the groundwork to 
do that.
    For the long neglected U.S. Territories, I ask that the 
Territorial highway program be returned to the set-aside 
portion of the Federal-aid highway program funding, rather than 
a fixed amount, a set-aside that is equal to one-fifth of 1 
percent of overall Federal-aid highway program funding. I am 
asking for one-fifth of a penny for progress, one-fifth of a 
penny for the people living in the Territory.
    Using the Federal-aid highway program figures from the 
Moving Forward Act, which the House endorsed last year, the 
Territorial highway program would receive approximately $110 
million yearly under this formula, up from the woefully 
deficient $42 million level that is currently received, of 
which the Virgin Islands is apportioned 40 percent, which is 
$16.8 million a year for our roads. Even the smallest States 
with comparable populations would receive 10 times that much in 
highway funding. For more than 25 years, the Territories have 
had to endure with barely more than the same level of funding 
from 1993.
    I would also ask the committee that the amendments 
concerning the Territories added to the surface transportation 
portion of the Moving Forward Act in markup last year be 
continued in this year's surface transportation bill. This 
includes provisions to assist us.
    My time has run out, but I ask that the rest of my 
statement be put into the record, and that the committee 
specifically consider additional modal units necessary for the 
Territories, including broadband and particularly maritime 
services, our ferryboat system and others.
    Thank you very much, and I yield back.
    [Ms. Plaskett's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                        from the Virgin Islands
    Chairman DeFazio, Ranking Member Graves, members of the committee. 
Good afternoon and thank you for the opportunity to present a statement 
of my views as we move forward on infrastructure legislation.
    As the Member of Congress representing the Virgin Islands, I came 
to Congress determined to increase long-term federal investments in all 
types of infrastructure. Supporting the movement of people, goods, and 
information through our infrastructure is crucial to driving investment 
in our communities and maintaining America's economic competitiveness.
    President Biden's American Jobs Plan offers us a historic 
opportunity to build on the Moving Forward Act that was passed by the 
House last session and make further progress on infrastructure 
legislation. In the midst of so much uncertainty in the economy during 
the current public health crisis, the American people need the 
certainty to count on stable and strong investment in infrastructure to 
sustain and create jobs, and enhance the mobility and safety of 
American motorists, passengers, and throughput systems.
    The American Jobs Plan proposes to make a sound investment in 
America. It is my hope that this committee takes care to make sure that 
equally extends to underserved areas like U.S. territories. I ask that 
this include provisions not only to reverse the inequitable funding 
cuts endured by the territories over almost 30 years, but also to help 
these areas ``catch up'' and bring our federal highways up to federal 
standards.
    While the several States have received steady, incremental 
increases in overall funding since expiration of the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA), when the set-aside 
formula for funding the Territorial Highway Program was scrapped, 
severe cuts have resulted in great strain on the surface transportation 
infrastructure in the U.S. territories. Instead of continuing to 
receive a percentage of highway funding, the allocation for the 
territories was frozen at a flat dollar amount and that continues to 
this day. As a result, the Territorial Highway Program share of overall 
Federal-Aid Highway Program funding has progressively declined by 50%, 
from then until now, with the most significant decline occurring since 
enactment of the MAP-21 Act in 2012. In the meantime, substandard 
highways, roads and other infrastructure have been further affected by 
harsh weather patterns, which have caused the Virgin Islands and other 
U.S. territories to have an even more substantial need for federal 
transportation infrastructure funding.
    In my district, the people still feel the aftermath of major 
category 5 hurricanes every day. It's been their ``new normal'' for 
some time before the current ``new normal'' of life in the midst of a 
global pandemic. We know firsthand that there are areas at every reach 
of this country that are in desperate need of revitalizing 
infrastructure. It is my primary request that the bill reported out of 
this committee to implement the American Jobs Plan, with respect to 
surface transportation, will lay the groundwork to do that.
    For the long-neglected U.S. territories, I ask that the Territorial 
Highway Program be returned to a set-aside portion of Federal-Aid 
Highway Program funding, rather than a fixed amount; a set-aside that 
is equal to one-fifth of one percent of overall Federal-Aid Highway 
Program funding. A fifth of a penny for progress. That is what I ask.
    Using the Federal-Aid Highway Program figures from the Moving 
Forward Act, which the House endorsed last year, the Territorial 
Highway Program would receive approximately $110 million yearly under 
this formula, up from the woefully deficient $42 million level that it 
currently receives, of which the Virgin Islands is apportioned 40%, 
which is only $16.8 million each year. Even the smallest States with 
comparable populations would receive ten times that much in highway 
funding. For more than 25 years, the territories have had to endure 
with barely more than the same level of funding they received in 1993. 
The set-aside funding that I have requested will allow for new 
expansion and innovative transportation initiatives, rather than 
cyclically replacing or reconstructing the same infrastructure.
    I would also ask the committee that the amendments concerning the 
territories added to the surface transportation portion of the Moving 
Forward Act in markup last year be continued in this year's surface 
transportation bill. This includes provisions assisting the territories 
to compete within more Department of Transportation programs.
    In addition, as the territories are all insular areas of the United 
States, a separate funding stream for ferry boats and other maritime 
services would be appropriate. Americans in the Virgin Islands live and 
work on several islands that cannot be connected by bridges. Although 
the Virgin Islands received Federal Highway Administration ferry 
program funding in the past, such funding has discontinued since the 
2015 enactment of the FAST Act. Section 1112(c)(2) of the Act 
prohibited federal participation in the construction or purchase, for 
private ownership, of a ferry boat, ferry terminal facility, or other 
eligible project. While the government of the Virgin Islands owns the 
ferry terminals, it cannot afford to own or operate the ferries. As a 
result, the ferries themselves are privately owned and operated. 
Amending the law to exempt the Territorial Highway Program island areas 
from the restrictions on private ownership and operation would make the 
Virgin Islands ferry systems once again able to access Federal Highway 
Administration ferry program funding; and thereby allow for a 
reasonably-priced ferry system, thus growing the local economy.
    Furthermore, I appreciate the opportunity that this committee has 
presented for investment in Member-designated projects this year. In 
the last decade, transformative projects that could catapult regional 
economies frequently get left on the planning room floor, either 
because of their size, complexity, or cost. Member-designated projects 
present a valuable opportunity to jumpstart new projects to connect 
communities from coast to coast, and to make big ideas a reality. In 
the Virgin Islands, opportunities like this are very important, as we 
face unique transportation challenges, based on our geographic 
location, with linking communities on each island area.
    We also must continue our work to create new avenues to fund 
infrastructure projects in local communities that have been left 
behind, and in areas that have traditionally struggled to attract 
infrastructure funding for projects that have holistic community 
support. The Community Transportation Investment Grants program, 
proposed in the Moving Forward Act of last year, would be exclusive to 
local community projects and with broad eligibility to make sure that 
they have fair access to funding and can compete in a broadly 
applicable grant program. I ask that the provisions to establish this 
program be continued in this year's surface transportation 
reauthorization bill. We also should continue proposals for new funding 
streams that specifically target areas and communities with very high 
rates of poverty, and rural areas, including U.S. territories.
    Lastly, in this next bill we must make sure that we are investing 
in building resilient infrastructure, and adopting new, innovative 
technologies that bolster safety and efficiency to create the 
infrastructure of the future. Mr. Chairman, we know that infrastructure 
projects are consistently evaluated as one of the best returns on 
government investments, and that Americans would rather spend more time 
working and doing the things they love than sitting in traffic, wasting 
time and money.
    The American people are very concerned with infrastructure, and 
American business is very concerned with infrastructure. They employ 
Americans, and they subcontract with our small businesses. The 
resulting cycle creates real growth and wealth in our communities in 
addition to getting them to and from work without a headache.
    We must show our constituents, and our colleagues in the Senate, 
that we are determined to increase long-term federal investments in all 
types of infrastructure, and to build back better than we were before. 
Thank you.

    Mr. Kahele. Thank you, Ms. Plaskett, and we will ensure 
that your testimony gets submitted into the record. Thank you 
very much.
    Ms. Plaskett. Thank you.
    Mr. Kahele. The Chair would like to now recognize the 
Member from Illinois, Mr. Schneider, for 5 minutes.

TESTIMONY OF HON. BRADLEY SCOTT SCHNEIDER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Schneider. Thank you, Mr. Chairman. I want to thank the 
committee for this opportunity to testify. I also want to thank 
the committee for your flexibility in accommodating the changes 
in the schedule today.
    My goal today is to bring to the attention of the Committee 
on Transportation and Infrastructure the priorities of my 
district as you all consider relevant legislation.
    The U.S. is the wealthiest country in the world, but we 
rank only 13th on the quality of our infrastructure. The need 
for significant Federal investment in infrastructure is 
undeniable. This is something we can all agree on, regardless 
of party lines, regardless of whether you come from an urban or 
a rural area.
    In the 10th Congressional District of Illinois, like the 
rest of the country, infrastructure means more than roads and 
bridges. It means adequate stormwater management and flood 
mitigation systems. It means affordable and accessible public 
transit. And it means that any investment in infrastructure, 
existing or new, must prioritize climate resiliency and 
transitioning to a green economy.
    Every day, more people come to the realization that climate 
change poses an existential threat to our way of life. As we 
are already seeing its impact in our own communities, data 
shows that precipitation in my district is increasing, which my 
constituents have experienced firsthand in the form of severe 
flooding. During the past 4 years, the Des Plaines River Trail 
in Lake County was flooded 50 percent of the time. Let me 
repeat that: the Des Plaines River Trail in Lake County was 
flooded 50 percent of the time.
    Investing in our infrastructure, reimagining and building 
in resilience by design will pay dividends down the road, 
especially as climate change continues to test our existing 
infrastructure. FEMA estimates that, for every dollar invested 
in flood mitigation, there are $4 of public benefit. As the 
committee looks at prospective infrastructure legislation, I 
urge you to consider the impacts of climate change and building 
climate resiliency into our infrastructure investments, 
including flood mitigation.
    We must also continue robust support for public transport. 
My district is part of the Chicagoland region, which has the 
second largest public transportation system in the United 
States. During the pandemic, ridership on suburban 
Chicagoland's Metra commuter trains fell 90 percent, and 
ridership on the city's CTA trains fell 80 percent.
    Thanks to the funding from the CARES Act, Chicago was the 
only major city that was able to continue providing normal 
service on trains and buses. But as people begin to return to 
their workplaces, and we return to a somewhat normal life, our 
public transportation system must be equipped to handle the 
demand. I encourage the committee to significantly invest in 
accessible and affordable public transportation.
    Finally, I encourage the committee to continue to 
prioritize bipartisanship as it considers upcoming 
infrastructure legislation. Decades of underinvestment in 
infrastructure has touched every State and every community in 
our country. As we begin to recover from the pandemic, we can 
best build our communities back better than they were before 
only if we work together on both sides of the aisle.
    I want to thank the committee for the opportunity to 
advocate on behalf of my district, and I yield back the balance 
of my time.
    [Mr. Schneider's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Bradley Scott Schneider, a Representative in 
                  Congress from the State of Illinois
    Thank you, Mr. Chairman, for the opportunity to testify. I hope to 
bring to your attention the infrastructure and transportation 
priorities of my district as you consider relevant legislation.
    The U.S. is the wealthiest country in the world, but we rank only 
13th on the quality of our infrastructure. The need for significant 
federal investment in infrastructure is undeniable. This is something 
we can all agree on--regardless of party lines, regardless if you come 
from an urban area or a rural area.
    In the 10th District of Illinois, infrastructure means more than 
roads and bridges. It means adequate stormwater management and flood 
mitigation systems. It means affordable and accessible public transit. 
And it means that any investment in infrastructure--existing or new--
must prioritize climate resiliency and transitioning to a green 
economy.
    Climate change poses an existential threat to our way of life, and 
we are already seeing its impact in our own communities. Data shows 
that precipitation in my district is increasing, which my constituents 
have experienced firsthand in the form of severe flooding. During the 
past four years, the Des Plaines River trail in Lake County was flooded 
50% of the time. Investing in our infrastructure now will pay dividends 
down the road, especially as climate change continues to test our 
existing infrastructure. FEMA estimates that for every dollar invested 
in flood mitigation, there are four dollars of public benefits. As the 
committee looks at prospective infrastructure legislation, I urge you 
to consider the impacts of climate change and building climate 
resiliency into our infrastructure investments, including flood 
mitigation.
    We must also continue robust support for public transit. My 
district is a neighbor to Chicago, which has the second largest public 
transportation system in the U.S. During the pandemic, ridership on 
suburban Chicagoland's Metra commuter trains fell 90% \1\ and ridership 
on the city's CTA trains fell 80%. Thanks to funding from the CARES 
act, Chicago was the only major city that was able to continue 
providing normal service on trains and buses. But as people begin to go 
back to work and we return to somewhat normal life, our public 
transportation systems must be equipped to handle the demand. I 
encourage the Committee to significantly invest in accessible and 
affordable public transportation.
---------------------------------------------------------------------------
    \1\ Source: https://www.wbez.org/stories/chicago-area-transit-
agencies-face-drastic-service-cuts-as-pandemic-ridership-plummets/
eee8850e-73af-4443-be32-c3f996169117
---------------------------------------------------------------------------
    Finally, I encourage the Committee to prioritize bipartisanship as 
it considers upcoming infrastructure legislation. Decades of 
underinvestment in infrastructure has hurt every state and every 
community in the country. As we begin to recover from the pandemic, we 
can build our communities back better than they were before only if we 
work together on both sides of the aisle.
    Thank you for the opportunity to advocate on behalf of my district. 
I yield back.

    Mr. Kahele. Mahalo, Mr. Schneider.
    The Chair would like to now recognize a Member from 
Indiana, Mr. Mrvan, for 5 minutes.

TESTIMONY OF HON. FRANK J. MRVAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Mrvan. Thank you, Chairman. I would first like to thank 
the chairman, ranking member, and all the members of the House 
Committee on Transportation and Infrastructure for holding 
today's hearing.
    I have the great privilege of representing Indiana's First 
Congressional District, which is an incredible hub of economic 
and transportation networks. Our road, rail, waterway, and 
airport transportation systems connect the northwest Indiana 
regional economy to the Chicago economy and our Nation. Our 
unique location, coupled with Indiana's strong labor 
organizations that have skilled craft workers and our low-tax, 
business-friendly environment, continues to attract new 
residents and diversifies our economic development.
    To better serve this demand, and relieve the traffic and 
congestion of our utilized transportation networks, I 
appreciate the opportunity presented by this committee to 
appear and testify today, and also that we have the ability to 
submit specific projects to the committee that will have 
tremendous benefit and economic revitalization in northwest 
Indiana's economy.
    I am grateful for your commitment to utilizing the full 
capabilities of the legislative branch, and look forward to 
continuing to work with the committee to advocate for regional 
and transformational projects that will benefit individuals, 
families, workers, and businesses throughout northwest Indiana.
    Additionally, with regard to policy, I appreciate the 
opportunity to be able to advocate for provisions regarding 
prevailing wage and project labor agreements, as well as strong 
Buy America requirements in legislation before your committee.
    I also would note the critical importance of the Capital 
Investment Grant program, which is currently contributing to 
transformational investments in the South Shore Rail Line that 
will fundamentally improve the trajectory of northwest 
Indiana's economy for the next generation of residents.
    As Congress prepares to consider much-needed investments in 
the Nation's public works infrastructure, we must ensure that 
every American has a good-paying job with safe workplace 
conditions. Prevailing wage requirements, also known as the 
Davis-Bacon requirements, protect communities and workers from 
unscrupulous contractors responding to bids on federally funded 
projects by setting wage rates to the local or prevailing 
standard.
    Additionally, PLAs simply govern the terms and the 
conditions of employment for union and nonunion workers on 
federally funded projects, and help eliminate any delays 
related to labor conflicts or shortages of skilled workers.
    I also strongly support rigorous Buy America policies to 
ensure that our American transportation infrastructure is 
constructed with American-made iron, steel, and manufacturing 
products. Domestic content provisions are common sense and good 
Government policies that strengthen our national defense, 
create good-paying jobs, and support a robust national economy.
    To demonstrate the bipartisan support of strong Buy America 
requirements, I would like to submit the recent letter 
circulated to the leadership by the Congressional Steel Caucus, 
on which I serve as cochairman. We must ensure that American-
made goods are used in taxpayer-financed infrastructure as our 
Nation continues to move ahead to full economic recovery.
    [The information follows:]

                                 <F-dash>
    Letter of April 14, 2021, from the Congressional Steel Caucus, 
            Submitted for the Record by Hon. Frank J. Mrvan
                                                    April 14, 2021.
Hon. Nancy Pelosi,
Speaker,
House of Representatives, H-232, U.S. Capitol, Washington, DC 20515.
Hon. Kevin McCarthy,
Minority Leader,
House of Representatives, H-204, U.S. Capitol, Washington, DC 20515.
    Dear Speaker Pelosi and Minority Leader McCarthy:
    As the House prepares to consider much needed investments in the 
nation's expansive public works infrastructure, we write to express our 
expectation that these investments be coupled with strong Buy America 
policies and constructed with American-made iron, steel, and 
manufactured products. These commonsense policies are an effective, 
trade-compliant tool to strengthen the economy and create jobs, while 
promoting a cleaner economy by rewarding U.S. production that meets our 
environmental regulations. These commonsense policies also work to 
shore up our national defense and preparedness as fragile U.S. supply 
chains have been exposed by the COVID-19 pandemic and its recovery 
efforts.
    For more than a century, America's steel industry has supplied the 
vast needs of our nation's highway, bridge, transit, rail, airport, 
water, construction, energy, and other critical infrastructure. These 
markets are critically important to the domestic steel industry and its 
workers, who continue to face unprecedented challenges due to dumped 
and subsidized imports and chronic global steel overcapacity. The 
COVID-19 pandemic has further exacerbated these problems, with demand 
still lagging its pre-pandemic levels.
    As the House works to enact measures that will support a robust 
recovery, it is essential that public infrastructure investments be 
directed to U.S. production and American workers throughout the 
steelmaking supply chain. Accordingly, we urge improvements that 
broaden Buy America application across all forms of federally assisted 
and direct federal infrastructure spending, while covering more 
materials beyond iron and steel, closing loopholes, and defending the 
``all manufacturing processes'' standard which ensures that raw steel 
production occurs here in the United States. Each dollar that is 
directed overseas is a missed opportunity to revitalize our nation's 
manufacturing sector and create good wage jobs for American workers. 
Furthermore, China's state-owned and state-subsidized manufacturers 
should not have access to American tax dollars.
    American manufacturing stands to benefit from both a more efficient 
network to move goods to market and the increased demand generated for 
domestically produced iron, steel, and manufactured goods. As members 
of the Congressional Steel Caucus, we stand ready to work on a 
meaningful infrastructure package--one that prioritizes U.S. production 
and American workers.
        Sincerely,
                                                Conor Lamb,
       Member of Congress, Co-Chairman, Congressional Steel Caucus.
                                            Frank J. Mrvan,
       Member of Congress, Co-Chairman, Congressional Steel Caucus.
                                             Rick Crawford,
  Member of Congress, Co-Vice Chairman, Congressional Steel Caucus.
                                                 Mike Bost,
  Member of Congress, Co-Vice Chairman, Congressional Steel Caucus.
Robert B. Aderholt.

Colin Allred.

James R. Baird.

Troy Balderson.

Jim Banks.

Dan Bishop.

Sanford D. Bishop, Jr.

Larry Bucshon, M.D.

Cheri Bustos.

Jerry L. Carl.

Andre Carson.

David N. Cicilline.

Sharice Davids.

Rosa DeLauro.

Debbie Dingell.

Brian Fitzpatrick.

Jeff Fortenberry.

John Garamendi.

Bob Gibbs.

Anthony Gonzalez.

Paul Gosar.

Eleanor Holmes Norton.

Chrissy Houlahan.

Bill Johnson.

David P. Joyce.

Marcy Kaptur.

Mike Kelly.

Trent Kelly.

Daniel T. Kildee.

Andy Levin.

Nancy Mace.

Lisa McClain.

Betty McCollum.

James P. McGovern.

David B. McKinley, P.E.

Mariannette Miller- Meeks.

Blake Moore.

Chris Pappas.

Mark Pocan.

Guy Reschenthaler.

Tim Ryan.

Jan Schakowsky.

Pete Stauber.

Steve Stivers.

Claudia Tenney.

Mike Turner.

Dr. Jeff Van Drew.

Tim Walberg.


    Mr. Mrvan. Thank you again to Chairman DeFazio and Ranking 
Member Graves, and all the members of the Transportation and 
Infrastructure Committee, for the opportunity to testify, and 
for your dedicated work to grow our economy and improve our 
transportation infrastructure with transformational projects 
and policies that will benefit all current Americans and future 
generations.
    With that, I yield back.
    [Mr. Mrvan's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Frank J. Mrvan, a Representative in Congress 
                       from the State of Indiana
    I would like to thank Chairman DeFazio, Ranking Member Graves, and 
all the Members of the House Committee on Transportation and 
Infrastructure for holding today's hearing.
    I have the great privilege of representing Indiana's First 
Congressional District, which is an incredible hub of economic and 
transportation networks. Our road, rail, waterway, and airport 
transportation systems connect the Northwest Indiana regional economy 
to the Chicago economy and our nation. Our unique location, combined 
with Indiana's strong labor organizations that provide skilled craft 
workers and our low-tax, business friendly environment, continues to 
attract new residents who diversify our economic development. To better 
serve this demand and relieve the traffic and congestion of our 
utilized transportation networks, I appreciate the opportunity to 
appear and testify today, and I thank the Committee for soliciting 
projects that will have a transformative impact on our nation, 
including the Northwest Indiana economy. I am grateful for your 
commitment to utilizing the full capabilities of the Legislative Branch 
and look forward to continuing to work with the Committee to advocate 
for regional and transformational projects that will benefit 
individuals, families, workers and businesses throughout Northwest 
Indiana.
    Additionally, with regard to policy, I appreciate the opportunity 
to be able to advocate for provisions regarding prevailing wage and 
Project Labor Agreements (PLAs), as well as strong Buy America 
requirements in legislation before your Committee. I also would note 
the critical importance of the Capital Investment Grant program, which 
is currently contributing to transformational investments in the South 
Shore Rail Line that will fundamentally improve the trajectory of the 
Northwest Indiana economy for the next generation of residents.
    As Congress prepares to consider much needed investments in the 
nation's public-works infrastructure, we must ensure that every 
American has a good-paying job with safe workplace conditions. 
Prevailing wage requirements, also known as Davis-Bacon requirements, 
protect communities and workers from unscrupulous contractors 
responding to bids on federally-funded projects by setting wage rates 
to the local or prevailing standard. Additionally, PLAs govern the 
terms and conditions of employment for union and non-union workers on 
federally-funded projects, and help eliminate any delays related to 
labor conflicts or shortages of skilled workers.
    I also strongly support rigorous Buy America policies to ensure 
that our American transportation infrastructure is constructed with 
American-made iron, steel, and manufacturing products. Domestic content 
provisions are common-sense and good-government policies that 
strengthen our national defense, create good-paying jobs, and support a 
robust national economy. To demonstrate the bipartisan support for 
strong Buy America requirements, I would like to submit this recent 
letter circulated to House leadership by the Congressional Steel 
Caucus, on which I am proud to serve as Co-Chairman. We must ensure 
that American-made goods are used in taxpayer-financed infrastructure 
as our nation continues to move ahead to full economic recovery.
    Thanks again to Chairman DeFazio, Ranking Member Graves, and all of 
the Members of the Transportation and Infrastructure Committee for the 
opportunity to testify, and for your dedicated work to grow our economy 
and improve our transportation infrastructure with transformational 
projects and policies that will benefit all Americans and future 
generations.

    Mr. Kahele. Mahalo, Mr. Mrvan.
    The Chair would like to now recognize the Member from 
Wisconsin, Ms. Moore, for 5 minutes.

TESTIMONY OF HON. GWEN MOORE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Ms. Moore. Thank you so very, very much, Chairman DeFazio 
and Ranking Member Graves. I really appreciate the opportunity 
to testify today about our Nation's infrastructure priorities 
and the upcoming reauthorization of our highway and transit 
programs.
    I would love to be able to submit my full testimony so I 
don't exceed the 5-minute limit.
    As you know, President Biden's infrastructure and jobs plan 
details a number of important priorities to address 
transportation and infrastructure needs, and to put our 
citizens back to work, and to build back better. And so I want 
to outline some priorities that should guide this work.
    I know, Mr. Chairman and members of this committee, you are 
receiving a lot of input, hearing many concerns from many 
Members in this body. And my hope is that, with all of this 
discussion regarding the different types of products, projects 
funded, and methodologies, and vendors, and funding sources, 
and workforce development, and jobs projections, all of this, I 
am hoping that the people and workers and construction of these 
projects--that you hold equity and environmental justice as 
guiding principles. There is no one package that can solve 
every problem. But by centering the needs of those who are most 
impacted, we can be sure that this package will not only work 
for all of our goals, but also help us all build back better 
for everyone.
    A priority of mine is making sure that needed 
infrastructure investments promote equity throughout. And I 
think it is important to note that the communities who suffer 
the most as a result of previous highway policies and aging 
transit and water infrastructure also face the highest levels 
of poverty, unemployment, pollution, and other forms of 
discrimination based on social status, race, and income levels.
    In the upcoming highway and transit reauthorization and any 
future infrastructure package, I request that you ensure that 
these investments create real and sustainable pathways for 
minority and underserved communities to work on projects funded 
through the bill. This must include directly tying 
transportation investments to the creation of jobs in these 
targeted communities, such as those laid out in section 3 of 
the Housing and Urban Development Act of 1968. That provision 
requires that recipients of HUD funds ``to the greatest extent 
possible, provide job training, employment, and contract 
opportunities for low- or very low-income residents in 
connection with projects and activities in their 
neighborhoods.''
    I recommend that a similar provision be attached to 
highway, transit, and other infrastructure programs under the 
jurisdiction of this committee. And when I say ``jobs,'' I mean 
job training, internships, mentorships, apprenticeships, and 
vendor opportunities, among other things.
    We can work with stakeholders to make this happen in labor, 
Government, workforce development boards, and the nonprofit 
sectors. I urge the committee to take advantage of this 
generational opportunity. Not only can we help create and 
support better transportation investments, but also create real 
career pathways to good-paying jobs that will create hope and 
income long after the last construction contract has been let.
    According to a Pew Research Center survey, providing more 
substantial public transit funding is required to build equity 
into our Nation's transportation options. Indeed, Black and 
Brown populations disproportionately depend on public transit 
to access employment opportunities to meet the everyday 
transportation needs. Today, 38 percent of Black and Hispanic 
citizens say that they take public transportation, compared to 
7 percent of our White citizens in the United States. In my 
city, over the last decade, public transit service lines have 
been cut, and fare prices increased, and this has hurt the most 
vulnerable, while also making it harder to get to work, 
especially as that work has moved outside the city that is not 
polluted, and outside the city center.
    We need a new highway bill that reverses this pattern of 
disinvestment to allow our local communities the ability to 
support viable and strong public transit networks, including to 
reach major employment centers. Historically, public transit 
has been the stepchild of the Highway Trust Fund, with the 
historic split of 80-20 of trust fund revenues. In an era of 
equity, it is time we rethink that split, and begin to ensure a 
more robust investment in public transportation and in greening 
and cleaning our environment. I hope that the committee will 
use this opportunity to address the need to update the funding 
split, to expedite the pace in which we invest in historically 
underfunded transportation.
    Again, environmental justice is another area that we need 
to look at in terms of equity, not only in cleaning up these 
environmental disasters in these communities, but providing 
training and job opportunities for those people affected to 
participate in the wealth that can be--and job opportunities 
created in cleaning up, and building back better, and 
participating in these transportation projects.
    I could go on and on, but I am chastened by the gavel. And 
I just want to thank you all for your attention and giving me 
the opportunity to share my vision of building back better 
today.
    And I will yield back and remain here for any questions.
    [Ms. Moore's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Gwen Moore, a Representative in Congress 
                      from the State of Wisconsin
    Chairman DeFazio and Ranking Member Graves,
    I appreciate the opportunity to testify today about our nation's 
infrastructure priorities and the upcoming reauthorization of our 
highway and transit programs. As you know, President Biden's 
infrastructure and jobs plan details a number of important priorities 
to address transportation and infrastructure needs and put our citizens 
back to work.
    I commend the President's ambitious proposal As this Committee 
works on putting together the specifics of this package and the 
upcoming surface transportation reauthorization, I wanted to outline 
some priorities that should guide this work.
                                 Equity
    Workforce Development--Mr. Chairman and members of this Committee, 
I know you will receive much input and hear many concerns from members 
in this body. My hope is that in all discussion regarding the types of 
projects funded, the way that funding is allocated, and the people and 
workers involved in the construction of those projects, you hold equity 
as a guiding principle.
    No one package can solve every problem, but by centering the needs 
of those most impacted, we can be sure that this package will not work 
against our goals of Building Back Better for everyone.
    A priority of mine is making sure needed infrastructure investments 
promote equity throughout. I think it is important to note that the 
communities who suffer the most as a result of previous highway 
policies and aging transit and water infrastructure also face the 
highest levels of poverty and unemployment, and other forms of 
discrimination based on social status, race, and income level.
    In the upcoming highway and transit reauthorization and any future 
infrastructure package, I request that you ensure that these 
investments create real and sustainable pathways for minority and 
underserved communities to work on projects funded through the bill. 
This must include directly tying transportation investments to the 
creation of jobs in the targeting communities, such as those laid out 
in Section 3 of the Housing and Urban Development Act of 1968. That 
provision requires that recipients of HUD funds, ``to the greatest 
extent possible, provide job training, employment, and contract 
opportunities for low- or very-low income residents in connection with 
projects and activities in their neighborhoods.'' I recommend that a 
similar provision be attached to highway, transit, and other 
infrastructure programs under the jurisdiction of this committee.
    And when I say jobs, I mean job training, internships, mentorships, 
and apprenticeships, among others. We can work with stakeholders to 
make this happen.
    I urge the Committee to take advantage of this opportunity. Not 
only can we help create and support better transportation investments, 
but also create real career pathways to good paying jobs that will 
create hope (and income) long after the last construction cone has gone 
away.
    Environmental Justice--In the same vein, there are many ways that 
this package can address the myriad environmental injustices experience 
by minority and low-income communities.
    Black and brown populations disproportionately depend on public 
transit to access employment opportunities and to meet the everyday 
transportation needs. Today, 38% of Black and Hispanic citizens say 
they take public transportation compared to just 7% of white people in 
the United States, according to a Pew Research Center survey.\1\
---------------------------------------------------------------------------
    \1\ Pew Research Center, Apr. 7, 2016, ``Who relies on public 
transit in the U.S.,'' https://www.pewresearch.org/fact-tank/2016/04/
07/who-relies-on-public-transit-in-the-u-s/
---------------------------------------------------------------------------
    Providing more substantial public transit funding is required to 
build equity into our nation's transportation options, and to support 
the communities who are already most vulnerable to the environmental 
and climate hazards this package aims to address.
    In my city, over the last decade, public transit has seen service 
cuts and fare reductions that have hurt the most vulnerable the most 
while also making it harder to get to work, especially as work has 
moved outside the city center. We need a new highway bill that reverses 
this pattern of disinvestment to allow our local communities the 
ability to support viable and strong public transit networks, including 
to reach major employment centers.
    Additionally, attention to environmental justice in this package 
would mean that all federally funded transportation projects not only 
center the needs of the communities they are impacting, but also 
adequately address any concerns they may have with the project. 
Meaningful engagement and ability to voice concerns on transportation 
projects has been a fallacy for many inner city and other communities 
that have often been pushed to the side whenever discussion about how 
to meet a community's transportation needs are brought up, even in the 
NEPA process.
    Equity and environmental justice require this bill to give all 
communities a real voice in the transportation planning, project 
development, and alternatives development process. We should not use 
the guise of expediting projects to eliminate meaningful engagement of 
communities of color into these efforts. This bill should elevate 
engagement as a deliberate and intentional policy choice.
    I ask that this Committee focus your solutions through an 
Environmental Justice lens. We cannot afford for the solutions we 
embrace to perpetuate any further harm on those who have already 
suffered so much at the hands of racially blind and discriminatory 
infrastructure investments.
                          Milwaukee Priorities
    In Milwaukee, we have many significant infrastructure needs that 
could benefit from the package this Committee produces.
    Water Infrastructure--In addition to working with other relevant 
committees on replacing and repairing harmful lead piping and other 
aging drinking water infrastructure, matters about which we've already 
spoken Mr. Chairman, we also need greater investment in wastewater and 
stormwater management.
    Milwaukee is facing increasingly frequent 500-year flooding events 
as both summer and winter storms increase in frequency due to Climate 
Change. These storms come at steep cost, not only to our public 
infrastructure, but also to our federal government as FEMA disaster 
loans are issued to help our citizens recover.
    In January 2020, a winter storm caused more than $4.1 million of 
damage at Port Milwaukee. This was on top of the $3.1 million worth of 
damage caused by a Derecho on the Summer of 2019.
    Our waste and storm water management infrastructure, both man-made 
and green, must be maintained or, in most cases, improved to make 
Milwaukee more resilient to these extreme weather events.
    Separately, as this Committee looks at funding highway projects, I 
also support the inclusion of ``Dig Once'' provisions that would 
require an assessment of the water and other infrastructure needs 
underneath the roadway being torn up. This would expedite the speed at 
which our infrastructure needs are addressed and ensure we do not 
double or triple the costs of projects by paving and reconstructing 
roadways unnecessarily.
    Public Transit and Highways--Historically, public transit has been 
the stepchild of the highway trust fund with a historic split of 80/20% 
of trust fund revenues. In an era of equity, it's time we rethink that 
split and begin to ensure a more robust investment in public 
transportation. I hope the Committee will use this opportunity to 
address the need to update the funding split to expedite the pace at 
which we invest in historically underfunded public transportation 
projects.
    In Milwaukee County, going to work or employment related activities 
are the number one reason cited for bus ridership.
    Transit equity means not only maintaining existing highway 
infrastructure, which in many cases was built over and through minority 
communities, but also substantially, thoroughly, and aggressively 
funding the public transportation projects these communities 
desperately need to access gainful employment and live their everyday 
lives.
    It also means rethinking the structure by which environmental 
impact studies are conducted for highway and transit projects to ensure 
these communities are not further harmed or displaced by these 
projects. In some cases, it may even mean tearing down highways as they 
are no longer needed. In all cases this must be done with full input 
from the affected community and ensure that all alternatives, including 
transit options, are really considered rather than just the need to 
check a box.
    As this committee increases its investment in public 
transportation, greater funding is needed to support the adoption of 
electric buses and the related charging infrastructures to help us get 
to a cleaner fleet. Unfortunately, for local and state governments, 
such projects are cost prohibitive except for the largest providers. In 
the FAST Act, this committee took a step forward with a new competitive 
grant program to promote zero and low-emission buses and I urge the 
committee to strongly build on that foundation in the upcoming bill.
    Lastly, in closing,
    Among specific Milwaukee's priorities are:
    <bullet>  An expansion of our streetcar system, The Hop, which 
would provide greater connectivity to minority communities who were not 
connected during the system's original concept. Again, demonstrate the 
need for strong federal funding for transit so that localities can 
pursue opportunities such as the HOP.
    <bullet>  Support for bus rapid transit routes to provide improved 
service and shorter trip times to the communities in the center of 
Milwaukee County. Last year, the FTA signed off on the first bus rapid 
transit route in Wisconsin which begins in my district and connects to 
a major/health complex and employer in the near suburbs. These kinds of 
projects make sense and I know my community can benefit from additional 
such investments.
    <bullet>  Increased funding to protect transit operators. Assaults 
against these men and women continue and we need to do more to protect 
them.
    <bullet>  Increased funding to help overcome COVID-19 transit 
budget shortfalls due to lower ridership/fare collection. The committee 
should look at allowing larger transit operators to be able to use 
federal funding to support operating costs.

    Electric Vehicles--Additionally, I know that the deployment of EV 
charging infrastructure is a major consideration in the upcoming bill. 
As this committee is developing policy to support this deployment, I 
would urge you to ensure that affordable and fast EV charging 
infrastructure, electric grid improvements, and battery recycling 
programs are distributed, not just equally, but also equitably, across 
all communities. Charging stations shouldn't skip zip codes or parts of 
town.
    In a city as diverse and racially segregated as Milwaukee, we have 
seen how expanded access to new technologies can benefit the wealthy 
few at the top, while leaving the vulnerable many at the bottom.

    Mr. Kahele. Mahalo, Ms. Moore.
    Ms. Moore. Yes.
    Mr. Kahele. This concludes today's hearing. I want to again 
thank all of my colleagues who took the time to testify today.
    I ask for unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    The committee stands adjourned.
    [Whereupon, at 4:53 p.m., the committee was adjourned.]


                       Submissions for the Record

                              ----------                              

 Letter of April 14, 2021, from the Agricultural and Food Transporters 
   Conference et al., Submitted for the Record by Hon. Troy Balderson
                                                    April 14, 2021.
Hon. Maria Cantwell,
Chair,
Senate Committee on Commerce, Science, and Transportation.
Hon. Peter DeFazio,
Chair,
House Committee on Transportation and Infrastructure.
Hon. Roger Wicker,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation.
Hon. Sam Graves,
Ranking Member,
House Committee on Transportation and Infrastructure.

    Dear Chairs Cantwell and DeFazio, and Ranking Members Wicker and 
Graves:
    As the Senate Committee on Commerce, Science and Transportation and 
the House Committee on Transportation and Infrastructure begin their 
work on a major infrastructure legislative package and/or surface 
transportation reauthorization bill, the more than 100 undersigned 
organizations write to express strong support for the DRIVE-Safe Act 
(S. 659, H.R. 1745), and to urge its inclusion in the forthcoming 
legislation. This strongly bipartisan legislation, which garnered the 
support of more than one third of the House and Senate in the 116th 
Congress, will address the nation's growing truck driver shortage by 
promoting opportunity and enhanced safety training for emerging members 
of the transportation workforce.
    Although 49 states and the District of Columbia currently allow 
individuals under the age of 21 to obtain a commercial driver's license 
and operate in intrastate commerce, these same individuals are 
prohibited from driving a truck across state lines until they turn 21. 
The DRIVE-Safe Act would change this through a rigorous two-step 
apprenticeship program that creates a path for these drivers to enter 
the industry. As the name implies, however, the legislation's first 
priority is safety. In order to qualify, candidates must complete at 
least 400 hours of additional training--more than what is required for 
any other CDL holder in the nation.
    Seventy percent of the nation's freight is carried by commercial 
trucks, and while demand is projected to increase over the next decade, 
the threat posed by the driver shortage stands to disrupt the 
continuity of the supply chain. This is especially problematic as the 
nation and our economy recover from the monumental impacts of the 
COVID-19 pandemic. According to a recent estimate, the trucking 
industry needs an additional 60,800 truck drivers immediately--a 
deficit that is expected to grow to more than 160,000 by 2028. In fact, 
when anticipated driver retirement numbers are combined with the 
expected growth in capacity, the trucking industry will need to hire 
roughly 1.1 million new drivers over the next decade, or an average of 
nearly 110,000 per year. The COVID-19 pandemic further exacerbated the 
truck driver shortage, and the temporary closures of state DMV's and 
truck driver training schools dried up the already fragile pipeline of 
new drivers entering the trucking industry. And as a result of the 
already-crippling driver shortage, companies in supply chains across 
the economy are facing higher transportation costs, leading to 
increased prices for consumers on everything from electronics to food.
    As a testament to the safety considerations underpinning the DRIVE-
Safe Act, all qualified drivers who participate in the apprenticeship 
program established by the bill would only be allowed to drive trucks 
outfitted with the latest safety technology, including active braking 
collision mitigation systems, forward-facing event recording cameras, 
speed limiters set at 65 miles per hour or less, and automatic or 
automatic manual transmissions. Professional drivers training within 
the program are also required to be accompanied by an experienced 
driver throughout the process.
    The DRIVE-Safe Act will help our nation's freight continue to move 
while preserving and enhancing the safety of our highway system. It 
will help fill desperately-needed jobs and provide younger Americans 
with the opportunity to enter a profession with a median salary of 
$54,585, plus health and retirement benefits. And it will bolster and 
support our nation's supply chain, which is an issue of heightened 
urgency as our nation recovers from the COVID-19 pandemic.
    Thank you for your attention and thoughtful consideration of this 
important and timely legislation. We look forward to working with you 
to include the DRIVE-Safe Act in your Committees' forthcoming 
infrastructure legislation and/or surface transportation 
reauthorization bill.
    Sincerely,

Agricultural and Food Transporters Conference.
Agricultural Retailers Association.
Amcot.
American Apparel & Footwear Association.
American Bakers Association.
American Beverage Association.
American Chemistry Council.
American Coatings Association.
American Feed Industry Association.
American Forest and Paper Association.
American Foundry Society.
American Frozen Food Institute.
American Supply Association.
American Trucking Associations.
AmericanHort.
Arkansas Beverage Association.
Associated Equipment Distributors.
Association for Hose and Accessories Distribution.
Auto Care Association.
Beverage Association of Tennessee.
Brick Industry Association.
Coalition of Franchisee Associations.
Colorado Beverage Association.
Commercial Vehicle Training Association.
Consumer Brands Association.
Convenience Distribution Association.
Cotton Growers Warehouse Association.
Energy Marketers of America.
Equipment Services Association.
FedEx.
Florida Beverage Association.
Fluid Power Distributors Association.
FMI--The Food Industry Association.
Foodservice Equipment Distributors Association.
Forest Resources Association.
Franchise Business Services.
Gases and Welding Distributors Association.
Georgia Beverage Association.
Hardwood Federation.
Heating, Air-Conditioning, & Refrigeration Distributors International.
Home Depot.
Hoosier Beverage Association.
Institute of Shortening and Edible Oils.
Intermodal Association of North America.
Intermodal Motor Carriers Conference.
International Association of Plastics Distribution.
International Bottled Water Association.
International Dairy Foods Association.
International Foodservice Distributors Association.
International Sealing Distribution Association.
International Warehouse Logistics Association.
Maine Beverage Association.
Metals Service Center Institute.
Michigan Soft Drink Association.
National Aquaculture Association.
National Association of Manufacturers.
National Association of Sporting Goods Wholesalers.
National Association of Truckstop Operators.
National Association of Wholesaler- Distributors.
National Automatic Merchandising Association.
National Beer Wholesalers Association.
National Cotton Council.
National Council of Chain Restaurants.
National Council of Farmer Cooperatives.
National Energy & Fuels Institute.
National Fastener Distributors Association.
National Franchisee Association.
National Grain and Feed Association.
National Grocers Association.
National Milk Producers Federation.
National Oilseed Processors Association.
National Onion Association.
National Pork Producers Council.
National Private Truck Council.
National Propane Gas Association.
National Ready Mixed Concrete Association.
National Restaurant Association.
National Retail Federation.
National Stone, Sand and Gravel Association.
National Tank Truck Carriers.
Nestle.
New Hampshire Beverage Association.
North American Meat Institute.
North American Millers' Association.
North American Renderers Association.
North Carolina Beverage Association.
Ohio Beverage Association.
Pet Food Institute.
Pet Industry Distributors Association.
Plumbing Manufacturers International.
Portland Cement Association.
Power Transmission Distributors Association.
PRINTING United Alliance.
Retail Industry Leaders Association.
Retail Packaging Association.
Rural & Agriculture Council of America.
Security Hardware Distributors Association.
Service Station Dealers of America and Allied Trades.
SNAC International.
Southeastern Lumber Manufacturers Association.
Specialty Soya & Grains Alliance.
The Fertilizer Institute.
Tire Industry Association.
Transportation Intermediaries Association.
Truck Renting and Leasing Association.
Truckload Carriers Association.
United Fresh Produce Association.
United States Cattlemen's Association.
UPS.
U.S. Chamber of Commerce.
Virginia Beverage Association.
Walmart.
Water and Sewer Distributors of America.
Wholesale Florist and Florist Supplier Association.
Wine and Spirits Wholesalers of America.
Wisconsin Beverage Association.

CC:  Members of the Senate Committee on Commerce, Science, and 
Transportation
     Members of the House Committee on Transportation and 
Infrastructure

                                 <F-dash>
Prepared Statement of Hon. Sanford D. Bishop, Jr., a Representative in 
                   Congress from the State of Georgia
    Thank you, Mr. Chairman, for the opportunity to discuss the 
infrastructure needs of Georgia and the nation. The importance of 
investing in our infrastructure cannot be understated. Infrastructure 
is the physical framework upon which our economy operates and which our 
standard of living is dependent upon. The American Society of Civil 
Engineers estimates that the 10-year infrastructure investment gap now 
stands at $2.6 trillion. We must take bold and decisive action now.
    Deteriorating infrastructure across rural America threatens our 
position as a world leader in agriculture. The ability of our farmers 
and ranchers to meet domestic demands and compete globally depends on 
reliable infrastructure. I urge you to include robust funding for state 
Departments of Transportation so that our municipalities have the 
resources needed to improve our local roads, bridges, ports, and 
railways.
    As you develop surface reauthorization and infrastructure 
legislation, we must also look to the future by continuing our 
leadership in clean energy technology. In the recently unveiled 
American Jobs Plan, President Biden set a goal to electrify at least 20 
percent of our yellow school bus fleet. I urge the Committee to create 
a new grant program for local school districts to replace existing 
diesel school buses with electric school buses. A new grant program 
should be separate from the existing Diesel Emissions Reduction Act 
grants so that our schools have a dedicated revenue source to upgrade 
their school bus fleet. Schools with limited financial resources, 
particularly those in rural areas, do not have the financial resources 
to replace existing school buses without significant federal support. 
We must ensure that these schools have access to utilize a new grant 
program for electric school bus purchases.
    Investment in clean energy infrastructure also requires a reliable 
charging station network across the country. Building a network of 
green infrastructure will require cooperation and partnerships between 
the federal government and private sector. I support President Biden's 
proposal to jumpstart clean energy manufacturing through federal 
procurement.
    Additionally, significant investment is needed to ensure that every 
American has access to high speed broadband. More than 35 percent of 
rural Americans lack access to broadband at minimally acceptable 
speeds. I urge you to include investment in the infrastructure needed 
to close the digital divide. However, even with this investment, it 
will take years to connect every American to high speed and affordable 
broadband. We should provide immediate financial support by creating a 
refundable consumer tax credit for the purchase of a signal booster, 
mobile hotspot, or satellite equipment to boost internet speeds while 
we continue to build our broadband infrastructure.
    Finally, I ask that you consider inclusion of a pilot program that 
would increase safety on roads and help mitigate climate pollution. 
This program would allow a limited number of states to permit operation 
of vehicles weighing up to 91,000 pounds gross vehicle weight with six 
axles on federal interstates. Allowing trucks to carry at this modestly 
higher gross vehicle weight, with a sixth axle for bridge formula 
compliance, will reduce greenhouse gas emissions, made roads safer for 
families and drivers, and minimize congestion on state and local roads. 
The CARES Act allowed states to issue temporary permits for trucks to 
operate above federal weight limits on the Interstate Highway System, 
easing strains on the supply chain. Data from these permits showed that 
the heavier configuration reduced carbon dioxide emissions and saved 
thousands of gallons of diesel and miles traveled without any 
corresponding increase in reportable accidents.
    We have the opportunity to create millions of jobs for hardworking 
Americans by making a historic infrastructure investment. I believe 
that it is incumbent upon Congress to come together and pass bipartisan 
legislation that invests in our local communities at this time of great 
need. Thank you for your consideration.

                                 <F-dash>
Prepared Statement of Hon. Ted Budd, a Representative in Congress from 
                      the State of North Carolina
    Good morning Chairman DeFazio, Ranking Member Graves, thank you for 
the opportunity to speak before this committee today. Let me begin by 
saying that, unlike some of my colleagues you've heard from today, I am 
not here to request any earmarks.
    Earmarks are a corrupting influence and act as ``the gateway drug 
for overspending,'' as the late-Senator Tom Coburn said. Earmarks are 
loved by lobbyists and career politicians, and hated by government 
watchdogs and taxpayers. I am disappointed the Democrats have brought 
back the pork-barrel earmark system that will only further add to the 
mounting national debt.
    Instead of requesting earmarks, we should enact legislation like 
the Generating American Income and Infrastructure Now (GAIIN) Act. This 
bill would require the government to actually sell off parts of its 
debt and distribute the proceeds to low-income communities below the 
national poverty line for infrastructure projects that would directly 
improve their economic viability. This bill is a fiscally responsible 
way to invest in infrastructure while also promoting workforce 
development.
    In the same vein, I ask that the committee include my Fair and Open 
Competition Act, H.R. 1284, in the surface transportation bill. This 
bill prevents federal agencies and recipients of federal assistance 
from requiring contractors to sign controversial project labor 
agreements (PLAs) as a condition of winning a construction contract. 
This would ensure that taxpayer funded construction contracts are 
awarded through fair and open competition. This guarantees the best 
value for hardworking taxpayers by prohibiting a rigged federal 
procurement process that discriminates against many small construction 
businesses. Many of the bill's 45 cosponsors have signed onto a letter 
asking the committee to include this proposal. I will be delivering 
this letter later today.
    I also ask the committee to preserve the previous Administration's 
National Environmental Policy Act regulations and One Federal Decision 
policy. Last summer, the Trump Administration released the first 
revised NEPA regulations in over 40 years. The old rules increased the 
time and cost for federally-funded infrastructure projects. The 
reformed regulations will speed up the notoriously slow environmental 
review process.
    The One Federal Decision policy consolidated permitting and 
authorization decisions into one process and provides deadlines to 
reduce delays and cut through the red tape. I constantly hear from 
state and local stakeholders about how NEPA regulations and agency 
reviews slow down the process to get projects up and running. It is 
unacceptable for vital infrastructure programs to be delayed by years 
of bureaucratic red tape. I am glad the last Administration understood 
this and implemented a goal to complete environmental reviews in two 
years or less.
    Solutions like the GAIIN Act, the Fair and Open Competition Act, 
NEPA reform, and the One Federal Decision policy will reduce costs and 
speed up infrastructure projects. I urge you to include these reforms 
within the surface transportation reauthorization bill.
    We need to get back to basics. Let's fix our country's 
infrastructure by removing red tape, efficiently and effectively 
planning projects, competitively bidding them, and getting shovels into 
the ground. That way, taxpayers will know that they are getting the 
best bang for their buck. At the end of the day, it's not our money, 
it's the people's money. I look forward to working with my colleagues 
on the proposals I mentioned today.
    Thank you, Mr. Chairman. I yield back.

                                 <F-dash>
Prepared Statement of Hon. Tony Cardenas, a Representative in Congress 
                      from the State of California
    Thank you Chair Peter DeFazio, Ranking Member Sam Graves, and the 
Committee members for the opportunity to allow me to testify on Member 
Designated Project funding opportunities in my district.
    I proudly serve the Northeast San Fernando Valley communities, 
including Panorama City, Pacoima, Arleta, North Hollywood, Van Nuys, 
and Sylmar. Wedged between major freeways like the 405, 5, and 210, 
many hardworking individuals spend hours in traffic and away from their 
families to work in the service industry over the hill to downtown Los 
Angeles. Growing up in the Valley, it was not uncommon to see family 
members and neighbors wake up before dawn to carpool to their 
destination, whether it be in healthcare to nurse our youth and the 
elderly, to build our infrastructure and create new public spaces, to 
clean homes and watch over our little ones, or to prepare and serve our 
food in some of the most visited restaurants. These frontline workers, 
who contribute and sacrifice to keep us healthy, fed, and safe, deserve 
our support for projects that provide the most significant mobility, 
accessibility, connectivity, and ease.
    One such Project at the tip of California's Statewide 
Transportation Improvement Program (STIP) is the East San Fernando 
Valley Light Rail Transit Project. This vital public transit 
infrastructure investment will provide improved transit service along 
the busy Van Nuys Boulevard and San Fernando Road corridors serving the 
eastern San Fernando Valley. The Project will provide connections to 
key destinations and more excellent transit users opportunities to 
connect to the growing transit network in the San Fernando Valley with 
destinations to downtown Los Angeles.
    I also plan to submit and support requests that mitigate traffic 
congestions, cool down our hot streets, provide greater pedestrian 
safety by identifying High Injury Network streets with a significant 
concentration of severe injuries and deaths, and lastly, explore 
opportunities to erect sound walls in our most distressed communities 
to improve quality of life by reducing the freeway's impact on the 
surrounding neighborhoods.
    With the tremendous local support for these priorities, I welcome 
the committee's continued guidance in moving forward these requests, 
passing it out of the House, and getting it to the President's desk.
    Thank you.

                                 <F-dash>
    Prepared Statement of Hon. Matt Cartwright, a Representative in 
             Congress from the Commonwealth of Pennsylvania
    Chairman DeFazio and Ranking Member Graves,
    Thank you for allowing me to let the Committee know my surface 
transportation priorities.
    I greatly appreciate the Committee's Member Designated Projects 
process this year, and, at this time, I am working closely with state 
and local officials to identify transportation projects that will 
benefit the citizens of Pennsylvania's Eighth Congressional District, 
which includes all or a portion of five different Northeastern 
Pennsylvania counties. I am proud of the strides that local 
transportation stakeholders have made to bolster the road, bridge, and 
transit infrastructure in my congressional district, which contains 
several cities, such as Scranton, Wilkes-Barre, and Hazleton, several 
transit agencies that serve a large geographic area, hundreds of 
bridges over its lakes, rivers, and creeks, and multiple Interstate, 
U.S., and State Highways that carry commuters to the Lehigh Valley and 
southeastern Pennsylvania, northern New Jersey and New York City, and 
western Pennsylvania and the Midwest. There is much work to be done to 
improve transportation in my district, and the ability through the 
Committee to direct some federal dollars to help complete critical 
projects will have significant benefits. Although I continue to work to 
finalize the projects I will submit for the Committee's consideration, 
there are a few areas that I wish to highlight.
    The County of Lackawanna Transit System (COLTS) is in great need of 
a renovated headquarters and new maintenance facility. This project 
will be funded primarily by money from the Pennsylvania Department of 
Transportation (PennDOT). COLTS represents an invaluable piece of the 
transit picture in my district, providing safe, affordable, and 
convenient public transportation throughout Lackawanna County. The last 
major renovation of the headquarters building occurred more than 
thirty-five years ago. In this time, the facility has suffered its 
share of wear and tear, and an overhaul is much needed to promote 
efficient operations. The new project design also places the 
maintenance area away from the administrative section of the building, 
which is a necessary safety alteration to the complex.
    I also strongly support Lackawanna County's Main Street project, 
revitalizing the major, north-south ``spine'' route through the valley 
section of the county. There is a great need to ease traffic flow and 
encourage economic development along this corridor.
    In Luzerne County, there are transit improvement needs as well, 
including city of Hazleton Public Transit (HPT) system proposal to 
replace diesel buses with compressed natural gas (CNG) buses. In 
addition to the benefits to the environment and quality of life that 
will result from increased ridership on these more comfortable and up-
to-date public transportation options, CNG has much lower carbon 
content than diesel and other petroleum-based products and produces 20-
30% fewer greenhouse gas emissions and 95% fewer tailpipe emissions 
than diesel. Hazleton Public Transit also needs to purchase land to 
create a park-and-ride lot to supplement the very limited parking 
currently available to customers of HPT and intercity buses. This, too, 
will increase ridership and result in obvious environmental benefits 
such as reduced traffic and emissions as well as benefits to riders, 
such as cost savings, reduced stress, and increased productivity. 
Resurfacing, re-signaling, and bridge replacement is also a priority 
for Luzerne County routes.
    In Monroe County, there are multiple road and intersection 
improvement projects that need to be executed, including a project with 
Route 115, which I am happy to see has begun to see increased economic 
development spring up around it. Unfortunately, this development has 
resulted in a notorious bottleneck, and a widening project there will 
increase traffic flow and result in a safer stretch of highway for 
commuters in Monroe County.
    In Pike and Wayne Counties there are numerous roadway resurfacing 
and bridge reconstruction projects, two of which are a problematic 
section of Route 590, which needs resurfaced for safety improvement, 
and a Lackawaxen River bridge replacement. I am looking to the 
Committee to assist in directing funds to a number of such critical 
projects in northeastern Pennsylvania.
    I additionally strongly support the Committee including many of the 
national funding priorities and policy improvements previously found in 
the surface transportation portion of the Moving Forward Act, H.R. 2, 
from the 116th Congress. We need to deliver better roads and bridges 
with as much speed as we can, including repairing tens of thousands of 
structurally deficient bridges across the country. We also must 
urgently increase transit options and efficiency to in order to reduce 
the number of cars on our commuter highways--and also reduce their 
aggregate emissions. We must address bottlenecks and gridlock on 
existing roadways, and we need to make all of our transportation 
infrastructure more resilient. The Committee's surface transportation 
authorization legislation in the previous Congress wisely addressed 
these challenges, and I urge a continuation of that effort this year.

                                 <F-dash>
  Prepared Statement of Hon. Gerald E. Connolly, a Representative in 
               Congress from the Commonwealth of Virginia
    Thank you to Chairman DeFazio and Ranking Member Graves for hosting 
this Member Day hearing for the Transportation and Infrastructure 
Committee. This committee has important work ahead of it in the 117th 
Congress, and I appreciate the opportunity to testify on some of our 
shared priorities.
    As the Chairman of the Government Operations Subcommittee for the 
House Committee on Oversight and Reform, my subcommittee shares 
jurisdiction with this committee on some critical areas such as federal 
real property management by the General Services Administration and of 
course the Washington Metropolitan Area Transit Authority (WMATA).
    On federal real property, one of the issues we have collaborated on 
is the plan for a new headquarters for the Federal Bureau of 
Investigation (FBI) to replace the current Hoover building. As you 
know, the Trump Administration derailed a plan to develop a new 
suburban consolidated headquarters for the FBI and proposed a 
redevelopment of the existing Hoover building, which also required 
sending thousands of FBI positions to locations in Idaho, West 
Virginia, and Alabama. My subcommittee initiated an investigation of 
that decision that discovered the plan proposed by the Trump 
Administration was more costly than the original plan despite 
Administration representations to Congress that it would be less 
expensive. The Inspector General for GSA found that the Administration 
obscured $516 million in project costs in its proposal to Congress, 
that the President was personally involved in the development of the 
new, more expensive proposal despite having a clear conflict of 
interest, that then-GSA Administrator Emily Murphy misled Congress in 
her testimony about the President's involvement, and that physical 
security requirements were not fully resolved as part of the new urban 
proposal. The consolidated appropriations bill passed at the end of the 
116th Congress (P.L. 116-260) gave the current Administration 90 days 
to produce a prospectus for a new FBI headquarters project. The 
deadline was not met, and working with Chairwoman Titus we must 
continue to push the Administration to get this project back on track 
to deliver a safe and state-of-the-art new headquarters for the FBI.
    As an aside, I have a bill that has been referred to this committee 
which would rename the Hoover building (H.R. 1290), and I hope the 
Committee would act on this proposal to ensure Mr. Hoover, who was a 
bigot and malign character in American history, no longer occupies this 
place of honor.
    I also look forward to continuing my work with Chairwoman Norton on 
oversight of WMATA to ensure that the transit backbone of the nation's 
capital is safe and reliable. The federal government has a unique 
responsibility to support WMATA operations given the role it plays 
transporting the federal workforce and providing critical disaster 
response support for federal government operations. My legislation, the 
Metro Accountability and Investment Act (MAIA, H.R. 694) would 
reauthorize and enhance the existing dedicated annual federal funding 
contribution contingent upon important accountability reforms that have 
been developed in collaboration with Chairwoman Norton and this 
committee. I want to thank the Committee for including this bill in the 
Moving Forward Act (116th, H.R. 2), which passed the House in 2020. I 
hope we can build on that success in this Congress as part of a 
comprehensive infrastructure push.
    Finally, I would like to address the critical role this Committee 
will play enacting the proposed American Jobs Plan and advancing other 
urgent infrastructure needs in the 117th Congress.
    Under President Biden, we have an opportunity to make 
transformative investments in our nation's roads, bridges, electric 
grid, transit systems, research and development, drinking water, 
schools and childcare, housing, broadband networks, manufacturing, and 
green economy. The $2.5 trillion American Jobs Plan is an early down 
payment on a promise to build back the American economy as it recovers 
from the COVID-19 pandemic. I especially look forward to working with 
this committee to craft parameters for the proposed $10 billion 
investment in the modernization, sustainability, and resilience of the 
federal buildings. And as I previously testified to the Ways and Means 
Committee, we must revive the successful Build American Bonds program 
through a new direct subsidy bonds program that will provide much-
needed financing for state and local infrastructure investment.
    It would be difficult to quantify the return on investment of the 
interstate highway system, an initiative spurred by President Dwight D. 
Eisenhower and authorized by Congress in 1956 to build 40,000 miles of 
roads. That relatively modest initiative has given rise to entire 
industries and provoked innovation that defined the American century. 
The infrastructure investment Congress made as part of the American 
Recovery and Reinvestment Act (ARRA) after the Great Recession had 
among the highest returns on investment among the bill's stimulus 
provisions. In 1960, federal infrastructure spending was 5 percent of 
GDP. By 2017, American investment in infrastructure had declined to 2.3 
percent of GDP, an all-time low. We must reverse this decline. Our 
global competitors, especially China, are increasing their investments 
in infrastructure building new airports, connecting cities with high-
speed rail, and adopting green technology as part of a more sustainable 
future. For the sake of a robust economic recovery and our nation's 
long-term global competitiveness bold initiatives like the American 
Jobs Plan should be just the beginning of our reinvestment in America 
agenda.

                                 <F-dash>
Prepared Statement of Hon. Charlie Crist, a Representative in Congress 
                       from the State of Florida
    Chairman DeFazio and Ranking Member Graves,
    As the Committee on Transportation and Infrastructure does the 
vital work of reauthorizing surface transportation projects, I urge you 
prioritize the following endeavors.
                      Beach Nourishment Easements
    I am seeking a modification to the Army Corps' easement requirement 
for Shore Protection Projects. Specifically, I am seeking an exemption 
to the easement requirement for areas where sand will not be placed for 
a planned project, or has not been placed since 1996, the year the 
Corps released guidance on WDRA 1986.
    My district is home to the Pinellas County Shore Protection Project 
that encompasses nearly 13 miles of beaches over three segments and has 
been a model partnership between the federal, state, and local 
governments. This public safety project is vital to Florida's economy, 
environment, and way of life. Pinellas beaches support a thriving 
tourism industry; promote recreational opportunities; and protect 
lives, endangered local wildlife, and infrastructure from devastating 
storm surge.
    Despite completing multiple nourishment cycles over several 
decades, the Army Corps informed Pinellas County that local officials 
must obtain perpetual easements along the length of the project from 
100 percent of property owners in order to be eligible for the next 
scheduled nourishment in 2024. Together with the Corps' Jacksonville 
District, the County and local municipalities have been working hard 
for over two years to obtain these easements.
    Unfortunately, due to understandable skepticism from some property 
owners, the County remains short of meeting this requirement. Notably, 
a majority of the remaining required easements are located well into 
the sand dunes where sand won't be placed for the planned project (see 
below image).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Also of note, Florida is unique among states as the State 
Legislature in law has designated an Erosion Control Line (ECL) that 
clearly delineates the public and private segments of our beaches. 
While I understand the requirement to obtain easements from property 
owners where sand will be placed on the private side of the state-
mandated line, where I disagree with the Army Corps is the need to 
obtain easements for those segments of the project where sand will only 
be placed on the public side of the ECL, as is the case here, because 
public access in these areas is already guaranteed by state law.
    Allowing the Pinellas Shore Protection Project to lapse would have 
far-reaching and significant economic consequences. Pinellas beaches 
contribute not only to Tampa Bay's regional economy, not only to the 
state's economy, but to the entire country's economy. In fact, Pinellas 
beaches are annually ranked as some of the best in the country. Earlier 
this year, TripAdvisor named St. Pete Beach as the nation's top beach 
and included Clearwater Beach, Madeira Beach, and Treasure Island on 
its Top 20 list. Furthermore, in 2020, despite the pandemic, Pinellas 
County drew 12.5 million visitors, creating an economic impact of $5.8 
billion and supporting over 65,000 jobs within the County. It is clear 
that Pinellas beaches and the recreational opportunities they provide 
draw visitors from well beyond Florida, and even beyond the United 
States.
    Even more alarming, the degradation of Pinellas' beaches could 
result in loss of life and significant property damage from storms and 
other flooding events. Nourished beaches provide critical protection 
from the impacts of storm surge. Without a wide, sandy beach to serve 
as a buffer, lives would be lost, property and infrastructure would be 
destroyed, and post-disaster costs for the federal government would 
skyrocket. Not only is this an incredibly dangerous situation for the 
people who live and work along Pinellas' coast, but this directly 
contradicts the very purpose of the Army Corps' Shore Protection 
Program.
    It is unacceptable that the Pinellas County Shore Protection 
Project be placed at risk due to a sudden change in Corps policy, 
especially after completing multiple successful nourishment cycles 
prior to instatement of the easement requirement. For this reason, I 
urge the Committee to examine the Corps' arduous and inconsistent 
easement policy and provide flexibility to non-federal sponsors as 
outlined above.
                               Everglades
    I also urge the Committee to include Everglades restoration in an 
upcoming infrastructure package, allowing for the speedy completion of 
projects that are critical to a restored and healthy Everglades 
ecosystem.
    The Everglades is central to Florida's environment and economy. It 
is the source of drinking water for eight million Floridians and serves 
as both a short- and long-term job creator. Based on Army Corps 
calculations, between 65,000 and 70,000 jobs would be created over four 
years if the South Florida Ecosystem Restoration program receives full 
funding for authorized construction projects that are part of the 
integrated delivery schedule. In addition, this unique ecosystem 
attracts millions of visitors every year from around the world. In 
2019, the Greater Everglades National Parks attracted almost 3 million 
visitors and contributed $238 million to the economy.
    The Everglades also provides important climate benefits to the 
surrounding communities, including protecting Florida's aquifers from 
saltwater intrusion and serving as a natural buffer to storm surge. The 
Everglades is also a biodiversity hotspot, providing habitat for over 
180 endangered or threatened species.
    Given the emphasis this Committee is placing on sustainable, 
climate-resilient infrastructure, and the importance of this national 
treasure to our environment and economy, I firmly believe that the 
South Florida Ecosystem Restoration program deserves to be included as 
infrastructure in an upcoming package.
                          Multi-Modal Mobility
    Car-sharing is a new, green, affordable form of modern mobility 
that allows people to connect multiple forms of efficient 
transportation and rent cars as they need them. When cars are shared, 
there don't need to be as many on the road, which means fewer 
accidents, reduced traffic, lowered emissions, and less space needed 
for parking. Supporting car-sharing efforts can improve mobility, 
relieve congestion, help our environment, and make public transit 
easier to use.
    I encourage the Committee to support the establishment of multi-
modal mobility hubs, particularly in underserved areas, and consider 
incentives for the purchase and use of shared vehicles, and the 
manufacturing or incorporation of connected car sharing technologies.
                   Coast Guard Joint Chiefs of Staff
    Recently, I introduced the bipartisan Commandant of the Coast Guard 
to Joint Chiefs of Staff Act, H.R. 2136, because it's time the Coast 
Guard has a seat at the Joint Chiefs table. This an opportunity to 
promote to Coast Guard Commandant to full voting membership on the 
Joint Chiefs, the only military service chief currently excluded. The 
Coast Guard is providing significant operational and strategic 
capabilities and perspective to keep our domestic and international 
waterways safe and secure but needs this legislation to provide parity 
and legitimacy amongst the other Armed Forces. As the committee of 
jurisdiction, you are well-aware that Coast Guard leadership has 
growing relevance across not just our maritime transportation system 
and economy but also in support of our National Defense Strategy and 
integrated Tri-Service Maritime Strategy, especially against growing 
strategic competition with China. I encourage the committee to include 
my bill, H.R. 2136 in the upcoming surface transportation 
reauthorization package.
    I thank the Committee for their consideration and their important 
work on rebuilding our nation's infrastructure during these 
unprecedented times.

                                 <F-dash>
Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       from the State of Illinois
    Good Morning--Chairman DeFazio/Ranking Member Graves and members of 
the Transportation Committee. Thank you for hosting this opportunity 
for me to advocate for transportation interest in the state of Illinois 
and the Chicagoland area (which is represent); specifically.
    Mr. Chairman, it is no secret that Chicago a great connector and 
transportation hub for rail, airlines, waterways, surface, and transit. 
Our needs are vast, and our needs are great. Donor states like Illinois 
don't receive the appropriate share of the federal resources that it 
pays, and it is indicative of the amount of infrastructure updates and 
maintenance backlog that is currently needed to maintain the foundation 
of our modern society. Chicago needs around $4 billion dollars for 
infrastructure replacements, and Illinois needs $40 billion.
    According to the American Society of Civil Engineers, the Illinois 
Infrastructure Grade is a C-.
    The ASCE stated, ``THE STATE'S INFRASTRUCTURE HAS BEEN ON A 
STARVATION DIET''
    So today, I wanted to touch on some problem areas where adequate 
infrastructure funding will improve upon this score.
    In aviation--Illinois boast the 2nd busiest airport in the nation 
but also has 115 public use airports--77 of these airports are publicly 
owned. The aviation capacity will continue to grow with the O'Hare 
Modernization Program, improved cargo capacity at Rockford 
International Airport and terminal capacity at Rockford International 
Airport.
    Illinois has the 3rd largest bridge inventory in the nation with 
roughly 26,775 bridges.
    8.6% of these bridges are structurally deficient.
    In Chicago, our drinking water is in serious need of immediate 
resources to replace aging pipes and upgrade our wastewater systems. 
According to ASCE, in 1900, the average residential use of portable 
water in the US was 5 gallons per day--per person. Today that number is 
100 gallons of water per day--per person.
    In a suburban community in my district--Maywood, Illinois--has lost 
at least 30% of their water costing the residents $1.66 million due to 
water main pipe breaks.
    Illinois also has 1118 miles of waterways and is the 3rd largest 
agriculture exporter in the US. The state is the number one exporter of 
soybeans, soymeal, and vegetable oil.
    $18 billion dollars of Illinois industry products are exported 
annually via the waterways. Investments in lock facilities and dam 
modernization is critical to the growth and survival of the state's 
agricultural industry.
    Illinois rail industry has a 7000-mile track network and is the 2nd 
largest rail network in the country. It is also important to note 
Illinois is the only state which all Seven Class 1 freight railroads 
operate.
    Nearly one-quarter of the nation's rail-shipped goods and services 
move through Chicago and more carloads of freight are carried through 
Illinois than any other state in the U.S.
    Chicago is also the single busiest and largest rail city in the 
nation. Freight and passenger systems like; (Amtrak, Metra & CTA) are 
the backbone of the city and state economy. The transit system has over 
7500 passenger vehicles, over 400 stations and 70 maintenance 
facilities serving Chicago and hundreds of suburban communities. 
Modernization of the system will continue to minimize congestion and 
reduce carbon admissions.
    Although I have outlined the vast traditional infrastructure 
needs--I would like to highlight further needs to be considered.
    The bill is an opportunity to modernize housing, expand renewal 
energy projects, build more EV charging stations in underdeveloped 
communities, build new affordable housing in many of the blighted 
communities around the county and specifically westside communities 
that were left decimated after the King riots and expand broadband 
availability to underserved communities.
    Mr. Chairman, I look forward to working with you the members of the 
committee on this legislation that will be the catalyst to providing 
financial equity to places that have been long overlooked in the inner 
city.
    Thank you.

                                 <F-dash>
   Prepared Statement of Hon. Sylvia R. Garcia, a Representative in 
                    Congress from the State of Texas
    I proudly rise today as the representative for the 29th district of 
Texas. Too often, my home district, which is nearly 80% Latino, has had 
to go without. My neighborhoods and communities have not had that same 
access to quality transportation and infrastructure, and I am here to 
advocate for change.
    Equitable transit opportunities are vital as we move into the 
future. As an urban district, we need to continuously look to expand 
public transit options in new and creative ways. Many of my 
constituents rely on public transportation, and I want to ensure that 
they can get around the district and the entire region with ease, 
comfort, affordability and reliability.
    And of course, my constituents deserve the same quality of roads, 
bridges, and highways as any other region. I encourage the committee to 
look for opportunities to fund projects that ensure equity and do not 
disproportionally harm communities of color, and that bring communities 
together rather than divide them with a highway.
    We must also look for innovative new ways to build infrastructure 
that protects the Houston region from flooding. As we saw in Hurricane 
Harvey, Houston can be flooded to an extent no where else in the 
country has experienced. We need to expand our horizons and fund ideas 
that will protect our families, our homes, and our businesses and our 
environment. Bold new infrastructure projects can shape the future of 
our nation, and I look forward to that starting in the 29th district of 
Texas.

                                 <F-dash>
  Prepared Statement of Hon. H. Morgan Griffith, a Representative in 
               Congress from the Commonwealth of Virginia
    Dear Chairman DeFazio and Ranking Member Graves:
    Thank you for providing me the opportunity to highlight a matter of 
great importance to my district and the coalfields of Appalachia as you 
continue to work on issues within this Committee's jurisdiction in the 
117th Congress.
    The Coalfields Expressway, or U.S. Route 121, is designated a 
Congressional High Priority Corridor. The Expressway is a proposed 
four-lane highway that would provide a much needed and more efficient 
pathway through the coalfields region of Southwest Virginia and 
Southern West Virginia. By providing safe and rapid access to 
communities along the corridor, it will greatly improve interstate 
commerce between disadvantaged portions of Virginia, West Virginia, and 
Kentucky.
    As an area that has been ravaged by economic depression with the 
exit of much of the coal industry, Southwest Virginia stands to benefit 
greatly from increased connectivity with our surrounding states, as 
would Kentucky and West Virginia. This highway could serve as an 
economic lifeline, bringing in commerce and tourism to the area.
    The current roadways that serve the communities and would benefit 
from the Coalfields Expressway are primarily rural roads, which are not 
as safe, well maintained, or easy to navigate. For example, Dickenson 
County, which this highway would run through, is the only county in my 
district without a four-lane road.
    Not only do these challenges make passage for local residents 
difficult, but they also mean that businesses and through-traffic avoid 
this region. Our economic development boards struggle to get businesses 
to even consider the area because of the lack of connectivity to other 
regions and major highways.
    This Expressway would bring much needed commerce to the area and 
provide residents and travelers from across the country a new and 
better way to explore Appalachia.
    Funding challenges have made the completion of this project 
difficult. In Virginia, even when the state has received Federal 
funding for highway projects, those precious Federal dollars are put 
through a funding formula which favors the more populated regions like 
Northern Virginia, Richmond, and Norfolk.
    I am not against those other regions, but we always hear that we 
need to reinvent our economy in the coalfields of central Appalachia. 
To do so, we must have tools such as the Coalfields Expressway.
    I am currently exploring possibilities, while avoiding duplication, 
to advance this project through the new Appropriations process as well 
as through the authorizing legislation that this Committee will author 
and would appreciate the support of the Members of this Committee as we 
work to provide a much-needed lifeline to the people of Southwest 
Virginia's coalfields.
    I appreciate your consideration of this request.

                                 <F-dash>
   Prepared Statement of Hon. Raul M. Grijalva, a Representative in 
                   Congress from the State of Arizona
    Dear Chair DeFazio:
    I appreciate the opportunity to offer testimony to the 
Transportation and Infrastructure Committee. Your leadership in 
developing the Moving Forward Act (H.R. 2) to address our nation's 
failing infrastructure has been instrumental in laying the groundwork 
to Build Back Better.
    The coronavirus outbreak has had a devastating impact on working 
families in America, while disproportionately impacting people of 
color. There is broad consensus that Congress must act to revitalize 
the economy, and in doing so it can create a more equitable and 
sustainable future. Our national parks, wildlife refuges, forests, 
coasts, and tribal and insular areas are facing many infrastructure 
challenges. We must also invest in nature-based solutions to make our 
lands and coasts more resilient in the face of climate change.
    Thank you for including many of the Natural Resources Committee's 
priorities in H.R. 2 to preserve public lands, bolster renewable 
energy, create jobs, fight climate change, protect our coasts, invest 
in water infrastructure, and provide needed money for tribes and U.S. 
territories. While many of our priorities are not within your 
committee's jurisdiction, my staff is ready to assist you and your team 
as you develop a new infrastructure package. I would like to highlight 
the following provisions from H.R. 2 that are priorities of mine as a 
member representing Arizona's 3rd congressional district and the chair 
of the Natural Resources Committee:
    <bullet>  Sec. 1213. Carbon pollution reduction.
    <bullet>  Section 1303. Grants for charging and fueling 
infrastructure to modernize and reconnect
    <bullet>  America for the 21st century. Recommended change: set 
aside funds for tribal entities under this section.
    <bullet>  Sec. 1501. Territorial and Puerto Rico highway program.
    <bullet>  Sec. 1502. Tribal transportation program.
    <bullet>  Sec. 1503. Tribal High Priority Projects program.
    <bullet>  Sec. 1504. Federal lands transportation program.
    <bullet>  Sec. 1505. Federal lands and tribal major projects 
program.
    <bullet>  Sec. 1506. Office of Tribal Government Affairs.
    <bullet>  Sec. 1507. Alternative contracting methods. Allows tribes 
and federal land management agencies to use the same alternative 
contracting methods available to states.
    <bullet>  Sec. 1614. Working group on construction resources. 
Recommended change: include tribal cultural resource impacts in the 
findings and recommendations report.
    <bullet>  Sec. 1618. Construction of certain access and development 
roads.
    <bullet>  Sec. 1620. Wildlife crossings. Recommended change: strike 
state exception language under this section.
    <bullet>  Sec. 2204. Formula grants for rural areas.
    <bullet>  Sec. 2606. Technical assistance and workforce 
development.
    <bullet>  Sec. 31122. Digital Equity Competitive Grant Program. 
Recommended change: strike five percent and replace with ten percent.
    <bullet>  Sec. 31141. Additional Broadband Benefit.
    <bullet>  Sec. 33151. Indian Energy.
    <bullet>  Sec. 33162. Report on electricity access and reliability.
    <bullet>  Sec. 22112. Reservation of Funds for Territories of the 
United States.
    <bullet>  Sec. 33108. Allotment for territories.
    <bullet>  Sec. 40010. Colonias State of Good Repair Grant Program.
    <bullet>  Sec. 81101. Reclamation water settlements fund.
    <bullet>  Sec. 81201-81252. FUTURE Western Water Infrastructure and 
Drought Resiliency.
    <bullet>  Sec. 81301-81335. Western Water Security.
    <bullet>  Sec. 81411. Water Resources Research Amendments.
    <bullet>  Sec. 81511. Ground water recharge planning.
    <bullet>  Sec. 81611-81612. Tribal Water Infrastructure
    <bullet>  Sec. 82101-82104. Public Lands Telecommunications.
    <bullet>  Sec. 82201-82206. Outdoors for All.
    <bullet>  Sec. 82301. Presidio Trust borrowing authority.
    <bullet>  Sec. 82401. Forest Service Legacy Roads and Trails 
Remediation Program.
    <bullet>  Sec. 83101. Shovel-Ready Restoration and Resiliency Grant 
Program.
    <bullet>  Sec. 83102. Living Shoreline Grant Program.
    <bullet>  Sec. 83201-83402. Wildlife Corridors.
    <bullet>  Sec. 84101. Establishment of federal orphaned well 
remediation program.
    <bullet>  Sec. 84102. Federal bonding reform.
    <bullet>  Sec. 84201-84203. Surface Mining Control and Reclamation 
Act Amendments
    <bullet>  Sec. 84301-84305. Revitalizing the Economy of Coal 
Communities by Leveraging Local Activities and Investing More.
    <bullet>  Sec. 84501. Offshore Wind Career Training Grant Program.
    <bullet>  Sec. 84601-84604. Community Reclamation Partnerships.
    <bullet>  Sec. 90121. Credit for operations and maintenance costs 
of government-owned Broadband (Sec.  6431B).
    <bullet>  Sec. 90404. Elective payment for energy property and 
electricity produced from certain renewable resources, etc.
    <bullet>  Sec. 90701. Treatment of Indian Tribes as States with 
respect to bond issuance.
    <bullet>  Sec. 90702. Treatment of Tribal foundations and charities 
like charities funded and controlled by other governmental funders and 
sponsors.
    <bullet>  Sec. 90703. New markets tax credit
    <bullet>  Sec. 90801. Extension of Highway Trust Fund expenditure 
authority (Sec. Sec.  9503 and 9504).
    <bullet>  Dingell Amendment 139 (made in order and passed). 
Recovering America's Wildlife.

    In addition, I would like to work with you to ensure the following 
provisions are included in a future infrastructure package:
    <bullet>  Parks, Jobs, and Equity Program: authorize the Department 
of the Interior to establish a grant program to support development of 
park and outdoor recreation infrastructure in urban areas.
    <bullet>  Community Climate Restoration Fund: authorize funding for 
a grant program to help communities and wildlife adapt to the impacts 
of climate change through restoration, resilience, and natural 
infrastructure projects.
    <bullet>  Civilian Climate Corps: authorize the Secretary of the 
Interior, in coordination with other relevant Federal departments and 
agencies, to establish a Civilian Climate Corps to advance green 
infrastructure priorities, including the conservation and restoration 
of public land to promote climate resiliency.
    <bullet>  Tribal Consultation: establish procedures for effective 
consultation and coordination by federal agencies with federally 
recognized Tribal Governments regarding Federal Government actions that 
impact tribal lands and interests to ensure that meaningful tribal 
input is an integral part of the federal decision-making process.
    <bullet>  Bureau of Indian Education Office of Information 
Technology and Distribution: establish an Office of Information 
Technology within the Bureau of Indian Education to centralize the 
computer equipment and technology needs for Native American students, 
school administrators, and teachers.
    <bullet>  Historic Preservation Fund (HPF) Infrastructure 
Enhancements: HPF Funding, in coordination with State and Tribal 
Historic Preservation Offices, is a necessary tool to support 
permitting for any infrastructure enhancements. Congress must authorize 
a short-term funding infusion to support this important work.
    <bullet>  Department of the Interior Office of Insular Affairs 
Capital Improvement Fund: increase funding for the purposes of updating 
and rebuilding infrastructure needs in the Insular Areas.
    <bullet>  Technical Assistance for U.S. Territories and Freely 
Associated States: establish a technical assistance program within the 
Department of Interior to prioritize climate change planning, 
mitigation, adaptation, and resiliency in the U.S. Territories and 
Freely Associated States.
    <bullet>  Pittman-Robertson and Dingell-Johnson Parity for the 
Territories: allow the District of Columbia and U.S. Territories to 
receive state-equal funding considerations under both laws.
    <bullet>  Climate Change Planning in U.S. Territories and Freely 
Associated States: establish programs within NOAA to prioritize climate 
change planning, mitigation, adaptation, and resiliency in the U.S. 
Territories and Freely Associated States, including a technical 
assistance program and a research grant program.
    <bullet>  Migratory Bird Treaty Act: clarify the Migratory Bird 
Treaty Act to prohibit incidental take and create certainty for 
businesses and industry by directing the Fish and Wildlife Service to 
develop an incidental take permit program. Permit fees would fund 
mitigation and restoration of habitat important to migratory birds.
    <bullet>  Working waterfronts: establish a working waterfront grant 
and loan program at the National Oceanic and Atmospheric Administration 
(NOAA) to preserve and protect coastal access for water-dependent 
commercial activities.
    <bullet>  Tribal Coastal Zone Management Act authorities: provide 
funding through the Coastal Zone Management Act to improve tribal 
coastal resilience.
    <bullet>  National Ocean and Coastal Security Fund improvements: 
update and fund the National Oceans and Coastal Security Act to address 
equity issues in coastal resilience (including expanding eligibility 
for tribes).
    <bullet>  Blue carbon: create an interagency working group and a 
blue carbon program at NOAA and fund critical projects to protect, 
restore, and study blue carbon ecosystems; and require an analysis of 
impacts to blue carbon ecosystems from development.
    <bullet>  Climate Change Planning in U.S. Territories and Freely 
Associated States: establish programs within NOAA to prioritize climate 
change planning, mitigation, adaptation, and resiliency in the U.S. 
Territories and Freely Associated States, including a technical 
assistance program and a research grant program.
    <bullet>  Land Ports of Entry at Border: create a pilot project to 
update land ports of entry infrastructure and reduce emissions 
associated with vehicle wait times and related health impacts at the 
border.
    <bullet>  Robert T. Stafford Disaster Relief and Emergency 
Assistance Act: cancel the repayment of loans, including interest, made 
to a local government in a U.S. Territory under section 417; and waive 
the non-federal share funding requirement for U.S. Territories 
receiving funding for disaster relief, long-term recovery, restoration 
of infrastructure and housing, economic revitalization, and mitigation.
    <bullet>  Department of Energy Office of Insular Area Energy Policy 
and Programs: establish an Office of Insular Area Energy Policy and 
Programs within the Department of Energy to centralize and align all 
ongoing and future departmental efforts in the U.S. Territories and 
Freely Associated States, including the development of comprehensive 
energy plans, an energy efficient product rebate program, and a 
renewable energy grant program.
    <bullet>  Environmental Protection Agency Office of Insular Area 
National Program: establish an Office of Insular Area National Program 
within the Environmental Protection Agency to centralize and align all 
ongoing and future departmental efforts in the U.S. Territories and 
Freely Associated States, including a sustainable infrastructure grant 
program, a renewable energy grant program, and a technical assistance 
program.
    <bullet>  Investment in Robust and Efficient National Environmental 
Policy Act (NEPA) Implementation: Increase funding for robust NEPA 
review of infrastructure projects, including funding for additional 
staff to carry out NEPA implementation and additional resources and 
training opportunities for federal agency staff with NEPA 
implementation responsibilities. Ensuring a robust NEPA process will be 
key to building back better. Attempts to ``streamline'' NEPA 
implementation and environmental review will undermine critical 
standards that make our roads, bridges, and other infrastructure safer 
and better prepared to withstand the effects of climate change.
    <bullet>  Significant Infrastructure investment for environmental 
justice communities: commit not less than 40 percent of infrastructure 
investments or investment benefits toward environmental justice 
communities and disadvantaged communities in accordance with President 
Biden's Justice40 Initiative.

    As Chair of the House Natural Resources Committee, I recognize that 
the challenges to meet the many needs facing this country are great. I 
stand ready to support you and your efforts to pass legislation to 
Build Back Better.

                                 <F-dash>
 Prepared Statement of Hon. Jahana Hayes, a Representative in Congress 
                     from the State of Connecticut
    Thank you Chairman DeFazio and Ranking Member Graves for having 
this Member Day Hearing today.
    The state of Connecticut and my district in particular are clear 
examples of the critical need for immediate investment in forward-
looking, climate change mitigating infrastructure. Almost 70 percent of 
our bridges are over 50 years old--the fourth highest percentage in the 
United States. Of the 4,238 bridges in Connecticut, 332 are classified 
as structurally deficient, with repairs needed across the board. These 
repairs are estimated to cost over $1 billion to complete. In addition, 
nearly 25% of Connecticut's bridges are considered outdated and do not 
meet current standards. With some bridges seeing as many as 145,000 
daily crossings, the danger that these structurally deficient bridges 
pose can not be understated.
    Our roads are in similar concerning condition. Over two-thirds of 
our major roads and highways in Connecticut are in poor to mediocre 
condition. Connecticut's deteriorating roads now cost motorists over $6 
billion a year in unnecessary repairs, accidents and congestion-related 
costs.
    At the core of these issues is chronic underinvestment. In 
Connecticut, underinvestment has meant that available funds mainly go 
to basic maintenance and upkeep of our transportation systems, rather 
than modernization or improvements. Nationally, we know that we have an 
investment gap of $2 trillion over 10 years to fix our current 
infrastructure, meet future needs, and restore our global 
competitiveness. The longer we wait to invest, the more expensive each 
project becomes.
    For these reasons, I am very pleased to see that this Committee is 
again taking up Surface Transportation Reauthorization, and is allowing 
for Members to submit the projects that are most important to their 
communities. In discussions with our State Department of 
Transportation, there are several projects that federal funding would 
catalyze, improving commuting experiences, enhancing road quality and 
safety, and bolstering local economies. Some of those projects are as 
follows:
    <bullet>  Interchange improvement at I-691 and I-91: Improvements 
to this section of highway would reduce congestion for traffic 
movement.
    <bullet>  Improvements on Routes 63, 64, and I-84 Waterbury Exit 
17: This project would address safety and operational concerns 
associated with traffic delays and crashes at this very busy stretch of 
highway right outside my hometown of Waterbury, Connecticut.
    <bullet>  Farmington Canal Heritage Trail Construction: Surface 
Reauthorization funds could be used to connect the Farmington Canal 
Heritage Trail from Town Line Road north to Norton Park.

    I look forward to submitting the highest priority projects to your 
Committee later this month for consideration. In the broader package, 
there are a few key provisions that are of the highest priority for my 
constituents. First, is corrosion, which threatens the continuous 
operation of roads, bridges, electrical power systems and water systems 
and exacts a global cost of $2.5 trillion. I hope to see full inclusion 
of a corrosion control policy implemented at USDOT.
    Second, any infrastructure plan must bring all stakeholders into 
the fold and allow local municipalities with expertise in their 
respective regions to be at the table. That is why it is important that 
we increase funding for the Surface Transportation Block Grant Program 
(STBGP), which provide states and Metropolitan Planning Organizations 
(MPO) the most flexibility to implement regional priorities. Increasing 
the allocation to this program will further enhance local authority in 
determining transportation improvements.
    Lastly, in many areas of Connecticut, there is an inconsistency 
between the metropolitan planning area under the jurisdiction of an MPO 
and the Census-defined urbanized area. Regional planning areas have 
evolved over time and represent long-standing inter-municipal 
relationships and better reflect commute and travel patterns and 
transportation issues and needs. Census-defined urbanized areas are not 
consistently reflective of transportation realities. Making sure that 
our infrastructure system is nimble and able to adapt when needed is 
key to long term success.
    Thank you again for this opportunity to advocate for the priorities 
of my constituents. I look forward to working with the Committee on 
these priorities.

                                 <F-dash>
  Prepared Statement of Hon. Kevin Hern, a Representative in Congress 
                       from the State of Oklahoma
                                Opening:
    <bullet>  (Briefly explain your background with infrastructure 
issues, stemming from your work as on the Oklahoma Turnpike Authority.)
    <bullet>  Years of inaction have allowed American infrastructure to 
fall into a state of disrepair, to the point that the American Society 
of Civil Engineers recently gave American infrastructure a grade of D+ 
on their annual Infrastructure Report Card.
    <bullet>  We pride ourselves on being on the cutting edge of 
industry and innovation, the preeminent power in the world--and yet we 
cannot get even a passing grade on our infrastructure.
    <bullet>  Some of my colleagues have decided to expand the 
definition of infrastructure to include anything they want, turning 
what has previously been a bipartisan issue into a party-line fight for 
the first time.
    <bullet>  Our roads and bridges need attention. Bureaucracy has 
held up long-overdue projects for decades, resulting in crumbling 
infrastructure--the real infrastructure.
                           Opening Specifics:
    <bullet>  There are a few simple fixes to get our infrastructure 
back on track.
    <bullet>  First, we need to cut the red tape. Bureaucracy is 
holding up essential projects that would improve our communities. 
Redundant oversight is killing progress.
    <bullet>  We need to rebuild our bridges and roadways, tens of 
thousands of which are currently ``structurally deficient,'' posing 
dangers to our communities and needlessly wearing out the vehicles that 
drive on them.
    <bullet>  Rural broadband needs serious expansion, as nearly 40% of 
Americans living in rural areas lack sufficient broadband access. In 
the 21st century, access to the internet is not a luxury, it's a 
necessity.
    <bullet>  Our inland water systems and dams need a fix, as most are 
nearing or have exceeded their 50-year design life. In Tulsa, our 
levees almost failed during a flood in 2019. Had they failed, thousands 
of Oklahomans would have lost their homes and livelihoods.
      +  Local officials have been asking for years to fix the levees, 
but it took a near-disaster in order to make it happen. This cannot be 
the standard moving forward.
    <bullet>  It's irrefutable that our infrastructure needs immediate 
help. But President Biden's so-called infrastructure plan has little to 
do with actual infrastructure. Instead, he's using the buzzword 
``infrastructure'' to cover for Green New Deal policies and push it 
through Congress in a one-sided fight that ignores the root of the 
problem.
              Let's talk about real infrastructure needs:
    <bullet>  In my home district, Tulsa International Airport's Air 
Traffic Control tower was built in 1968 and fails to meet present-day 
operational standards. There is a severe need to allocate funding for 
antiquated air traffic control facilities. The safety of our workers 
and citizens depends on this project.
    <bullet>  There is also a need to address the state of disrepair 
that we have allowed to happen to our waterways, including the backlog 
of critical maintenance on the McClellan-Kerr Arkansas River Navigation 
System, the much-needed Arkansas River corridor development, and the 
Tulsa-West-Tulsa Levee Project, which I mentioned earlier.
    <bullet>  Rather than failing to address the ongoing economic 
fallout of COVID-19 shutdowns, we should be providing targeted 
assistance to the industries that the government hurt by forcing them 
to close their doors.
    <bullet>  The transportation industry--including planes, trains, 
and buses, were among the most damaged. To name an example, we need to 
provide targeted, not reckless, relief to the aviation industry.
    <bullet>  When planes are grounded, it not only affects the 
passengers and the airline that sells you your tickets--it affects 
aviation manufacturing, general aviation and commercial activity.
    <bullet>  As the Member of Congress who represents the maintenance, 
repair, and operations (MRO) Capital of the World, this has been 
difficult for the many, many jobs supported by the Aviation industry in 
my state.
    <bullet>  Many of our problems would be solved if we would simply 
get out of our own way.
    <bullet>  State DOTs have been central to the implementation of the 
Federal-Aid Highway Program (FAHP) for over 70 years and continue to be 
the best partners in developing our National surface transportation 
system.
    <bullet>  We need flexibility for states to allocate funding to the 
projects that are most desperately needed. Let's let the folks who 
drive on these roads every single day decide how to use their own 
federal dollars.
    <bullet>  We must end restrictions to any State's ability to 
prioritize funding, such as top-down `Fix-It-First' mandates. Let's 
stop playing big brother and give the states what they need to be 
successful.
                              In Closing:
    <bullet>  Infrastructure is essential to our everyday lives. A 
crumbling infrastructure harms every American.
    <bullet>  We all were there on Inauguration Day when President 
Biden promised unity and healing, but I haven't seen a lick of evidence 
to back up those flowery statements. Biden has proven that he doesn't 
care about bipartisanship, he doesn't care about transparency, and he 
doesn't care about the truth.
    <bullet>  I'm not holding my breath for any bipartisan efforts from 
this committee either. You'd rather pass as many unpopular policies as 
you can before you lose the majority next year. I should think the 
majority would learn from their recent losses and remember that the 
average American does not support this method of governing.

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
                      from the State of Washington
    Thank you, Chair DeFazio and Subcommittee Chair Norton, for holding 
today's ``Members' Day'' hearing. I appreciate the opportunity to share 
my priorities for a long-term comprehensive infrastructure package. 
Building on the Moving Forward Act (H.R.2), this upcoming bill must 
address the needs of local communities, create good-paying jobs, ensure 
the safety of the traveling public and advance innovation to help the 
nation achieve long-term economic recovery.
    As you develop this package, I encourage you to consider the 
following policies:
                            Rail Investments
    Reliable high-speed rail grows the economy by providing good local 
jobs and helping commerce and passengers travel more efficiently 
throughout the Pacific Northwest. The Amtrak Cascades route connects 
communities in Washington's Second District with Seattle, Washington, 
and Portland, Oregon, in the south and Vancouver, British Columbia, in 
the north. Once complete, Sound Transit's Lynnwood Light Rail Extension 
will help reduce congestion and provide a reliable commuting option for 
up to 55,000 additional daily riders. However, the COVID-19 pandemic 
forced Amtrak to reduce regional commuter services and Sound Transit to 
slow construction of rail infrastructure projects.
    I encourage the Committee to:
    <bullet>  Support legislation that will create a new intercity 
passenger rail funding program, as was included in the Moving Forward 
Act. That language made high-speed rail projects eligible for funds, 
and gave priority to projects that incorporate regional planning and/or 
have the support of multiple states and provide environmental benefits, 
such as greenhouse gas reduction and other air quality benefits.
                              Rail Safety
    I recently toured several transportation projects in my district 
and heard from local officials who are concerned about the safety and 
congestion issues related to rail traffic. In light of recent 
derailments and other rail incursions in Northwest Washington, now is 
the time to boost federal investment in rail safety and strengthen key 
federal standards.
    To ensure federal funding for states and localities, I encourage 
the Committee to:
    <bullet>  Provide at least $7 billion for Consolidated Rail 
Infrastructure & Safety Improvement Program (CRISI) grants for rail 
infrastructure.
    <bullet>  Include the Passenger Train Safety Act (H.R. 6066 in the 
116th Congress) to codify NTSB recommendations made following the 
December 2017 derailment of Amtrak Cascades 501 in DuPont, WA, such as:
      +  Requiring Amtrak to improve its crew skill training, placement 
of wayside signs and to update safety plans;
      +  Calling for a DOT study on how signage can improve rail 
safety; and
      +  Establishing a reporting requirement on positive train control 
system failures.
    <bullet>  Provide at least $2.5 billion to build and improve at-
grade rail crossings and separations.
                         Airport Infrastructure
    U.S. airports are the economic gateways of the nation's 
transportation network. However, the COVID-19 ongoing pandemic has 
devastated air travel and airport revenues, making it more difficult 
for airports to address their infrastructure needs. Washington state's 
aviation sector alone needs an estimated $13.6 billion in investment to 
plan for and build to accommodate future passenger growth.\1\
---------------------------------------------------------------------------
    \1\ ``Building the Economy: Infrastructure Needs in Washington.'' 
Association of Washington Business, 14 Jan. 2021, www.awb.org/reports-
data/infrastructure-report/.
---------------------------------------------------------------------------
    As Chair of the Aviation Subcommittee, I encourage the Committee 
to:
    <bullet>  Increase funding for the FAA's Airport Improvement 
Program (AIP) grants to at least $4 billion and expand program 
eligibility to include critical infrastructure projects that increase 
airport resiliency.
    <bullet>  Raise the cap on the Passenger Facility Charge (PFC) to 
help provide additional funding for airports.
    <bullet>  Increase funding for the FAA's Voluntary Airport Low 
Emissions (VALE) program and the Center of Excellence for Alternative 
Jet Fuels and Environment to support U.S. aviation's efforts to combat 
climate change.
    <bullet>  Include my legislation, the National Evaluation of 
Aviation and Aerospace Solutions to Climate Change Act (H.R. 5977 in 
the 116th Congress) to catalogue climate change mitigation efforts in 
civil aviation, identify barriers to adoption and provide 
recommendations on next steps.
                                Bridges
    The Pacific Northwest's unique geography means Washingtonians rely 
on hundreds of bridges to help get to final destinations. 
Unfortunately, my constituents have experienced firsthand the economic 
damage and personal tragedy of a bridge collapse. According to a recent 
report, nearly 400 bridges in Washington state are structurally 
deficient and the state has identified more than 6,500 bridges in need 
of repair at an estimated cost of $11.4 billion.\2\ Keeping the 
nation's bridges structurally sound and traffic flowing requires 
considerable federal investment.
---------------------------------------------------------------------------
    \2\ ``ARTBA National Bridge Inventory: Washington.'' ARTBA Bridge 
Report, American Road & Transportation Builders Association, 
artbabridgereport.org/state/profile/WA.
---------------------------------------------------------------------------
    I encourage the Committee to provide robust funding for the 
National Highway Performance Program and Surface Transportation Block 
Grant (STBG) Program to support bridge repair and rehabilitation 
projects.
                                Ferries
    In the Pacific Northwest, ferries are essential to the 
transportation network, carrying commuters and goods around the region. 
However, ferries are also among the largest polluters, accounting for 
73 percent of Washington state's annual carbon emissions.\3\ My home 
state of Washington is taking significant steps to ensure a cleaner 
passenger ferry fleet. For instance, Skagit County and Whatcom County 
in Washington's Second District are working to purchase smaller all-
electric vessels for their ferry service. States and localities across 
the country are ready to make the commitment to greener transportation, 
but still need robust federal investment to support their efforts.
---------------------------------------------------------------------------
    \3\ Washington State Ferries--Hybrid-Electric Propulsion Conversion 
Project. Washington State Department of Transportation, 15 Sept. 2020, 
wsdot.wa.gov/sites/default/files/2020/09/15/WSF-
HybridElectricPropulsionConversionProject.pdf.
---------------------------------------------------------------------------
    I encourage the Committee to:
    <bullet>  Reauthorize and include at least $245 million for the 
Federal Transit Administration's Passenger Ferry Grant Program and the 
Federal Highway Administration's Ferry Formula Program.
    <bullet>  Maintain my provision from H.R. 2 establishing a zero- or 
reduced-emission passenger ferry grant program. These grants would fund 
alternative propulsion powered ferries and the necessary supportive 
infrastructure.
    <bullet>  Maintain language I championed under the FAST Act to 
rescind and redistribute funding that ferry systems have not used 
within three years of the allocation, and to prohibit private ferry 
systems from receiving public ferry funding.
                              Bus Transit
    Buses are the backbone of the U.S. transit network. However, 
according to the 2018 National Transit Database the percentage of buses 
operating past useful life increased by 48 percent, while buses 
operating past 15 years increased by 104 percent. The preservation of 
bus transit depends on predictable federal funding, timely maintenance 
and support for the dedicated workforce. As the nation works to get to 
the other side of the pandemic, additional federal investment will help 
keep operations online and bring bus fleets to a state of good repair.
    As co-Chair of the Congressional Bus Caucus, I encourage the 
Committee to:
    <bullet>  Robustly fund the Federal Transit Administration's (FTA) 
Bus and Bus Facilities Program, including a significant funding 
increase for the Low or No Emission Program.
    <bullet>  Allow for 100 percent federal cost-share to help local 
transit recover from the impacts of the pandemic.
             Infrastructure Funding for Medium-Sized Cities
    Medium-sized cities, including many in Washington's Second 
District, play a critical role in powering the U.S. economy, but often 
have trouble competing for federal infrastructure funding. For 
instance, the City of Mountlake Terrace in my district repeatedly 
applied for BUILD and TIGER grants for their Main Street project, which 
will help accommodate significant expected regional growth and the 
opening of new local transit hubs. Despite a high cost-benefit ratio 
and broad regional support, the grant scoring criteria favored larger 
populations, and Mountlake Terrace's population of 21,000 put them at a 
disadvantage.
    To help address these issues, I encourage the Committee to amend 
some of the Moving Forward Act's discretionary programs--such as the 
Community Transportation Investment Grant Program, Active 
Transportation Connectivity Grant Program and Community Climate 
Innovation Grant Program--to expand eligibility for medium-size cities. 
Specifically:
    <bullet>  Add eligibility criteria for projects that will help 
alleviate traffic congestion in medium-sized cities (with populations 
between 10,000 and 75,000 residents) projected to experience a 
significant percentage of population growth soon.
      +  Allow local metropolitan planning organizations (MPOs) to be 
the agencies responsible for determining this metric.
                         Workforce Development
    In Washington state and across the country, transportation means 
jobs. Long-term economic recovery is only possible with continued 
federal investment in and support for the next generation of engineers, 
operators, technicians, mechanics and other transportation workers. 
Congress must improve access to STEM-based apprenticeships and career 
and technical education programs to diversify and grow the U.S. 
transportation workforce.
    I encourage the Committee to:
    <bullet>  Include my legislation the Youth Access to American Jobs 
Act (H.R. 1197 in the 116th Congress), to help high school students 
access in-demand jobs related to growing STEM industries by creating a 
six-year pathway through community college and into a registered 
apprenticeship. The bill will help prepare students for good-paying 
jobs in high-skill, high-wage and in-demand industries
    <bullet>  Include my bipartisan legislation, the Promoting Service 
in Transportation Act (H.R. 5118 in the 116th Congress), which 
authorizes U.S. DOT to develop a series of broadcast, digital and print 
media public service announcement campaigns to promote job 
opportunities and improve diversity in the transportation workforce.
      +  Use Census tracts or zip codes to define growth impacts.
    <bullet>  Amend evaluation criteria to also include:
      +  Population growth
      +  Traffic mitigation growth
      +  Housing density
      +  Economic impact
      +  Job creation
      +  Diversity and equity for underserved communities
                Bicyclist and Pedestrian Infrastructure
    Washington state was once again named the most bicycle friendly 
state in the country by the League of American Bicyclists.\4\ To ensure 
safety comes first for vulnerable road users, local communities depend 
on federal resources to invest in bike lanes, sidewalks and trails. 
Federal investment in bicycle and pedestrian infrastructure not only 
improves safety, it helps increase mobility options and reduce traffic 
congestion and pollution.
---------------------------------------------------------------------------
    \4\ ``Bicycle Friendly America Award Database.'' The League of 
American Bicyclists, www.bikeleague.org/bfa/awards#state.
---------------------------------------------------------------------------
    I encourage the Committee to:
    <bullet>  Include my legislation with Rep. Espaillat, the 
Transportation Alternatives Enhancements Act (H.R. 463), to improve 
access to federal Transportation Alternatives Program (TAP) funding for 
local bike and pedestrian infrastructure projects.
    <bullet>  Maintain language I championed in the Moving Forward Act 
promoting Bicycle and Pedestrian Coordinator in state Departments of 
Transportation to a full-time position.
                  Coastal Resilience and Fish Passage
    The waters of Puget Sound and the wildlife that call the region 
home are cornerstones of Northwest Washington's cultural identity, 
maritime economy and environment. Federal investment in Puget Sound 
recovery is critical to protecting endangered salmon and Southern 
Resident orca populations and helping coastal communities threatened by 
climate change.
    As co-Chair of the Congressional Estuaries Caucus, I encourage the 
Committee to:
    <bullet>  Provide at least $3 billion for shovel-ready coastal 
restoration projects focused on climate change and marine wildlife 
conservation.
    <bullet>  Increase federal funding to improve salmon and steelhead 
passage and restore critical habitats. Last Congress, I included 
language in the Water Resources Development Act of 2020 and introduced 
legislation with Rep. Schrier (H.R. 7657 in the 116th Congress), to 
support:
      +  Installing fish bypass structures and other infrastructure;
      +  Modifying tide gates; and
      +  Restoring or reconnecting floodplains and wetlands key to fish 
habitat or passage.
    <bullet>  Authorize at least $250 million for a new EPA Program 
Office for Puget Sound and $50 million for living shoreline grants to 
improve costal resilience.
    <bullet>  Include $250 million reauthorization of EPA's National 
Estuaries Program (NEP).
                         Environmental Justice
    For decades, Washingtonians have seen and felt the harmful impacts 
of climate change. However, challenges such as deteriorating water 
quality, air pollution and other environmental threats 
disproportionately affect low-income, underserved and BIPOC 
communities. I am encouraged by President Biden's recent executive 
order committing to implementing environmental justice policies and 
dismantling the systemic barriers these communities face. State 
officials and local community leaders in Washington state are also 
working to better support environmental justice communities.
    To align with these efforts, I encourage the Committee to:
    <bullet>  Establish an environmental justice strategic plan 
incorporating more equitable local community engagement, meaningful 
tribal and community consultation, and federal funding eligibility and 
prioritization for local projects aiming to reduce environmental health 
and economic disparities.
    <bullet>  Create an Environmental Justice Commission to adopt more 
inclusive, comprehensive guidelines and provide necessary technical 
assistance to strengthen federal and state environmental justice 
efforts and make recommendations to advance environmental justice 
goals.
                          Innovative Materials
    According to the Association of Washington Business, the state 
alone needs over $146.5 billion in investment for highways and local 
roads.\5\ Congress must act to improve safety, promote resiliency and 
support jobs and local economies.
---------------------------------------------------------------------------
    \5\ ``Building the Economy: Infrastructure Needs in Washington.'' 
Association of Washington Business, 14 Jan. 2021, www.awb.org/reports-
data/infrastructure-report/.
---------------------------------------------------------------------------
    I encourage the Committee to include my bipartisan legislation with 
Reps. Cicilline, Young and Davis, the IMAGINE Act (H.R. 1159 in the 
116th Congress) to improve research on and expand use of cutting-edge 
materials in infrastructure projects to improve safety, promote 
resiliency, reduce emissions and support local jobs.
    Thank you for your consideration of these requests. I look forward 
to working with you and the Committee on these goals and other shared 
priorities to drive long-term economic recovery, fight climate change 
and keep people moving.

                                 <F-dash>
  Prepared Statement of Hon. Carolyn B. Maloney, a Representative in 
                  Congress from the State of New York
    Dear Chairperson DeFazio,
    Thank you for this opportunity to present you and your staff with 
the most pressing infrastructure priorities and projects for the 
district I represent, New York's 12th Congressional District.
    The American Jobs Plan affords Congress with the opportunity to 
address the country's urgent need to Build Back Better following this 
devastating pandemic. The goal of this package is straightforward--
rebuilding the American economy. By enacting it, we will create 
millions of good-paying union jobs, invest in American workers, and 
boost America's global competitiveness. It will do all of this while 
reinvigorating American infrastructure in a way that we have not seen 
since the 1960's. Additionally, it will begin the work of addressing 
the urgent climate change crisis. As Chairman of the House 
Transportation and Infrastructure Committee, you have the ability to 
mold and shape this transformational infrastructure package, and I look 
forward to working with you to ensure it becomes law.
    Through servicing major residential and employment centers, 
transportation systems engender economic growth and productivity. As 
you know, public transportation is safer, cheaper for commuters, and 
better for the environment. By investing in public transportation, we 
invest in our nation's future. Investment in public transit is crucial 
in any infrastructure package, and I believe it is vital that we start 
by investing in the nation's largest public transit system, the 
Metropolitan Transportation Authority (MTA), which represents 38% of 
total passenger trips among all U.S. public transit agencies and 
services the metropolitan region with the largest economic output in 
the United States. I respectfully request that as your Committee works 
to pass a reauthorization of federal public transportation programs you 
include robust funding to expand New York City's subway system.
    In particular, I urge Congress to work with the MTA to fund the 
advancement of the East Side Access (ESA) project. Currently, the Long 
Island Railroad (LIRR) is the busiest commuter railroad in the United 
States, with more than 90 million riders a year. It is critical that 
MTA expand the LIRR to accommodate increasing demands. That is why I 
strongly support the ESA Project, which will provide LIRR service to 
Grand Central Terminal on Manhattan's east side, supplementing existing 
service to Penn Station on Manhattan's west side and the Atlantic 
Terminal in Brooklyn. With residential populations in Long Island City 
booming, I also urge my colleagues in Congress to work with the MTA to 
construct a subway station at Sunnyside Yard in Queens along the LIRR 
track so that commuters from estern Queens have a direct, timely route 
into downtown Manhattan.
    Additionally, a strong infrastructure package would make key 
investments in transit expansion by funding the expansion of the Second 
Avenue Subway. The MTA completed Phase I of the Second Avenue Subway in 
2016 but has yet to begin construction on Phase II. Phase II 
construction would make use of tunnels that were bored in the 1970s. 
The finalization of Second Avenue Subway Phase I has already connected 
and revitalized neighborhoods across Manhattan and Brooklyn with 
ridership exceeding projections. Once fully complete, the Second Avenue 
Subway will run 8.5 miles from 125th Street in Harlem down to Hanover 
Square in the Financial District, allowing local economies to boom and 
providing significantly improved public transportation to the 
residential and professional communities along Second Avenue. This will 
demonstrably improve the quality of life for residents of New York's 
12th Congressional District and represents a key upgrade to the 
interconnectedness of New York's subway system.
    Just as improving interconnectivity within New York City is 
critical to our economic recovery from the COVID-19 pandemic, as well 
as our response to the climate crisis, we must similarly improve the 
interconnectivity between American metropolitan regions. Therefore, I 
believe the House infrastructure package should fund high-speed Amtrak 
rail between Boston and New York City, so that Americans can travel as 
easily, safely, and cleanly between regions of the country as they can 
neighborhoods of a city. This will make travel throughout the Northeast 
Corridor cleaner, safer, and easier for commuters, and will only bring 
economic benefits to our nation.
    Finally, Congress must provide additional funding for the Gateway 
Program, which would further increase rail capacity in the Northeast 
Corridor. As you know, the Northeast Corridor is the most heavily used 
passenger rail line in the United States. By rebuilding the Portal 
North Bridge, constructing a two-track Hudson River rail tunnel from 
New Jersey to Manhattan, and rehabilitating the North River Tunnel, we 
could greatly reduce commuter delays and congestion, while improving 
economic output and ease of travel for both New York City and the 
entire Northeast region.
    I respectfully urge the Committee, as well as my colleagues in 
Congress, to commit to helping New York complete these projects by 
ensuring the allocation of critical funding. New transit will be used 
by millions of people, expand economic opportunity, serve neighborhoods 
that have lacked transportation alternatives, and take people where 
they need to go. I applaud your commitment to the revitalization of our 
nation's infrastructure, and I look forward to working with you to 
expand investment in new transit projects and build a stronger national 
infrastructure.
    Thank you for your consideration of my district's infrastructure 
priorities, and I stand ready to work with you to ensure we enact a 
strong infrastructure package into law.

                                 <F-dash>
    Prepared Statement of Hon. Carol D. Miller, a Representative in 
                Congress from the State of West Virginia
    Chairman DeFazio and Ranking Member Graves,
    Thank you for the opportunity to discuss the policy priorities that 
are important to my constituents in my home state of West Virginia and 
request their inclusion in this year's infrastructure package.
    We are at a watershed moment with our federal infrastructure. As 
Congress, we have an important role in ensuring that we can bridge the 
urban-rural divide through our infrastructure projects. Any highway 
infrastructure package put forward by Congress must provide flexibility 
to the states to produce the best results for their individual 
communities and populations. Especially in rural areas, our highway 
bill should allow for states to have the flexibility to best help their 
residents.
    Essential to my community, and the Appalachian region as a whole, 
the Appalachian Development Highway System, known as the ADHS, is an 
essential part of bridging the urban-rural divide. The ADHS was created 
in 1965 and 90% of the roadways are now open to traffic. Since Fiscal 
Year 1999, construction of the highway system has slowed dramatically, 
leaving communities disconnected and forgotten. According to an 
analysis published by the Appalachian Regional Commission, completing 
the last remaining 300 miles of the highway system will enable the 
economy of 13 states to sell $8.7 billion more in goods and services 
per year and add 46,000 jobs to the local economies. I strongly urge 
the committee to prioritize the completion of the ADHS as soon as 
possible.
    Finally, it is critical for West Virginia, and our country, to look 
toward the future. I urge the committee to consider the inclusion and 
support of development of hyperloop projects. These projects are on the 
cutting edge of technology that could completely transform the ways in 
which we efficiently and effectively transport people and goods. In my 
home state of West Virginia, Virgin Hyperloop is currently working with 
state, local, and university partners to develop a hyperloop testing 
facility which will make this futuristic-sounding technology a present 
reality. This project will make West Virginia a leading innovator in 
the hyperloop conversation and bring jobs to our state. I encourage the 
Committee to consider competitive grant programs where hyperloop will 
have access to this investment, as well as codification of the Non-
Traditional and Emerging Transportation Technology (NETT) Council at 
DOT to help accelerate consideration of hyperloop issues at DOT and 
make West Virginia a hub for this emerging technology.
    Thank you again for the opportunity to present the policy 
priorities that are essential to my constituents in West Virginia, and 
Americans across the country.

                                 <F-dash>
Prepared Statement of Hon. Jimmy Panetta, a Representative in Congress 
                      from the State of California
    Chair DeFazio and Ranking Member Graves, thank you for holding 
today's Member Day Hearing and elevating the importance of an 
infrastructure package that builds on the Biden Administration's vital 
American Jobs Plan.
    When I think about infrastructure, I think about the year that 
we've had on the CCofC. A year marked not only by a global pandemic but 
also historic wildfires and storms.
    Now more than ever before, we must invest in our communities to 
build back more resilient, more climate-smart infrastructure to give 
our communities the certainty they need as they inevitably face the 
next climate-induced disaster.
    We must also pursue an infrastructure package rooted in 
environmental justice.
    When I think about communities on the frontlines of climate change, 
I think about residents of Watsonville and Pajaro in my district who 
live in constant fear of a flood.
    For over fifty years, the Army Corps of Engineers' Pajaro River 
Flood Risk Management Project remained stalled because of its low 
``benefit-to-cost'' ratio, or BCR, a metric that is biased against low-
income communities.
    Now what the BCR doesn't take into account is the fact that 
economically disadvantaged areas do not necessarily imply a lack of 
economic returns.
    In the case of the Pajaro Valley, agriculture is a $1 billion 
industry supplying the majority of our nation's strawberries.
    But it shouldn't just be about economic returns. The undersized and 
fragile Corps levees on the Pajaro River have failed multiple times 
since their construction in 1949, resulting in loss of life and placing 
thousands of people in harm's way.
    By historically prioritizing flood control projects in affluent 
areas, the Corps has been putting projects that protect property values 
ahead of projects that save lives.
    Now, with this infrastructure package, we have an opportunity to 
right that wrong. We also have an opportunity to overcome another 
hurdle in addressing the severe shortage of affordable housing, to 
invest in community health centers and hospitals in rural areas, and to 
expand long-term care services under Medicare. Affordable housing was 
already reaching crisis-levels in the Central Coast, and this has been 
exacerbated by the pandemic. In order to build back better, we must 
acknowledge that the fundamental right to housing can only be achieved 
if we increase access and eliminate discriminatory practices. The 
bruising pandemic has highlighted the inequities that have long existed 
in our healthcare systems. We must safeguard critical infrastructure 
and services, to defend vulnerable communities. These investments will 
help hundreds of thousands of Americans, including my constituents in 
California.
    Before we embark on any of these, we need to make our definition of 
infrastructure clear. Because yes we need to build smarter, safer 
highways, roads, and bridges and I will be pushing for Central Coast 
priorities in each of those categories. But I also want to note that 
the Biden infrastructure plan takes a broad approach to infrastructure, 
including delivering on clean drinking water, renewing our electric 
grid, and providing high-speed broadband to all Americans. I am focused 
on making sure my communities, particularly those that have 
historically been left out of federal funding opportunities, also see 
those benefits. I look forward working with my colleagues on a package 
that mitigates socio-economic disparities, advances racial equity, and 
promotes affordable access to opportunity.

                                 <F-dash>
Prepared Statement of Hon. Harold Rogers, a Representative in Congress 
                   from the Commonwealth of Kentucky
    Dear Chairman DeFazio and Ranking Member Graves,
    As you begin work on surface transportation reauthorization 
legislation, as well as a potential broader infrastructure package, I 
would like to thank you for your work to ensure that all Americans can 
benefit from our nation's vast infrastructure--whether through building 
and improving roadways, bridges, tunnels, or other infrastructure 
projects. Previous surface transportation bills have done a great deal 
to help the people of my district in southern and eastern Kentucky, as 
improving our infrastructure is one of the most effective ways to 
promote economic growth and prosperity. As you begin the 2021 surface 
transportation reauthorization process and consider a broader 
infrastructure package, in addition to surface transportation 
priorities I will submit to the Committee later this month, I would 
like to raise a specific priority that will benefit those in my 
district in Kentucky--adding the Lake Cumberland Regional Airport (SME) 
to the Essential Air Service (EAS) program. Legislative language for 
this proposal is attached.
    As you know well, the Essential Air Service (EAS) program was 
created as a result of the 1978 Airline Deregulation Act (ADA). 
Throughout its history, this program has provided necessary funding to 
ensure that our nation's small and rural communities continue to have 
access to our vital air transportation system. In my district, the 
London-Corbin Airport was designated as an EAS location and provided 
this vital service to the region until it stopped receiving EAS 
subsidies in 1985. Since then, as a result of the removal of this 
critical access point to the national transportation network, southern 
and eastern Kentucky has experienced direct economic challenges.
    The Lake Cumberland Regional Airport (SME) in Somerset, Kentucky is 
well positioned within the region to provide this critical service to a 
community that greatly needs this increase in economic opportunity. 
Having passenger air service access to larger airport hubs from the 
region will allow for these distressed communities to increase 
investment, employment, and overall economic activity. In addition to 
this increase in mobility for residents in our region, it is important 
to note that Somerset has much to offer with its direct access to Lake 
Cumberland--a popular tourism destination attracting more than 4 
million visitors each year. The communities are in full support of this 
initiative and the ingredients needed for the successful launch of 
passenger air service at SME are in place. Airport infrastructure 
including a passenger terminal, instrument landing system (ILS) 
approach, and 5,800-foot all-weather runway are in place. Further, 
airlines have expressed interest in providing this service to major 
connecting hubs if SME is added to the EAS program.
    Thank you for your consideration of this request, as well as my 
other surface transportation requests, submitted on behalf of the 
people of the fifth district of Kentucky. I look forward to working 
with you and your staff on this legislation to ensure we continue to 
invest in our nation's critical infrastructure needs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <F-dash>
  Prepared Statement of Hon. Michael F.Q. San Nicolas, a Delegate in 
                           Congress from Guam
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee on Transportation and Infrastructure, Good Afternoon and 
thank you for your work in advocating to build a stronger 
infrastructure system and transportation network for Americans across 
our country. While this Committee undertakes the important task of 
reauthorizing our federal government's surface transportation spending 
you also are providing a transformative opportunity to enhance the 
quality of life for our Americans living in the United States territory 
of Guam.
    Similar to the rest of the country, Guam has critical 
infrastructure needs in the area of road repair, with a decade-old 
Highway Master Plan pricing needed improvements at over $600MM. Many of 
our public schools date back to the post WWII era, with at least half a 
dozen in need of replacement and all requiring long overdue maintenance 
overhauls at an overall price point estimated at $1.1B. Our public 
hospital that serves not just Guam but the entire region of Micronesia 
as the primary medical care facility has over $700MM in deferred 
maintenance needs as determined by the Army Corps of Engineers, and is 
in dire need of critical overhaul or preferred outright replacement.
    Guam wishes to put these on the record for the Committee as 
considerations are made for the allocation of additional transportation 
and infrastructure resources. Clearly these overdue investments are not 
problems unique to Guam, and we look forward to full formulaic 
inclusion as similarly afforded to all of our other States and 
Territories in these particular areas.
    As a particular focus, to include Member Designated Projects 
funding, I wish to highlight the need for investment in the public 
transportation system on Guam, which comprises only of a bus services 
operation. With a population of 180,000 people occupying 212 square 
miles, Guam is more densely populated than 48 other U.S. States. 
Factoring in the fact that we have (pre-pandemic) more tourists per 
capita than anywhere else in the country (1.9MM/180k), and that we are 
relocating $8B worth of military infrastructure in the transfer of a 
Marine Base and 12,000 personnel and dependents from Okinawa to Guam, 
this Committee in its expertise and experience would be undoubtedly 
shocked at what we currently are calling public transportation on Guam.
    Today Guam has only 26 buses in the fleet, with 19 of them focused 
on disability and veteran services and only 7 servicing an island-wide 
route. We have only 10 bus shelters throughout the entire island, 
leaving tens of thousands isolated, and none of these shelters are 
properly climatized for the weather conditions on Guam making wait 
times impractical. It takes over an hour for a bus to arrive based on 
agency reports. Our transit operation does not have a maintenance 
facility capable of meeting current fleet needs nor to meet true fleet 
demand with an increased number of busses in service. Additionally, the 
system does not have a centralized operations center, with multiple 
divisions scattered in different locations.
    Further exacerbating transportation realities on Guam is the fact 
that vehicular travel is more prohibitive as gas prices are at $4.30 
per gallon, taxi fares are too expensive for everyday use, and the 
absence of national rideshare service providers such as Lyft or Uber 
have small local operators trying to fill the gaps.
    Members of the Committee, we need direct and substantial investment 
in the Guam public transportation system. We need to centralize 
operations, establish sustainable maintenance capacity, and increase 
our fleet and bus shelters tenfold. This will mobilize our economy, 
help people to be gainfully employed, promote a healthier community 
with greater access to food and medical care, lower carbon emissions, 
reduce traffic congestion (and enhance the useful life of federally 
funded roads), and properly showcase to our international visitors that 
America is not immobilized.
    A priority of this Committee is for non-urbanized parts of the 
country to be afforded equal attention and equitable funding to achieve 
its needs. Clearly the lack in public transportation on Guam, 
especially given our circumstances, challenges, and demographics, 
present a clear opportunity for this priority to be made whole by 
funding these projects for Guam and ensuring that no American is left 
behind.
    The people of Guam thank this Committee for the opportunity to 
present our circumstances, and look forward to your just and favorable 
consideration.

                                 <F-dash>
Prepared Statement of Hon. Jackie Speier, a Representative in Congress 
                      from the State of California
    Thank you, Chairman DeFazio and Ranking Member Graves, for 
providing us this opportunity to share our district's infrastructure 
needs. I'd like to discuss three main policy priorities today.
    First and foremost, I wanted to call the Committee's attention to 
the overall lack of federal funding for restoration efforts for the San 
Francisco Bay. A 2018 GAO report cited a lack of federal funding as one 
of the main impediments to Bay restoration efforts. Rising tides due to 
climate change threaten to drown the Bay's wetlands and will cause 
irreversible damage by 2030 unless we act.
    The San Francisco Bay is the largest estuary on the West Coast. It 
provides drinking water to roughly 20 million Californians and 
irrigation water to four million acres of farmland. It's also home to 
over 1,000 species of animals, including over 100 endangered and 
threatened species. Over the past 200 years, 90 percent of the Bay's 
wetlands have been destroyed by human activity. Despite the impending 
threats, federal efforts for bay restoration and pollution mitigation 
have failed to meet the enormous need.
    Between 2008 and 2016, EPA geographic programs invested only $45 
million into the San Francisco Bay, while Puget Sound received over 
$260 million dollars and Chesapeake Bay $490 million. That's ten times 
as much--and the disparity becomes even more pronounced when you 
consider the populations served. A mere $6 was spent on the Bay for 
each resident of the Bay Area, while almost $30 were spent for each 
resident living near Chesapeake Bay and almost $60 for residents near 
Puget Sound. The House demonstrated its strong support for increased 
Bay funding last Congress when it passed the San Francisco Bay 
Restoration Act on a bipartisan basis not once, but twice--both as a 
standalone, and as part of the Moving Forward Act.
    This bill, which I've re-introduced in the current Congress, would 
help address water quality improvement, wetland and estuary 
restoration, endangered species recovery, and adaptation to climate 
change. An investment in the Bay would also provide a much-needed boost 
to the local economy, which has been devastated by the COVID-19 
pandemic. According to a recent study, every $1 spent on restoration 
efforts returns $2.10 in economic activity. I would urge the Committee 
to once again include the San Francisco Bay Restoration Act in the 
upcoming infrastructure package with the same authorization level 
included in HR 2--$50 million annually over 5 years.
    Second, I believe we must take bold action to supercharge the 
adoption and production of electric vehicles (EVs) in America. Last 
Congress, I introduced the Affordable American-Made Automobiles Act to 
do just that. My bill provided incentives for the purchase of electric 
vehicles, charging infrastructure, EV manufacturing and domestic 
battery production--the future of clean transportation. EVs must be 
affordable for the average American if they are to be ubiquitous. I was 
thrilled to see policies similar to those in my bill included in the 
American Jobs Plan. I implore the Committee to prioritize policies that 
would expand EV production, usage, and affordability in the upcoming 
surface transportation reauthorization.
    Finally, I'd like to discuss airplane noise. My primary request is 
for Committee to address the 65 day-night average sound level (DNL) 
noise standard. As you know, the noise standard determines which 
communities are impacted by airplane noise in the eyes of the federal 
government, and therefore which communities qualify for federal 
resources for noise abatement, like home insulation. After hearing from 
thousands of residents across my district, it's clear to me that the 
number and location of residents impacted by noise far exceeds the 
boundary of the 65 DNL. The results of the long-awaited FAA 
Neighborhood Environmental Survey--also known as the Noise Annoyance 
Survey--also demonstrate that there's been a substantial increase in 
the number of Americans who are highly annoyed by aircraft noise. 
Therefore, I urge the Committee to reassess the 65 DNL boundary and 
support a noise metric that accurately reflects the magnitude of the 
problem. Noise is not just a nuisance, it's a serious quality of life 
and health issue.
    Chairwoman DeFazio and Ranking Member Graves, I thank you again for 
convening this hearing and I urge you to please take action to address 
these three major issues.

                                 <F-dash>
 Prepared Statement of Hon. Filemon Vela, a Representative in Congress 
                        from the State of Texas
    Chairman DeFazio, Ranking Member Graves, Members of the Committee,
    Thank you for the opportunity to provide remarks. As you prepare 
legislation on infrastructure investments, I would like to highlight 
several important funding priorities for my constituents in the 34th 
District of Texas--land ports of entry, broadband, and the Interstate 
69 (I-69) system. These issues represent opportunities for major 
infrastructure investment, which is both necessary and past due.
                          Land Ports of Entry
    It is critical that we provide $6 billion for our land ports of 
entry (LPOEs). Investments in improving the aging infrastructure at our 
ports of entry are necessary for a safer and more prosperous America.
    As you know, many of our LPOEs have longstanding infrastructure 
needs that impede both security and commerce. Mexico and Canada are two 
of our three largest trading partners, and every day, hundreds of 
thousands of commercial trucks, passenger vehicles, and pedestrians 
cross our LPOEs on the northern and southern borders. Our LPOEs are in 
dire need of upgrades to address the considerable increase in trade and 
commerce with these two countries over the past few decades, and the 
anticipated continued growth of products and people crossing at our 
land ports. Improvements of LPOEs will also be an important step in 
directing federal resources to smart border enforcement efforts.
    President Biden has made clear his understanding of the 
``importance of transforming our crumbling transportation 
infrastructure--including roads and bridges, rail, aviation, ports, and 
inland waterways'', and specifically mentioned his plan to ``invest 
heavily in improving the aging infrastructure at all of our ports of 
entry.'' Building infrastructure is a critical part of putting people 
back to work and reviving the economy. Upgrading the facilities at our 
LPOEs would not only bring good jobs to local communities and boost our 
country's economy, but it would also strengthen our national security 
and facilitate trade and travel.
                               Broadband
    Congress must also provide significant funding to address the 
severe and ongoing need for internet connectivity in urban minority 
communities. My district is home to successful small businesses, 
cutting-edge universities, and a strong workforce poised to benefit 
from fast and reliable internet. However, many of my constituents have 
been left behind by the broadband market. According to the National 
Digital Inclusion Alliance (NDIA), the Rio Grande Valley is home to the 
first, second, and fifth worst-connected cities in America.
    As the COVID-19 pandemic has further highlighted, broadband 
connectivity is a crucial need for South Texas, and we must work to 
ensure every home has affordable and accessible internet connectivity. 
We must prioritize funding for urban areas, including municipal-owned 
networks, and remove unnecessary barriers that prevent local 
governments from providing this critical utility to their communities.
                            The I-69 System
    Congress must prioritize the continued development of the I-69 
interstate system, which will facilitate transportation and economic 
development throughout the country. This multi-modal network has been 
an ongoing need for a quarter of a century, connecting ports of entry 
in the Lower Rio Grande Valley with American suppliers and consumers in 
eight states.
    In order for this pivotal transportation corridor to be fully 
completed, the Moving Ahead for Progress in the 21st Century Act (MAP-
21) must be updated to allow continued progress on the interstate 
system. Communities that are a part of the interstate system benefit 
from increased visibility, transportation safety, and economic 
investment. We must remove the existing deadline requiring new segments 
connect with the Interstate System by 2037 and allow the Secretary of 
Transportation to designate new highway segments, provided all 
standards are met. Moreover, we should expand the National Highway 
Freight Program (NHFP) formula funding eligibility to include 
Congressionally-designated Future Interstates that are in a state's 
USDOT-approved Freight Plan, as well as projects that are eligible for 
Nationally Significant Freight and Highway Project program grants 
(INFRA). These changes align with the original intent of the system and 
would ensure communities are able to complete not only the important I-
69 corridor, but all future interstates.
    Thank you again for this opportunity to provide remarks to the 
Committee. I urge Members of Congress to consider the importance of 
these infrastructure needs and include sufficient funding for these 
priority areas.

                              [all]

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
